  Office of Inspector General
 U.S
  .S.. Department of Housin
       Department          g and Urban De
                     Housing             velopment
                                       Dev


Semiannual Report
   to Congress
                     April 1, 2006, through September 30, 2006
                                             Pr ofile of Perf
                                             Profile         or
                                                         Perfor mance
                                                              ormance
                              For the Period, April 1, 2006, through September 30, 2006
                  Audit and Investigation Results                       Audit          Investigation       Hotline       Last 6 Months             FY 2006

    Recommendations That Funds Be Put to Better Use1-2                $322,886,137                          $4,514,185     $327,400,322            $919,640,953
    Recommended Questioned Costs1-2                                     $68,039,117                                         $68,039,117            $120,262,848
    Indictments/Informations                                                                       712                               712                   1,459
    Convictions/Pleas/Pre-Trial Diversions                                                         512                               512                       955
    Civil Actions                                                                                   20                                20                       53
    Investigative Recoveries/Receivables                                                  $81,726,077         $152,495      $81,878,572            $247,314,466
    Funds Put to Better Use                                                               $48,608,555                       $48,608,555            $116,084,299
    Collections from Audits                                             $14,474,522                                         $14,474,522             $42,685,397
                               3
    Administrative Sanctions                                                       3               947                               950                   2,137
    Personnel Actions                                                                               16                                16                       40
              4
    Arrests                                                                                      2,034                             2,034                   3,570
    Search Warrants                                                                                 44                                44                       102
    Weapons Seized                                                                                   4                                  4                       7
    Subpoenas Issued                                                               6               431                               437                       889
1
  This represents all cost transactions during the period in which dollar amounts were reported with any recommendation.
2
  For recommendations that Funds Be Put To Better use, $210,642,087 had Management Decisions. Of
  the Recommended Questioned Costs, $39,449,411 had Management Decisions. Recommended and Management Decision amounts differ because not
  all Recommendations had received final determination at the end of the period, and there were some management decisions agreed to on recommendations
  from previous periods.
3
  Personnel actions include reprimands, suspensions, demotions, or terminations of the employees of Federal, state, or local governments, or of Federal
  contractors and grantees, as the result of OIG activities. In addition, this reporting category includes actions by Federal agencies to suspend, debar, or
  exclude parties from contracts, grants, loans, and other forms of financial or non-financial transactions with the government, based on findings produced
  by the OIGs.
4
  Included in the arrests is our focus on the nationwide Fugitive Felon Initiative.
Inspector General’
          General’ss Message
                     Messag
                             It is with great pride that I present the U.S. Department of
                        Housing and Urban Development (HUD) Office of Inspector
                        General (OIG) Semiannual Report to the Congress for the second
                        half of fiscal year 2006.

                             During the reporting period, we had $327.4 million in funds
                        put to better use, $68 million in questioned costs, and $81.8
                        million in recoveries and receivables. This is exceptional work by
                        our staff that has resulted in a significant positive impact on fraud
                        and misuse of taxpayer dollars. I am grateful to the auditors,
                        agents, and evaluators who worked so hard this year to achieve
                        this milestone.

     I direct your attention to our high profile audits and investigations. HUD OIG staff
increased and improved their cooperation and collaboration with the Department and, as
a result, developed and implemented better and more effective audit recommendations.

     At this time, HUD OIG has taken inventory of our various interests and concerns
regarding HUD programs. We have several concerns in each program area, but I will
relate only our chief issues.

       The largest HUD program in terms of economic impact is the Federal Housing
Administration (FHA) mortgage insurance program. A recent audit found that HUD
paid billions for claims in the single-family FHA mortgage insurance program, a large
percentage of which were for mortgages that did not meet program requirements. HUD
received and paid claims on loans for which the lender did not show that the borrower 1)
was able to make the required monthly payments, 2) made the minimum investment in
the property, or 3) was creditworthy. We estimate that final HUD costs for claims that did
not meet program requirements totaled $356 million.

     HUD’s most well-known program is its public and assisted housing. Presently, we
are concerned with the adequacy of the Department’s inspections of public housing
authorities (PHA) for compliance with the national housing quality standards. We are
finding that PHAs are not satisfying their responsibility to ensure that units are decent,
safe, and sanitary.

     We are also concerned with oversight of public housing operations. A case in point is a
Chicago Housing Authority Section 8 landlord who was also a Chicago police officer, as well
as a former president of a nonprofit organization approved by HUD to acquire discounted
HUD properties. An investigation by HUD OIG led to a conviction on seven counts of
bankruptcy fraud. This landlord did not report her nonprofit business, extensive proceeds
from the resale of HUD properties, Section 8 rental assistance payments, or income from her
employment with the Chicago Police Department and various nursing companies on two
distinct bankruptcy petitions.

   HUD’s Community Development Block Grant program has not shown consistency in
monitoring the performance of communities that get these funds for development. HUD


Inspector General’s Message                                                                     iii
     OIG believes that implementation of performance standards for grantees and a
     restructuring of enforcement procedures/remedies is needed.

         During the months ahead, HUD OIG is increasing its efforts to ensure the
     administrative health and vitality of HUD’s programs and activities. I know that with the
     hard work of the staff, we will continue a pattern of improved oversight and enforcement.

         We are justifiably proud of the staff of HUD OIG for their tireless work and activities
     against waste, fraud, and abuse in the Nation’s housing and urban development programs.




         Kenneth M. Donohue
         Inspector General




iv                                                                 Inspector General’s Message
Strategic Plan
Strategic
                                         Vision
      We are a trusted and respected resource for HUD, Congress, and the American
          public in ensuring the integrity, efficiency, and effectiveness of HUD
          programs and operations. We are committed to working jointly with
                         HUD management to achieve their goals.



                                         Mission
         Promote the integrity, efficiency, and effectiveness of HUD programs and
          operations to assist the Department in meeting its mission.
         Detect and prevent waste, fraud, and abuse.
         Seek administrative sanctions, civil recoveries and/or criminal prosecution
          of those responsible for waste, fraud, and abuse in HUD programs and
          operations.



             Goal 1                          Goal 2                    Goal 3
         Effecti
         Effecti veness
             ectiv                         Efficiencyy
                                           Efficienc                    Employyees
                                                                    Our Emplo
 Help HUD resolve its “Major           Maximize results and        Become the “Employer
  Management Challenges”             provide responsive audit        of Choice” among
    by being a relevant and           and investigative work        Offices of Inspectors
  problem-solving advisor to         for mandated, requested,             General.
 HUD and our Stakeholders.            or self-initiated efforts.




                                           Objectives
                                           Objectiv
      Contribute to Improving          Achieve a highest            Invest in people.
       the Integrity in Single           Return on Investment         Invest in the
       Family Insurance                  (ROI) with available          organization.
       Programs.                         resources.
      Contribute to a Reduction        Provide quality
       in Erroneous Payments in          results to customers
       the Rental Assistance             in a timely manner.
       Programs.
      Contribute to Improving
       HUD’s Execution and
       Accountability of Fiscal
       Responsibilities.
      Contribute to resolving
       significant issues raised
       or confronted by HUD
       and our Stakeholders.


Strategic Plan                                                                              v
     Strategic Goals
     Strategic
                                      Goal 1 - Effecti
                                               Effectiveness
                                                  ectiv
      Objectives:
          Contribute to improving the integrity of single-family insurance programs.
          Contribute to a reduction in erroneous payments in the rental assistance
          programs.
          Contribute to improving HUD’s fiscal accountability.
          Contribute to resolving other significant issues raised or confronted by HUD and our
          stakeholders.
     Target      As of
               September                             Key Measurements
                30, 2006
      75%         3        75% of the recommendations reach management decisions within 120 days.

      85%         3        85% of the dollars associated with recommendations are sustained.

      80%         3        80% of all audits conducted are targeted at areas of significant interest to
                           either HUD or OIG stakeholders.

      80%         3        80% of stakeholders rate OIG products and services good or better.

      66%         3        66% investigations referred for criminal, civil, or administrative action will
                           focus on FHA single-family mortgage fraud and Section 8 rental assistance
                           overpayment.

                                        Goal 2 - Efficienc
                                                 Efficiencyy
      Objectives:
          Maintain a high return on investment (ROI).
          Provide timely and quality results to customers.
     Target      As of
               September                             Key Measurements
                30, 2006
       8:1        3        Sustain a return on investment (ROI) of 8:1.

      70%         3        70% of external audits completed within 2000 hours.

       4/6        3        Regional investigative performance for regions without forensic auditors
     Actions               will average 4 actions per FTE per year. Regions with forensic auditors will
     per FTE               average 6 actions per FTE per year..

                                 Goal 3- Emplo
                                         Employyer of Choice
      Objectives:
          Invest in people.
          Invest in the organization.
     Target      As of
               September                             Key Measurements
                30, 2006
      FY 07 On Schedule Implement a leadership development program for succession planning.
      80%       NEW        80% of employees rate organization good or better.


vi                                                                                       Strategic Goals
                                Audit Repor ts Issued bbyy Pr
                                      Reports              Proogram

                                         Other
                                                                    Single-Family
                      Hurricane Relief Programs
                                                                       Housing
                        Oversight         4%
                                                                         19%
          Community         3%                                                         Multifamily
           Planning &
                                                                                        Housing
          Development
                                                                                          9%
              12%




                                                                          Public and Indian
                                                                              Housing
                                                                                 53%



                            Monetar
                            Monetaryy Benefits Identified bbyy Pr
                                                               Proogram

                                             Other Programs
                          Community
                                                   0%
                           Planning                      Hurricane Relief
                       & Development                        Oversight
                              4%                               0%
          Public & Indian
             Housing
               28%




                            Multifamily                                             Single-Family
                             Housing                                                   Housing
                               12%                                                       56%




                    Monetar
                    Monetaryy Benefits Identified in Millions of Dollar
                                                                 Dollarss

           250
                     $219
           200


           150
                                               $108
           100


               50
                                  $47
                                                              $15           $0            $1
                0
                     Single    Multifamily   Public and   Community      Hurricane        Other
                    Family      Housing        Indian      Planning &     Relief        Programs
                    Housing                   Housing     Development    Oversight




Audit Charts                                                                                         vii
             Investi
             Inv    gation Cases Opened bbyy Pr
                estig                        Proogram (Total: 576)

          Community Planning      Other/GNMA
            & Development            3% (15)
               7% (42)                                    Single-Family
                                                             Housing
                                                             13% (77)




       Multifamily
        Housing
        9% (54)

                                                  Public and Indian Housing
                                                          68% (388)




           Investi
           Inv    gation Reco
              estig          veries bbyy Pr
                         Recov           Proogram (Total: 81,726,077)
          Multifamily                   Community Planning &
            Housing                         Development
         8% ($6,472,308)                   6% ($4,617,997)




       Public & Indian
          Housing
       10% ($7,855,917)
                                                           Single-Family
                                                              Housing
                                                         76% ($62,779,855)




viii                                                              Investigation Charts
Acr on
Acron yms List
    onyms
AIGA        Assistant Inspector General for Audit
AIGI        Assistant Inspector General for Investigations
ARIGA       Assistant Regional Inspector General for Audit
ASAC        Assistant Special Agent in Charge
ATFE        Bureau of Alcohol, Tobacco, Firearms, and Explosives
CAS         Computer Audit Specialist
CDBG        Community Development Block Grants
CID         Criminal Investigation Division
CPD         Community Planning and Development
DAIGA       Deputy Assistant Inspector General for Audit
DAIGI       Deputy Assistant Inspector General for Investigation
DEA         Drug Enforcement Administration
DHS         Department of Homeland Security
DIG         Deputy Inspector General
DoD         Department of Defense
DOE         Department of Education
DOJ         U.S. Department of Justice
DROD        Disaster Relief Oversight Division
DUI         Driving Under the Influence
EIV         Enterprise Income Verification
FBI         Federal Bureau of Investigation
FDIC        Federal Deposit Insurance Corporation
FEMA        Federal Emergency Management Agency
FFMIA       Financial Management Improvement Act of 1996
FHA         Federal Housing Administration
FIRMS       Facilities Integrated Resources Management System
FISMA       Federal Information Security Management Act of 2002
FY          Fiscal Year
GAO         Government Accountability Office
HHS         U.S. Department of Health and Human Services
HOME        Home Ownership Made Easy
HOPWA       Housing Opportunities for Persons with AIDS
HUD         U.S. Department of Housing and Urban Development



Acronyms List                                                      ix
    ICE         Immigration and Customs Enforcement
    IG          Inspector General
    IRS         Internal Revenue Service
    KDHAP       Katrina Disaster Housing Assistance Program
    MTW         Moving to Work
    NAHRO       National Association of Housing and Redevelopment Officials
    OA          Office of Audit
    OI          Office of Investigation
    OIG         Office of Inspector General
    OMB         Office of Management and Budget
    OTND        Officer/Teacher Next Door
    PCIE/ECIE   President’s Council on Integrity and Efficiency/Executive Council on
                Integrity and Efficiency
    PFCRA       Program Fraud Civil Remedies Act
    PHA         Public Housing Authorities
    PHSI        Public Housing Safety Initiatives
    PIH         Office of Public and Indian Housing
    REO         Real Estate Owned
    RHIIP       Rental Housing Integrity Improvement Project
    RIGA        Regional Inspector General for Audit
    SA          Special Agent
    SAC         Special Agent in Charge
    SBA         Small Business Administration
    SFA         Supervisory Forensic Auditor
    SSA         Social Security Administration
    SSN         Social Security Number
    TSA         Transportation Security Administration
    USAO        U.S. Attorney’s Office
    USDA        U.S. Department of Agriculture
    USMS        U.S. Marshals Service
    USPS        U.S. Postal Service
    USPIS       U.S. Postal Inspection Service
    VA          U.S. Department of Veterans Affairs




x                                                                          Acronyms List
Table of Contents
Chapter 1 - HUD’s Management and Performance Challenges                 1
       The HUD Office of Inspector General                              2
       Major Issues Facing HUD                                          2
Chapter 2 - HUD’s Single Family Housing Programs                        9
       Audits                                                          10
       Investigations                                                  16
Chapter 3 - HUD’s Public and Indian Housing Programs                   31
       Audits                                                          32
       Investigations                                                  49
Chapter 4 - HUD’s Multifamily Housing Programs                         75
       Audits                                                          76
Investigations                                                         80
Chapter 5 - HUD’s Community Planning and Development Programs          85
       Audits                                                          86
       Investigations                                                  91
Chapter 6 - Hurricane Relief Oversight                                 97
Chapter 7 - Other Significant Audits and Investigations/OIG Hotline   117
       Audits                                                         118
       Investigations                                                 120
       OIG Hotline                                                    120
Chapter 8 - Outreach Efforts                                          123
Chapter 9 - Review of Policy Directives                               137
       Proposed Rules                                                 138
       Notices                                                        138
       Mortgagee Letter                                               138
Chapter 10 - Audit Resolution                                         141
       Delayed Actions                                                142
       Federal Financial Management Improvement Act of 1996           143
Appendix 1 - Audit Reports Issued                                     145
Appendix 2 - Tables                                                   153
Appendix 3 - Index                                                    173
HUD OIG Operations Telephone Listing                                  177




Table of Contents                                                           xi
      Repor tin
      Reportin g Requir
            ting        ements
                 Requirements
      The specific reporting requirements as prescribed by the Inspector General Act of 1978,
                as amended by the Inspector General Act of 1988, are listed below:
      Source/Requirement                                                                      Pages
      Section 4(a)(2)-review of existing and proposed legislation and regulations.            137-139
      Section 5(a)(1)-description of significant problems, abuses, and                 1-122, 137-143
      deficiencies relating to the administration of programs and operations
      of the Department.
      Section 5(a)(2)-description of recommendations for corrective action with respect         9-122
      to significant problems, abuses, and deficiencies.
      Section 5(a)(3)-identification of each significant recommendation            Appendix 2, Table B
      described in previous semiannual report on which corrective action
      has not been completed.
      Section 5(a)(4)-summary of matters referred to prosecutive authorities                    9-122
      and the prosecutions and convictions that have resulted.
      Section 5(a)(5)-summary of reports made on instances where information             No Instances
      or assistance was unreasonably refused or not provided, as required by
      Section 6(b)(2) of the Act.
      Section 5(a)(6)-listing of each audit report completed during the                    Appendix 1
      reporting period, and for each report, where applicable, the total
      dollar value of questioned and unsupported costs and the dollar value of
      recommendations that funds be put to better use.
      Section 5(a)(7)-summary of each particularly significant report                           9-122
      and the total dollar value of questioned and unsupported costs.
      Section 5(a)(8)-statistical tables showing the total number of              Appendix 2, Table C
      audit reports and the total dollar value of questioned and
      unsupported costs.
      Section 5(a)(9)-statistical tables showing the total number of audit        Appendix 2, Table D
      reports and the dollar value of recommendations that funds be put
      to better use by management.
      Section 5(a)(10)-summary of each audit report issued before the              Appendix 2, Table A
      commencement of the reporting period for which no management
      decision had been made by the end of the period.
      Section 5(a)(11)-a description and explanation of the reasons for                  No Instances
      any significant revised management decisions made during the
      reporting period.
      Section 5(a)(12)-information concerning any significant management                 No Instances
      decision with which the Inspector General is in disagreement.
      Section 5(a)(13)-the information described under section 05(b) of the                       143
      Federal Financial Management Improvement Act of 1996.


xii                                                                          Reporting Requirements
         Chapter 1
   HUD’
   HUD’ss Mana
           Managgement
and Perfor
    Performance Challen
        ormance         ges
                 Challeng
    The HUD Office of                               Major Issues FFacin
                                                                   acing HUD
                                                                   acing
    Inspector General                                   The Department’s primary mission is to
                                                    expand housing opportunities for American
        The U.S. Department of Housing and
                                                    families seeking to better their quality of life.
    Urban Development (HUD) Inspector
                                                    HUD seeks to accomplish this through a
    General is one of the original 12 Inspectors
                                                    wide variety of housing and community
    General authorized under the Inspector
                                                    development grant, subsidy, and loan
    General Act of 1978. Over the years, the
                                                    programs. HUD’s fiscal year (FY) 2007
    Office of Inspector General (OIG) has forged
                                                    budget request is about $34 billion.
    a strong alliance with HUD personnel
                                                    Additionally, HUD assists families in
    in recommending ways to improve
                                                    obtaining housing by providing Federal
    departmental operations and in prosecuting
                                                    Housing Administration (FHA) mortgage
    program abuses. OIG strives to make a
                                                    insurance for single-family and multifamily
    difference in HUD’s performance and
                                                    properties. At the end of FY 2006, FHA’s
    accountability. OIG is committed to its
                                                    outstanding mortgage insurance portfolio
    statutory mission of detecting and
                                                    was about $396 billion. The Government
    preventing fraud, waste, and abuse and
                                                    National Mortgage Association, also known
    promoting the effectiveness and efficiency
                                                    as Ginnie Mae, through its mortgage-backed
    of government operations. While
                                                    securities program, gives issuers access to
    organizationally located within the
                                                    capital markets through the pooling of
    Department, OIG operates independently
                                                    federally insured loans.
    with separate budgetary authority. This
    independence allows for clear and objective
                                                        HUD relies upon numerous partners for
    reporting to the Secretary and the Congress.
                                                    the performance and integrity of a large
    OIG’s activities seek to
                                                    number of diverse programs. Among these
                                                    partners are hundreds of cities that manage
         Promote efficiency and effectiveness in    HUD’s Community Development Block
         programs and operations,                   Grant (CDBG) funds, hundreds of public
                                                    housing authorities that manage assisted
         Detect and deter fraud and abuse,          housing funds, thousands of HUD-
                                                    approved lenders that originate and service
         Investigate allegations of misconduct      FHA-insured loans, and hundreds of Ginnie
         by HUD employees, and                      Mae mortgage-backed securities issuers that
                                                    provide mortgage capital.
         Review and make recommendations
         regarding existing and proposed                 Achieving HUD’s mission continues to
         legislation and regulations affecting      be an ambitious challenge for its limited
         HUD.                                       staff, given the agency’s diverse mission, the
                                                    thousands of program intermediaries
        The Executive Office and the Offices of     assisting the Department in this mission,
    Audit, Investigation, Counsel, and              and the millions of beneficiaries in its
    Management and Policy are located in            housing programs. HUD’s management
    Headquarters. Also, the Offices of Audit        problems have for years kept it on the
    and Investigation have staff located in eight   Government Accountability Office’s (GAO)
    regions and numerous field offices.             list of agencies with high-risk programs.
                                                    More specifically, HUD must focus
                                                    improvements on rental housing assistance
                                                    programs and single-family housing


2                                             HUD’s Management and Performance Challenges
mortgage insurance programs, two areas in        Department. OIG submitted its latest
which financial and programmatic exposure        assessment on October 19, 2006. These
are the greatest. The fact that HUD’s            reported challenges are the continued focus
reported management challenges are               of our audit and investigative efforts. HUD
included as part of the President’s              is working to address these challenges and
Management Agenda’s governmentwide               in some instances, has made significant
and program initiatives is indicative of         progress in correcting them.             The
HUD’s important role in the federal sector.      Department’s management challenges and
HUD’s current administration places a high       current efforts to address these challenges
priority on achieving presidential and           are as follows.
secretarial initiatives as well as correcting
weaknesses that put HUD on GAO’s high-               Financial Management Systems. Since
risk list.                                       FY 1991, OIG has annually reported on the
                                                 lack of an integrated financial system in
     As of the end of FY 2006, HUD’s             compliance with all federal financial
President’s Management Agenda scoring            management system requirements,
status for the nine applicable initiatives       including the need to enhance FHA’s
consisted of three “green,” four “yellow,”       management controls over its various
and two “red” baseline goal scores. Based        insurance and other financial systems.
upon a comprehensive set of standards, an        During the past several years, HUD has
agency is “green” if it meets all of the         made progress, implementing a new
standards for success, “yellow” if it has        financial system at FHA and addressing
achieved some but not all of the criteria, and   most of the weaknesses that OIG identified,
“red” if it has one of a number of serious       including initiating a vision statement for a
flaws. HUD’s baseline score for Improved         departmentwide fully integrated financial
Financial Performance remains at “red”           system. These improvements enabled OIG
until HUD eliminates its two remaining           to reclassify the weakness in financial
material weaknesses. However, HUD’s              management system requirements from a
progress indicator is green since HUD has        material weakness to a reportable condition.
completed its planned actions, including         The remaining weaknesses noted in OIG’s
reaching an agreement with the Office of         audit of HUD’s FY 2005 financial statements
Management and Budget (OMB) on HUD’s             were as follows:
Integrated Financial Management
Improvement Project (HIFMIP) acquisition              FHA needs to continue progress to
strategy and replacing its noncompliant               integrate its financial management
Loan Accounting System (LAS) with a                   systems.
compliant commercial off-the-shelf
package. It is also noteworthy that HUD               HUD’s ability to prepare financial
was the first agency to receive a “green”             statements and other financial
baseline goal score on the Eliminating                information requires extensive
Improper Payments initiative and has also             compensating procedures.
achieved “green” baseline goal scores for the
E-Government and Faith-Based Community
                                                      HUD has limited availability of
initiatives.
                                                      information to assist management in
                                                      effectively managing operations on an
     Each year in accordance with the
                                                      ongoing basis.
Reports Consolidated Act of 2000, HUD OIG
is required to submit a statement to the
Secretary with a summary assessment of the           For the past several years, OIG’s
most serious challenges facing the               financial audits have also reported



HUD’s Management and Performance Challenges                                                      3
    weaknesses in internal controls and secu-             Publishing a final rule that
    rity over HUD’s general data processing               changes HUD’s delinquency-reporting
    operations and specific applications. The             requirement, thereby enabling the
    effect of these weaknesses is that HUD                Department’s Single Family Default
    cannot be reasonably assured that system              Monitoring System to track significant
    information will remain confidential,                 key events between the beginning of a
    protected from loss, and available to those           default episode and its resolution.
    who need it without interruption. HUD has
    completed certification and accreditation for         Publishing a final rule prohibiting
    all financial management systems and                  property flipping in HUD’s single-
    general support systems. However, the                 family mortgage insurance programs.
    quality of the underlying documents and the
    actual certification and accreditation process
                                                          Providing special expanded loss
    varied by application. While a number of
                                                          mitigation authority to lenders to
    vulnerabilities were closed, additional
                                                          reduce insurance claim losses and
    vulnerabilities, identified through oversight
                                                          assist borrowers that lost homes due
    activities, were not corrected before
                                                          to hurricane damage in the Gulf Coast
    accreditation. Correction of approximately
    85 percent of the vulnerabilities identified          region.
    on financial management systems within
    FHA has been delayed with no projected                At OIG’s urging and in light of a
    resolution date. Finally, HUD has not tested          recent Internal Revenue Service
    and evaluated all of the technical                    ruling regarding nonprofits that
    information security controls for the                 provide seller-funded downpayment
    financial management systems categorized              assistance, proposing a rule that would
    as high impact.                                       establish specific standards regarding
                                                          a borrower ’s investment in the
         FHA Single Family Origination. FHA’s             mortgaged property when a gift is
    single-family mortgage insurance programs             provided by a nonprofit organization.
    enable millions of first-time, minority,
    low-income, elderly, and other underserved           While GAO and OIG have reported
    households to realize the benefits of            improved       monitoring      of    lender
    homeownership. HUD manages about $341            underwriting and default tracking and
    billion in single-family insured mortgages.      expanded loss mitigation to help reduce
    Effective management of this high-risk           mortgage foreclosures, HUD needs to
    portfolio represents a continuing challenge      further strengthen lender accountability and
    for the Department. The President’s              take strong enforcement actions against
    Management Agenda has committed HUD              program abusers that victimize first-time
    to tackling long-standing management             and minority homebuyers. The audit of
    problems that expose FHA homebuyers to           FHA’s FY 2005 financial statements also
    fraudulent practices. HUD has taken a            reported a need to
    number of recent actions to reduce risks
    including the following:                              Incorporate better risk factors and
                                                          monitoring tools into FHA’s single-
         Providing advisory guidance to Home              family insured mortgage program risk
         Equity Conversion Mortgage (HECM)                analysis and liability estimation
         counselors on warning prospective                process and
         borrowers about mortgage fraud
         schemes and how to avoid becoming
         victims.


4                                              HUD’s Management and Performance Challenges
     Continue improvement in the review                Public and Assisted Housing Program
     over the credit reform estimation            Administration. HUD provides housing
     process.                                     assistance funds under various grant and
                                                  subsidy programs to public housing
     OIG’s internal audits focused on HUD’s       agencies and multifamily project owners.
improving its oversight of the claims             These intermediaries, in turn, provide
payment process and the late endorsement          housing assistance to benefit primarily low-
of loans. OIG’s review of HUD’s oversight         income households. HUD monitors these
of single-family mortgage insurance claims        intermediaries’ administration of the
found documentation omissions and other           assisted housing programs.
lender noncompliance with program
requirements at insurance endorsement.                Accurate and timely information about
Therefore, OIG recommended that HUD               households participating in HUD housing
independently verify the eligibility for          programs is necessary to allow HUD to
insurance of inadequately documented loan         monitor the effectiveness of the program,
files and seek recovery or satisfactory           assess agency compliance with regulations,
support for final HUD costs. In another           and analyze the impacts of proposed
audit, OIG assessed the impact of a recent        program changes. The level of reporting is
policy change regarding eligibility for late      a criterion for housing agencies’
endorsements and found that HUD’s                 performance in both the Public Housing
underlying risk assumption was flawed.            Assessment System and the Section 8
OIG recommended that HUD reevaluate the           Management Assessment Program.
policy using appropriate and available            Housing agencies must have a minimum 95
information.                                      percent reporting rate or be subject to
                                                  sanctions.
     In support of HUD and the President’s
Management Agenda, OIG’s Strategic Plan                HUD’s ability to effectively monitor
for FY 2004 to 2009 gives priority to detecting   housing agencies and assisted multifamily
and preventing fraud in FHA mortgage              projects continues to present challenges in
lending through targeted audits and               achieving the intended statutory purposes
investigations. OIG’s audits target lenders       of the housing assistance funds. These
with high default rates. OIG’s detailed           weaknesses have been reported for a
testing typically focuses on mortgage loans       number of years in OIG’s annual audits of
that defaulted and resulted in FHA                HUD’s financial statements. However, HUD
insurance losses. Results from these audits       has demonstrated significant progress in
have noted significant lender underwriting        addressing weaknesses impacting the
deficiencies, prohibited late endorsed loans,     accuracy of payments made under these
inadequate quality controls, and other            programs. Most notably, HUD was the first
operational irregularities. During FY 2006,       agency to receive a “green” baseline goal
OIG completed 33 external audits of FHA-          score on the President’s Management
approved mortgage lenders as well as five         Agenda – Eliminating Improper Payments
internal audits of single-family program          initiative and has maintained this score.
activities. OIG recommended monetary
recoveries, civil remedies, and funds that            The estimate of erroneous payments
could be put to better use totaling $259          that HUD reports in its Performance and
million. During FY 2006 in the single-family      Accountability Report relates to HUD’s
housing program area, judicial actions taken      inability to ensure or verify the accuracy of
on Office of Investigation cases included 366     subsidy payments being determined and
indictments/informations.                         paid to assisted households. HUD has
                                                  surpassed interim goals for reducing the FY


HUD’s Management and Performance Challenges                                                       5
    2000 estimated $2 billion in net annual rental          Administering Programs Directed
    housing assistance overpayments. HUD’s             Toward Victims of Hurricanes Katrina,
    interim goals were for a 15 percent                Rita, and Wilma. In the aftermath of
    reduction in FY 2003, 30 percent reduction         Hurricanes Katrina, Rita, and Wilma, the
    in FY 2004, and 50 percent reduction in FY         operations of HUD have been thoroughly
    2005. These goals were established                 tested in the Gulf Coast area and have
    based on the FY 2000 estimates of                  created extraordinary challenges for the
    improper payments attributed to both               residents, HUD employees, and the business
    housing administrator errors in subsidy            community. The potential losses to HUD
    determinations and tenant underreporting           and its housing and community
    of income upon which benefits are based.           development programs are significant.

         Although 60 percent of all subsidy                 Congress estimates that damage to
    determinations were found to be in error in        residential structures will range from $17 to
    2000, that number declined to 41 percent in        $33 billion. In the Presidentially Declared
    FY 2003 and 34 percent in FY 2004. The             Disaster Areas, HUD’s FHA single-family
    baseline estimate of gross annual improper         insurance fund insured more than 328,000
    payments has been reduced from $3.2                mortgages having an unpaid principal
    billion in 2000 to $1.6 billion in 2003 and $1.2   balance of $23 billion. The hurricanes
    billion in 2004. HUD is finalizing updated         affected 79 Ginnie Mae issuers, causing
    estimates to include in its FY 2006                Ginnie Mae to assess a $500 million risk of
    Performance and Accountability Report.             loss to its investment portfolio. FHA’s
                                                       multifamily program in the Presidentially
         Paralleling HUD efforts, our                  Declared Disaster Areas insured 528 projects
    investigative and audit focus is                   with an amortized principal balance of $3
    concentrating on fraudulent practices and          billion. Of these, 112 or 21 percent sustained
    the lack of compliance with the Section 8          more than minor damage, resulting in
    program statute and requirements. To               significant potential losses.1 Assets of HUD’s
    comply with a congressional request, OIG           public housing program suffered
    conducted 51 external audits of the Section        tremendous damage, affecting both
    8 Housing Choice Voucher program during            property structures and housing of almost
    FY 2006. OIG also has professional                 120,000 families. The Housing Authority of
    appraisers on staff to assist in evaluating        New Orleans received a $21.8 million grant
    housing quality requirements as part of our        from the public housing capital fund reserve
    audit efforts. In total, these external audits     for the cost and repair of its public housing
    addressed whether housing agencies are             inventory before a full assessment could be
    correctly calculating subsidy amounts,             performed. HUD allowed States to
    correctly determining family income,               reprogram $380 million from existing
    complying with housing quality standards,          community planning and development
    fully using authorized vouchers, and               funds for the disaster areas. To expedite the
    implementing controls to prevent                   process, HUD issued numerous waivers to
    duplicative and fraudulent housing                 streamline its grant programs including
    assistance payments.           OIG’s audits        the HOME Investment Partnerships,
    identified questioned costs of more than $16       Emergency Shelter Grants, and CDBG
    million and reported more than $112 million        programs.
    that could be put to better use.


    1
      Loss estimates for both the single-family and multifamily programs were being finalized at the
    time of this report and are to be included in FHA’s audited FY 2006 financial statements.


6                                                 HUD’s Management and Performance Challenges
    HUD’s response to Hurricanes Katrina         one-time grants to assist homeowners, who
and Rita falls into three separate categories:   are not obligated to repair or rebuild their
(1) use of existing appropriations on the        homes but may choose to use the grant in
ground just before hurricane impact, (2) new     any legal way to work through their
appropriations for hurricane relief, and (3)     personal recovery situations. OIG has
Federal Emergency Management Agency              concerns about how a “compensation” plan
funds administered by HUD in support of          that basically reimburses homeowners’
mission-critical assignments. HUD is             losses will spur the rebuilding of now
administering the Katrina Disaster Housing       blighted communities.
Assistance and Disaster Voucher Programs,
which were funded at levels of $79 million           There are also continuing problems with
and $390 million, respectively. In addition,     the execution of data matching among
Congress appropriated $16.7 billion in           federal agencies. It took months for OIG to
emergency CDBG funds in two emergency            finalize a protocol with the Federal
supplemental appropriations. Of this total,      Emergency Management Agency to use its
$10.4 billion and $5.5 billion have been         data for matching purposes to detect
allocated to the States of Louisiana and         potentially fraudulent payments. The
Mississippi, respectively. The remaining         problems that OIG has encountered would
funds were allocated to the States of            be greatly mitigated if the Privacy Act
Alabama, Florida, and Texas.                     included an exception for postdisaster data
                                                 matching or if alternative legislation
     Each state was required to submit a plan    required federal agencies to engage in data
to HUD outlining how the state intended to       matching as a routine procedure in their
spend its supplemental disaster funding.         provision of disaster assistance.
However, the subsequent waivers of CDBG
program requirements, while granted by                See chapter 6 of this Semiannual Report
HUD in accordance with the provisions of         for further information on the challenges
the supplemental appropriations to facilitate    HUD faces in responding to these disasters,
the ease and expediency of funding, may          along with HUD OIG’s efforts to prevent and
have created vulnerabilities. For example,       detect fraud and provide audit coverage for
Mississippi and Louisiana opted to use           the billions of dollars HUD is administering
portions of their overall CDBG funding for       to aid in the recovery.




HUD’s Management and Performance Challenges                                                     7
    Chapter 2
HUD’
HUD’ss Single-F
       Sing      amil
                 amilyy
           le-Famil
 Housin
 Housingg Pr
          Proog rams
         The Federal Housing Administration’s       Mutual Mortgage Insurance Fund single-
     (FHA) single-family programs provide           family claims to determine whether HUD
     mortgage insurance to mortgage lenders         ensured that paid claims were reviewed to
     that, in turn, provide financing to enable     determine whether the mortgage loans met
     individuals and families to purchase,          program requirements.
     rehabilitate, and construct a home.
                                                         Of the 175 claims reviewed, 44 were paid
     Audits                                         for mortgages that did not meet program
                                                    requirements. Final HUD costs for claims that
                                                    did not meet program requirements are
         During this reporting period, the Office
                                                    estimated to be $356 million during the period
     of Inspector General (OIG) issued 12
                                                    October 1, 2003, through June 3, 2005.
     external and 5 internal audit reports in the
     single-family housing program area. These
                                                 OIG recommended that HUD (1)
     reports disclosed more than $2.4 million in
                                            establish procedures to review paid claims
     questioned costs and more than $216
                                            associated with early defaulted loans and
     million in recommendations that funds be
                                            unsupported final costs and independently
     put to better use.
                                            verify that loans met program requirements,
                                            (2) seek recovery or adequate support for final
     FHA Mutual Mor  tg
                     tgaage
                 Mortg                      HUD costs for the 44 unsupported claims
     Insurance Fund Claim                   identified, and (3) assess costs and benefits
                                            associated with reviewing claims on early
     Payments
     Payments                               defaulted loans received since October 1, 2003,
                                            and if feasible, independently determine that
        The U.S. Department of Housing and loans comply with program requirements and
     Urban Development (HUD) OIG reviewed seek recovery or adequate support for final
     HUD’s controls over the payment of FHA HUD costs associated with those claims.
                                            (Audit Report: 2006-SE-0001)

                                     A Look Bac
                                             Backk ffor
                                                     or the Year
                                                            Year
        Chartt 2.1: Per
        Char            centa
                    Percenta ge of OIG Sin
                        centag            gle-F
                                       Sing     amil
                                                amilyy Closed Audit Cases
                                           le-Famil                 Cases,, Perfor
                                                                            Perfor med FY 06
                                                                                 ormed
                                                                              Region 1
                                                                               Boston
                                               Region 5                         3%
                                               Chicago
                          Region 7-8
                                                 17%               Region 2
                          Kansas City
                             21%                                   New York
                                                                     11%




                                                                                      Region 3
                                                                                     Philadelphia
                                                                                         14%




        Region 9-10
        Los Angeles                                                       Region 4
            14%                                                           Atlanta
                                               Region 6                     6%
                                              Fort Worth
                                                 14%



10                                                         HUD’s Single-Family Housing Programs
Late Lender Submissions ffor
                          or HUD’
                             HUD’ss Housin
                                     Housingg Counseling
                                              Counseling
Insurance Endor sement
          Endorsement        Assistance Pr
                                        Proogram
     On May 17, 2005, HUD issued                      HUD OIG audited HUD’s Housing
Mortgagee Letter 2005-23, removing the 6-        Counseling         Assistance       Program,
month payment history requirement for            Washington, DC, to determine whether
loans submitted late for endorsement. HUD        HUD (1) ensured the accuracy and reliability
OIG analyzed the impact of the policy            of the data reported on fiscal year activity
changes and reviewed the decision process        reports, (2) had a system in place to measure
followed by HUD in approving the rule            the impact that the grants have on program
change to determine whether changed late         performance measurements, and (3) had a
submission for endorsement rules were            monitoring system that adequately
adequately supported and the decision            accounted for and safeguarded funds that
process was documented as required by the        HUD provides grantees.
Office of Management and Budget (OMB),
the Government Accountability Office                  The data reported on the activity reports
(GAO), and HUD/FHA internal policy and           were inaccurate and not current,
practice.                                        performance goals did not measure the
                                                 effects of grant funds on program objectives,
     Although HUD asserted that the change       and some departmental program objectives
did not materially increase FHA’s mortgage       were not measured. In addition, HUD’s
insurance risk, it did not perform a risk        oversight and monitoring of local counseling
analysis to support this determination. A        agencies was not adequate to ensure that the
review of the performance of loans from          agencies were conducting activities in
seven prior OIG late endorsement audits          accordance with HUD requirements and
found a three and one-half times higher risk     grant agreements.
of claims when loans had unacceptable
payment histories within the prior 6 months.         OIG recommended that HUD (1)
Further, since the issuance of the mortgagee     establish controls to ensure accurate and
letter, the default rate for loans submitted     reliable fiscal year activity reports, (2)
late has increased and is significantly higher   implement procedures for reporting that
than the default rate for loans submitted in     provide for more timely information and the
a timely manner.                                 reporting of actual results in later reports
                                                 when estimates are used, (3) implement a
    OIG recommended that HUD (1)                 system that measures all program objectives
rescind Mortgagee Letter 2005-23 until           and goals, and (4) establish and implement
appropriate rule changes can be designed         written procedures to ensure adequate
that are supported by an adequate risk           oversight and monitoring of the program.
assessment considering newly endorsable          (Audit Report: 2006-NY-0001)
loans and (2) establish sufficient
documentation practices to document              Cr edit W
                                                 Credit   atc
                                                         Watch Ter
                                                          atch     minated
                                                               Terminated
assertions and identify support data
referenced in published documents such as        Lender
                                                 Lenderss
policies and directives. Documentation
should be sufficient to permit a competent           HUD OIG audited HUD’s Office of
and independent management review and            Housing, Washington, DC, to determine
create an audit trail. (Audit Report: 2006-      whether its controls adequately stop Credit
SE-0002)                                         Watch terminated lenders from originating
                                                 new loans in the area in which they were
                                                 terminated.

HUD’s Single-Family Housing Programs                                                              11
         HUD’s controls usually stop lenders         technical and included errors and
     from originating new loans in areas in which    documentation omissions clearly contrary to
     their approval has been terminated. In a        prudent lending practices. Further, National
     recent 3-year period, lenders originated 58     City incorrectly certified to the integrity of
     insured loans contrary to their sanctions.      the data supporting the underwriting
     During the same period, HUD insured more        deficiencies and to the due diligence used
     than 3.3 million loans.                         in underwriting the loans. HUD paid more
                                                     than $94,000 in claims for two loans and
         OIG recommended that HUD                    incurred a loss of nearly $48,000 for another
     periodically search for loans that have been    two loans.
     originated by terminated lenders and take
     appropriate action against the lenders that          OIG recommended that HUD require
     improperly originated the 58 loans              National City to indemnify HUD for any
     identified. (Audit Report: 2006-KC-0002)        future losses on nine loans with a total
                                                     mortgage value of more than $1 million;
     Mor
     Mortgtg
          tgaagees
               ees,, Loan                            reimburse HUD more than $94,000 for the
                                                     claims paid on two loans once the associated
     Cor
     Corrrespondents
          espondents,, and Dir   ect
                              Direct                 properties are sold; reimburse HUD nearly
     Endor  sement Lender                            $48,000 for the loss incurred on two loans
     Endorsement      Lenderss                       since the properties were already sold; buy
                                                     down two active loans by $2,900; improve
          Audits of single-family lenders and loan   its existing procedures and controls to
     origination abuses continued to be a priority   ensure its underwriters follow HUD’s
     during this semiannual period. Lenders are      underwriting requirements; implement its
     targeted for audit through the use of data      quality control plan for reviewing loans with
     mining techniques, along with prioritizing      early payment defaults; and ensure that
     audit requests from outside sources. During     quality control reviews under its quality
     this period, HUD OIG reviewed 12 FHA            control plan are timely, accurate, and
     single-family mortgage lenders. While           properly documented. (Audit Report: 2006-
     OIG’s objectives varied by auditee, the         CH-1014)
     majority of the reviews were to determine                ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
     whether the mortgage lender complied with
     HUD’s regulations, procedures, and                  HUD OIG audited Premier Mortgage
     instructions for the underwriting of FHA        Funding, Inc., a nonsupervised loan
     loans and to determine whether the              correspondent, because its default rate was
     mortgage lender’s quality assurance plan        378 percent of the average of all lenders in
     met HUD’s requirements. The following           the San Antonio, TX, HUD jurisdiction.
     section illustrates the audits conducted in     Premier’s Austin, TX, branch originated 36
     the single-family mortgage lender area.         of 41 loans that defaulted within the first
                                                     year of origination. Premier and its sponsor,
          HUD OIG audited National City              JPMorgan Chase Bank NA, did not meet
     Mortgage Company of Miamisburg, OH, a           HUD underwriting or quality control
     nonsupervised lender approved to originate,     requirements. HUD insured 11 loans
     underwrite, and submit insurance                totaling more than $1 million that the
     endorsement requests under HUD’s single-        sponsor approved with inaccurate credit
     family direct endorsement program. Of the       information. Further, Premier and its
     41 loans reviewed, National City approved       sponsors charged borrowers $163 in
     20 that did not fully meet HUD’s                ineligible closing costs and approved 31
     requirements. The loans defaulted early         loans with appraisals that did not meet HUD
     and/or went to claim. The underwriting          requirements. These deficiencies increased
     deficiencies were material as well as

12                                                       HUD’s Single-Family Housing Programs
the FHA insurance fund’s risk of loss. As of      $80,000 on two loans that went into default,
April 28, 2006, HUD had lost more than            causing HUD to pay a claim, and require
$394,000 on these loans.                          Trident to develop internal procedures to
                                                  more closely monitor its underwriting
     OIG recommended that HUD (1)                 procedures, reimburse borrowers $146 in
require JPMorgan Chase to reimburse HUD           overcharges, and revise and implement its
more than $394,000 for losses incurred on         quality control plan to comply with HUD
six loans, indemnify HUD for six loans            requirements. (Audit Report: 2006-PH-
totaling more than $647,000, and buy down         1012)
loans or repay HUD for other deficiencies;                 ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
(2) require Premier and JPMorgan Chase to
take action to correct quality control                HUD OIG audited First Residential
deficiencies and ensure that appraisals meet      Mortgage Corporation, a nonsupervised
HUD requirements; and (3) take appropriate        direct endorsement lender located in
administrative sanctions against Premier          Englewood Cliffs, NJ. Seven of eleven loans
and JPMorgan Chase for entering incorrect         reviewed exhibited significant underwriting
data into the automated underwriting              deficiencies such as inadequate credit
system and certifying their integrity. (Audit     analysis, inadequate verification of funds to
Report: 2006-FW-1011)                             close, minimum cash investment not met,
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○        and inadequate verification of income and/
                                                  or employment. The remaining four loans
     HUD OIG audited the Devon, PA,               contained technical violations. In addition,
branch of Trident Mortgage Company, a             one borrower was charged a $495 ineligible
nonsupervised direct endorsement lender           commitment fee.
approved to originate FHA single-family
mortgage loans, because its default rate was           OIG recommended that HUD require
above the state’s default rate. Of the 26 loans   First Residential to indemnify it for potential
reviewed, the Devon office did not fully          losses and/or claims on loans with
comply with FHA requirements for 15 of the        significant underwriting deficiencies,
loans valued at just under $2 million.            reimburse one borrower for an ineligible
Trident did not exercise due diligence in the     charge, and implement a quality control
review of assets and liabilities, properly        process in accordance with HUD
verify income, ensure that all borrowers met      requirements. (Audit Report: 2006-NY-
the minimum required 3 percent investment         1009)
in the property, properly document the                     ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
qualifying ratios, and verify rental history.
In addition, Trident overcharged for credit            HUD OIG audited First Suffolk
reports. For five of the cases reviewed, fees     Mortgage Corporation, North Babylon, NY,
totaling $146 were charged to the borrowers.      a nonsupervised direct endorsement lender.
Further, Trident did not perform the              Three of eight loans reviewed exhibited
required number of quality control reviews        significant underwriting deficiencies, and
of its FHA loans and did not ensure that all      the remaining five loans contained technical
FHA loans that went into early default were       violations. As a result, the FHA insurance
flagged for review.                               fund paid claims associated with two loans
                                                  and continues to assume a risk with another
    OIG recommended that HUD request              loan. In addition, First Suffolk did not
from Trident an indemnification of more           always comply with HUD’s and its own
than $487,000 on 13 loans, which it issued        quality control requirements to (1) ensure
contrary to HUD’s loan origination                that all HUD-insured loans that went into
procedures, an indemnification of almost          default within the first six payments were


HUD’s Single-Family Housing Programs                                                                13
     reviewed and (2) document that corrective      generally complied with HUD’s
     action was taken on all material findings      requirements for underwriting FHA loans.
     identified in quality control reviews.         However, it approved 3 of 29 FHA loans
                                                    reviewed that did not fully meet HUD’s
          OIG recommended that HUD require          requirements. Further, Community Central
     First Suffolk to (1) reimburse HUD for the     incorrectly certified to the due diligence
     amount of claims and associated fees paid      used in underwriting the three loans. Its
     on two loans with significant underwriting     quality control plan did not comply with
     deficiencies, (2) indemnify HUD against        HUD’s requirements, and quality control
     future losses on the one currently insured     reviews were not performed in a timely
     loan with significant underwriting             manner. For the loans in question, the risk
     deficiencies, (3) establish procedures to      to the FHA fund was increased.
     ensure that HUD’s underwriting
     requirements are properly implemented               OIG recommended that HUD require
     and documented, and (4) implement              Community Central to indemnify it for any
     procedures to ensure compliance with           future losses on two loans with a total
     HUD’s and its own quality control              mortgage value of more than $140,000,
     requirements. (Audit Report: 2006-NY-          reimburse it for any future net loss once the
     1007)                                          associated property is sold, and ensure that
              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○     quality control reviews are timely and
                                                    properly documented.              OIG also
          HUD OIG audited First Magnus              recommended that HUD determine legal
     Financial Corporation’s loan origination and   sufficiency and if legally sufficient, pursue
     business practices at the First Magnus         remedies under the Program Fraud Civil
     corporate office in Tucson, AZ. First          Remedies Act (PFCRA) against Community
     Magnus did not follow HUD requirements         Central and/or its principals for the three
     when underwriting six FHA-insured loans.       incorrect certifications identified. (Audit
     As a result, the lender approved borrowers     Report: 2006-CH-1017)
     for FHA-insured loans for which they may                ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
     not be able to make the monthly mortgage            HUD OIG reviewed 13 FHA loans
     payments.                                      underwritten by Nexgen Lending, Inc.’s
                                                    Lakewood, CO, branch office. Nexgen did
         OIG recommended that HUD require           not follow HUD requirements in
     First Magnus to indemnify it more than         underwriting two of the loans. As a result,
     $95,000 for estimated losses on three loans    Nexgen placed HUD’s insurance fund at risk
     processed and originated in disregard of       for as much as $207,000 and overinsured one
     HUD rules and regulations and pay civil        mortgage for more than $1,000. Nexgen’s
     money penalties for four loans that were       quality control plan met HUD’s
     originated and processed using an incorrect    requirements. OIG recommended that HUD
     branch lender identification number. (Audit    require Nexgen to indemnify it for the po-
     Report: 2006-LA-1018)                          tential loss on the one loan with a
              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○     significant deficiency and reimburse the
                                                    appropriate parties for the overinsured
         HUD OIG audited Community Central          mortgage. (Audit Report: 2006-DE-1006)
     Bank, Mt. Clemens, MI, a supervised lender              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
     approved to originate, underwrite, and
     submit insurance endorsement requests             HUD OIG audited KB Home Mortgage
     under HUD’s single-family direct               Company in Los Angeles, CA, after a prior
     endorsement program, because of its high       OIG audit found indications that KB
     default to claim rate. Community Central       underwriters inaccurately certified that they


14                                                      HUD’s Single-Family Housing Programs
underwrote certain FHA loans. For 206 of
the 543 loans reviewed, KB’s underwriters
inaccurately certified that they personally
underwrote the loans. As a result, HUD has
no assurance that these loans were properly
underwritten to ensure that they were
eligible for FHA mortgage insurance.

     OIG recommended that HUD require
KB to ensure that underwriter certifications
for HUD-insured loans are only executed by
direct endorsement underwriters after
personally reviewing the appraisal, credit
application, and all associated documents
and using due diligence in underwriting the
mortgage. (Audit Report: 2006-LA-1014)
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




HUD’s Single-Family Housing Programs           15
        Investi
        Inv    gations
           estig                                                                 state, and local law enforcement agencies.
                                                                                 The results of various significant
                                                                                 investigations are described below.
             During this reporting period, OIG
        opened 77 investigation cases and closed 161
        cases in the single-family housing program                               Loan Origination Fraud
                                                                                      Origination
        area. Judicial action taken on these cases
        during the period included $62,779,855 in                                     Donald W. Gupton, Inc., doing business
        investigative recoveries, $23,645,106 in                                 as Dynasty Homes of Henderson, Superior
        funds put to better use, 111 indictments/                                Housing Center, Creative Real Estate, Manu-
        informations, 144 convictions/pleas/pretrial                             facturing Housing Sales Center, M&G Prop-
        diversions, 71 administrative actions, 9 civil                           erties II, Inc., and CRE Properties, LLC, (The
        actions, 3 personnel actions, and 98 arrests.                            Companies) pled guilty in U.S. District
                                                                                 Court, New Bern, NC, to one count each of
           Char
           Chartt 2.2: Single-F
                       Sing     amil
                                amilyy Reco
                           le-Famil        veries
                                       Recov                                     conspiracy and money laundering. Donald
                               Contract Fraud        False
                                                                                 Scott Carroll and Richard Meador, both sales
                               1% ($800,000)      Statements                     managers for Gupton, were sentenced in
                        Other                   2% ($1,539,149)
                     1% ($544,434)
                                                                                 U.S. District Court, Raleigh, NC, for their
                                                          Officer/Teacher
                                                            Next Door            recent convictions on false statements; bank
                                                          1% ($339,393)
                                                                                 fraud; and/or conspiracy to commit mail
         Loan
                                                                                 fraud, wire fraud, or money laundering.
      Origination                                                                Carroll was sentenced to 30 months
         25%
     ($15,420,199)                                                               incarceration and 3 years supervised release
                                                            Flipping
                                                        70% ($44,136,680)
                                                                                 and ordered to pay HUD $1,308,029 and 20
         Total Recoveries $62,779,855
                                                                                 victims $168,802 restitution; Meador was
                                                                                 sentenced to 53 months incarceration and 3
            Some investigations discussed in this                                years supervised release and ordered to pay
        report were conducted jointly with federal,                              HUD $1,101,498 and 20 victims $168,802

                                         A Look Bac
                                                 Back k ffor
                                                          or the Year
                                                                 Year
        Char
        Chartt 2.3: Percenta
                    Percenta ge of OIG Sin
                        centag            gle-F
                                       Sing     amil
                                                amilyy Closed In
                                           le-Famil               vesti
                                                                Inv    gation Cases
                                                                   estig      Cases,, Perfor
                                                                                      Perfor med FY 06
                                                                                           ormed
                                                                                                            Region 1
                                                                                                             Boston
                                                                            Region 5                          2%
                                                                            Chicago
                                         Region 7-8
                                                                              7%                 Region 2
                                         Kansas City
                                            8%                                                   New York
                                                                                                   16%




                                                                                                                    Region 3
                                                                                                                   Philadelphia
                                                                                                                       15%




             Region 9-10
             Los Angeles                                                                                Region 4
                 20%                                                                                    Atlanta
                                                                             Region 6                     8%
                                                                            Fort Worth
                                                                               23%



16                                                                                       HUD’s Single-Family Housing Programs
restitution, jointly and severally with            obtaining FHA-insured mortgages. As a
Carroll. Between 1999 and 2002, The                result, 15 FHA-insured properties defaulted,
Companies bought and sold more than 150            95 properties are at risk, and HUD realized
manufactured and mobile homes, some                losses of $2,356,841.
including land, and assisted unqualified                    ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
borrowers in obtaining FHA-insured
mortgages valued at more than $11 million               Benedicta Gomez, an accountant and
by using fictitious trade-ins, providing cash      owner of One Service, Inc., Aurora, CO, pled
and fabricated gift letters, and falsely           guilty in U.S. District Court, Denver, CO,
inflating values and/or certifying land            to one count of wire fraud. William Mendez,
ownership. A preliminary order of                  owner of William E. Mendez Team, Inc., at
forfeiture commands The Companies to               REMAX 100; former Mendez Team realtor
forfeit proceeds of up to $11 million, assets      Rogasiano Caldera; and unlicensed realtor
associated with each organization, a Piper         and former Mendez Team assistant Claudia
airplane, and more than 300 acres of land.         Mendez were sentenced for their earlier
As a result of foreclosures, HUD realized          guilty pleas to numerous charges. William
losses estimated at $6.8 million.                  Mendez was sentenced to 49 months in
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○         prison and 36 months probation and ordered
                                                   to pay HUD $1,227,082 restitution; Caldera
     David B. Finzi, a real estate investor, was   was sentenced to 15 months in prison and
sentenced in U.S. District Court, Los              36 months probation, ordered to pay HUD
Angeles, CA, to 5 years probation and              $80,729 restitution, and debarred from
ordered to pay HUD $2,389,133 restitution          procurement and nonprocurement
for his earlier conviction on wire fraud and       transactions as either a principal or
aiding and abetting. Finzi and others located      participant with HUD and throughout the
and purchased multiunit residential                Executive Branch of the Federal
properties, flipped the properties at inflated     Government for 10 months; Claudia Mendez
values to fictitious purchasers while Finzi’s      was sentenced to 8 months incarceration and
purchase transactions were pending,                36 months probation and ordered to pay
prepared and submitted fraudulent loan             HUD $109,167 restitution. Gomez, Caldera,
applications for bogus purchasers, and             and William and Claudia Mendez assisted
obtained $12.5 million in FHA-insured              unqualified and undocumented immigrants
mortgage loans. As a result of foreclosures,       in obtaining more than 300 FHA-insured
HUD realized losses of $3,161,942.                 loans valued in excess of $61 million. As a
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○         result of foreclosures, HUD realized losses
                                                   of $2.3 million.
    Cenobio Rojas and his wife, Ruth Rojas,                 ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
owners of Continental Termite and
Investments, were sentenced in U.S. District            Real estate investors Douglas Hastings
Court, Los Angeles, CA, for their previous         and Phil Miskimon, along with Julie Smith,
guilty pleas to money laundering. Cenobio          Shawn Fleming, and Jeffrey Meyer, each pled
Rojas was sentenced to 37 months                   guilty in U.S. District Court, Rockford, IL, to
incarceration and ordered to pay HUD               numerous counts of conspiracy, false
$1,518,353 restitution; Ruth Rojas was             statements to HUD, and false statements. Dale
sentenced to 21 months incarceration and 36        Nelson, Chad Nicks, and Tasha Barnes, also
months probation and ordered to pay the            known as Tasha Thompson, were
above restitution jointly and severally with       sentenced for their earlier guilty pleas to
her husband. Cenobio and Ruth Rojas                conspiracy and false statements to HUD.
provided downpayment funds, used false             Nelson was sentenced to 5 months
loan documents, and inflated the values of         incarceration, 5 months home confinement,
properties sold to unqualified buyers              and 24 months probation and ordered to pay

HUD’s Single-Family Housing Programs                                                                 17
                                                     acquired false credit letters, verifications of em-
                                                     ployment, or gift letters and/or acted as straw
                                                     buyers to assist unqualified applicants in ob-
                                                     taining more than 50 FHA-insured
                                                     mortgages. As a result, 35 FHA-insured
                                                     properties defaulted, and HUD losses exceed
                                                     $2 million.
                                                               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


                                                          Rhonda Torossian, a loan officer at RBC
                                                     Mortgage Company; Nancy Rodriguez, a loan
                                                     processor at RBC; Cesar Arenas, a realtor at
                                                     Whitehead Realty; and Raul Raygoza and
                                                     Israel Qunitero, both employees at Friends
                                                     Furniture, were indicted in U.S. District Court,
                                                     Rockford, IL, on numerous counts of false
                                                     statements to HUD, mail fraud, and
                                                     conspiracy. The above defendants allegedly
                                                     provided false documents, including
                                                     verifications of employment, credit letters,
                                                     cashier’s checks, Social Security cards and
                                                     numbers, and correspondence, to unqualified
                                                     buyers obtaining FHA-insured mortgages. As
                                                     a result, more than 50 FHA-insured loans were
                                                     identified, and HUD losses exceed $2 million.
                                                               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


                                                          Columbia National Mortgage, Inc.
                                                     (CNM), a subsidiary of American Home
                                                     Mortgage Investment Corporation,
                                                     Philadelphia, PA, entered into a settlement
                                                     agreement with the U. S. Government and
                                                     plaintiff/realtor Cynthia Santore-Smith, a
                                                     former CNM employee. As a condition of
                                                     the settlement agreement, CNM agreed to
                                                     pay the U. S. Government $800,000 and
          Copyright, 2006. The Rockford Register     indemnify two FHA-insured loans on
          Star - Rockford, IL. First two             residential properties in Philadelphia, PA. In
          paragraphs of article. Reprinted with
                                                     2003, Santore-Smith filed a Qui Tam
          permission.
                                                     complaint and provided information
                                                     relating to fraudulent FHA-insured loans
     HUD $286,241 restitution; Nicks was             packaged and processed by employees of
     sentenced to 5 months incarceration, 5 months   CNM’s Bensalem, PA, branch office during
     home confinement, and 36 months probation       1997, 1998, and 1999.
     and ordered to pay HUD $257,372 restitution;              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
     Barnes was sentenced to 4 months
     incarceration, 4 months home confinement,           Edward Carrillo, owner of Sahara
     and 12 months probation and ordered to pay      Investments in Scottsdale, AZ, was
     HUD $183,715 restitution. Hastings,             sentenced in Maricopa County Superior
     Miskimon, Smith, Fleming, Meyer, Nelson,        Court, Phoenix, AZ, to 5 years in prison and
     Nicks, Barnes, and others provided or           7 years probation and ordered to pay

18                                                       HUD’s Single-Family Housing Programs
numerous victims $1,097,432 restitution for      perform 100 hours of community service;
accepting investor funds and failing to          Morrero was sentenced to 36 months
acquire properties or return investor            probation and ordered to pay the State of
monies. Carrillo was further charged in an       New Jersey $20,000. Fauntleroy, Bowie,
information filed in U.S. District Court,        Mason, and Morrero assisted unqualified
Phoenix, AZ, with one count of mail fraud.       borrowers in obtaining FHA-insured
Carrillo allegedly purchased FHA-insured         mortgages by submitting false loan
properties through HUD’s “preforeclosure”        documentation and appraisals. In addition,
program at substantial discounts and using       the above defendants purchased properties
fraudulent appraisals, then resold the           using borrower funds, failed to complete
properties the same day at market value to       promised renovations, and overcharged
purchasers obtaining conventional                borrowers through excessive origination
mortgages. As a result, 65 FHA-insured           fees. As a result, 33 FHA-insured
properties defaulted, and HUD realized           properties defaulted, and HUD losses
losses in excess of $1.8 million.                exceed $1.2 million.
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○                ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


     Andrew Bogdan, a former real estate             Ricardo Medina, a former realtor at
speculator, was sentenced in U.S. District       REMAX 100, Lakewood, CO, and Perla
Court, Baltimore, MD, to 5 years probation       Alvarado, a former loan officer at Creative
and ordered to pay Community Law                 Mortgage in Englewood, CO, were
Center $277,650 restitution for his earlier      sentenced in First Judicial District Court,
guilty plea to conspiracy. Bogdan and            Golden, CO, for their earlier guilty pleas to
others purchased and resold properties at        theft. Medina was sentenced to 48 months
inflated values and assisted unqualified         confinement, 48 months probation, and 300
buyers in obtaining FHA-insured mortgages        hours of community service and fined
by submitting false employment, financial,       $5,000; Alvarado was sentenced to 36
and gift letter documentation. As a result,      months probation and 96 hours of
64 FHA-insured properties defaulted, and         community service and ordered to pay HUD
HUD realized losses of $1.6 million.             $52,223 restitution. Medina, Alvarado, and
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○       others assisted unqualified and
                                                 undocumented immigrant homebuyers in
     Barry C. Fauntleroy, President of EON       obtaining FHA-insured mortgages on
Corporation; Devon Bowie, President of           numerous properties. As a result, 67 FHA-
Neighborhood Mortgage Bankers; Sean              insured properties defaulted, and HUD
Mason, a closing attorney for EON; and           losses approximate $1 million. In addition,
Stacey Morrero, an underwriter at                Medina, Alvarado, and previously indicted
Neighborhood Mortgage Bankers, were              Nancy Rios, a former loan officer at
sentenced in U.S. District Court, Newark,        Colorado Bank and Trust, Denver, CO, were
NJ, for their earlier guilty pleas. Fauntleroy   suspended from participation in
was sentenced to 12 months incarceration         procurement and nonprocurement
and 4 years probation, fined $1,000, and         transactions as either participants or
ordered to perform 40 hours of community         principals with HUD and throughout the
service; Bowie was sentenced to 9 months         Executive Branch of the Federal
incarceration, 3 years probation, and 100        Government. The suspensions were based
hours of community service; ordered to pay       on an indictment filed in Jefferson County
New Jersey State Division of Consumer            District Court, Denver, CO, charging
Affairs $300,000 restitution; and fined          Medina, Alvarado, and Rios with 49
$1,500; Mason was sentenced to 3 years           predicate acts in violation of the Colorado
probation, fined $3,500, and ordered to          Organized Crime Control Act.
                                                          ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○



HUD’s Single-Family Housing Programs                                                             19
         David Calderon, owner of Atlas Home
     Loans (AHL), a HUD direct endorsement
     lender; his wife Baneza Calderon, AHL
     office manager; and his brother Carlos
     Calderon, a loan officer at AHL, each pled
     guilty in U.S. District Court, Los Angeles,
     CA, to false statements and/or misprision
     of a felony. David, Baneza, and Carlos
     Calderon created fraudulent documents for
     unqualified or ghost buyers obtaining
     FHA-insured mortgages. As a result,
     approximately 91 FHA-insured properties
     defaulted, and HUD realized losses of about
     $910,000.
              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


          Lawrence Lynch, a real estate investor
     and partner in Tiffy Corporation, pled guilty
     in U.S. District Court, Springfield, MA, to
     mail fraud, money laundering, and
     forfeiture. Mark McCarthy, a loan
     originator and mortgage broker doing
     business as RCML INC., pled guilty to wire
     fraud, money laundering, and forfeiture.
     Joseph Sullivan, owner of Sullivan
     Appraisals; James Smith, former owner of
     Springfield Mortgage; mortgage broker
     Theodore C. Jarrett, Jr.; real estate investors
     Pasquale Romeo and Anthony Matos; and
     Michael Bergdoll, owner of Bergdoll Home
     Improvement, each pled guilty to wire fraud
     and money laundering. Kathryn Zepka, a
     mortgage broker, pled guilty to wire fraud
     and false statements. In addition, Albert V.
     Innarelli, a former real estate closing
     attorney; Jonathan Frederick, an appraiser
     doing business as Westside Appraisal; and         Copyright, 2006. The Republican - Springfield, MA.
     real estate brokers Paul Starnes and Marc         Reprinted with permission.
     Brown were sentenced for their earlier guilty
     pleas. Innarelli was sentenced to 6 years
     imprisonment and 5 years probation and            years probation and ordered to pay two
     ordered to pay two financial institutions and     banks $137,685 restitution for his earlier
     seven victims $1,293,858 restitution for his      guilty plea to wire fraud and conspiracy to
     earlier guilty plea to wire fraud; Frederick      commit money laundering; Brown was
     was sentenced to 18 months confinement            sentenced to 1 day incarceration, 12 months
     and 4 years probation and ordered to pay          confinement at a community corrections
     seven victims $35,000 restitution for his         center, 12 months house arrest with
     previous guilty plea to wire fraud and            electronic monitoring, 400 hours of
     conspiracy to launder money. Starnes was          community service, and 5 years supervised
     sentenced to 36 months incarceration and 5        release and ordered to pay Bank of America


20                                                         HUD’s Single-Family Housing Programs
and National City Mortgage $137,685              flipped the properties at inflated values, and
restitution for his earlier plea to wire fraud   recruited or assisted unqualified buyers in
and money laundering. The above                  obtaining FHA-insured mortgages by
defendants purchased and flipped more            submitting false employment, income, and
than 70 HUD real estate owned (REO)              financial documentation. As a result, 16
properties and obtained more than $5.9           FHA-insured properties defaulted, and
million in FHA-insured mortgages for             HUD realized losses of $537,701.
unqualified buyers by processing fraudu-                   ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
lent loans containing false information and
documentation. As a result, 31 FHA-insured            Harold Meza, a real estate agent and
properties defaulted, and HUD realized           investor who operated JLF Properties,
losses of $834,795.                              California Discount Realty, North Wind
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○       Realty, and Casa Blanca Realty in San
                                                 Bernardino County, CA, and Karla Preciado,
    Gilbert Lugo and Tracey Silvis Rangell,      also known as Karla Venegas, an unlicensed
former owners of Benefit Escrow in Downey,       real estate agent and Meza’s assistant, were
CA, pled guilty in U.S. District Court, Los      each indicted in U.S District Court, Los
Angeles, CA, to an information charging          Angeles, CA, on one count of conspiracy
them with conspiracy, false statements, and      and six counts each of false statements and
aiding and abetting. Lugo, Rangell, and          aiding and abetting. Meza, Preciado, and
others assisted unqualified buyers in            others allegedly obtained or produced false
obtaining FHA-insured mortgages by               identification documents, employment
providing downpayments and submitting            verifications, gift letters, or other records for
false statements. As a result, 30 FHA-           unqualified buyers acquiring FHA-insured
insured properties defaulted, and HUD            mortgage loans. As a result, 40 FHA-
losses exceed $700,000.                          insured properties defaulted, and HUD
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○       losses exceed $500,000.
                                                           ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
     Naomi LaBrie, formerly doing business
as Rehablers, Inc., pled guilty in U.S.               Jocelyn Sicat and Andy Pena, former
District Court, Kansas City, KS, to false        owners of Crossmark Mortgage, were
statements to HUD. LaBrie provided               sentenced in U.S. District Court, Los
closing funds for FHA-insured homebuyers,        Angeles, CA, for their earlier guilty pleas to
instructed the homebuyers to falsify gift        wire fraud. Sicat and Pena were each
letters, and certified on settlement             sentenced to 6 months home detention, 3
statements that she did not provide funds        years supervised release, and 600 hours of
for loan closings. As a result, 20 FHA-          community service and ordered to pay HUD
insured properties defaulted, and HUD            $367,929 restitution, which they paid on or
losses exceed $600,000.                          before sentencing. Sicat and Pena conspired
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
                                                 and created false documents to assist
                                                 unqualified buyers in obtaining FHA-
     Brian Lyles, a real estate investor, and    insured mortgages. As a result, 12 FHA-
Shena Fraser, a loan officer at A&E,             insured properties defaulted, and HUD
Independent, and Germaine Mortgage               realized losses estimated at $474,264.
Companies, were each sentenced in U.S                      ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
District Court, Newark, NJ, to 3 years
probation and ordered to pay HUD $537,701
                                                     Kenneth DiPrenda, a former AMS
restitution, jointly and severally, for their
                                                 Mortgage loan officer; Mario Mendoza, a
earlier guilty pleas to conspiracy to commit
                                                 former realtor for Weichart Realty; Linda
mail fraud and false statements. Lyles and
                                                 Serrano, a real estate closing attorney; and
Fraser purchased residential properties,

HUD’s Single-Family Housing Programs                                                                 21
     Myriam Vaca, an employee of formerly            District Court, Atlanta, GA, to conspiracy
     indicted realtor Mario Mendoza, were each       and wire fraud. Calvin D. Dalton, President
     sentenced in U.S. District Court, Newark,       of RETI Relocation Services, Inc.; James F.
     NJ, for their earlier guilty pleas to           Stovall III, a closing attorney; certified real
     conspiracy to submit false statements to        estate appraisers John Bello, David R. Bobo,
     HUD. DiPrenda was sentenced to 2 years          and Paul Jaretsky Jr.; mortgage brokers
     probation and ordered to pay HUD $28,858        Martin Rosenthal and George W. McRee Jr.;
     restitution; Mendoza was sentenced to 6         real estate broker Larry Frazier; and straw
     months home confinement and 2 years             recruiters/borrowers William Chavis, John
     probation and ordered to pay HUD                Hyacinty, Reginald Kemp, Rhonda Kent,
     $100,000; Serrano and Vaca were sentenced       Constance Zielins, and Leonard Zielins,
     to 1 and 2 years probation, respectively. In    were indicted on numerous counts of money
     addition, John and Caridad Prados were          laundering, bank loan fraud, bank fraud,
     arrested after criminal complaints were filed   wire fraud, mail fraud, and conspiracy.
     charging them with defrauding HUD for the       Demetri Dante Coffee, an FHA-approved
     purpose of executing a Title 11 bankruptcy      appraiser, was charged in a superseding
     petition and using a false Social Security      indictment with bank fraud, wire fraud,
     number (SSN) to secure FHA-insured loans.       mail fraud, and conspiracy. The above
     DiPrenda, Mendoza, Serrano, Vaca, and           defendants allegedly created and submitted
     John and Caridad Prados recruited and           false documentation to obtain 98 mortgage
     assisted unqualified borrowers in obtaining     loans valued at more than $20 million,
     FHA-insured mortgages by submitting             including two FHA-insured loans. As a
     fraudulent employment, identity, and other      result of foreclosures, HUD losses
     loan documentation. As a result, 12 FHA-        approximate $300,000.
     insured properties defaulted, and HUD                    ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
     losses exceed $349,000.
              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○           Michael Grady, Joel Rosario, and
                                                     Robert Zappone, doing business as GRZ
         Lionel Crosby, a taxicab driver, pled       LLC, a home connection and mortgage
     guilty in U.S. District Court, Las Vegas, NV,   super center, entered into a $750,000 civil
     to one count of fraud against HUD. Lionel       settlement with the Connecticut Attorney
     Crosby’s brother, Stefan Crosby, was            General’s Office (CAGO) in Superior Court,
     sentenced to 21 months imprisonment and         Waterbury CT. In December 2003, CAGO
     3 years supervised release and ordered to       filed a civil lawsuit alleging the above
     pay HUD $302,365 restitution for his earlier    defendants performed cosmetic repairs on
     guilty plea to conspiracy and false             neglected properties before selling the
     statements to HUD. Lionel and Stefan            properties at inflated values to purchasers
     Crosby provided fraudulent employment,          who obtained 17 FHA-insured mortgages
     income, identification, and other               valued at $1,358,824. As a result, three FHA-
     documentation to unqualified straw buyers       insured properties defaulted, and HUD
     obtaining FHA-insured loans. In addition,       realized losses approximating $235,000.
     both Lionel and Stefan Crosby personally                 ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
     applied for FHA-insured loans using bogus
     documents. As a result, 12 FHA-insured               Real estate investor Sholom Moskowitz
     properties defaulted, and HUD realized          and Trena Hill, a former loan officer with
     losses of $302,365.                             Community Home Mortgage Company,
              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○      were each sentenced in U.S. District Court,
                                                     Newark, NJ, for their earlier guilty pleas to
        Rashid Muhammad, a recruiter for             tax evasion, bank fraud, false statements to
     RETI Relocation Services, pled guilty in U.S.   a financial institution, and/or conspiracy to


22                                                       HUD’s Single-Family Housing Programs
submit false statements to a financial          Norfolk, VA, to bankruptcy fraud,
institution. Moskowitz was sentenced to 6       aggravated identity theft, and wire fraud.
months home confinement and 5 years             Smith       fraudulently     verified    the
probation and ordered to pay HUD $201,244       creditworthiness of two borrowers
restitution; Hill was sentenced to 5 years      obtaining FHA-insured mortgages through
probation and ordered to pay HUD $91,556        a bogus company known as 4H Investment
restitution. Moskowitz and Hill prepared        Mutual, LLC; duped an individual into
false loan applications, appraisals,            investing $27,000 for an appraisal and
employment verifications, and gift letters to   downpayment on a $10 million
assist unqualified individuals in obtaining     multifamily Section 8 apartment complex;
nine FHA-insured mortgages. As a result,        fraudulently used the SSN of another
four FHA-insured properties defaulted, and      person to obtain a conventional mortgage;
HUD realized losses of $201,224.                and filed eight bankruptcies, five under his
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○      name and three under his spouse’s name, to
                                                forestall foreclosure proceedings against his
     Sean Beard, owner of First Equity          personal residence. As a result, both FHA-
Corporation, and real estate investors          insured mortgages defaulted, and HUD
Morgan Haines and Theodore Antonucci            realized losses of $126,900.
were each sentenced in U.S. District Court,              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
Rochester, NY, for their earlier guilty pleas
to conspiracy to commit mail fraud,                  Elie Louie-Pierre, a former loan officer
conspiracy to commit bank fraud, and/or         at Saxon Mortgage Bankers (SMB), was
false documents or statements to obtain a       sentenced in U.S. District Court, Central
HUD loan. Beard was sentenced to 16             Islip, NY, to 5 years probation and ordered
months incarceration and 3 years                to pay HUD $92,015 restitution for his
supervised release and ordered to pay           previous guilty plea to fraud against HUD.
HUD $38,441 and Countrywide Mortgage            Carol Horton Branch and Francis Purcell,
$23,412 restitution; Haines was sentenced to    real estate agents with 5-Star Realty and
6 months home confinement and 5 years           Pelican Properties, were convicted in U.S.
probation and ordered to pay the above          District Court, Mineloa, NY, on one count
restitution jointly and severally with Beard;   of conspiracy. Branch and Purcell were each
Antonucci was sentenced to 48 months            sentenced to 5 years probation, and Purcell
incarceration and 5 years probation and         was fined $1,000. Louie-Pierre, Branch, and
ordered to pay HUD $156,341 and                 Purcell produced, obtained, and used
numerous banks $775,217 restitution.            fraudulent documents to originate at least
Beard, Haines, Antonucci, and other             75 FHA-insured mortgages during Louie-
conspirators purchased homes, flipped the       Pierre’s employment with SMB. As a result
properties to each other at inflated values,    of foreclosures, HUD realized losses of
provided false documentation to secure          $92,015.
FHA or conventional financing on the                     ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
properties, and defaulted on mortgage loans
in excess of $1 million shortly afterward. As       Axel Bonilla, a former loan officer at
a result, two FHA-insured properties            Main Street Mortgage and Ark Mortgage,
defaulted, and HUD realized losses of           was sentenced in U.S. District Court,
$186,475.                                       Trenton, NJ, to 18 months incarceration and
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○      3 years probation and ordered to pay
                                                numerous victims $1,531,062 and HUD
    Mordecai Smith, the former chief            $76,123 restitution for his earlier guilty plea
financial officer of Virginia Beach Public      to mail fraud charges. Bonilla and
Schools, pled guilty in U.S. District Court,    previously indicted Laura Barlow, a former


HUD’s Single-Family Housing Programs                                                              23
     underwriter at Main Street Mortgage               broker FHA-insured mortgage loans. As a
     Service and Ark Mortgage, assisted                result, two FHA-insured properties
     unqualified borrowers in obtaining FHA-           defaulted, and HUD realized losses of
     insured mortgages by providing false              $46,299.
     documents. Bonilla also embezzled and                      ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
     converted more than $1.5 million in
     investor funds, by creating false documents            Willie Bynum pled guilty in U.S. District
     and reporting fictitious investment               Court, Norfolk, VA, to one count of
     earnings, and used investor funds to              conspiracy to make false statements to HUD.
     purchase residential properties. As a result,     Bynum purchased three properties, obtained
     HUD realized losses of $76,123 when six           FHA-insured mortgages by falsifying loan
     FHA-insured mortgages defaulted.                  applications and using or attempting to use
              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○        straw buyers, rented then sold two
                                                       properties and allowed unqualified
          Farid Bayot and Shaian Birashk, real         purchasers to assume his FHA-insured
     estate brokers/owners of Global One Realty        loans, and defaulted on the remaining FHA-
     Inc., Aurora, CO, each pled guilty in U.S.        insured mortgage. As a result, HUD
     District Court, Denver, CO, to wire fraud         realized a loss of $25,000.
     and/or aiding and abetting. Bayot was                      ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
     sentenced to 36 months probation and
     ordered to refrain from employment in the              Twelve undocumented immigrants pled
     real estate or mortgage industry. In              guilty in Johnson County District Court,
     addition, Mehdi “Tim” Ghaemi, owner of            Kansas City, KS, to various charges of
     Arborz Real Estate Company in Greenwood           identify theft and false statements. The
     Village, CO, and Hamidullah Sarwary, a            above defendants were each sentenced to 5
     former Littleton Housing Authority (LHA)          months incarceration and 18 months
     Section 8 tenant, were arrested after theft,      probation and ordered to refinance or sell
     forgery, and/or criminal impersonation            their FHA-insured properties to eliminate
     charges were filed in State District Court,       about $900,000 in mortgages considered at
     Englewood, CO. Bayot and Birashk assisted         risk. The defendants fraudulently obtained
     Sarwary purchase property and obtain an           FHA-insured mortgage loans using false
     FHA-insured mortgage. Ghaemi allegedly            SSNs through an unidentified loan officer in
     assisted Sarwary in hiding his property           Olathe, KS. As a result, 72 FHA-insured
     ownership from LHA, and Sarwary                   mortgages valued at approximately $5
     allegedly failed to report his ownership of       million were identified at risk.
     the property on LHA certifications. As a                   ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
     result, HUD realized losses of $46,988 when
     Sarwary defaulted on his FHA-insured                   Realtor Rohan A. Johnson, also known
     mortgage, and $3,760 in LHA housing               as Ato Ra Ajah El, and real estate consultant
     assistance Sarwary was not entitled to            Donovan Gilpin, doing business as Pre
     receive.                                          Amble Properties and professing
              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○        membership in an antigovernment Moorish
                                                       rights group, were indicted in a superseding
          Ifiok Equere, a loan broker and real         indictment filed in U.S. District Court, Central
     estate investor, was sentenced in U.S.            Islip, NY, on conspiracy, theft of government
     District Court, St. Louis, MO, to 37 months       property, and mail fraud charges. Johnson and
     incarceration and ordered to pay HUD and          Gilpin allegedly filed fraudulent real estate
     Wells Fargo Mortgage $104,702 restitution         deeds transferring ownership of 14 HUD-
     for his earlier guilty plea to false statements   owned or FHA-insured properties, a U.S.
     and felon in possession of a firearm. Equere      Department of Veterans Affairs (VA)-
     used false documents to flip properties and       guaranteed property, and a bank-owned

24                                                         HUD’s Single-Family Housing Programs
property to Pre Amble Properties. After                Kelly Jones, a loan officer and real estate
transferring the properties, Johnson and           agent at Amortgage Link and Nationwide
Gilpin allegedly resided in two HUD                Real Estate Solutions LLC, and Wander
properties, sold the bank property to an           Colon, an FHA-insured mortgagor, were
unsuspecting buyer, and attempted to sell the      indicted in U.S. District Court, Memphis,
VA property and two HUD properties to              TN, on numerous charges of conspiracy,
undercover operatives for $550,000. In             fraud, false statements, and general
addition, Johnson allegedly claimed to be a        provisions. Jones allegedly submitted false
HUD official on numerous deed recordings.          financial documents to assist unqualified
As a result, the bogus deeds prevented HUD         borrowers in obtaining FHA-insured
from selling its properties to legitimate buyers   mortgages. Colon allegedly submitted false
and banks from deeding foreclosed properties       income and employment information to
to HUD.                                            acquire an FHA-insured mortgage. As a
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○         result, two FHA-insured mortgages valued
                                                   at approximately $225,000 are at risk.
     John Thomas, a former appraiser, was                   ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
sentenced in U.S. District Court, St. Louis,
MO, to 3 years probation and ordered to pay             Brad Marks and Edwin Rivera, former
his victim $40,000 restitution for his             owners of the now defunct Quality Builders,
previous guilty plea to conspiracy to commit       Inc., and Quality Home Remodeling, were
wire fraud. Thomas and others falsely              sentenced in U.S. District Court,
inflated the value of both FHA-insured and         Philadelphia, PA, for Marks’ earlier guilty
conventionally financed properties,                plea and Rivera’s prior conviction on charges
concealed needed repair information, and           of mail fraud, wire fraud, and aiding and
received payments for bogus appraisals. As         abetting. Marks was sentenced to 20 months
a result, six properties obtained fraudulent       incarceration and 3 years probation and
FHA-insured mortgages valued at $650,000.          ordered to pay $400,000 to the victims.
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○         Rivera was sentenced to 41 months
                                                   incarceration and 3 years probation and
     Dwayne Jones, a former loan officer at        ordered to pay the above restitution jointly
the now defunct First Funding Mortgage             and severally with Marks. Marks and Rivera
Bankers (FFMB), pled guilty in U.S. District       induced Latino homeowners into signing
Court, Brooklyn, NY, to one count of               home improvement contracts; assisted them
conspiracy to defraud the United States.           with obtaining low-cost bank or HUD-
Jones submitted false statements to HUD            insured Title I financing; obtained
and Countrywide Home Loans when he                 homeowner loan proceeds; and provided
flipped his personal property to a relative,       incomplete, shoddy, or no property
who obtained an FHA-insured mortgage               improvements as promised. As a result,
through FFMB for $75,000 more than the             homeowner loss is estimated at more than
approved purchase price. Jones received            $400,000.
proceeds in excess of $51,000 and a short
payoff on his original FHA-insured                 Identity Fraud and FFalse
                                                                        alse
loan, also serviced by Countrywide.
Countrywide, unaware that the property on          Social Security Number
                                                                   Numberss
which it approved a short payoff was flipped
to a straw buyer for $75,000 more than the              Vincent Sirolli, owner of Encore
approved purchase price, submitted a claim         Mortgage Services, Inc. (EMS); Keith Lyon,
to HUD for more than $85,000.                      EMS Chief Operating Officer; Dana
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○         Siciliano, EMS loan officer; June Kodiak,
                                                   EMS underwriter; Ciriaco Gatta, also known


HUD’s Single-Family Housing Programs                                                                 25
     as Jack Gatta, an appraiser; Mary Diantonio      defaulted, and HUD realized a loss greater
     and Anthony Giampietro, settlement agents        than $50,000.
     at Rittenhouse Abstract and Title Company;                ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
     Mahn Huu Doan, also known as Bruce
     Doan; Trung Tam Dang; and straw buyer/                Kathleen Ramon, also known as
     seller Zu-Yun Kim, also known as Andy            Kathleen Hagan and doing business as El
     Kim, were indicted in U.S. District Court,       Mercado de Kansas City, was charged in
     Philadelphia, PA, on numerous counts of          Johnson County District Court, Kansas City,
     conspiracy, wire fraud, false statements to      KS, with nine counts of unlawful use of
     HUD, identity fraud, and aiding and              driver’s license and making a false writing.
     abetting. The above defendants allegedly         Ramon, through El Mercado de Kansas City,
     purchased properties using false or              allegedly received payments from
     borrowed identities, submitted and/or            undocumented immigrants obtaining
     processed false financial documents and          fraudulent Kansas-issued drivers’ licenses.
     inflated appraisals, and concealed financial     In addition, Ramon allegedly coached
     transactions at loan settlements to secure       undocumented immigrants on obtaining
     more than 180 fraudulent FHA-insured             mortgage and bank loans and insurance and
     mortgages valued in excess of $11 million.       filing tax documents under assumed
     As a result, HUD realized losses of              identities. As a result, seven FHA-insured
     $11,781,000 when 180 properties defaulted.       mortgages valued at $480,631 were
              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○       identified, and 150 fraudulent drivers’
                                                      licenses obtained.
         Lesly Bardales, a self-employed tax                   ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
     preparer, pled guilty to an information filed
     in U.S. District Court, Los Angeles, CA,              Sergio Manual Rodriguez, a former
     charging him with mail fraud and unlawful        FHA-insured mortgagor, was indicted in
     transfer of an identification document.          U.S. District Court, Macon, GA, on one
     Bardales created false pay stubs and IRS         count each of Social Security fraud and false
     W-2 documents and conspired with a former        statements. Rodriguez allegedly used the
     Social Security Administration (SSA)             identity of another person to obtain and
     employee to obtain and use genuine Social        default on an FHA-insured mortgage loan.
     Security cards and numbers for unqualified       As a result, HUD realized a loss greater than
     borrowers obtaining FHA-insured                  $40,000.
     mortgages. As a result, more than 100 FHA-                ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
     insured mortgages valued in excess of $1.3
     million were obtained, and HUD realized               David J. Brown, owner of 12 Volt, an
     losses of $135,899 when eight loans              electronics retailer, pled guilty in U.S.
     defaulted.                                       District Court, Washington, DC, to an
              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○       information charging him with bank fraud.
                                                      Brown and other conspirators laundered
         James Rucker, a mortgage broker with         credit card fraud proceeds by purchasing
     Ravenswood Mortgage, pled guilty in U.S.         approximately 11 HUD REO properties
     District Court, Chicago, IL, to one count of     using false financial documents and bogus
     wire fraud. Rucker submitted FHA-insured         identifications. After purchasing HUD REO
     loan packages containing false identification,   properties, Brown falsified documents and
     downpayment, employment, tax, and other          leased some properties to Washington, D.C.
     financial information for unqualified and/or     Housing Authority for use in its rental
     straw buyers obtaining FHA-insured               assistance program.
     mortgages. As a result, one property                      ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




26                                                        HUD’s Single-Family Housing Programs
     Edward Futch, also known as Edward            America $9,122 restitution for her earlier
Daniels, was sentenced in U.S. District            bankruptcy fraud conviction. Kessinger
Court, Norfolk, VA, to 3 years probation,          acquired one FHA-insured and two VA-
ordered to cease using the name and identity       guaranteed properties using a bogus name
of Edward Daniels, and fined $1,000 for his        and SSN, failed to make mortgage payments,
earlier guilty plea to one count of making         and filed multiple sham bankruptcies to
false statements to HUD. Futch possessed           hinder foreclosure proceedings.
and used identities and SSNs in two names,                  ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
obtained credit under both, and applied for
and received an FHA-insured mortgage                    Debra Ahmad-Bey, a Chicago Housing
loan      by    submitting      fraudulent         Authority (CHA) Section 8 landlord, Chicago
documentation. The FHA-insured loan was            police officer, and the former president of
cured from default status, and HUD realized        Developing Economical & Better Living, Inc.,
no loss.                                           a nonprofit organization permitted to acquire
                                                   discounted HUD REO properties, was
Bankr uptc
      uptcyy Fraud
Bankruptc                                          convicted in U.S. District Court, Chicago, IL,
                                                   on seven counts of bankruptcy fraud. Ahmad-
                                                   Bey failed to report her nonprofit business,
     Richard Leroy Davis, owner of
                                                   extensive proceeds from the resale of HUD
Foreclosure and Tenant Company Association,
                                                   REO properties, CHA Section 8 rental
pled guilty in U.S. District Court, Detroit, MI,
                                                   assistance payments, or income from her
to one count of mail fraud. Davis and
                                                   employment with the Chicago Police
previously convicted conspirators Chris
                                                   Department and various nursing companies
Thomas and Milton Goddard acquired partial
                                                   on two distinct bankruptcy petitions.
ownership in 600 distressed properties,                     ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
including 120 properties with FHA-insured
mortgages; filed fraudulent bankruptcies to
forestall foreclosure proceedings; and             Other Single-F
                                                         Sing     amil
                                                                  amilyy Fraud
                                                             le-Famil
skimmed property equity by diverting
monthly payments. As a result, 100 properties           Steven Lucas and Robert Bronke, former
valued at $7 million defaulted, and HUD            employees of now-defunct Dollars Express,
losses are yet to be determined.                   a HUD/FHA 203K general contractor, each
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○         pled guilty in U.S. District Court, Chicago,
                                                   IL, to one count of wire fraud. Arnold
     Salvador Bernal Hernandez pled guilty         Gillard, a former maintenance supervisor,
in U.S. District Court, Salt Lake City, UT, to     was sentenced to 48 months incarceration
making false statements, false bankruptcy          and ordered to pay First Tennessee Bank
declaration, false bankruptcy documents,           $260,275 restitution for his earlier guilty plea
and misuse of an SSN. Hernandez acquired           to wire fraud. Lucas, Bronke, Gillard, and
the identity of others, used their identities      others defrauded HUD and First Tennessee
to obtain three properties with FHA-insured        Bank by recruiting straw buyers and falsifying
mortgages, and filed fraudulent                    completed work orders to facilitate the release
bankruptcies to avert foreclosure                  of contracting escrow funds on more than 70
proceedings. As a result of foreclosures,          FHA-insured 203K mortgaged properties. As
HUD realized losses of $225,000.                   a result, HUD realized losses in excess of $4
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○         million.
                                                            ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○

     Barbara Kessinger, also known as Sheila
Murphy, was sentenced in U.S. District Court,         Isaac Lee Woods and Regina Bailey
Chicago, IL, to 3 years probation and ordered      Woods, owners and officers of Woodbai, Inc.,
to pay HUD $97,079, VA $13,807, and Bank of        a mortgage lender doing business as


HUD’s Single-Family Housing Programs                                                                  27
     Unlimited Financial Resources, were both
     convicted in U.S. District Court, New Bern,
     NC, on 32 counts of conspiracy, wire fraud,
     false statements, and money laundering.
     Isaac and Regina Woods created phony
     mortgages, electronically submitted the
     bogus mortgages to the secondary mortgage
     market, and caused Government National
     Mortgage Association to guarantee $1.4
     million in counterfeit investments. As a
     result, Isaac and Regina Woods fraudulently
     acquired more than $1 million, used most
     of the money to purchase rental properties
     in Durham, NC, and leased some of the
     properties to Durham Housing Authority
     for use in its Section 8 program. In addition,
     Timothy Eugene Benjamin, a defense
     witness who testified at the U.S. v Woods
     trial, was indicted in U.S. District Court,
     Raleigh, NC, on numerous counts of
     conspiracy, endeavoring to obstruct justice
     and aiding and abetting, attempted witness
     tampering and aiding and abetting, and
     false declarations in court. During Isaac and
     Regina Woods’ trial, Benjamin allegedly
     telephoned a government witness; made
     numerous false, misleading, and/or
     threatening statements; and attempted to
     influence or prevent the witness from
     testifying. In addition, while testifying on
     the Woods’ behalf, Benjamin allegedly made
     materially false declarations.
                                                       Copyright, 2006. Tribune - Chicago, IL.
              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○        Reprinted with permission.

          Steven Marquez, a loan officer at Primera
     Mortgage Company, was charged in a                    Dariusz Przybylek, an investor, and
     superseding indictment filed in Cook County      Erwin Espe, a former HUD-approved
     Circuit Court, Chicago, IL, with multiple        appraiser, were arrested after criminal
     counts of theft. Marquez allegedly deceived      complaints were filed in U.S. District Court,
     two property owners and acquired rights to       Chicago, IL, charging them with mail and
     their properties, sold the properties to         wire fraud. Przybylek allegedly attempted
     borrowers obtaining FHA-insured mortgages,       to purchase a HUD-owned property for 150
     and collected the sales proceeds. The property   percent of the HUD-appraised value by
     owners, believing they were refinancing their    submitting an inflated appraisal, phony
     original loan, mistakenly signed “power of       contractor affidavits, and fraudulent loan
     attorney” documents assigning their              documents to facilitate his receipt of
     homeownership rights to Marquez. The new         $113,000 for property rehabilitation through
     FHA-insured mortgages valued at more than        a straw contractor at closing.
                                                               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
     $250,000 are in foreclosure, and HUD losses
     are yet to be determined.
              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


28                                                        HUD’s Single-Family Housing Programs
     Kenneth Mixon was charged with two          months probation and ordered to pay the
counts of false pretenses and breaking and       court $500; Reed was sentenced to 24 months
entering with illegal entry in a criminal        probation and ordered to pay the court $500.
complaint filed in Wayne County Court,           In addition, the above defendants agreed to
Detroit, MI. Mixon allegedly entered HUD-        a 36-month governmentwide debarment.
owned properties, presented himself as the       Shatanya Fitchpatrick and her previously
owner and collected tenant rents in excess of    indicted husband, Bryon Fitchpatrick, used
$4,700, and unlawfully resided in one            illicit drug sales proceeds to purchase HUD-
property. As a result, HUD losses are            owned properties as investments through
estimated at approximately $45,700,              Alam via straw buyers Kathleen
including $41,000 in property damage.            Fitchpatrick, Jones, and Reed. After
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○       purchasing the properties, Bryon
                                                 Fitchpatrick used the homes to store illegal
     Israel Pena, a former youth pastor at a     drugs before renting or selling the
church in Bronx, NY, was found guilty in         properties.
U.S. District Court, White Plains, NY, of                 ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
conspiracy, bank fraud, and mail fraud.
From 1998 to 2001, Pena purchased                    Maritza Portillo, a real estate agent and
properties in the New York metropolitan          loan officer at Transatlantic Financial
area, flipped the properties to unqualified      Corporation, Covina, CA, was sentenced in
first-time homebuyers at a substantial profit,   U.S. District Court, Los Angeles, CA, to 3
and assisted the ineligible borrowers in         months in a community corrections center,
obtaining both FHA-insured and                   6 months house arrest with electronic
conventional mortgages by submitting false       monitoring, and 27 months supervised
loan documents and/or providing fictitious       release for violating the terms and
downpayment deposits. As a result, HUD           conditions of her federal probation, a result
realized a loss of $16,000 when one FHA-         of her earlier guilty plea to conspiracy to
insured property defaulted.                      commit bribery. While on probation, Portillo
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○       enticed and paid an individual to act as a
                                                 straw buyer and purchase residential
    Shatanya Fitchpatrick, also known as         investment property, promising to remit a
Shatanya Douglas, owner of ABS Rentals           portion of the sale proceeds when reselling
and Investments; Manjur Alam, a realtor at       the property at a later date. Portillo sold the
ReMax Preferred Properties; and straw            property, failed to divide the sale proceeds
buyers Kathleen Fitchpatrick, Deverell           with the straw buyer, and diverted the funds
Jones, and Demond Reed were each                 to other business associates. In addition,
sentenced in U.S. District Court, Wichita,       Portillo recruited a relative to collect rents
KS, for their earlier guilty pleas to numerous   from tenants residing in eight additional
counts of conspiracy to commit fraud             properties she purchased through straw
against HUD, false statements to HUD, and/       buyers; three of the properties had FHA-
or wire fraud. Shatanya Fitchpatrick was         insured mortgages.
sentenced to 4 months incarceration and 36                ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
months probation and ordered to pay the
U.S. Department of Agriculture $22,552               James Elliott Coleman, the former
restitution; Alam was sentenced to 12            president of the Allen Village Charter School
months probation and ordered to pay HUD          (AVCS) Board, pled guilty in U.S. District
$2,000 restitution; Kathleen Fitchpatrick was    Court, Kansas City, MO, to 11 counts of
sentenced to 12 months probation and             conspiracy, federal program fraud, and
ordered to pay the court $500; Jones was         interstate transportation of stolen funds.
sentenced to 3 months incarceration and 24       Coleman embezzled then repaid AVCS more


HUD’s Single-Family Housing Programs                                                               29
     than $47,000 in funds he obtained through      charges. Davis, previously indicted on false
     a mortgage investment fraud scheme.            statements under HUD’s OTND program,
     Coleman and previously indicted James          attempted to influence the testimony of a
     Lynn Woolard solicited investors for           witness/tenant in an effort to hide his true
     mortgage investments, provided false           residency at the OTND property. Davis
     documents to obtain conventional mortgage      purchased a HUD-owned property through
     loans on the investment properties, and        HUD’s OTND program in Rialto, CA, failed
     leased the properties to various               to reside at the property, leased the property
     organizations providing HUD-subsidized         for approximately 34 months, collected rents
     housing assistance payments.                   totaling $23,800, and falsely certified his
              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○     residency at the property on annual
                                                    certifications. As a result, HUD realized
         Barry Oaks, Sr., a San Joaquin Sheriff’s   losses approximating $60,300.
     Office deputy, entered into a settlement                ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
     agreement with the U.S. Attorney’s Office,
     Sacramento, CA, agreeing to pay HUD                James Anthony Street, a former U.S.
     $70,293. Oaks purchased but failed to reside   Postal Inspection Service police officer, was
     in property he acquired through HUD’s          sentenced in U.S. District Court, Los
     Officer/Teacher Next Door (OTND)               Angeles, CA, to 1 year probation and
     program.                                       ordered to pay a $2,100 fine for his earlier
              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○     guilty plea to false statements. Street, a
                                                    participant in HUD’s OTND program,
          John Henry Davis, a California licensed   owned property in Bloomington, CA, when
     real estate agent and lieutenant at Ironwood   he submitted written certifications claiming
     State Prison in Blythe, CA, was convicted in   the OTND property he purchased in Long
     U.S. District Court, Los Angeles, CA, on one   Beach, CA, was his sole residence. Street
     count of attempting to corruptly influence     paid HUD $48,500 when he sold the OTND
     a witness and acquitted of false statement     property.




30                                                      HUD’s Single-Family Housing Programs
       Chapter 3
HUD’
HUD’ss Public and Indian
  Housin
  Housingg Pr og rams
            Pro
          The U.S. Department of Housing and         area. These reports disclosed more than
     Urban Development (HUD) provides grants         $47.1 million in questioned costs and about
     and subsidies to more than 2,637 public         $61 million in recommendations that funds
     housing authorities (PHA) nationwide.           be put to better use. During this reporting
     More than 1,657 PHAs manage public              period, OIG reviewed Section 8 Housing
     housing units, and almost 980 with              Choice Voucher program activities,
     no public housing manage units                  public housing activities, including the
     under Section 8 tenant-based programs.          low-rent housing and Moving to Work
     PHAs administer both public housing             (MTW) Demonstration programs and the
     and Section 8 programs. HUD also                operating fund program.
     provides assistance to PHAs’ resident
     organizations to encourage increased
     resident management entities and resident
                                                     Section 8 Housing Choice
                                                               Housing
     skills programs. Programs administered          Vouc her Pr
                                                      oucher    ogram Acti
                                                              Pro         vities
                                                                      Activities
     by PHAs are designed to enable low-income
     families, the elderly, and persons with              Audits of the Section 8 Housing Choice
     disabilities to obtain and reside in housing    Voucher program were a priority during this
     that is safe, decent, sanitary, and in good     semiannual reporting period. In HUD’s
     repair.                                         fiscal year (FY) 2006 appropriation, the
                                                     Congress directed OIG to increase its audit
     Audits                                          and investigative efforts related to public
                                                     housing agencies’ administration of this
          During this reporting period, the Office   program. Public housing agencies were
     of Inspector General (OIG) issued 47 reports:   selected for audit based on risk analysis and/
     5 internal and 42 external audits in the        or hotline complaints. While OIG’s
     public and Indian housing (PIH) program         objectives varied by auditee, the majority of

                                      A Look Bac
                                              Backk ffor
                                                      or the Year
                                                             Year
           Char
           Chartt 3.1: Per centa
                       Percenta ge of OIG Public and Indian Housin
                           centag                                    g Closed Audit Cases
                                                               Housing              Cases,,
                                          Perfor
                                          Perfor med FY 06
                                               ormed
                                                                             Region 1
                                                                              Boston
                                                Region 5                       6%
                                                Chicago
                           Region 7-8
                                                  17%             Region 2
                           Kansas City
                              14%                                 New York
                                                                    10%




                                                                                     Region 3
                                                                                    Philadelphia
                                                                                        12%




        Region 9-10
        Los Angeles                                                      Region 4
            10%                                                          Atlanta
                                                Region 6                   19%
                                               Fort Worth
                                                  12%



32                                                     HUD’s Public and Indian Housing Programs
the reviews were to determine whether the        not adequately manage its Section 8
units met housing quality standards,             program. It made ineligible transfers of
whether the PHA managed the program              program funds from Section 8
according to HUD requirements, and               administrative fee reserves to its low-rent
whether the eligibility of the tenants was       housing program and from the capital fund
correctly determined.                            to its Section 8 program. In addition, it did
                                                 not maintain adequate documentation for
    HUD OIG audited the Housing                  rent and employee benefits costs charged to
Authority of the County of Cook’s, Chicago,      the Section 8 program and for payments to
IL, Section 8 Housing Choice Voucher             the City of Passaic for police services.
program based upon a risk analysis that          Further, an inspection of 65 units revealed
identified it as having a high-risk program.     that 44 units failed for material
                                                 noncompliance with housing quality
     Of the 83 housing units inspected, 64       standards.
did not meet HUD’s housing quality
standards, and 61 had 279 violations that             OIG recommended that HUD instruct
existed at the time of the Authority’s           the Authority to (1) reimburse the Section 8
previous inspection. In addition, the            administrative fee reserve for the $1 million
Authority improperly permitted 18 of 31,587      transferred to the low-rent housing program
individuals reviewed to be claimed as            and recapture or reduce Section 8
dependents in more than one program unit,        administrative fees by more than $590,000;
resulting in more than $20,000 in                (2) reimburse the capital fund more than
overpayments of program housing                  $401,000 from the Section 8 program; (3)
assistance. The Authority also failed to         provide        additional       supporting
determine the reasonableness of program          documentation for rent expenses, employee
rents before approving housing assistance        benefits costs, and payments for police
payment contracts for 11 of the 20 tenant        services and repay any unsupported costs
files reviewed and lacked documentation to       determined to be ineligible; and (4) develop
support when its rent reasonableness             and implement procedures to ensure that
database was last updated. As a result,          units meet housing quality standards.
program funds were not used efficiently and      (Audit Report: 2006-NY-1012)
effectively, and fewer funds were available               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○

to assist low- and moderate-income families
on the Authority’s waiting list.                      HUD OIG audited the Metropolitan
                                                 Development and Housing Agency’s,
    OIG recommended that HUD require             Nashville, TN, inspection of Section 8 units.
the Authority to reimburse its program from      Of 71 Section 8 units inspected, 52 did not
nonfederal funds for the improper use of         meet minimum housing quality standards,
more than $123,000 in program funds,             and 30 of those were in material
ensure that program housing units                noncompliance. As a result, tenants lived
inspected during the audit are repaired to       in units that were not decent, safe, and
meet HUD’s housing quality standards, and        sanitary, and the Agency made housing
implement procedures and controls to             assistance payments for units that did not
address the findings reported. (Audit            meet standards.
Report: 2006-CH-1012)
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○           OIG recommended that HUD require
                                                 the Agency to inspect the 52 units that did
   HUD OIG audited the Housing                   not meet minimum housing quality
Authority of the City of Passaic, Passaic, NJ.   standards to verify that the owners took
From 2002 through 2005, the Authority did        appropriate actions. If appropriate actions


HUD’s Public and Indian Housing Programs                                                         33
     were not taken, the Agency should abate the   existed at the time of the Authority’s
     rents or terminate the housing assistance     previous inspection. In addition, of the 8,976
     payment contracts. HUD should also            unit inspections conducted by the Authority
     require the Agency to implement internal      in calendar year 2005, 966 were not
     controls that ensure units meet HUD’s         conducted within the required 1 year of the
     housing quality standards and inspection      previous inspection, and 35 of the 76 files
     requirements to prevent more than $8.7        reviewed did not contain the documentation
     million from being spent on units that are    required by HUD and the Authority’s
     in material noncompliance with standards.     program administrative plan. The Authority
     (Audit Report: 2006-AT-1009)                  also incorrectly calculated housing
              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○    assistance payments, resulting in more than
                                                   $12,000 in overpayments and more than
         HUD OIG audited the Columbus              $11,000 in underpayments from January
     Metropolitan Housing Authority’s,             2003 through December 2005.
     Columbus, OH, Section 8 Housing Choice
     Voucher program based upon a risk analysis        OIG recommended that HUD require
     that identified it as having a high-risk      the Authority to reimburse its program from
     program.                                      nonfederal funds for the improper use of
                                                   more than $83,000 in program funds,
         Of the 67 housing units inspected, 47     provide documentation or reimburse its
     did not meet HUD’s housing quality            program more than $332,000 from
     standards, and 34 had 164 violations that     nonfederal funds for the unsupported
                                                   housing assistance payments and
                                                   administrative fees, ensure that units
                                                   inspected during the audit are repaired to
                                                   meet HUD’s housing quality standards, and
                                                   implement adequate procedures and
                                                   controls to ensure that program units meet
                                                   housing quality standards. (Audit Report:
                                                   2006-CH-1011)
                                                            ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


                                                       HUD OIG audited the Housing
                                                   Authority of the County of Cook’s, Chicago,
                                                   IL, Section 8 Housing Choice Voucher
                                                   program based upon a risk analysis that
                                                   identified it as having a high-risk program.

                                                       Of the 70 households’ files reviewed, the
                                                   Authority incorrectly calculated housing
                                                   assistance payments for 26 and lacked
                                                   supporting documentation regarding
                                                   admission and selection for five households,
                                                   resulting in nearly $28,000 in overpayments
                                                   of program housing assistance and utility
                                                   allowances and more than $47,000 in
                                                   unsupported housing assistance. The
                                                   Authority also failed to adequately use
                                                   HUD’s Enterprise Income Verification (EIV)
        Copyright, 2006. The Columbus Dispatch-    system to determine that reported zero-
        Columbus, OH. Reprinted with permission.   income households had unreported income,

34                                                  HUD’s Public and Indian Housing Programs
resulting in more than $62,000 in improper       more than $22,000 in unsupported
housing assistance and utility allowance         payments, more than $21,000 in
payments. It also did not monitor and            overpayments, and nearly $1,300 in
correct escrow balances of its Family Self-      underpayments from April 2004 through
Sufficiency Program participants and             March 2006.
accurately account for payments related to
household portability. As a result, program           OIG recommended that HUD require
funds were not always used efficiently and       the Authority to (1) reimburse its program
effectively, and fewer funds were available      from nonfederal funds for the improper use
to assist low- and moderate-income families      of program funds, (2) provide support or
on the Authority’s waiting list.                 reimburse its program from nonfederal
                                                 funds for the unsupported housing
    OIG recommended that HUD require             assistance and utility allowance payments
the Authority to (1) reimburse its program       and related administrative fees, and (3)
from nonfederal funds for the improper use       implement adequate procedures and
of program funds, (2) provide support or         controls to address the findings cited to help
reimburse its program from nonfederal            ensure that nearly $2 million in program
funds for the unsupported housing                funds are spent on payments that meet
assistance payments and related                  HUD’s requirements. (Audit Report: 2006-
administrative fees, and (3) implement           CH-1019)
adequate procedures and controls to                       ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
address the findings cited to help ensure
that more than $3.4 million in program               HUD OIG audited the Ann Arbor
funds are spent on housing assistance            Housing Commission’s, Ann Arbor, MI,
payments that meet HUD’s requirements.           Section 8 Housing Choice Voucher program,
(Audit Report: 2006-CH-1021)                     based upon a risk analysis that identified it
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○       as having a high-risk program.

    HUD OIG audited the Lucas                        Of the 62 housing units inspected, 45
Metropolitan Housing Authority’s, Toledo,        did not meet HUD’s housing quality
OH, Section 8 Housing Choice Voucher             standards, and 40 had 125 violations that
program based upon a risk analysis that          existed at the time of the Commission’s
identified it as having a high-risk program.     previous inspections. In addition, the
                                                 Commission improperly calculated the
    Of the 62 housing units inspected, 49        housing assistance payments for 16 of 25
did not meet HUD’s housing quality               tenant files reviewed and did not perform
standards, and 45 had 212 violations that        reexaminations in a timely manner. This
existed at the time of the Authority’s           resulted in more than $7,000 in housing
previous inspections. The 45 units had           assistance payment errors. Also, the
between 1 and 12 preexisting violations per      Commission did not establish an adequate
unit. OIG estimates that over the next year,     cost allocation plan for charging indirect
the Authority will pay more than $1.3            costs to its program.
million in housing assistance payments on
units with material housing quality                   OIG recommended that HUD require
standards violations. In addition, of 67 files   the Commission to reimburse its program
reviewed, 37 did not contain the                 from nonfederal funds for the improper use
documentation required by HUD and the            of almost $59,000 in program funds, ensure
Authority’s program administrative plan.         that program housing units inspected
The Authority also incorrectly calculated        during the audit are repaired to meet HUD’s
housing assistance payments, resulting in        housing quality standards, and implement


HUD’s Public and Indian Housing Programs                                                          35
     procedures and controls to address the                OIG recommended that HUD require
     findings reported. (Audit Report: 2006-CH-       the Authority to (1) correct the voucher size
     1013)                                            for overhoused tenants, (2) repay HUD for
              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○       the housing assistance overpayments, (3)
                                                      improve and correct its procedures for
          HUD OIG audited the Orange City             assigning subsidy size to avoid future losses
     Housing Authority’s, Orange, NJ, Housing         of up to $768,000, and (4) take the necessary
     Choice Voucher program. Of 59 Section 8          action to reduce the Authority’s FY 2006
     units inspected, 55 did not meet minimum         Section 8 budget by more than $189,000.
     housing quality standards, 37 of which were      (Audit Report: 2006-FW-1015)
     in material noncompliance. As a result,                   ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
     tenants lived in units that were not decent,
     safe, and sanitary, and HUD made housing             HUD OIG audited the Municipality of
     assistance payments for units that did not       Bayamon Housing Authority’s, Bayamon,
     meet housing quality standards.                  PR, Section 8 Housing Choice Voucher
     Additionally, the Authority did not always       program. Of the 66 units inspected, 58 did
     allocate expenses accurately to the Housing      not meet minimum housing quality
     Choice Voucher program and did not always        standards, and 15 were in material
     correctly calculate its housing assistance       noncompliance. As a result, tenants lived
     payments and obtain necessary documents          in units that were not decent, safe, and
     related to tenant recertifications.              sanitary, and HUD made housing assistance
                                                      payments for units that did not meet
          OIG recommended that HUD instruct           standards.
     the Authority to (1) to ensure that units meet
     housing quality standards and that                    OIG recommended that HUD require
     corrective action has been taken on those        the Authority to inspect all of the 58 units
     units that failed to meet standards, (2)         that did not meet minimum housing quality
     develop procedures and controls for              standards to verify that the landlords took
     allocating and charging costs to the Housing     appropriate corrective actions to make the
     Choice Voucher program, (3) provide              units decent, safe, and sanitary. If
     documentation for all unsupported cost and       appropriate actions were not taken, the
     reimburse any cost determined to be              Authority should abate the rents or
     ineligible, and (4) establish procedures to      terminate the tenants’ vouchers. HUD also
     ensure that all voucher recertification          should require the Authority to implement
     information for tenants and landlords is         an internal control plan and incorporate it
     adequately supported and documented.             into the Authority’s Section 8 administrative
     (Audit Report: 2006-NY-1010)                     plan to ensure that units meet HUD’s
              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○       housing quality standards and inspections
                                                      meet HUD requirements. (Audit Report:
         HUD OIG audited the Housing                  2006-AT-1015)
     Authority of the City of Austin’s, Austin, TX,            ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
     Section 8 Housing Choice Voucher program.
     In 482 of the 662 vouchers reviewed, the             HUD OIG audited the Orlando, FL,
     Authority applied the correct voucher size       Housing Authority’s Section 8 Housing
     and correctly computed housing assistance        Choice Voucher program. Of 67 Section 8
     payments. However, it overhoused 180             units inspected, 20 did not meet standards,
     tenants and paid more than $588,000 in           and eight of those were in material
     excess housing assistance payments. In           noncompliance. As a result, the Authority
     addition, HUD overfunded the Authority’s         paid more than $31,000 in ineligible
     FY 2006 Section 8 Housing Choice Voucher         subsidies and more than $10,000 in excess
     program budget by more than $189,000.            housing assistance payments for 5 of 22

36                                                     HUD’s Public and Indian Housing Programs
tenants housed in units larger than justified          OIG recommended that HUD require
by the families’ composition.                     the Authority to (1) support or reimburse
                                                  HUD more than $1 million in unsupported
    OIG recommended that HUD require              Section 8 housing assistance payments, (2)
the Authority to abate Section 8 subsidies        implement the necessary controls and/or
or terminate housing assistance payment           revisions to its administrative plan to ensure
contracts on all units that do not meet           that the eligibility determinations are made
standards if the violations detected are not      properly in the future, and (3) conduct
corrected in a timely manner. HUD should          training with Section 8 personnel on the new
also require the Authority to improve its         controls and procedures. (Audit Report:
controls over the inspection process to           2006-LA-1012)
ensure that inspectors properly identify and               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
report all housing quality standards
violations in the units they inspect to                HUD OIG audited the Rockford
prevent more than $1.1 million from being         Housing Authority’s, Rockford, IL, Section
spent on units with material housing quality      8 Housing Choice Voucher program based
standards violations. HUD should further          upon a risk analysis that identified the
require the Authority to repay more than          Authority as having a high-risk program. Of
$31,000 from nonfederal funds for ineligible      85 files reviewed, 73 did not contain
housing assistance payments it made for the       documentation required by HUD and the
eight units with material violations.             Authority’s program administrative plan to
                                                  support more than $547,000 in housing
     OIG also recommended that HUD                assistance and utility allowance payments.
require the Authority to reimburse its            The Authority incorrectly calculated
program from nonfederal funds more than           households’ payments, resulting in nearly
$10,000 for excess housing assistance             $50,000 in overpayments and more than
payments for five overhoused tenants plus         $2,500 in underpayments for the period
any additional amount paid until corrective       October 2003 through November 2005. OIG
action is taken. HUD should also require          estimates that over the next year, the
the Authority to establish controls to ensure     Authority will overpay more than $338,000
initial determination of the correct voucher      in housing assistance and utility allowance
size and to adjust tenant vouchers in a           payments.
timely manner to reflect reported changes
in family composition. HUD should further             OIG recommended that HUD (1)
require the Authority to issue the correct size   require the Authority to provide
voucher to overhoused tenants and ensure          documentation or reimburse its program
that their subsidy amounts are properly           from nonfederal funds for the unsupported
calculated. (Audit Report: 2006-AT-1010)          housing assistance and utility allowance
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○        payments and associated administrative
                                                  fees, (2) reimburse its program from
     HUD OIG audited the Housing                  nonfederal funds for the improper use of
Authority of the City of Los Angeles’ tenant      program funds, (3) reimburse the
eligibility determinations for its Section 8      appropriate     households      for   the
Housing Choice Voucher program. The               underpayment of housing assistance and
Authority did not establish and document          utility allowance payments, and (4)
its Section 8 tenants’ eligibility to receive     implement adequate procedures and
housing choice vouchers in 76 of 133 cases        controls to address the deficiencies
reviewed. As a result, the Authority paid         identified. (Audit Report: 2006-CH-1020)
more than $1 million in unsupported and                    ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
ineligible housing assistance payments.


HUD’s Public and Indian Housing Programs                                                           37
          HUD OIG audited the Section 8                 $51,000 in ineligible or unsupported subsidy
     program administered by the Housing                payments for these tenants.
     Authority of the City of Denton, Denton,
     TX. The Authority applied its decreased                 OIG recommended that HUD require
     payment standards without granting the             the Authority to (1) repay tenants for
     required grace period. Further, it did not         subsidy underpayments caused by
     grant disability allowances for six eligible       decreasing payment standards too early and
     tenants in determining adjusted income. As         not granting disability allowances, (2) repay
     a result, it underpaid an estimated $126,000       its Section 8 account for overpayments from
     in subsidies for 447 tenants. Twenty-nine          overhousing tenants, (3) strengthen its
     tenants were overhoused because the                quality control process, and (4) develop and
     Authority assigned a voucher size that             implement controls to ensure that the
     exceeded its subsidy size standards with           procedural errors identified during the audit
     either no explanation or questionable              are corrected and avoided in the future.
     justification. The Authority paid almost           (Audit Report: 2006-FW-1013)
                                                                   ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




         Copyright, 2006. Denton Record-Chronicle - Denton, TX. Reprinted with permission.

38                                                        HUD’s Public and Indian Housing Programs
     HUD OIG reviewed the Section 8             for-profit entity in accordance with HUD
Housing Choice Voucher program at the           regulations.
Portland Housing Authority in Portland,
ME. The Authority did not use its Section 8         The Authority improperly issued
administrative fee reserves in a timely         housing choice vouchers to 22 tenants and
manner or properly allocate salary and          erroneously disbursed more than $49,000 in
employee benefits expenses to the program.      housing assistance payments. It lacked a
It transferred Section 8 administrative fee     system to monitor the results of housing
reserves to its local programs account, but     quality standards inspections to ensure that
as of March 2006, it had not used almost        housing assistance payments were abated
$648,000 of these reserve funds for program     when needed and to document that it
or other housing purposes. It also              conducted quality control inspections as
undercharged its program by more than           required by HUD regulations. Weaknesses
$158,000 in salary and employee benefits        in the Authority’s financial management
expenses because its cost allocation            system allowed the disbursement of more
procedures improperly charged the               than $588,000 for questionable and ineligible
program costs to its Public Housing Capital     costs and caused the incorrect calculation of
Fund program when the Housing Choice            Section 8 administrative fees. Further, the
Voucher program had funding shortfalls.         Authority did not obtain a partial release of
                                                declaration of trust from HUD to transfer
     OIG recommended that HUD require           properties to its not-for-profit entity as
the Authority to (1) repay to its Section 8     required by HUD regulations.
program the unused portion of almost
$648,000 in administrative fee reserve funds         OIG recommended that HUD reallocate
transferred to its local programs account and   the Authority’s unused housing choice
provide supporting documents for                vouchers and require it to (1) seek a HUD
verification of the more than $158,000 in       waiver to allow tenants who were
transferred reserve funds to the Public         improperly issued vouchers to retain them,
Housing Capital Fund program, (2) identify      (2) seek reimbursement of ineligible housing
current and valid uses for the remaining        assistance payments, (3) establish a system
Section 8 administrative reserves (almost       to track housing quality inspection activities,
$490,000), and (3) establish and implement      (4) develop and implement financial controls
formal written procedures to properly           to ensure proper allocation and
allocate costs to the benefiting programs. In   disbursement of funds, and (5) obtain
addition, OIG recommended that HUD              properly approved partial release of
verify the repayment of more than $158,000      declaration of trust documents for property
to the Authority’s Public Housing Capital       transferred for sale under the
Fund program for ineligible administrative      homeownership program. (Audit Report:
expenses. (Audit Report: 2006-BO-1011)          2006-NY-1008)
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    HUD OIG audited the Freeport                     HUD OIG audited the Dallas County
Housing Authority, Freeport, NY, to             Housing Agency’s, Dallas, TX, Section 8
determine whether it (1) implemented            program. The Agency operated its Section
admission policies that complied with HUD       8 program in compliance with HUD
requirements, (2) ensured that Section 8        requirements. It computed housing
program units met housing quality               assistance payments correctly and had
standards, (3) maintained a financial           effective controls in place to ensure that it
management system that adequately               met housing quality standards. However,
safeguarded funds, and (4) operated its not-    it overhoused 34 tenants by granting


HUD’s Public and Indian Housing Programs                                                          39
     unjustified subsidy size exceptions and           allocations; (2) develop and implement a
     unnecessarily paid more than $63,000 in           reasonable method for allocating costs to the
     housing assistance payments for 23 of the         Section 8 program, thereby putting more
     tenants.                                          than $76,000 to better use over a 1-year
                                                       period; (3) repay its Section 8 program more
         OIG recommended that HUD require              than $500 and reimburse clients more than
     the Agency to (1) repay ineligible housing        $1,000 from its earned Section 8
     assistance overpayments of more than              administrative fees for housing assistance
     $63,000 and (2) improve its procedures to         overpayments and underpayments; and (4)
     ensure that it assigns the correct subsidy        develop and implement procedures for
     size for all tenants. (Audit Report: 2006-        calculating rents correctly, maintaining
     FW-1009)                                          client files adequately, performing quality
              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○        control reviews of its client files, and
                                                       performing adequate rent reasonableness
          HUD OIG audited the Housing                  determinations. (Audit Report: 2006-PH-
     Authority of the County of Butler to              1010)
     determine whether the Authority was                        ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
     properly administering its Section 8
     Housing Choice Voucher program. The                    HUD OIG audited the Benton Harbor
     Authority generally administered its Section      Housing Commission’s, Benton Harbor, MI,
     8 program properly, but some                      Public Housing Capital Fund program. The
     improvements were needed. The Authority,          Commission lacked documentation to
     located in Butler, PA, did not allocate           support more than $206,000 in program
     administrative salary and employee benefit        expenditures and improperly used $500 in
     costs to the Section 8 program on a               program funds to pay expenses related to
     reasonable and fair basis. As a result, it        its Housing Choice Voucher program.
     could not support more than $229,000 in           Further, the Commission’s procurement
     expenditures for administrative salaries and      activities were not conducted according to
     associated employee benefits over a 3-year        its and HUD’s requirements.
     period. In addition, the Authority did not
     always calculate housing assistance                   OIG recommended that HUD require
     payments correctly or maintain adequate           the Commission to (1) provide
     documentation in its client files to              documentation to support the unsupported
     demonstrate compliance with HUD                   expenditures or reimburse its program from
     requirements. It also did not have written        nonfederal funds for the applicable portion;
     procedures for conducting quality control         (2) provide documentation that it
     reviews of the client files, which would have     reimbursed its program from its Section 8
     alerted it to the deficiencies. As a result, it   housing administrative fees for the improper
     made housing assistance overpayments of           payment of expenses related to its Section 8
     more than $500 and underpayments of more          Housing Choice Voucher program; and (3)
     than $1,000 in the 21 client files reviewed       implement adequate procedures, controls,
     and did not have adequate assurance that          and board oversight to correct the
     the housing assistance payments it made to        weaknesses cited. (Audit Report: 2006-CH-
     landlords were reasonable.                        1010)
                                                                ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
          OIG recommended that the Authority
     (1) provide documentation to support the             HUD OIG audited the Miami, FL,
     more than $229,000 in questioned employee         Miami Dade Housing Agency’s Section 8
     salary and benefit costs or reimburse the         Housing Choice Voucher program. The
     Section 8 program from the programs that          Agency overhoused 17 tenants and
     benefited from the erroneous costs                unnecessarily paid almost $62,000 in excess

40                                                      HUD’s Public and Indian Housing Programs
subsidies on behalf of 13 of the tenants. It         HUD OIG audited the Omaha Housing
also had 228 tenants who could be                Authority in Omaha, NE, to determine
overhoused with the potential to incur           whether the Authority followed HUD
excess subsidy payments. By improving its        procurement requirements. The Authority
procedures, the Agency could avoid future        did not follow required procurement
losses of almost $82,000, which would allow      procedures. It used more than $5,000 in
it to provide vouchers to additional tenants.    HUD funds to purchase ineligible goods and
                                                 services, and it could have saved at least
     OIG recommended that HUD require            $970,000 when it purchased $1.9 million in
the Agency to (1) submit a corrective action     other goods and services.
plan to correct the 17 overhoused tenant
vouchers, (2) reimburse its program almost            OIG recommended that HUD require
$62,000 from nonfederal funds, (3) submit a      the Authority to repay its low-rent program
time schedule to review the additional 228       for the ineligible purchases and improve
tenants for overhousing and a corrective         controls over its procurement process.
action plan to correct any overhoused tenant     (Audit Report: 2006-KC-1010)
vouchers and reimburse its program from                   ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
nonfederal funds, and (4) develop and
implement procedures to ensure that                   HUD OIG audited the Saginaw
tenants receive the proper voucher size to       Housing Commission’s, Saginaw, MI,
avoid future losses of almost $82,000. (Audit    Public Housing Operating Fund program
Report: 2006-AT-1012)                            based on a request from HUD. The
                                                 Commission improperly acquired the
Public Housing Authority
       Housing                                   Saginaw County Fairgrounds property,
                                                 which included a harness raceway, using
Mana
Manag gement of Assets                           nearly $536,000 in program funds. Because
                                                 of the Commission’s improper use of these
     HUD OIG audited HUD’s efforts to            funds, its program also lost more than
collect a more than $2.7 million debt from       $25,000 in interest income that would have
the Omaha Housing Authority of Omaha,            been realized if the funds had been invested.
NE, in response to a citizen’s complaint that    The Commission failed to file a required
the Authority had not taken steps to repay       declaration of trust to evidence its covenant
or resolve the liability. The audit objectives   to convey or encumber the property and to
were to determine why the liability existed,     protect HUD’s rights and interests. Further,
to whom it was owed, and what efforts HUD        the Commission entered into eight rooftop
made to collect it.                              lease agreements without required HUD
                                                 approval and did not restrict more than
     HUD did not ensure that the Authority       $12,000 in revenue to pay for program
repaid its public housing programs more          expenses.
than $2.7 million for ineligible program
activities, nor did it establish a repayment          OIG recommended that HUD require
agreement. As a result, the Authority’s          the Commission to (1) reimburse its
programs did not have these funds available      program for the inappropriate use of funds
for their intended purposes.                     and lost interest income identified, (2) file a
                                                 declaration of trust on the property if it has
     OIG recommended that HUD establish          not been sold, (3) submit its current rooftop
a repayment agreement with the Authority         lease agreements to HUD for approval, and
to resolve the liability. (Audit Report: 2006-   (4) implement adequate procedures and
KC-0003)                                         controls to address the findings cited. OIG
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○       also recommended that HUD pursue


HUD’s Public and Indian Housing Programs                                                           41
     administrative sanctions against the            nonprofit entities. The audit objectives were
     Commission’s former executive director and      to determine whether the Authority, located
     its board members involved in the improper      in Macon, GA, used low-income housing
     purchase of property. (Audit Report: 2006-      and HOPE VI program funds for
     CH-1018)                                        unauthorized purposes to benefit other
              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○      entities without specific HUD approval and
                                                     whether the Authority complied with
          Based on a complaint from a member         applicable laws and regulations and
     of the Housing Authority of the City of Las     properly safeguarded low-income resources
     Vegas’, Las Vegas, NV, board of                 when it conducted business with affiliated
     commissioners, HUD OIG reviewed the             nonprofit entities and consultants.
     Authority’s contracts with Abt Associates to
     determine whether the Authority followed             The Authority violated its annual
     federal procurement and contracting             contributions contract with HUD by using
     requirements when it hired Abt. OIG             funds from its low-income housing general
     expanded its review to determine whether        fund account to pay expenses of its
     the Authority retained interest from            programs’ affiliated entities. As of December
     improperly invested grant funds.                31, 2004, 11 programs or entities, including
                                                     nonprofit firms and other programs, owed
          The Authority awarded three contracts      the general fund account more than
     totaling more than $473,000 to Abt in 2004      $395,000. As a result, the Authority made
     and 2005 in violation of federal requirements   ineligible disbursements with low-income
     and its own policies and procedures for         housing funds totaling more than $395,000.
     procurement, contracting, and contract          Further, the Authority violated its contract
     administration. It also improperly retained     with HUD by using low-income public
     investment earnings totaling almost $85,000     housing assets as collateral to guarantee
     from improperly drawn down replacement          loans for two affiliated nonprofit entities
     housing factor grant funds for FYs 2000 and     totaling $2.2 million, thereby placing
     2001.                                           contract assets at risk. The original $2.2
                                                     million in loan balances guaranteed has been
          OIG recommended that HUD require           reduced to $125,000, which is the amount
     the Authority to provide adequate support       currently at risk. Additionally, the Authority
     of cost reasonableness or reimburse the low-    violated federal contracting requirements by
     rent housing program more than $473,000         entering into an open-ended contract with a
     from nonfederal funds, reimburse the            consultant without a ceiling price. The
     Federal Government for the almost $85,000       Authority spent almost $228,000 on the
     in interest earned on the grant funds, take     contract, which has been in effect since
     appropriate administrative sanctions            November 2001.
     against responsible Authority officials, and
     provide contract and procurement training            OIG recommended that HUD require
     to both the board and Authority officials.      the Authority to (1) collect the more than
     (Audit Report: 2006-LA-1017)                    $395,000 or current balance owed to the
              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○      general fund account and repay the low-
                                                     income public housing reserve the amounts
         HUD OIG reviewed the Housing                collected, (2) pursue terminating the loan
     Authority of the City of Macon’s                guarantees so the contract collateral used to
     administration of its housing development       guarantee the unpaid loan balances of
     activities as part of its audit of HUD’s        $125,000 will not be at risk, (3) justify the
     oversight of public housing agency              necessity and reasonableness of the
     development activities with related             payments made for the consultant’s contract


42                                                    HUD’s Public and Indian Housing Programs
and reimburse any amount that cannot be        accordance with           applicable         HUD
supported from nonfederal funds, and (4)       requirements.
terminate or amend the consultant’s contract
in accordance with applicable federal               The Authority did not properly allocate
requirements. (Audit Report: 2006-AT-          almost $60,000 in salary and benefit costs to
1008)                                          its nonfederal housing developments. It also
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○     did not always follow federal procurement
                                               requirements when awarding contracts. In
    HUD OIG audited the Housing                addition, it made some incorrect housing
Authority of the City of North Charleston’s,   assistance payments and did not settle
North Charleston, SC, implementation of a      almost $62,000 in interfund balances due its
HUD Section 5(h) homeownership program         low-rent public housing fund from other
to determine whether the Authority             HUD programs in a timely manner.
administered its capital funding for the
Oakleaf project in accordance with HUD             OIG recommended that HUD require
program requirements for financial             the Authority to provide adequate
management and reasonableness and              documentation to support almost $60,000 in
necessity of expenditures and whether the      questioned salary and benefit costs or
project was adequately progressing toward      reimburse its public housing program from
accomplishing its homeownership objective.     nonfederal sources, reduce the amount of
                                               housing assistance payments by the more
    The Authority inappropriately pledged      than $5,000 overpayment on the Authority’s
public housing program funds to secure a       next Section 8 year-end settlement
$400,000 commercial bank loan for real         statement, reimburse applicable tenants
estate improvements at Oakleaf. In             almost $800 for housing assistance
addition, the Authority’s noncompliance        underpayments, and repay its low-rent
with program requirements and untimely         public housing fund almost $62,000 from its
planning caused delays in its Oakleaf          other HUD programs.                OIG also
homeownership program. The delays              recommended that the Authority provide
hampered the Authority’s ability to provide    adequate documentation to justify its
timely homeownership opportunities to          awarding of four contracts or repay almost
low-income individuals and families.           $85,000 or the amount currently expended
                                               under the contracts from nonfederal funds
    OIG recommended that the HUD               and create and implement adequate internal
ensure that the Authority obtains prior        controls to ensure that it fully complies with
approval from HUD before entering into any     HUD and other federal requirements.
future contract or agreement that obligates    (Audit Report: 2006-PH-1011)
HUD funds to secure debt and require the                ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
Authority to provide a reasonable plan for
completing the project and selling the units       HUD OIG reviewed the development
and properly assess and document               activities of the Columbus Housing
homebuyers’ progress and related time          Authority, Columbus, NE, to determine
extension. (Audit Report: 2006-AT-1013)        whether it spent or encumbered HUD assets
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○     for development activities without HUD
                                               approval.
   HUD OIG audited the Hampton
Redevelopment and Housing Authority,              The Authority inappropriately spent
Hampton, VA, to determine whether the          more than $204,000 in public housing funds
Authority carried out its operations in        to develop a non-HUD multifamily
                                               housing development. It also improperly


HUD’s Public and Indian Housing Programs                                                          43
     encumbered its public housing assets when       payments identified, and (3) implement
     it signed loan documents containing setoff      adequate procedures and controls to correct
     provisions that allowed the bank to take        the cited weaknesses. (Audit Report: 2006-
     Authority bank account funds in the event       CH-1016)
     of default on the loans. The Authority                   ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
     defaulted on the loans, and the bank seized
     more than $88,000 in public housing funds.           HUD OIG audited the Orange City
                                                     Housing Authority, Orange, NJ, regarding
         OIG recommended that HUD require            its payments to and on behalf of the City of
     the Authority to repay its public housing       Orange and the write-off of an account
     program from nonfederal sources, continue       receivable from the City. The objective was
     to pursue recovery of the funds seized by       to determine whether payments to the City
     the bank, and ensure that no additional         for street lighting and a write-off of an
     HUD funds are used for nonfederal               account receivable from the City were
     purposes without HUD approval. (Audit           proper.
     Report: 2006-KC-1013)
              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○          The Authority paid for street lighting
                                                     expenses, which should have been furnished
          HUD OIG audited the Pickaway               by the City at no cost to the Authority. It
     Metropolitan Housing Authority’s,               also wrote off an account receivable
     Circleville, OH, activities with its related    pertaining to the cost of the lights without
     nonprofit organization because the              obtaining board approval. As a result, the
     Authority was identified as having high-risk    Authority paid for the City’s street lighting
     indicators of nonprofit development activity.   costs and was deprived of funds from a more
     The Authority improperly loaned nearly          than $156,000 receivable, which could be
     $256,000 in 5(h) Homeownership Plan             used to pay for necessary operating
     (program) sales proceeds to its nonprofit,      expenses if collected.
     Building Affordable Housing Corporation.
     The two loans occurred without HUD                   OIG recommended that HUD instruct
     approval and did not follow federal             the Authority to record an account receivable
     requirements regarding the use of the           for the more than $156,000 due from the City
     program proceeds. The Authority’s               and notify the City to pay for street lighting
     program also lost more than $60,000 in          costs. (Audit Report: 2006-NY-1011)
     interest income that would have been                     ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
     realized if the proceeds had been invested.
     Further, the Authority paid more than                HUD OIG reviewed the development
     $22,000 in expenses that would not have         activities of the Columbus Housing
     been incurred if it had conducted the           Authority, Columbus, NE. The Authority
     Corporation’s development activities. The       inappropriately spent more than $62,000 in
     Corporation used nearly $2,400 in program       public housing funds to operate Crown
     proceeds to pay legal expenses related to its   Villa, a non-HUD multifamily development.
     development activities that were not            It also inappropriately signed Crown Villa
     adequately supported by detailed invoices.      loan documents that contained setoff
                                                     provisions allowing the bank to take
         OIG recommended that HUD require            Authority deposits in the event of default.
     the Authority to (1) reimburse its program      The Authority defaulted, and the bank
     from nonfederal funds for the improper          seized more than $88,000 in public housing
     use of program funds, (2) provide               funds to satisfy the defaulted loans. The
     documentation or reimburse its program          Authority still owes nearly $112,000 on a
     from nonfederal funds for the unsupported       remaining loan. It is now at significant risk


44                                                    HUD’s Public and Indian Housing Programs
of being unable to continue administering        to pay entertainment expenses for its
HUD housing programs.                            employees and residents, more than $1,000
                                                 to pay travel expenses, and more than $150
     OIG recommended that HUD require            to pay bereavement expenses. The
the Authority to (1) repay its public housing    complainant’s other allegations were not
program from nonfederal sources, (2) ensure      substantiated by the review.
that no additional HUD funds are used for
nonfederal activities without prior HUD              OIG recommended that HUD require
approval, (3) terminate the bank agreement       the Authority to (1) support that the use of
that is encumbering public housing funds,        operating funds for legal services was
and (4) implement controls to protect federal    reasonable or reimburse its operating fund
funds. OIG also recommended that HUD             from nonfederal funds for the applicable
impose administrative sanctions against the      amount, (2) implement procedures and
Authority, its former executive director, and    controls to ensure that it follows HUD’s
members of its board of commissioners for        requirements and/or the Authority’s
placing the Authority in its current position.   procurement procedures manual when
(Audit Report: 2006-KC-1014)                     procuring services and using operating
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○       funds, (3) submit its legal services contracts
                                                 to HUD for review and approval before
    HUD OIG audited the public housing           disbursing additional HUD funds for legal
program of the Youngstown Metropolitan           services, and (4) review its use of operating
Housing Authority in Youngstown, OH,             funds to ensure that funds were used for
based on a citizen’s complaint to the hotline.   allowable expenses. If operating funds were
The complainant alleged that the Authority’s     used to pay inappropriate expenses, the
executive director (1) ordered Authority         Authority should reimburse its operating
personnel to purchase her a new sport utility    fund from nonfederal funds as appropriate.
vehicle for her personal use, (2) failed to      (Audit Report: 2006-CH-1009)
follow HUD’s and the Authority’s                          ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
procurement policies, (3) used the
Authority’s employees for personal services           HUD OIG audited the Housing
during duty hours, (4) used the Authority’s      Authority of Lawrence County, KY, to
equipment for her own and others’ personal       determine whether it managed its
use, and (5) tampered with the Authority’s       procurement and financial management
records. OIG’s objectives were to determine      systems in accordance with HUD
whether the complainant’s allegations were       requirements. The Authority spent almost
substantiated and whether the Authority          $72,000 for questionable purchases and
used HUD funds in accordance with                travel expenses. HUD and the Authority
applicable requirements.                         have entered into an improvement plan and
                                                 memorandum of agreement to address
     The Authority did not follow HUD’s          inefficiencies in the Authority’s operations,
requirements for full and open competition       but additional actions are needed.
and its procurement procedures manual
regarding the procurement of legal and               OIG recommended that HUD (1)
housing maintenance training services            require the Authority to provide support for
totaling almost $100,000 from July 2004          almost $72,000 in questionable costs or repay
through January 2006. In addition, it did        any ineligible or unsupported amounts from
not follow federal requirements regarding        nonfederal funds; (2) revise the
its use of almost $4,000 in public housing       improvement plan and memorandum of
operating funds from May 2004 through            agreement with the Authority to include
September 2005. It used more than $2,000         actions to ensure that the Authority


HUD’s Public and Indian Housing Programs                                                          45
     adequately segregates its accounts payable       operating subsidy to exclude ineligible units
     processes, provides adequate supervisory         from April 1, 2003, to December 31, 2004, and
     oversight of credit card purchases and travel    (7) discontinue requesting subsidies for
     advances, and complies with its                  housing units that are not eligible. By
     procurement policies and federal                 implementing these recommendations, the
     procurement regulations; and (3) reevaluate      Authority can put nearly $1.9 million to
     the corrective actions at a later date to        better use over a 1-year period. (Audit
     determine whether the actions were               Report: 2006-PH-1014)
     appropriate. (Audit Report: 2006-AT-1017)
                                                      Movin
                                                      Moving to W
                                                        ving      ork (MTW)
                                                                Work
     Lo
     Loww -Rent Maintenance                           Demostration Pr
                                                                   Proogram
     Pr
     Proogram
                                                          HUD OIG audited the process HUD
         HUD OIG audited the Housing                  used to admit the Housing Authority of
     Authority of the City of McKeesport’s,           Baltimore City, Baltimore, MD, into its
     McKeesport, PA, management of its low-           MTW Demonstration program to determine
     rent maintenance program. The Authority          whether HUD followed applicable statutory
     received operating subsidies for ineligible      requirements when it admitted the
     units and did not prevent conflict-of-interest   Authority into the program.
     situations with its vendors. Additionally, it
     did not provide adequate management                   In violation of the statute, HUD
     oversight and control and did not                executed an MTW agreement with the
     implement adequate policies and                  Authority without requiring it to provide for
     procedures to ensure that its maintenance        citizen participation through a public
     employees completed vacant work orders as        hearing or other means and by not requiring
     required.                                        it to develop a plan that considered
                                                      comments from the public hearing or any
          OIG recommended that the Authority          other public comments on the proposed
     (1) repay the program more than $90,000          program. In addition, HUD did not follow
     from nonfederal funds for the ineligible         its normal award-making process because
     expenditures resulting from the prohibited       it allowed the Authority to submit its
     conflict-of-interest situations with its         expression of interest 31 months past the
     vendors, (2) implement controls and              HUD-established deadline and did not
     procedures to prevent and resolve conflict-      require it to demonstrate its ability to
     of-interest situations with its vendors, (3)     properly administer HUD funds.
     provide adequate management oversight
     and control to ensure that maintenance               OIG recommended that HUD obtain an
     employees document and complete vacant           opinion from its Office of General Counsel
     unit work orders in a timely manner, (4)         to determine whether it has sufficient legal
     bring its maintenance staffing levels in line    grounds to nullify the Authority’s MTW
     with HUD guidelines or properly justify          agreement and if so, nullify the agreement.
     why the additional maintenance personnel         If the agreement is nullified, OIG
     are needed, (5) implement policies and           recommended that HUD reinstate
     procedures to justify hiring maintenance         recommendations from its prior audits of the
     contractors to provide services that should      Authority’s Section 8 certificate and voucher
     be performed by the Authority’s                  programs, Audit Reports 2005-PH-1004 and
     maintenance personnel, (6) repay HUD             2001-PH-1003. HUD should recapture $25.1
     ineligible amounts from nonfederal funds         million from the Authority’s Section 8
     after HUD recalculates the Authority’s           reserve account that the Authority carried


46                                                     HUD’s Public and Indian Housing Programs
                                               Public Housing Operatin
                                                      Housing         g
                                                              Operating
                                               Fund Pr ogram
                                                     Pro
                                                    HUD OIG audited HUD’s phase-down
                                               for demolition add-on funding calculations
                                               for the Public Housing Operating Fund
                                               program, based on results of a prior audit
                                               that indicated HUD did not always obtain
                                               adequate supporting documentation from
                                               PHAs before approving requests for phase-
                                               down funding. The objective was to
                                               determine whether HUD obtained and
                                               adequately reviewed the supporting
                                               documentation for the $74.3 million in
                                               approved phase-down funding for FYs 2004
                                               and 2005.

                                                    HUD did not always obtain
                                               and adequately review supporting
                                               documentation before approving $42 million
                                               in phase-down funding. Each field office
                                               implemented its own procedures for the
                                               review of phase-down funding requests in
                                               the absence of formal guidance from HUD.
                                               Without this guidance, the field offices
                                               interpreted and applied phase-down for
                                               demolition regulations inconsistently. As a
                                               result, HUD funded more than $15.1 million
                                               in unsupported and $20.6 million in
                                               ineligible phase-down funding requests for
                                               FYs 2004 and 2005.

                                                   OIG recommended that HUD develop
                                               formal guidance and review procedures for
                                               approving requests for the phase-down for
   Copyright, 2006. Baltimore Sun -
   Baltimore, MD. Reprinted with permission.   demolition funding, obtain and review
                                               support for the $15.1 million in unsupported
                                               phase-down funding requests for FYs 2004
over to the MTW program. HUD should            and 2005, determine the correct amount of
also establish policies and procedures         phase-down funding received, recover the
requiring it to obtain a legal opinion from    $20.6 million in ineligible phase-down
its Office of General Counsel when it does     funding paid to public housing agencies in
not follow the normal award-making             FYs 2004 and 2005, and obtain and review
process in approving housing agencies’         complete support for phase-down funding
participation in program initiatives. (Audit   requests for FY 2006. (Audit Report: 2006-
Report: 2006-PH-0002)                          BO-0001)




HUD’s Public and Indian Housing Programs                                                      47
     Con
     Convver sion of Lo
          ersion       w-Rent
                     Low-Rent
     Units to Housin g Choice
               Housing
     Vouc her Pr
      oucher     ogram
               Pro
         HUD OIG reviewed HUD’s oversight of
     PHAs’ compliance with the mandatory
     conversion of low-income housing units to
     the Section 8 Housing Choice Voucher
     program to determine whether HUD had
     adequate oversight to ensure that Section
     202 of the Omnibus Consolidated
     Rescissions and Appropriations Act of 1996
     was followed by PHAs regarding the
     mandatory conversion of low-income
     housing units.

           Of the 28 public housing developments
     reviewed, all developments had either
     completed or were in the process of meeting
     the mandatory conversion requirements
     except for the Detroit Housing
     Commission’s Frederick Douglass
     development. HUD approved the partial
     demolition of the development in July 2001
     based in part on its high vacancy rate. As of
     March 22, 2006, partial demolition had
     occurred; however, the development was
     still not meeting the mandatory conversion
     requirements, and it had a vacancy rate of
     43 percent.

          OIG recommended that HUD
     implement additional procedures and
     controls to ensure that all public housing
     authorities comply with Section 202 and
     HUD’s regulations regarding the mandatory
     conversion of low-income housing units and
     initiate appropriate action to ensure that the
     Frederick Douglass development complies
     with Section 202’s requirements and HUD’s
     regulations      regarding       mandatory
     conversion. (Audit Report: 2006-CH-0002)
              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




48                                                    HUD’s Public and Indian Housing Programs
  Investi
  Inv    gations
     estig                                                                  Some investigations discussed in this
                                                                        report were conducted by OIG or jointly
       During this reporting period, OIG                                with federal, state, and local law
  opened 388 investigation cases and closed                             enforcement agencies. The results of
  361 cases in the Public and Indian housing                            various significant investigations are
  program area. Judicial action taken on these                          described below.
  cases during the period included $7,855,917
  in investigative recoveries, $14,559,970 in                           Public Housing Authority
                                                                               Housing
  funds put to better use, 516 indictments/
  informations, 298 convictions/pleas/pretrial                          Theft/Embe zzlement
                                                                         heft/Embezzlement
  diversions, 735 administrative actions, 10
  civil actions, 7 personnel actions, and 1,798                             Raymond Asselin, Sr., the former
  arrests.                                                              executive director of Springfield Housing
                                                                        Authority (SHA); his wife Janet Asselin; his
   Char
   Chartt 3.2: Public and Indian Housing
                                 Housing                                sons James Asselin, Raymond Asselin, Jr.,
                 Reco
                 Recovveries                                            Christopher P. Asselin (formerly 9 th
                                               False                    Hampden District Representative for the
                          Embezzlement      Statements
                          2% ($137,118)   11% ($802,983)
                                                         Mail Fraud     State of Massachusetts), and Joseph Asselin;
             Other                                          3%
          3% ($191,801)                                  ($199,000)     Arthur G. Sotirion, the former deputy
                                                                        executive director of SHA; and former SHA
                                                            Public
                                                          Corruption    contractors John Spano, doing business as
                                                             13%        Valley Floor Covering, Inc., and John P.
                                                         ($1,073,820)
                                                                        Corcoran, doing business as Corcoran
Section 8, Tenant Fraud             Section 8,  Tenant Fraud
                                                    3%
                                                                        Plumbing, each pled guilty in U.S. District
   58% ($4,483,422)              Landlord Fraud
                                  7% ($528,731)  ($221,223)             Court, Springfield, MA, to numerous
 Total Recoveries $7,855,917
                                                                        charges including racketeering, filing false


                                    A Look Bac
                                           Backk ffor
                                                   or the Year
                                                          Year
     Char
     Chartt 3.3: Per centa
                 Percenta g
                     centage of OIG Public and  Indian   Housing Closed In
                                                         Housing          vesti
                                                                        Inv    gation Cases
                                                                           estig      Cases,,
                                       Perfor
                                       Perfor med FY 06
                                            ormed
                                                                                                Region 1
                                                                                                 Boston
                                                                   Region 5                       7%
                                                                   Chicago
                                    Region 7-8
                                                                     12%             Region 2
                                    Kansas City
                                       15%                                           New York
                                                                                       9%




                                                                                                        Region 3
                                                                                                       Philadelphia
                                                                                                           17%




       Region 9-10
       Los Angeles                                                                          Region 4
           16%                                                                              Atlanta
                                                                   Region 6                   10%
                                                                  Fort Worth
                                                                     14%



   HUD’s Public and Indian Housing Programs                                                                            49
      Copyright, 2006. The Republican - Springfield, MA. Reprinted with permission.


     federal income tax returns, conspiracy to            contractor for Buffalo Municipal Housing
     commit theft against the government,                 Authority (BMHA), was sentenced in U.S
     conspiracy to commit receipt of gratuity,            District Court, Buffalo, NY, to 6 months
     conspiracy to commit theft, conspiracy to            home confinement and 18 months probation
     commit mail fraud/theft of honest services,          and fined $10,000 for his earlier guilty plea
     conspiracy to commit federal bribery,                to false statements to HUD. Mary K.
     conspiracy to commit wire fraud, and/or              Pedlow, also known as Mary Casey
     obstruction of justice. The above defendants         Ackerman, an employee of Ackerman
     and other conspirators assisted Raymond              Mechanical Services, Inc., pled guilty to one
     Asselin, Sr., the former executive director at       count of submitting false documents to
     SHA, in embezzling more than $3.5 million            HUD. Both Ackerman and Pedlow falsely
     from SHA for the personal benefit of                 certified their qualifications as a Minority
     himself, family members, and others. The             Business Enterprise (MBE) and their
     SHA funds were embezzled in the form of              utilization and distribution of contract work
     money and items, including home                      to an actual MBE company on BMHA
     improvements,         household       goods,         projects. As a result, Ackerman illegally
     construction work, automotive repairs, and           obtained approximately $1.75 million in
     contributions to Christopher Asselin’s               BMHA contracts.
     political campaign. As part of a settlement,                    ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
     12 defendants agreed to collectively
     liquidate six properties, including a $1.2                LaToya Cotton, a former Michigan State
     million house on Cape Cod, a time-share              Housing Development Authority (MSHDA)
     condo in Aruba, a 23-foot Chaparral boat, a          contractor, was sentenced in U.S. District
     BMW automobile, and $243,650 in cash                 Court, Detroit, MI, to 41 months incarceration
     previously seized.                                   and 3 years probation and ordered to pay
               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○          MSHDA $1,052,701 restitution for her earlier
                                                          guilty plea to theft and embezzlement. Cotton,
        Eric Ackerman, President of Ackerman              doing business as Washtenaw Payee Services,
     Mechanical Services, Inc., a plumbing                created false tenant files and inspections to

50                                                          HUD’s Public and Indian Housing Programs
divert and personally use MSHDA funds for         to report the stolen funds as income on his
10 years.                                         federal income tax returns.
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○                 ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


     William Moorehead, doing business as               Livia Alicea-Rios, the former executive
William Moorehead and Associates (WMA),           manager of San Juan’s Department of
pled guilty in U.S. District Court, Chicago,      Housing and Community Development
IL, to one count of wire fraud. Moorehead,        (SJDHCD) Section 8 Division; Jeffrey Font-
a property manager for many housing               Ruiz, a former SJDHCD landlord; and
authorities and privately owned Section 8         Shemika Ortiz-Aquino, a former SJDHCD
developments, created fraudulent records          Section 8 tenant, were indicted in U.S.
and money transfers to hide embezzled and         District Court, San Juan, PR, on conspiracy
misused HUD funds. In addition,                   to corruptly solicit monies concerning
Moorehead directed former WMA                     programs receiving federal funds, program
employees Patricia Taylor and Brian               fraud, and theft of government funds. In
Townsend to create false bank records and         addition to the defendants above, Lorna
draw checks on bank accounts containing           Yeampierre-Adorno, Gladys Rosario-Santel,
insufficient funds; both Taylor and               Teresa Fernandez-Maldonado, and 29
Townsend previously pled guilty to one            SJDHCD Section 8 voucher tenants were
count of wire fraud. As a result of their         charged with one count of conspiracy to
actions, HUD realized losses of $995,000.         corruptly solicit monies concerning
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○        programs receiving federal funds. From
                                                  March 2004 through March 2005, Alicea-
     Ronald McCoy, a Philadelphia Housing         Rios, Font-Ruiz, and Ortiz-Aquino allegedly
Authority (PHA) contractor doing business as      orchestrated a fraud scheme using
ABC Construction, was sentenced in                Yeampierre-Adorno, Rosario-Santel, and
Philadelphia Court of Common Pleas,               Fernandez-Maldonado as “runners” to
Philadelphia, PA, to 1 to 5 years in prison for   receive payments from SJDHCD Section 8
his earlier guilty plea to theft by deception,    applicants. The SJDHCD Section 8
bid rigging, and conspiracy. McCoy                applicants allegedly provided $800 to $1,500
fraudulently billed PHA subsidiary                to obtain SJDHCD Section 8 vouchers or
Philadelphia Housing Development                  move up on the SJDHCD Section 8 waiting
Corporation for rehabilitation work he failed     list.
to complete at a low-income shelter. As a                  ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○

result, HUD realized losses of $156,000.
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○            Marysol Morales, the former Avon
                                                  Housing Authority (AHA) Section 8
    Eric Hurt, a former accounting manager        coordinator, was sentenced in U.S. District
at Hoboken Housing Authority (HHA), pled          Court, Boston, MA, to 70 months
guilty in U.S. District Court, Newark, NJ,        incarceration and 2 years supervised release
to theft concerning programs receiving            and ordered to pay AHA and three victims
federal funds and federal income tax              $194,100 restitution for her earlier conviction
violations. Hurt, while employed as the           on false statements and corrupt receipt of
accounting manager at HHA, embezzled              payments by an agent of a federally funded
$111,083 in HHA funds by issuing 34 checks        local government entity. From January to
from the HHA general operating fund to            December 2004, Morales accepted at least
himself without authorization, deposited 31       $31,000 for selling more than 100 AHA
HHA checks into his personal bank                 Section 8 vouchers valued in excess of $1.3
accounts, cashed the remaining three HHA          million. As a result, HUD realized losses of
checks, used the misappropriated HHA              $387,000.
                                                           ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
funds for personal expenditures, and failed

HUD’s Public and Indian Housing Programs                                                            51
          Thomas Herrera, the former executive
     director of Pueblo de Cochita Housing
     Authority (PDCHA), was sentenced in U.S.
     District Court, Albuquerque, NM, to 3 years
     probation and ordered to pay PDCHA
     $78,448 restitution for his earlier guilty plea
     to embezzlement from an Indian tribal
     organization. From February to November
     2003, Herrera forged PDCHA board
     members’ signatures on unauthorized
     PDCHA checks he issued to himself,
     endorsed and cashed the PDCHA checks,
     and used the embezzled PDCHA funds for
     personal expenses. As a result, HUD
     realized a loss of $78,448.
              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


          Serena Parker, a former Greensboro
     Housing Authority (GHA) intake specialist,
     and Vivian Bailey, a fabricated GHA landlord,
     were sentenced in U.S. District Court,
     Greensboro, NC, for their earlier guilty pleas
     to mail fraud and aiding and abetting. Parker
     was sentenced to 1 month incarceration, 5
     months home detention, and 3 years
     supervised release and ordered to pay GHA
     $74,322 restitution; Bailey was sentenced to 4
     months home detention and 4 years probation
     and ordered to pay GHA $19,861 restitution.
     Parker accessed GHA’s computer system,
     illegally added Bailey and previously indicted
     Teresa Thomas as GHA landlords, and caused
     the mailing of 48 fraudulent housing
     assistance payment checks valued at more              Copyright, 2006. New Haven Register- New
     than $70,000 to Bailey and Thomas. As a result,       Haven, CT. Reprinted with permission.
     HUD realized a loss of $74,322.
              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
                                                       and used HANH employees to complete the
                                                       contract work.
          Corey Newton and Gregory Webb,                        ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
     former employees of Housing Authority of
     New Haven (HANH) and doing business                   Barbara Rawls-Ivy, the former executive
     as Unlimited Horizons, each pled guilty in        director of Alliance for Strong Communities
     U.S. District Court, New Haven, CT, to            (ASC), a Housing Authority for the City of
     conspiring to make false statements and           New Haven (HANH) nonprofit organization
     misapplying money belonging to a local            providing social services to HANH public
     government entity receiving federal               housing residents, pled guilty in U.S. District
     funds. Newton and Webb created a                  Court, New Haven, CT, to an information
     fictitious company, awarded themselves            charging her with theft from a program
     approximately $54,000 in HANH                     receiving federal funds. From 2001 through
     maintenance and rehabilitation contracts,         2003, while serving as the Police


52                                                      HUD’s Public and Indian Housing Programs
Commissioner for the City of New Haven            personal trips. HUD’s loss is estimated at
and holding an elected position on the New        more than $24,000.
Haven Board of Aldermen, Rawls-Ivy                         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
prepared, endorsed, and negotiated ASC
checks totaling more than $49,000 for her              Chris Emeka Ayoka, a former
personal use.                                     Minneapolis Public Housing Authority
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○        (MPHA) Section 8 inspector, was indicted in
                                                  Hennepin County Court, Minneapolis, MN,
     Carsereena Red Dog, a former                 on one count of theft by swindle. Ayoka
accounting specialist with Opportunities,         allegedly worked as a baggage handler at the
Inc., a nonprofit organization administering      Minneapolis-St. Paul International Airport
a HUD Section 8 housing program, and her          while claiming he conducted and received
husband Leslie Red Dog were sentenced in          payment for MPHA Section 8 residential
U.S. District Court, Great Falls, MT, for their   inspections. HUD’s loss is estimated at
earlier guilty pleas to false statements.         $15,000.
Carsereena and Leslie Red Dog were each                    ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
sentenced to 6 months home detention and
5 years probation and ordered to pay the               Waconda Nolan, a former Internal
Montana Department of Commerce $32,455            Revenue Service (IRS) employee, was
restitution jointly and severally. Carsereena     sentenced in U.S. District Court, Atlanta,
and Leslie Red Dog failed to report Leslie’s      GA, to 5 years probation and 40 hours of
income on housing certifications and              community service and ordered to pay
obtained $32,455 in housing assistance            Atlanta Housing Authority (AHA) $13,629
payments they were not entitled to receive.       restitution for her previous guilty plea to
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○        false statements. Nolan provided false
                                                  verifications of employment on behalf of
    Walter John, a former Virgin Island           others to AHA.
Housing Authority (VIHA) procurement                       ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
specialist, and George Flemming, a former
VIHA contractor and owner of Mr. G’s                  Frederick Demps, the former Housing
Maintenance, were convicted in U.S. District      Authority of the City of Austin (HACA)
Court, St. Croix, VI, of conspiracy, wire         housing manager, was indicted in U.S.
fraud, and federal program fraud. From            District Court, Austin, TX, on one count of
June 1998 to September 1999, John received        theft from a federally funded program.
more than $30,000 from Flemming for               Demps allegedly embezzled tenant rents
preferential treatment in securing a $1.5         and altered HACA accounting documents
million VIHA public housing rehabilitation        to hide missing HACA funds. As a result,
contract and expedited payments. As a             HUD realized a loss of $7,750.
result, HUD’s loss is estimated at $30,000.                ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
                                                       Guy Dill Copes, the former executive
    Toni Hart, the former Lawrence County         director of Housing Authority of the Town
Housing Authority (LCHA) executive                of Beaufort (HATB), was arrested after a
director, was indicted in U.S. District Court,    complaint was filed in Carteret County
Lawrenceville, IL, on two counts of               District Court, Beaufort, NC, charging him
embezzlement and one count each of wire           with embezzlement and larceny by an
fraud and false statements to a federal agent.    employee. Copes allegedly purchased tools
Hart allegedly used a LCHA credit card to         and equipment with HATB funds for his
purchase clothing and jewelry, acquire cash       personal use. HUD’s loss is estimated
through ATM withdrawals, and pay for              to exceed $5,000.
                                                           ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


HUD’s Public and Indian Housing Programs                                                         53
          Daniel M. McNamee, a former                instruments. Moor allegedly falsified her
     Springfield Housing Authority (SHA)             LHA employment application by using a
     maintenance supervisor, was arrested after      Social Security number (SSN) assigned to
     his indictment in U.S. District Court,          another person to conceal her criminal
     Springfield, MA, on obstruction of due          history and obtain employment with LHA.
     administration of justice and filing a false    Moor obtained LHA employment and an
     federal income tax return. McNamee              annual salary of $74,880.
     allegedly caused SHA to purchase and pay                 ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
     $1,720 for a boiler, hot water tank, and
     baseboard heating components installed in            David Gomez Serena, the former
     the Rhode Island residence of Francis           executive director of Yolo County Housing
     Keough, the previously indicted former          Authority (YCHA), was indicted in County
     director of Friends of the Homeless, a HUD-     of Yolo Superior Court, Woodland, CA, on
     funded nonprofit.                               numerous counts of making false and
              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○      fraudulent insurance claims, preparing false
                                                     statements concerning insurance claims,
          Benita James and Sean Gray, former         and grand theft exceeding $400. Serena
     Housing Authority of the City of New            allegedly claimed his girlfriend and her
     Haven (HANH) employees, were indicted           dependent children as his dependents to
     in Superior Court, New Haven, CT, on            collect medical insurance benefits provided
     charges of conspiracy to commit identity        by YCHA.
     theft, larceny, conspiracy to commit larceny,            ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
     and trafficking in personal identifying
     information. James, while employed at               Bertha G. Muniz, the former Bayard
     HANH, allegedly accessed HANH                   Housing Authority (BHA) executive
     computer databases, obtained identifying        director, was indicted in Grant County
     information on another HANH employee/           Court, Silver City, NM, on one count of
     Section 8 landlord, and sold the                embezzlement. Muniz allegedly authorized
     identification information to Gray. Gray,       BHA maintenance personnel to purchase
     using the stolen identification information     materials, build a covered porch and
     he purchased from James, allegedly opened       elevated walkway, and install security lights
     residential and cellular telephone accounts     at her personal residence. HUD’s loss is
     in the name of the victim. In addition to her   estimated at $748.
     indictment above, James was sentenced in
     U.S. District Court, Bridgeport, CT, to 6       Rental Assistance Fraud
     months home confinement and 3 years
     probation and fined $3,000 for her earlier
     guilty plea to federal program bribery.              As a result of “Operation Eight,”
     While employed at HANH, James accepted          Eliminating Ineligible Grantees Housing
     cash and stolen items in exchange for           Task Force (Phase II), 14 Chicago Housing
     moving HANH Section 8 applicants to the         Authority (CHA) or Cook County Housing
     top of the Section 8 waiting list.              Authority (CCHA) Housing Choice Voucher
              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
                                                     Program participants, and a CHA
                                                     contractor were indicted in U.S. District
                                                     Court, Chicago, IL, on various counts of false
         Phyllis Marie Moor, director of Land
                                                     statements, mail fraud, wire fraud, and
     Acquisitions for Lakeland Housing
                                                     embezzlement. The above defendants
     Authority (LHA), was charged in an
                                                     allegedly failed to report ownership of more
     information filed in Polk County Tenth
                                                     than $1 million in real estate, omitted income
     Judicial Circuit Court, Bartow, FL, with one
                                                     on CHA/CCHA annual certifications,
     count each of forgery and uttering forged
                                                     diverted fictitious landlord checks, or

54                                                    HUD’s Public and Indian Housing Programs
                                                     CMHA. CMHA Section 8 tenants and
                                                     landlords indicted allegedly failed to report
                                                     proper annual income, tenants with
                                                     ownership in Section 8 properties, and/or
                                                     landlords residing in Section 8 units with
                                                     tenants. HUD’s loss is estimated at $422,000.
                                                                ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


                                                          Miami Dade Housing Agency (MDHA)
                                                     Section 8 tenants Andrea Greene, Revenue
                                                     Bien Aime, and Sheree Dozier were indicted
                                                     in U.S. District Court, Miami, FL, on
                                                     numerous counts of theft of government
                                                     funds, false statements to HUD, or
                                                     conspiracy to defraud HUD for allegedly
                                                     failing to report income, true household
                                                     composition, ownership of MDHA
                                                     subsidized units, and/or receipt of housing
 Copyright, 2006. Chicago Sun Times - Chicago,       assistance from other housing authorities on
 IL. Reprinted with permission.                      annual MDHA certifications. Delores
                                                     Murat, Rosa Colon and her husband Luis
                                                     Zayas, and Liliana Barranco each pled guilty
collected housing assistance payments on
                                                     to theft of government funds, conspiracy,
property they did not own. In addition to
                                                     and/or false statements for failing to report
criminal charges, federal civil complaints for
                                                     employment, income, or ownership of or
false claims, payment by mistake, and
                                                     unauthorized residency in MDHA
unjust enrichment were filed against six of
                                                     subsidized units on MDHA certifications.
the above subjects. HUD’s loss is estimated
                                                     Former MDHA tenants sentenced for their
to exceed $600,000.
          ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
                                                     earlier guilty pleas to theft of government
                                                     funds, false statements, and/or conspiracy
     As part of “Operation Deep Pockets,” 19         include Quiana Adams, her spouse Anthony
Cuyahoga Metropolitan Housing Authority              Boatwright, and Sharon Dixon. Adams was
(CMHA) Section 8 tenants and four CMHA               sentenced to 3 months incarceration and 7
Section 8 landlords were indicted in Cuyahoga        months home confinement; Boatwright was
County Court, Cleveland, OH, on numerous             sentenced to 6 months home confinement
violations of theft and fraud against the            and ordered to pay HUD $59,327 restitution,
                                                     jointly with Adams; and Dixon was




Copyright, 2006. Plain Dealer, Cleveland, OH. Reprinted with permission.


HUD’s Public and Indian Housing Programs                                                             55
     sentenced to 36 months supervised release             assistance payments on behalf of vacant units,
     with 6 months electronic monitoring and               failing to report income or disclose assets,
     home confinement and ordered to pay HUD               subleasing units to unauthorized tenants,
     $58,822 restitution. The above MDHA                   allowing illegal occupants with violent
     tenants obtained more than $310,843 in                criminal histories to reside in leased units, and/
     MDHA housing assistance they were not                 or having landlords occupying subsidized
     entitled to receive.                                  units with tenants. HUD’s losses are estimated
              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○            to exceed $500,000.
                                                                     ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○

         In an “Operation Clean Sweep Phase II”
     press conference, HUD Secretary Alfonso                    SLS Management, Inc. (SLS), an India-
     Jackson announced that 49 individuals were            napolis Housing Authority (IHA) Section 8
     indicted in Marion County Superior Court,             landlord, pled guilty in Marion County
     Indianapolis, IN, on charges of welfare fraud         Superior Court, Indianapolis, IN, to one count
     and theft. Indianapolis Housing Authority             of welfare fraud. Between April and October
     (IHA) Section 8 leased and subleased tenants,         2005, SLS Management leased apartments to
     landlords, and a housing manager were                 new residents who were receiving Section 8
     indicted for allegedly collecting housing             assistance. In doing so, SLS Management, Inc.




            Copyright, 2006. Indystar.com - Indianapolis, IN. Reprinted with permission.


56                                                          HUD’s Public and Indian Housing Programs
falsely certified that the owner had not been        Twelve Nazareth Housing Authority
barred from participating in any federally-      (NHA) Section 8 recipients were charged in
funded housing program. As part of the plea      North Hampton County Court of Common
agreement, SLS Management, Inc. agreed to        Pleas, Nazareth, PA, with theft by
relinquish any claim to IHA Section 8            deception or not sworn falsifications. The
payments, pay IHA $327,640.00 and the            12 defendants allegedly failed to report
Indianapolis Police Department $3,480.00.        accurate sources or amounts of household
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○       income and allegedly obtained more than
                                                 $150,000 in NHA housing assistance benefits
     Sixteen public housing, Section 8           they were not entitled to receive.
voucher, or HUD-funded project-based                      ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
multifamily residents of either Freeport
Housing Authority, Rockville Center                   As part of a Waukegan Housing
Housing Authority, Hempstead Department          Authority (WHA) Section 8 fraud initiative,
of Urban Renewal, Nassau County                  13 WHA Section 8 tenants were arrested and
Housing and Intergovernmental Affairs, or        indicted in Lake County Circuit Court,
Woodsedge Apartments, Hempstead, NY,             Waukegan, IL, on numerous counts of theft,
were arrested after complaints were filed in     state benefits fraud, and forgery. The indicted
Nassau County Court, Mineola, NY,                WHA Section 8 tenants allegedly falsified
charging them with grand larceny and/or          annual WHA certifications by underreporting
offering a false instrument for filing. The      income. HUD’s loss is estimated at more than
above defendants allegedly failed to             $140,000.
accurately report their incomes on housing                ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
assistance certifications and HUD’s loss is
estimated at more than $225,000.                     Donna James, Lyris Wolfe, Sheila
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○       Whittenberg, and Christine Carpenter,
                                                 former Housing Authority of the County of
     Alonzo Freeman, Joey Hornback, Sheila       San Mateo (HACSM) Housing Choice
O’Neal, Denneshia McCraw, Brenda McCoy,          Voucher program participants, each pled
and Bridgette Peoples, Inglewood Housing         guilty to informations filed in U.S. District
Authority (IHA) Section 8 recipients, were       Court, San Francisco, CA, charging them
charged in Superior Court, Inglewood, CA,        with one count of defrauding HUD.
with numerous counts of filing a false/          Celestine Gallegos, also a former HACSM
forged instruments, obtaining money by           Housing Choice Voucher program
false pretenses, grand theft, and/or fraud.      participant, was sentenced to 24 months
The above defendants allegedly failed to         probation and ordered to pay HUD $13,285
disclose income or assets, prior criminal        restitution for her previous guilty plea
histories, and/or unauthorized tenants on        to defrauding HUD. James, Wolfe,
annual IHA certifications. In addition, Geno     Whittenberg, Carpenter, and Gallegos each
Wilson, a former IHA Section 8 tenant was        applied for and received HACSM housing
sentenced to 3 years incarceration and           assistance payments while living in San
ordered to pay IHA $49,434 restitution for       Francisco Housing Authority public
failing to disclose his prior criminal history   housing units. As a result, the above
or conviction and registered sex offender        defendants obtained $132,124 in HACSM
status on IHA certifications. The above          housing assistance they were not entitled to
defendants obtained more than $154,000 in        receive.
IHA housing assistance they were not                      ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
entitled to receive.
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○          Cynthia Braxton, an IRS employee;
                                                 Christine Hill, a U.S. Postal Service
                                                 (USPS) employee, and seven additional

HUD’s Public and Indian Housing Programs                                                           57
     Montgomery County Housing Authority                      Previously indicted Kalsoum Berro, a
     (MCHA) Housing Choice Voucher program               Michigan State Housing Development
     recipients were indicted in U.S. District           Authority (MSHDA) Section 8 tenant, and
     Court, Philadelphia, PA, on numerous                Hassan Berro, an MSHDA Section 8 landlord,
     counts of false statements in order to obtain       entered into a diversion program agreement
     federally subsidized housing benefits.              in Wayne County Circuit Court, Detroit, MI.
     Braxton, Hill, and the five additional MCHA         Terms of their agreement required a $35,000
     tenants allegedly failed to report income,          payment to MSHDA. From 1990 , Kalsoum
     unauthorized residents, or assets on MCHA           and Hassan Berro resided in the same
     certifications. HUD’s loss is estimated to          subsidized housing unit but failed to claim
     exceed $134,000.                                    their joint residency on MSHDA tenant and
              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○          housing assistance payment contract
                                                         certifications. As a result, HUD realized a loss
          Linda White and Corrina Arenas,                of $90,000.
     former City of Ventura Housing Authority                       ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
     (CVHA) Section 8 tenants; Linda McClain,
     a former CVHA public housing resident;                   Compton Housing Authority (CHA)
     and Gloria De La Cruz, a former CVHA                Section 8 tenants Christine Shena Baker and
     landlord, were each charged in Ventura              Joseph Christianlee Haywood were indicted
     County Superior Court, Ventura, CA, with            or pled guilty in U.S. District Court, Los
     one count of grand theft. The above                 Angeles, CA. Baker was indicted for making
     defendants allegedly failed to report               false statements to a government agency and
     vacated CVHA subsidized units and/or                fraud and false statements involving HUD
     employment, business, or rental income              for allegedly failing to disclose her criminal
     on CVHA certifications and obtained                 history and status as a registered sex
     approximately $93,390 in CVHA housing               offender on annual CHA certifications.
     assistance they were not entitled to receive.       Haywood, previously convicted of rape,
              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○          auto theft, and assault with a deadly




            Copyright, 2006. Times Herald, Philadelphia, PA. Reprinted with permission.


58                                                         HUD’s Public and Indian Housing Programs
weapon, pled guilty to an information           (MBHP) Section 8 tenant, pled guilty in U.S.
charging him with one count of theft of         District Court, Boston, MA, to an
government funds for failing to disclose his    information charging him with false
prior criminal history on annual CHA            statements and defrauding the Social
certifications. Baker and Haywood obtained      Security Administration (SSA). Murray-
more than $88,000 in CHA housing                McCarthy assumed a false identity to obtain
assistance payments they were not entitled      an SSN, federal student loans, and
to receive. CHA terminated both Baker and       employment, while using his true identity
Haywood from its rental assistance              to obtain MBHP housing assistance and
program.                                        Social Security Disability Insurance benefits.
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○      As a result, HUD realized a loss of $72,606.
                                                         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
     Jerome Massey, a Detroit Housing
Commission (DHC) Section 8 landlord and              Barbara Singleton, a Rochester Housing
previously convicted felon, was charged in      Authority (RHA) Section 8 tenant, and Larry
Wayne County Circuit Court, Highland Park,      Pradia, a RHA landlord, were each charged
MI, with numerous counts of receiving           in a superseding indictment filed in U.S.
monies under false pretenses, tax evasion,      District Court, Rochester, NY, with
identity theft, delivery/manufacture of         conspiracy to commit HUD fraud, false
marijuana, and under the Habitual Offender      statements, theft of government funds, and
Act. Massey allegedly used his son’s SSN and    bankruptcy fraud. Singleton and Pradia
collected $84,000 as a DHC landlord while       allegedly conspired to collect more than
occupying a DHC subsidized unit with a DHC      $70,000 in RHA Section 8 housing assistance
Section 8 tenant. Massey was arrested after     payments when Singleton certified that
marijuana plants, harvested marijuana, and      Pradia was her landlord and resided
materials for a continued marijuana operation   elsewhere on annual RHA certification and
were found in the DHC unit.                     leasing documents. In addition, Pradia filed
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○      bankruptcy in November 2005 and allegedly
                                                failed to claim RHA Section 8 income or his
     Clifford Chambers, a Montgomery            residency with Singleton on bankruptcy
County       Housing        Opportunities       documents.
Commission (MCHOC) Section 8 recipient,                  ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
was sentenced in U.S. District Court,
Greenbelt, MD, to 18 months incarceration            Deonna Degraffenreid, a former City of
and 3 years supervised release and ordered      Las Vegas Housing Authority (LVHA)
to pay MCHOC $80,912 restitution for his        Section 8 tenant, pled guilty in Clark County
earlier guilty plea to trafficking in           Justice Court, Las Vegas, NV, to one count
counterfeit goods and theft of government       of conspiracy to commit unlawful acts
property. From 2000 to June 2004, Chambers      concerning food stamps. Degraffenreid
owned and operated a business selling           failed to accurately report her household
counterfeit marked goods out of his             income and composition on LVHA and
MCHOC subsidized unit and failed to report      Nevada welfare certifications and obtained
the business income on annual MCHOC             $65,823 in LVHA housing assistance she was
certifications. As a result, Chambers           not entitled to receive.
obtained $80,912 in MCHOC housing                        ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
assistance he was not entitled to receive.
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○          Tyeshia Borela, a former San Francisco
                                                Housing Authority (SFHA) Section 8 tenant,
   David Murray-McCarthy, a former              pled guilty in U.S. District Court, San
Metropolitan Boston Housing Partnership         Francisco, CA, to one count of making false


HUD’s Public and Indian Housing Programs                                                         59
     statements. Borela was sentenced to 1            social service benefits by falsifying
     month incarceration and 3 years probation        household composition and income. Total
     and ordered to pay HUD $63,042 restitution.      loss to the government is estimated at
     From 2002 to 2005, Borela sublet her $2,000      $250,000, including $53,000 in HUD-funded
     monthly SFHA subsidized unit to others,          housing assistance payments.
     underreported her income, and falsely                     ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
     claimed a daughter on SFHA certifications.
              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○            Esther Arias, her mother Esther Percel,
                                                      and Gladys Cabrera, former Revere Housing
          Eugenia Cooks, a former Norwalk             Authority (RHA), Boston Housing
     Housing Authority (NHA) Section 8                Authority (BHA), and/or Metropolitan
     recipient, was charged in an information         Boston Housing Partnership (MBHP)
     filed in U.S. District Court, Los Angeles, CA,   Section 8 tenants, and Edwin Gonzalez were
     of making false statements. From 1994 to         indicted in U.S. District Court, Boston, MA,
     2003, Cooks allegedly failed to report income    on numerous counts of conspiracy, mail
     on annual NHA certifications and obtained        fraud, theft and receipt of stolen mail, bank
     more than $60,000 in NHA housing                 fraud, identity theft, conspiracy to file false
     assistance she was not entitled to receive.      claims for refunds, false and fraudulent
              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○       statements, and/or theft of government
                                                      property involving HUD benefits. Arias,
          Jennifer Stevanovich, a former Andover      Percel, and Cabrera allegedly conspired to
     Section 8 tenant, pled guilty in Essex County    engage in an ongoing criminal enterprise,
     Superior Court, Salem, MA, to larceny over       including stealing U.S. mail, using stolen
     $250 and criminal perjury. Stevanovich was       identification data to open credit card and
     sentenced to 1 year house arrest and 15 years    bank accounts, altering stolen checks to
     probation and ordered to pay $59,765 to          obtain bank funds, depositing stolen credit
     Community Teamwork, Inc., a Section 8            card checks into bank accounts, and using
     contract administrator, and $57,790 to           various identities to fraudulently obtain
     the Commonwealth of Massachusetts.               RHA, BHA, or MBHP Section 8 housing
     Stevanovich, previously convicted of selling     units within the greater Boston area. In
     stolen “Victoria’s Secret” merchandise from      addition, from February 1999 to April 2004,
     her subsidized housing unit, deposited           Arias, Percel, and Gonzalez allegedly caused
     approximately $280,000 into eight bank           the filing of more than 45 fraudulent federal
     accounts while receiving $59,765 in housing      income tax returns to unlawfully collect
     benefits and $57,790 in welfare benefits she     federal and state tax refunds. As a result,
     was not entitled to receive.                     HUD’s loss is estimated at $51,916.
              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○                ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


         Carrie Bailey, a former Isle of Wight             Nasir Javaid, a former San Francisco
     Department of Social Services (IOW) Section      Housing Authority (SFHA) Section 8
     8 tenant, and her daughter Melinda Bailey        landlord, and Nancy Kharsa, a former SFHA
     were indicted in Isle of Wight Circuit Court,    Section 8 tenant, were each sentenced in U.S.
     Smithfield, VA, on numerous counts of            District Court, San Francisco, CA, for their
     conspiracy, making false statements, and         earlier guilty pleas to making false
     obtaining money by false pretenses from          statements to HUD. Javaid was sentenced
     HUD, SSA, and the Virginia Department of         to 2 years probation and ordered to pay
     Social Services. Carrie and Melinda Bailey       HUD $51,717 restitution; Kharsa was
     allegedly conducted a 15-year scheme to          sentenced to 2 years probation and ordered
     receive housing assistance, Social Security      to pay HUD $1,822 restitution, jointly and
     benefits, food stamps, Medicaid, and other       severally with Javaid. From 1998 to 2002,


60                                                     HUD’s Public and Indian Housing Programs
Copyright, 2006. The Daily Item, Boston, MA. Reprinted with permission.

   Javaid and Kharsa defrauded HUD’s Section             SDHC applications and obtained $50,911 in
   8 program by using SFHA and/or HUD                    SDHC housing assistance they were not
   multifamily housing assistance payments               entitled to receive.
   received by Javaid, Kharsa, and Javaid’s                        ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
   mother to purchase two properties located
   in El Cerrito and San Francisco. As a result               Shaneen Edwards and Manila McCloud,
   of their actions, HUD realized losses of              City of Miami Department of Community
   $51,717.                                              Development (MDCD) Section 8 tenants,
              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○          each pled guilty in U.S. District Court,
                                                         Miami, FL, to theft of government funds
       In U.S. District Court, Boston, MA, a             and/or making false statements. McCloud
   $435,798 civil judgment was issued against            was sentenced to 60 months supervised
   Delia Baez, a former Boston Housing                   release and 100 hours community service
   Authority (BHA) public housing tenant, for            and ordered to pay HUD $22,695 restitution.
   obtaining housing assistance, welfare                 Edwards and McCloud failed to report
   benefits, food stamps, and Medicaid                   income on MDCD certifications and
   through false claims and fraud. Baez failed           obtained $48,140 in MDCD housing
   to report her ownership of a restaurant               assistance they were not entitled to receive.
   known as “Mi Tierra” and a multifamily                          ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
   property on BHA certifications. As a result,
   HUD’s loss is estimated at $51,038.                        Cassaundra Samuels, a Housing
              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○          Authority of Kansas City (HAKC) Section 8
                                                         tenant and IRS employee, and Connie
        Shaunda Boulware, Nikki Robinson,                Wooten, a HAKC Section 8 recipient, current
   Rose Long, and Silvia and Carlos Delgado,             employee of USPS, and former employee of
   San Diego Housing Commission (SDHC)                   IRS, were charged in Jackson County
   Section 8 recipients, were charged in San             District Court, Kansas City, MO, with
   Diego County Superior Court, San Diego,               stealing by deceit. Samuels and Wooten
   CA, with making false statements and                  allegedly failed to report employment
   grand theft. Boulware, Robinson, Long, and            income on HAKC certifications and
   Silvia and Carlos Delgado allegedly failed            obtained $47,630 in HAKC housing
   to report income and/or employment and/               assistance they were not entitled to receive.
   or claimed nonresident dependents on                            ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




    HUD’s Public and Indian Housing Programs                                                             61
          Angel Smith, also known as Angel King;      on two counts of making false statements to
     Gloria Dixon; and Catrinia Parker, former        HUD. From February 2002 to May 2005,
     Tampa Housing Authority (THA) Section 8          Wynn allegedly failed to report employment
     tenants, were each charged in informations       or income, and claimed a nonresident
     filed in Hillsborough County Thirteenth          daughter on annual GHA certifications. As
     Judicial Court, Tampa, FL, with fraud for        a result, HUD’s loss is estimated at $47,000.
     allegedly failing to report all household                 ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
     occupants, employment, income, or other
     government benefits they received on THA              Patricia Laverne Bryant, a former
     certifications. In addition, Jeanette Camille,   Housing Authority of Pittsburg (HAP)
     a former THA Section 8 tenant, entered into      Section 8 tenant, was charged in a complaint
     a pretrial diversion agreement (PTDA) with       filed in Contra Costa County Superior Court,
     the U.S. Attorney’s Office in Tampa, FL,         Walnut Creek, CA, with grand theft, welfare
     admitting to theft of government funds. The      fraud, and perjury. Bryant allegedly failed
     PTDA placed Camille on 12 months                 to report income or the residency of her
     supervisory probation and ordered her to         boyfriend on annual HAP certifications and
     perform 60 hours of community service and        obtained $46,000 in HAP housing assistance
     pay THA $5,048 restitution for failing to        she was not entitled to receive.
     report income on THA certifications.                      ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
     Barbara Mack, also a former THA Section 8
     tenant, was sentenced in U.S. District Court,         Ernest Stevenson, a Duluth Housing
     Tampa, FL, to 5 months incarceration, 5          Redevelopment Authority (DRHA) Section
     months home detention, and 36 months             8 landlord, and Paula Petruk, also known as
     probation and ordered to pay HUD $23,455         Paula Stevenson, a DRHA Section 8 tenant,
     and SSA $38,333 restitution for her earlier      were each sentenced in U.S. District Court,
     guilty plea to theft of government funds. Mack   Duluth, MN, to 3 years probation and 150
     acquired and used two SSNs to obtain THA         hours of community service and ordered to
     housing assistance, SSA disability benefits,     pay HUD $45,441 restitution, jointly and
     and a Federal Housing Administration (FHA)-      severally, for their earlier guilty pleas to
     insured mortgage and to file bankruptcy, then    conspiracy. Stevenson and Petruk failed to
     failed to report employment income she           disclose joint bank accounts, ownership of
     earned to THA or THA housing assistance and      additional real estate, or their dual
     SSA disability benefits to the bankruptcy        occupancy in a DRHA Section 8 unit on
     court. As a result, Smith, Dixon, Parker,        DRHA certifications. As a result, HUD
     Camille, and Mack obtained approximately         realized losses of $45,441.
     $47,465 in THA housing assistance they were               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
     not entitled to receive.
              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○            Jalenska Cheatham, a Murfreesboro
                                                      Housing Authority (MHA) Section 8 tenant,
          Johnnie Mae Brooks, a Greensboro            was indicted in the U.S. District Court,
     Housing Authority (GHA) Housing Choice           Nashville, TN, for making charges of false
     Voucher program participant, pled guilty in      statements to HUD and theft of government
     U.S. District Court, Greensboro, NC, to          funds for allegedly failing to report
     making false statements to HUD. Brooks           employment income or ownership of
     failed to report income from two daycare         her MHA subsidized unit on MHA
     businesses she owned and operated on GHA         certifications. In addition, Marshall Graves,
     Housing Choice Voucher program                   a former MHA Section 8 tenant, pled guilty
     certifications. In addition, Blondine Yvonne     to msking false statements to HUD for
     Wynn, a former GHA Housing Choice                failing to report income on MHA
     Voucher program participant, was indicted        certifications. As a result, Cheatham and


62                                                     HUD’s Public and Indian Housing Programs
Graves obtained $43,326 in MHA housing                  Regina Williams, a former Alexandria
assistance they were not entitled to receive.      Redevelopment and Housing Authority
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○         (ARHA) Housing Choice Voucher program
                                                   recipient, pled guilty in U.S. District Court,
     Amy McPherson and Delilah Property,           Alexandria, VA, to an information charging
Inc., also known as Delilah Property               her with making false statements. From
Services, Inc., entered into a $254,774 civil      1996 through 2004, Williams, a Department
settlement with the New Hampshire United           of Defense (DoD) employee, falsified her
States Attorney’s Office, Concord, NH, as a        income on annual ARHA certifications and
result of McPherson’s previous guilty plea         misused the DoD seal on letterhead
to msking false statements. The consent            letter that she submitted. As a result,
decree and order of payment was entered            Williams obtained $36,237 in ARHA housing
on behalf of HUD, the U.S. Department of           assistance she was not entitled to receive,
Health and Human Services (HHS), the U.S.          and ARHA terminated Williams from its
Department of Agriculture (USDA), SSA,             rental assistance program.
and DOJ. McPherson paid $100,000, and a                     ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
lien securing a Delilah Properties, Inc.,
property located in Waltham, MA, for the                Dena Battles, a former Clark County
remainder of the settlement order was              Housing Authority (CCHA) Section 8
recorded. McPherson, a former Exeter               recipient, and her mother Sandra Kay
Housing Authority (EHA) Section 8                  Battles, a CCHA landlord, were each
recipient, received EHA Section 8 housing          sentenced in U.S. District Court, Las Vegas,
assistance on a residence she occupied and         NV, for their earlier guilty pleas to
owned under the corporate name of Delilah          defrauding HUD and/or aiding and
Properties, Inc. As a result, HUD realized a       abetting. Dena Battles was sentenced to 6
loss of $38,765.                                   months home confinement, 3 years
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○         probation, and 200 hours of community
                                                   service; Sandra Kay Battles was sentenced
     Mary Martin, a former Saint Petersburg        to 6 months home confinement with
Housing Authority (SPHA) Section 8 tenant,         electronic monitoring, 3 years probation, and
was sentenced in U.S. District Court, Tampa,       100 hours of community service. In
FL, to 5 years probation with 6 months home        addition, Dena and Sandra Battles entered
detention and ordered to pay HUD $36,997           into a settlement agreement pledging to
restitution for her earlier guilty plea to theft   repay CCHA $36,201. From May 2002
of government funds. Lamesha Ware,                 through October 2005, Dena Battles failed
Martin’s daughter and former Pinellas              to report her mother’s ownership of her
County Housing Authority (PCHA) Section            CCHA subsidized residence and claimed
8 tenant, was indicted on one count of             her out-of-state son as a resident on CCHA
msking false statements and possession of          certifications. As a result of their actions,
false papers. Martin failed to report her          HUD realized a loss of $36,201.
husband’s income and claimed her daughter                   ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
Lamesha Ware as a resident of her SPHA
unit while Ware received Section 8 housing             Robert Askew III, a former Oakland
assistance from PCHA. As a result, Martin          Housing Authority (OHA) Section 8 tenant,
obtained approximately $36,997 in SPHA             pled guilty in U.S. District Court, Oakland,
housing assistance benefits she was not            CA, to one count of mail fraud. From 1998
entitled to receive and aided Ware in              to 2003, Askew III failed to report his
defrauding PCHA of $16,900.                        employment income or ownership of two
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○         houses on OHA annual certifications. Under
                                                   a plea agreement with the U. S. Attorney’s


HUD’s Public and Indian Housing Programs                                                            63
     Office, Askew III agreed to pay HUD, SSA,       assistance they were not entitled to receive.
     and HHS $140,380 restitution for housing        CCHA removed Fianko and Sekyere from
     and other social benefits he obtained but was   its rental assistance program.
     not entitled to receive. HUD’s loss is                    ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
     estimated at $35,584.
              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○           Sonciera Dejarnette Bomar-Royal, a
                                                     former Housing Authority of the City of
          Darlynn Cooper, a former Santa Monica      Napa (HACN) Housing Choice Voucher
     Housing Authority (SMHA) Section 8              program participant, was charged in Napa
     recipient, was charged in Superior Court,       County Superior Court, Napa, CA, with
     Santa Monica, CA, with grand theft and          perjury by false affirmation for aid, aid by
     filing a false/forged instrument. From July     misrepresentation over $400, and grand theft
     2005 to March 2006, Cooper allegedly failed     of personal property. Bomar-Royal allegedly
     to disclose income she earned on SMHA           claimed her nonresident son on HACN
     certifications and obtained $34,493 in SMHA     certifications and obtained $25,020 in HACN
     housing assistance she was not entitled to      housing assistance she was not entitled to
     receive. SMHA terminated Cooper from its        receive.
     rental assistance program.                                ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
                                                           Elaine Bradfordt, also known as Robeana
          Diane McGuiness, a former Salem            Ware, a Cuyahoga Metropolitan Housing
     Housing Authority (SHA) Section 8 tenant,       Authority (CMHA) Section 8 landlord, and her
     was found guilty in Salem District Court,       son Samuel Dickerson, the former managing
     Salem MA, on one count of larceny over          agent of Housing Choice Voucher program
     $250 and one count of uttering a false          Properties, were indicted in U.S. District Court,
     statement under oath. McGuiness was             Cleveland, OH, on numerous counts of theft
     sentenced to 5 years probation, ordered to      of government funds, making false statements
     refrain from accepting federal and/or state     to SSA, and msking false statements to HUD.
     funded housing subsidies during her             Bradfordt and Dickerson allegedly used a
     probation, and directed to pay a $1,000 fine.   fictitious name and SSN to obtain SSA and
     McGuiness failed to report the joint tenancy    HUD Section 8 benefits. In addition, Tonja
     or income of her boyfriend on SHA               Williams, also known as Latonya McKinley,
     certifications and obtained $27,544 in SHA      also a former CMHA Section 8 landlord, pled
     housing assistance she was not entitled to      guilty to misuse of an SSN, msaking false
     receive.                                        statements to HUD, mail fraud, and bank
              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○      fraud. Williams used aliases and a false SSN
                                                     to acquire credit cards, bank accounts, and
          Prince Fianko, a Carroll County            an FHA-insured mortgage on property she
     Housing Authority (CCHA) landlord, and          leased to CMHA for a Section 8-eligible
     his wife Rosemary Sekyere, a CCHA               family member but used the CMHA
     Housing Choice Voucher program recipient,       subsidized property as her personal
     were each charged in Carroll County Circuit     residence. As a result, HUD and SSA
     Court, Carroll County, MD, with theft,          realized losses of $25,000 and $100,000,
     msking false statements to a housing            respectively.
     authority, and common law conspiracy.                     ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○

     From May 2004 to January 2006, Fianko,
     allegedly using an alias, hid his ownership         Carlos Riosvalle, a former Portland
     and residence in a CCHA unit leased to his      Housing Authority (PHA) Section 8 tenant,
     wife. As a result, Fianko and Sekyere           was charged in Multnomah County Superior
     obtained about $26,000 in CCHA housing          Court, Portland, OR, with numerous counts


64                                                    HUD’s Public and Indian Housing Programs
of theft and attempted aggravated theft.              indicted in Cook County Circuit Court,
From 1992 to 2005, Riosvalle allegedly failed         Chicago, IL, on various counts of theft and
to report his prior sex offense conviction on         benefits fraud. Brian Booker allegedly
annual PHA certifications and obtained                fabricated a fictional landlord to accept
$25,000 in PHA housing assistance he was              CCHA housing assistance payments for a
not entitled to receive.                              property he owned and occupied. Robert
          ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○           Booker allegedly used his name as a straw
                                                      CCHA Section 8 tenant, never resided in the
     Dorothy Hansen, a former Vermont                 CCHA subsidized unit, and signed annual
State Housing Authority (VSHA) Section 8              CCHA certifications allowing Brian Booker
tenant, pled guilty in U.S. District Court,           to obtain $24,000 in CCHA housing
Burlington, VT, to an information charging            assistance payments he was not entitled to
her with making false statements and theft            receive.
of government funds. Hansen failed to                               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
report employment income on VSHA
certifications and obtained $24,552 in VSHA                Latisia Upshaw, a former Knoxville
housing assistance benefits she was not               Community Development Corporation
entitled to receive. VSHA terminated                  (KCDC) public housing tenant, was indicted
Hansen from its rental assistance program.            in Knox County State Court, Knoxville, TN,
          ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○           for unlawfully and intentionally obtaining
                                                      public housing, utility, and other services
     Raquel Bonifacio, a former Broward               valued at $10,000 or more. Upshaw
County Housing Authority (BCHA) Section               allegedly failed to report household income
8 tenant, was indicted in U.S. District Court,        on KCDC annual certifications. As a result,
Miami, FL, on theft of government funds               Upshaw allegedly obtained $22,671 in
and making false statements to HUD. From              KCDC housing assistance she was not
January 2003 through December 2005,                   entitled to receive.
Bonifacio, a support services technician for                        ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
the Federal Bureau of Investigation (FBI),
allegedly failed to report her FBI                        Shelly Duffina, a former New
employment or income on BCHA                          Hampshire Housing Finance Authority
certifications and obtained $24,320 in BCHA           (NHHFA) Section 8 tenant, and Bruce
housing assistance she was not entitled to            McLaughlin, an unauthorized tenant
receive.                                              residing with Duffina, were indicted in
          ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○           Hillsborough County Court, Nashua, NH.
                                                      Duffina was charged with theft by
   Brothers Brian and Robert Booker,                  deception, and McLaughlin was charged
purported Cook County Housing Authority               with criminal liability for the conduct of
(CCHA) Section 8 tenant and landlord, were            another; theft by deception. Duffina




Copyright, 2006. The Staff, Miami, FL. Reprinted with permission.


 HUD’s Public and Indian Housing Programs                                                               65
     allegedly failed to report McLaughlin’s               Kenneth R. Christenot, a Billings
     residency and income on NHHFA                    Housing Authority (BHA) Section 8
     certifications and obtained an estimated         landlord, and Ramona Lee Emmett, a BHA
     $21,000 in NHHFA housing assistance she          Section 8 tenant, were both found guilty in
     was not entitled to receive.                     U.S. District Court, Billings, MT, of making
              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○       false statements and theft of federal funds.
                                                      Emmett claimed absent children as
          Sharon Smith, a former Elizabeth            occupsants, and failed to declare property
     Housing Authority (EHA) Section 8 tenant         ownership or the residency of Christenot on
     and Superior Court Judicial Clerk in Union,      BHA certifications; Christenot failed to claim
     NJ, was sentenced in U. S. District Court,       his residency with Emmett on BHA
     Newark, NJ, to 2 years probation and             documents. As a result, HUD realized losses
     ordered to pay HUD $20,714 restitution for       of $19,382.
     her earlier guilty plea to theft of government            ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
     funds. From January 2002 to September
     2005, Smith caused fraudulent employment              Linda Virginia McClain, a former
     verification forms to be submitted to EHA        Housing Authority of the City of San
     and obtained $20,714 in EHA housing              Buenaventura (HACSB) public housing
     assistance she was not entitled to receive.      recipient, was found guilty in Ventura
              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○       County Superior Court, Ventura, CA, of
                                                      grand theft. McClain failed to report rental
         Toria Woods, a former Inglewood              income she received on HACSB
     Housing Authority (IHA) Section 8 tenant,        certifications and obtained $19,170 in
     was convicted in Los Angeles County              HACSB housing benefits she was not
     Superior Court, Beverly Hills, CA, on two        entitled to receive.
     counts of filing a false/forged instrument                ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
     and one count of grand theft. Woods was
     sentenced to 2 years in prison and ordered           Gabriela Garcia, a Homestead Housing
     to pay IHA $20,612 restitution. Woods, a         Authority (HHA) Housing Choice Voucher
     participant in an interstate identity theft      program participant, pled guilty in U.S.
     ring, failed to report income she received       District Court, Miami, FL, to theft of
     from the criminal activity on annual IHA         government funds and making false
     housing certifications. IHA terminated           statements. Garcia was sentenced to 60
     Woods from its Section 8 program.                months supervised release and 50 hours
              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○       community service and ordered to pay HUD
                                                      $18,622 restitution. Garcia concealed the
          James Bell, owner of The Thomas Clinic      existence, residency, and income of her
     in Clayton, MO, pled guilty to an                spouse on HHA certifications and obtained
     information filed in U.S. District Court, St.    $18,622 in HHA housing assistance she was
     Louis, MO, charging him with making              not entitled to receive.
     false statements. From 1999 to 2004,                      ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
     Bell failed to disclose income or his
     business ownership to numerous                        Adam Doyle, an Omaha Housing
     agencies, including St. Louis Missouri           Authority (OHA) Section 8 landlord, pled no
     Housing Authority (SLMHA) and SSA. As            contest in Douglas County District Court,
     a result, Bell obtained about $753,810 in SSA    Omaha, NE, to earlier charges of theft by
     disability, Medicaid, food stamps, and           deceit. Doyle resided with an OHA tenant
     SLMHA housing assistance benefits he was         at his OHA Section 8 leased property. As a
     not entitled to receive. HUD’s loss is           result, HUD realized a loss estimated at
     estimated at $20,590.                            $18,000.
              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○                ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


66                                                     HUD’s Public and Indian Housing Programs
     Angelina Lyles, a former DuPage              to report household income on annual AHA
Housing Authority (DPHA) Section 8 tenant,        certifications, and Whatley allegedly failed
was sentenced in U.S. District Court, Chicago,    to report to AHA that she received public
IL, to 3 months incarceration, 3 months home      housing assistance from AGHA. As a result,
confinement, and 3 years supervised release       Herrin and Whatley allegedly obtained
and ordered to pay HUD $17,901 restitution        $16,813 in AHA housing assistance they
for her previous conviction for providing false   were not entitled to receive.
income and family composition statements to                ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
DPHA. In addition, Lyles and her landlord/
brother-in-law Lance Phillips were named in            Janet Buckner, a St. Louis County
a four-count civil complaint under the False      Housing Authority (SLCHA) Section 8
Claims Act for allegedly failing to disclose      recipient and USDA employee, was indicted
their relationship on DPHA payment                in U.S. District Court, St. Louis, MO, on
contracts.                                        eight counts of making false statements to
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○        HUD, USDA, and SSA. Buckner allegedly
                                                  failed to report income and obtained more
    Kimberly Madrigal, a former Central           than $16,000 in SLCHA housing assistance
Oregon Regional Housing Authority                 and $109,000 in USDA and SSA benefits she
(CORHA) Section 8 tenant, was convicted           was not entitled to receive.
in Deschutes County Superior Court, Bend,                  ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
OR, on one count of theft by deception.
Madrigal was sentenced to 36 months                    Monique Murrell, a former Johnson
probation, and ordered to pay CORHA               County Human Services and Aging Section
$17,071 restitution. Madrigal failed to report    8 recipient, was charged in Johnson County
Social Security benefits she received on          District Court, Leawood, KS, with one count
behalf of her dependent children on annual        of theft and three counts of making false
CORHA certifications.                             writings. From September 2003 to May 2006,
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○        Murrell allegedly failed to disclose her
                                                  employment and/or income on federal
    Rita Mae Hodge, also known as Patricia        housing certifications. As a result, HUD
Jackson, pled guilty in U.S. District Court,      realized a loss of $16,170.
Columbus, OH, to making false statements                   ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
and SSA fraud. Hodge used a fictitious
name and SSN to simultaneously obtain                 Theresa Gray, a former Portland
Columbus Metro Housing Authority                  Housing Authority (PHA) Section 8 tenant,
(CMHA) Section 8 tenant housing assistance        was sentenced in Cumberland County
payments, CMHA Section 8 landlord                 Superior Court, Portland, ME, to 14 days
payments on four CMHA subsidized units,           incarceration and ordered to participate in
and SSA benefits. As a result, HUD and SSA        a diversion and rehabilitative program and
realized losses of $17,000 and $96,000,           pay PHA $5,000 restitution for her earlier
respectively.                                     guilty plea to theft by unlawful taking or
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○        transfer. From July 2001 through December
                                                  2004, Gray failed to report employment
     Catherine Rouse Herrin, an Aiken             income on PHA certifications and obtained
Housing Authority (AHA) Section 8 tenant,         $16,000 in PHA housing assistance she was
and Elmira Whatley, an AHA Section 8 and          not entitled to receive. PHA terminated
Augusta Housing Authority (AGHA) public           Gray from its rental assistance program.
housing tenant, were indicted in U.S. District             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
Court, Augusta, GA, for making false
statements to HUD. Herrin allegedly failed


HUD’s Public and Indian Housing Programs                                                         67
          Joanne Mallett, a former Massachusetts     result, Medina allegedly obtained more than
     Department of Housing and Community             $9,000 in SGHA housing assistance
     Development (MADHCD) Section 8                  payments she was not entitled to receive.
     landlord, pled guilty in Winchendon District             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
     Court, Winchendon, MA, to larceny over
     $250 by false pretense. Mallett was                 Gerard Hernandez, a Goodhue County
     sentenced to 36 months probation and            Housing Authority (GCHA) landlord, and
     ordered to pay RCAP, Inc., a MADHCD             Robin Denise Gard, also known as Denise
     Section 8 contract administrator, $14,532       Hernandez, a GCHA Section 8 tenant, were
     restitution. From May 2001 through October      charged in a criminal complaint filed in
     2003, Mallett leased a MADHCD Section 8         Goodhue County Court, Goodhue County,
     unit to her sister and falsely certified that   MN, with three counts of felony theft by
     she was not related to her. As a result,        swindle. Hernandez and Gard allegedly
     Mallett obtained $14,532 in MADHCD              created fictitious documents, claiming that
     housing assistance contract payments she        Hernandez owned property and leased the
     was not entitled to receive.                    property to GCHA Section 8 tenant Gard.
              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○      Hernandez allegedly rented the property
                                                     from a market rent landlord and then jointly
          Kamilah Rainey, a former Lakeland          occupied the unit as husband and wife with
     Housing Authority (LHA) Section 8 tenant,       Gard. HUD’s loss is estimated at $8,000.
     pled guilty in Tenth Judicial Circuit Court,             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
     Bartow, FL, to public assistance fraud for
     failing to disclose earned income on LHA            Yadiris Dela Rosa, a former Maine State
     annual certifications. Rainey was sentenced     Housing Authority (MSHA) Section 8
     to 5 years probation and ordered to pay LHA     tenant, pled guilty in Skowhegan District
     $11,460 restitution.                            Court, Skowhegan, ME, to theft by
              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○      deception. Dela Rosa was sentenced to serve
                                                     364 days in prison (9 months and 1 day
          Sherry White, a Fairfield Housing          suspended) and 2 years probation and
     Authority (FHA) Housing Choice Voucher          ordered to pay PropSys, an MSHA Section 8
     program participant, and Arthur White, an       contractor administrator, $7,520 restitution.
     FHA landlord, were each indicted in U.S.        From July 2004 to October 2005, Dela Rosa
     District Court, Fairfield, AL, on theft of      lived in Massachusetts and New York while
     HUD funds. From May 2003 to May 2004,           receiving MSHA housing assistance in
     Sherry and Arthur White allegedly provided      Skowhegan, ME. As a result, Dela Rosa
     false documentation and failed to report        obtained $7,520 in housing assistance she
     their father/daughter relationship to FHA.      was not entitled to receive.
     As a result, Sherry White allegedly obtained             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
     $9,876 in FHA housing assistance she was not
     entitled to receive.                                 Abel Vilcapoma, a former Worcester
              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○      Housing Authority (WHA) Section 8
                                                     landlord, pled guilty in Worcester District
          Antonia Medina, a South Gate Housing       Court, Worcester, MA, to making false
     Authority (SGHA) Section 8 recipient, was       claims to a government agency and
     charged in Los Angeles County Superior          conspiracy. Vilcapoma was sentenced to 6
     Court, Downey, CA, with obtaining money         months probation and ordered to pay the
     by false pretenses. Medina allegedly failed     court $376; Vilcapoma previously agreed to
     to disclose the unauthorized tenancy of her     repay WHA $6,320. Vilcapoma, the owner
     daughter or notify SGHA of her relocation       of rental property leased to a WHA Section
     and residency in Chula Vista, CA. As a          8 tenant, sold the property and conspired


68                                                    HUD’s Public and Indian Housing Programs
with the new owner to continue collecting         ownership on         housing      assistance
housing assistance contract payments from         applications.
WHA. As a result, Vilcapoma obtained
$7,070 in WHA housing assistance contract         Fugiti
                                                  Fugitivve Felon Initiati
                                                                  Initiativves
payments he was not entitled to receive.
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
                                                       Section 903 of Public Law 104-193 is
                                                  entitled “Elimination of Housing Assistance
     Diane Schauman, a former City of Mesa
                                                  with Respect to Fugitive Felons and
(CM) Housing Choice Voucher program
                                                  Probation and Parole Violators.” Signed into
participant, was indicted in Maricopa
                                                  law in 1996, it allows for an immediate
County Superior Court, Phoenix, AZ, for
                                                  tenancy termination of public housing
theft. Schauman allegedly failed to report
                                                  tenants who flee to avoid prosecution or
wages from full-time employment on CM
                                                  confinement after conviction of a felony or
certifications and obtained more than $7,000
                                                  when felons violate parole or probation
in CM housing assistance she was not
                                                  conditions imposed under federal or state
entitled to receive. CM terminated
                                                  laws. This law also authorizes law
Schauman from its rental assistance
                                                  enforcement agencies to exchange
program.
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
                                                  information and perform data matches.

                                                       HUD assists approximately 4.8 million
     Norlene Smith, a former Eustis Housing
                                                  households through public housing and
Authority (EHA) public housing tenant, was
                                                  rental assistance including Section 8 and
arrested after an information was filed in Lake
                                                  Housing Choice Voucher programs.
County Fifth Judicial Circuit Court, Lake
                                                  Reducing overpaid rent subsidies is one of
County, FL, charging her with one count of
                                                  HUD’s management improvement goals as
public assistance fraud. From August 2004 to
                                                  stated in the President’s Management
June 2005, Smith allegedly failed to disclose
                                                  Agenda, as well as an OIG goal as stated in
true household income on EHA annual
                                                  our strategic plan. The identification and
certifications and obtained $5,172 in housing
                                                  termination of fugitive felons fleeing felony
assistance she was not entitled to receive.
                                                  prosecution or probation and parole
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
                                                  violators, may impact HUD’s housing
                                                  assistance subsidies.
    Dean P. Proffitt, Orbin Dale May, Ernest
A. White, Howard E. Schneider, Osamn
                                                       The Office of Investigation (OI)
Abdulluhl, Elias Mohamed, Ahmed
                                                  continues to increase Fugitive Felon
Muhidin Sharif, Hiram Chebar Olover,
                                                  Initiatives (FFI) by matching HUD housing
Abdulfatah Osman Farah, Adil Majlovic,
                                                  assistance information with crime data from
Merud Kajtazovic, Abdirizak Abdi
                                                  the National Crime Information Center , U.S.
Mohamed, Abdiwahab               Mohamud
                                                  Marshals Service (USMS), and/or
Mohamed, Yusuf Kalmole, and Samir
                                                  participating states. Since the inception of
Hasanovic were arrested after their
                                                  OI’s FFI, hundreds of cases have been
indictments in U.S. District Court, Kansas
                                                  opened and closed, resulting in more than
City, MO, on conspiracy to commit fraud
                                                  5,600 arrests. In addition, OI provides tenant
in obtaining commercial drivers’ licenses
                                                  records matching USMS wanted persons
through the state of Missouri. The above
                                                  lists and participates in “Operation
defendants allegedly participated in a food
                                                  FALCON,” a USMS operation designed to
stamp and Section 8 housing assistance
                                                  apprehend fugitive felons living in public
fraud scheme by obtaining cash for their
                                                  and assisted housing.
food stamp cards and failing to disclose
employment, income, or business


HUD’s Public and Indian Housing Programs                                                           69
     Copyright, 2006. The Associated Press, Washington, DC. Reprinted with permission.


           Operation FALCON (Federal and Local              those arrested resided in HUD-assisted
      Cops Organized Nationally), a nationwide              housing.
      fugitive felon apprehension operation                           ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
      coordinated by USMS, combines federal,
      state, city, and county law enforcement                    The Dallas Fort Worth Fugitive
      resources in a joint effort to locate and             Apprehension Strike Team, representing law
      apprehend criminals wanted for violent                enforcement personnel from USMS; the U.S.
      crimes. Conducted in most major cities                Department of Veterans Affairs (VA) OIG;
      throughout the United States and its                  SSA OIG; the Texas Department of
      territories, Operation FALCON places a                Public Safety Rangers and Criminal
      strong emphasis on violent crimes involving           Intelligence Divisions; the Dallas, Fort
      gangs, weapons, homicides, and sexual                 Worth, Commerce, and Greenville Police
      assaults, along with crimes against children          Departments; the Dallas County, Tarrant
      and the elderly. HUD OIG strongly                     County, Hunt County, and Johnson County
      supports Operation FALCON in an effort to             Sheriff ’s Departments; and HUD OIG
      make HUD-assisted housing a safe place for            arrested 66 individuals on outstanding
      families to live.                                     warrants at Turner Courts and Rhoads
                                                            Terrace, Dallas Housing Authority public
          HUD OIG participated in “Operation                housing units in Dallas, TX, and numerous
      FALCON II,” a USMS action initiated to                HUD-assisted units located in southeast Fort
      identify, locate, and apprehend violent               Worth, TX, on various charges
      fugitives, particularly those charged with            including murder, attempted murder,
      sex crimes. As a result, 3,647 individuals            possession of controlled substances, sexual
      were arrested on outstanding felony                   assault, aggravated sexual assault, child
      warrants in East St. Louis, IL, and St. Louis,        endangerment, and/or robbery. Thirty-nine
      MO; Kansas City metropolitan area;                    of the subjects arrested received HUD
      Colorado; Utah; Montana; Los Angeles,                 housing assistance, and 41 individuals were
      San Francisco, Richmond, Salinas, San                 referred for termination from HUD’s rental
      Jose, Sacramento, and Marysville, CA;                 assistance program.
      Phoenix, AZ; Las Vegas, NV; Houston,                            ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○

      Dallas, Fort Worth, and San Antonio, TX;
      Oklahoma City, OK; Chicago, IL; and                       As part of a national FFI involving law
      Minneapolis, MN metropolitan areas.                   enforcement personnel from USMS; the
      HUD OIG arrested 719 individuals; 172 of              Bureau of Alcohol, Tobacco, Firearms, and


70                                                           HUD’s Public and Indian Housing Programs
 Explosives (ATFE); Immigration and                         U.S. Attorney Kenneth L. Wainstein
 Customs Enforcement (ICE); the FBI;                   announced the indictments and/or arrests of
 the Hartford Police Department Vice,                  24 individuals on numerous charges
 Narcotics, and Intelligence Divisions; the            including unlawful distribution of a
 Waterbury Police Department; the State of             controlled substance, conspiracy, possession
 Connecticut Adult Probation and Parole                of firearms without a license, and/or
 Departments; the Connecticut State Police;            unlawful possession of ammunition after a
 and HUD OIG, 47 individuals were arrested             5-month District of Columbia (DC) Public
 in Hartford, CT, and 33 individuals were              Housing Safety Initiative (PHSI) operation
 arrested in Waterbury, CT, on various                 at Woodland Terrace Apartments, a DC
 charges including possession of narcotics             Housing Authority (DCHA) housing
 with intent to distribute, illegal possession         development in Washington, DC. During
 of narcotics in a school zone, sexual assault,        this operation, the DC PHSI task force,
 forgery, robbery, burglary, assault, assault          consisting of law enforcement personnel
 of a police officer, escape of custody, grand         from the DC Metropolitan Police, DCHA
 larceny, and/or probation violations.                 Police, and HUD OIG, seized illegal drugs,
            ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○          including PCP, cocaine, marijuana, and
                                                       ecstasy, along with two vehicles and
      HUD OIG’s Newark field office                    firearms. As a result, DCHA initiated three
 participated in a USMS FFI in Hoboken                 eviction proceedings against resident
 Housing Authority (HHA) housing                       violators arrested.
 developments located on Jackson Street,                         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
 Harrison Street, and Marshall Drive in
 Hoboken, NJ. The USMS operation focused                     In Worcester, MA, 21 individuals,
 on the cooperative efforts of law                     including five Worcester Housing Authority
 enforcement and HHA to dismantle a                    (WHA) Section 8 and/or public housing
 suspected drug distribution ring and arrest/          tenants, were arrested at a WHA public
 evict fugitive felons from HHA housing                housing development on outstanding
 projects.      During the initiative, 34              warrants. The arrests resulted from a
 individuals were arrested on outstanding              Worcester Police Department “ruse,” which
 warrants for sex crimes; assaults; and                lured the subjects, believing they were to
 narcotics, parole, child support, and/or              receive cash from the State of Massachusetts,
 traffic violations. In addition, a heroin and         Massachusetts Department of Transitional
 cocaine distribution ring was dismantled.             Adjustment, to the WHA public housing
            ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○          site.
                                                                 ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




Copyright, 2006. Telegram & Gazette, Worcester, MA. Reprinted with permission.



  HUD’s Public and Indian Housing Programs                                                             71
          The Philadelphia PHSI task force,                  Danilo Rico, a former East Hartford
     consisting of law enforcement personnel            Housing Authority (EHHA) Section 8
     from ATFE, the Drug Enforcement Agency             tenant, pled guilty in U.S. District Court,
     (DEA), USMS, the Philadelphia District             Hartford, CT, to one count of possession of
     Attorney’s Office, the Philadelphia Police         a firearm by a convicted felon. Rico was in
     Department, Philadelphia Housing                   possession of a 9 millimeter handgun seized
     Authority (PHA) Police, the Eastern District       during execution of a federal search warrant
     of Pennsylvania U.S. Attorney’s Office, and        at his EHHA Section 8 unit. EHHA
     HUD OIG arrested six individuals on                terminated Rico from its rental assistance
     outstanding warrants for possession of crack       program.
     cocaine, producing and distributing
     marijuana, and/or driving under the                Other Fraud/Crimes
     influence (DUI) violations in or near Paschall
     housing development, a PHA subsidized
     housing complex in Philadelphia, PA. In                 Kevin Timochenko, a Reading City
     addition, two subjects living next to PHA          Housing Authority (RCHA) landlord and
     Section 8 program participants were                owner of Metropolitan Management
     arrested for constructing and operating a          Corporation, was charged in an information
     marijuana “grow house,” complete with an           filed in U.S. District Court, Reading, PA,
     elaborate tube ventilation system, lighting,       with one count of theft from an interstate
     and drying production facilities, and              pipeline. Timochenko, representing that he
     supplying the controlled substance to              paid tenant utilities in his RCHA housing
     individuals around Paschall housing units.         assistance payment contract, allegedly
     As a result of this operation, one PHA             directed his maintenance staff to install by-
     resident was arrested.                             pass devices on utility meters and
              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
                                                        pilfered natural gas valued at approximately
                                                        $1 million from UGI Utilities, Inc.
                                                                 ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
         Sheila L. Williams, Sebrina D. Long,
     Sarah L. Brooks, and Andrea Holmes,
                                                             Michael Ciarcia, owner of Ciarcia
     Greensboro Housing Authority (GHA) and/
                                                        Construction, LLC, was sentenced in U.S.
     or Housing Authority of Winston-Salem
                                                        District Court, Hartford, CT, to two
     (HAWS) Section 8 or public housing tenants,
                                                        concurrent 13-month prison sentences and
     were arrested at their GHA/HAWS
                                                        two concurrent 2-year probation terms for
     subsidized units in Greensboro and
                                                        his earlier conviction on money laundering
     Winston-Salem, NC, for probation
                                                        and conspiracy to commit money
     violations relating to their earlier convictions
                                                        laundering charges. Ciarcia, a rehabilitation
     on embezzlement, assault with a deadly
                                                        contractor with the Housing Authority of the
     weapon, and narcotics violations. GHA and
                                                        City of New Britain (HANB), certified a
     HAWS terminated Williams, Long, and
                                                        ghost employee, previously indicted Luis
     Brooks from their rental assistance
                                                        Santiago, on HANB certifications to
     programs.
                                                        facilitate laundering Santiago’s illicit drug
              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
                                                        sales     proceeds      through      Ciarcia
                                                        Construction, LLC’s payroll.
          Julio Pizzaro, a previously convicted sex              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
     offender and resident of a New York City
     Housing Authority (NYCHA) Section 8 unit,              Billy Nsubuga, a former Malden
     was arrested on an outstanding warrant for         Massachusetts Housing Authority (MMHA)
     parole violations by the New York/New              Section 8 tenant, was sentenced in U.S.
     Jersey Regional Fugitive Task Force (NY/NJ         District Court, Boston, MA, to 13 months
     RFTF) in New York, NY.                             incarceration and 36 months supervised
              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


72                                                       HUD’s Public and Indian Housing Programs
            “Money Launderer Sentenced” by Courant Staff Reports, published 7/6/06:
            “Copyright, 2006, Hartford Courant. Reprinted with permission”



release and ordered to pay two financial          before her detection by New York and
institutions $107,401 restitution and is also     Connecticut banks.
subject to deportation for her previous guilty               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
plea to numerous counts of bank fraud, mail
fraud, identity theft, and identity document          Samuel Lewis, a former Worcester
fraud. Nsubuga opened bank accounts in            Housing Authority (WHA) public housing
Massachusetts, New York, and Connecticut          tenant, was convicted in U.S. District Court,
with cash deposits in the names of others,        Worcester, MA, on 15 counts of making false
using altered passports from Uganda, The          statements to procure firearms. Lewis
Republic of Congo, and South Africa, along        provided a false address on documents he
with bogus identification documents from          used to purchase firearms while residing in
California. Nsubuga received more than            a WHA public housing unit.
$100,000, which was not reported to MMHA,




HUD’s Public and Indian Housing Programs                                                          73
   Chapter 4
HUD’
HUD’ss Multifamil
       Multifamilyy
Housin
Housingg Pr
         Proog rams
         In addition to multifamily housing
     developments with U.S. Department
                                                    Owner and Mana
                                                               Manag gement
     of Housing and Urban Development               Agent Operations
                                                    Agent
     (HUD)-held or HUD-insured mortgages, the
     Department owns multifamily projects               Over the past 6 months, OIG has
     acquired through defaulted mortgages,          audited owner and management agent
     subsidizes rents for low-income                operations with an emphasis on combating
     households, finances the construction or       equity skimming. While our objectives
     rehabilitation of rental housing, and          varied by auditee, the majority of the
     provides support services for the elderly      reviews were to determine whether the
     and handicapped.                               owner and/or management agent used the
                                                    project funds in compliance with the
                                                    regulatory agreement and HUD
     Audits                                         requirements. The results of OIG’s more
                                                    significant audits are described below.
         During this period, the Office of
     Inspector General (OIG) issued eight               At the request of HUD, OIG audited the
     external reports in the multifamily housing    Rhode Island Housing and Mortgage
     program area. These reports disclosed          Finance Corporation, a state housing agency
     almost $4.9 million in questioned costs and    located in Providence, RI. The Corporation
     almost $5.3 million in recommendations that    incorrectly processed Section 8 housing
     funds be put to better use.                    assistance payment contract renewals for
                                                    eight developments. It included debt service
                                                    at incorrect levels and failed to reduce
                                                    Section 8 contract rents, resulting in more


                                     A Look Bac
                                            Back k ffor
                                                     or the Year
                                                            Year
     Chartt 4.1: Per
     Char            centa
                 Percenta ge of OIG Multifamil
                     centag         Multifamilyy Housin
                                                 Housing g Closed Audit Cases
                                                                        Cases,, Perfor
                                                                                Perfor med FY 06
                                                                                    ormed
                                                                            Region 1
                                                                             Boston
                                               Region 5                       22%
                                               Chicago
                          Region 7-8
                                                 6%              Region 2
                          Kansas City
                             28%                                 New York
                                                                   0%




                                                                                    Region 3
                                                                                   Philadelphia
                                                                                        0%




        Region 9-10
        Los Angeles                                                     Region 4
            38%                                                         Atlanta
                                               Region 6                   0%
                                              Fort Worth
                                                  6%




76                                                         HUD’s Multifamily Housing Programs
than $1.8 million in Section 8 subsidy           and implement management controls to
overpayments to the development owners.          ensure that unauthorized cash distributions
The Corporation did not recover the              do not recur, repay Wellspring at Aurora for
overpayments. It also violated federal           the unauthorized loans to other projects,
regulations when it allowed two                  develop and implement management
developments to use more than $900,000 in        controls to ensure that unauthorized loans
restricted residual receipts to pay financing    do not recur, eliminate all asset management
fees to the Corporation, the Corporation’s       fee accrual accounts, develop and
affiliated Affordability Housing Trust, and      implement management controls to ensure
one development owner.                           that expenses accrued and/or charged to
                                                 projects are legitimate project-related
     OIG recommended that HUD require expenses, and properly allocate its corporate
the Corporation to (1) actively pursue and expenses. (Audit Report: 2006-DE-1004)
recover just under $1.2 million in Section 8              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
subsidy        overpayments            from  six
development owners, (2) confirm that it              HUD OIG audited Sundial Care Center
returned more than $657,000 in located in Modesto, CA. OIG found that
overpayments collected from two the owner used almost $660,000 in project
development owners to the appropriate funds for nonproject (ineligible) and
accounts, (3) develop and implement undocumented costs and could not account
procedures to ensure that HUD for more than $407,000 in project revenue
requirements governing the renewal of receipts. The owner ’s noncompliance
expiring Section 8 housing assistance caused a default on the insured mortgage
payment contracts are followed, and (4) and HUD’s $3.6 million loss on the
clarify its procedures to ensure that residual subsequent sale of the mortgage note.
receipts are restricted to authorized uses.
Further, OIG recommended that HUD                    OIG recommended that HUD require
confirm that the Corporation returned more the owner to repay HUD’s FHA insurance
than $945,000 to the appropriate restricted fund almost $1.1 million, pursue double
accounts. (Audit Report: 2006-BO-1009)           damages remedies against the owner, and
           ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○     take administrative actions against the
                                                 owner and its principals/officers. (Audit
     In response to a referral from HUD, OIG Report: 2006-LA-1011)
audited two projects owned and managed                    ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
by Juniper Communities. One of the
projects, Wellspring at Aurora, made                 HUD OIG reviewed Wellston
unauthorized cash distributions totaling Townhouses, a 63-unit project located in St.
more than $165,000, prematurely withdrew Louis County, MO. Wellston Townhouses’
more than $912,000, and had loans managing owner did not use project funds
outstanding from other Federal Housing in compliance with the regulatory
Administration (FHA)-insured projects agreement and violated several other terms
totaling more than $127,000 as of December of the agreement. These violations, totaling
31, 2005. In addition, Juniper accrued almost $305,000, adversely affected the
unallowable asset management fees totaling project’s financial stability.
almost $130,000 and improperly allocated
corporate expenses to Wellspring at Aurora.          OIG recommended that HUD take
                                                 appropriate actions to correct deficiencies
     OIG recommended that HUD require and ensure that these violations will not
Juniper to repay Wellspring at Aurora for recur. (Audit Report: 2006-KC-1011)
the unauthorized cash distributions, develop              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




HUD’s Multifamily Housing Programs                                                              77
          HUD OIG reviewed HDC Retirement                   HUD OIG conducted a review of Deer
     Village, a 48-unit project located in St. Louis,   Creek Apartments (project), a Section
     MO. HDC Retirement Village’s managing              221(d)(4)-insured multifamily housing
     owner did not use project funds in                 project in Houston, TX. The project’s owner
     compliance with the regulatory agreement           generally complied with the regulatory
     and also violated several other terms of the       agreement and HUD regulations; however,
     agreement. These violations, totaling almost       the previous management agent paid itself
     $210,000, adversely affected the project’s         more than $24,000 for unsupported
     financial stability.                               expenses.

         OIG recommended that HUD take                       OIG recommended that HUD require
     appropriate actions to correct deficiencies        the project’s owner or its prior management
     and ensure that these violations will not          agent to either provide documentation to
     recur. (Audit Report: 2006-KC-1012)                show that the charges were for actual work
              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○         performed and that the fees charged were
                                                        reasonable and necessary or repay the
          HUD OIG audited the Utah Non Profit           expenses to the project. HUD should also
     Housing Corporation, Salt Lake City, UT, a         determine whether the prior management
     management agent for nine properties               agent charged other HUD-insured projects
     assisted by HUD. Utah Non Profit did not           for these unsupported fees and if so, require
     ensure that seven properties generated             that the same documentation be provided
     sufficient funds to meet their financial           or the fees be repaid for those projects as
     obligations. It deferred payments to itself        well. (Audit Report: 2006-FW-1010)
     to pay the projects’ other expenses. It also
     improperly charged salary costs to                 Section 202 Suppor   ti
                                                                             tivve
                                                                      Supporti
     properties based on an arbitrary,
     unsupported rate and billed properties for         Housin
                                                        Housingg ffor
                                                                   or the Elderl
                                                                          Elderlyy
     more than $49,000 in supervisor salaries that
     its management fee should have covered. In             HUD OIG audited the Bridgeport,
     addition, it paid more than $21,000 for            CT, project Hall Commons, Inc.’s,
     unnecessary expenses and may be paying             administration of its Section 202 Supportive
     more than $31,000 annually more than               Housing for the Elderly capital advance
     necessary for services.                            construction funds to determine whether
                                                        Hall Commons administered the Section 202
         OIG recommended that HUD require               funds advanced for construction in
     the project owners to ensure that Utah Non         accordance with federal requirements.
     Profit submits rent increases in a timely
     manner to reduce operating deficits and pay             Hall Commons failed to maintain
     the accrued management fees, implements            adequate and essential financial records to
     an acceptable allocation plan, reimburses          accurately account for project financial
     the properties for ineligible salaries and         transactions and safeguard project assets. It
     unnecessary costs, and develops and                also made unauthorized disbursements and
     implements adequate management controls            allowed required insurance policies to lapse
     to ensure compliance with HUD                      due to nonpayment of premiums. As a
     requirements. (Audit Report: 2006-DE-              result, more than $2 million in capital
     1005)                                              advances and payments to vendors and
              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○         contractors was not properly recorded, more
                                                        than $199,000 in project funds was disbursed
                                                        in violation of the governing project
                                                        agreements, the project was not always



78                                                           HUD’s Multifamily Housing Programs
covered by builder’s risk or crime insurance,
and real estate taxes were delinquent.

    OIG recommended that HUD (1)
pursue applicable sanctions available under
the regulatory agreement to protect its $4
million investment, including issuing a
notice of default and if the violations are not
corrected within 30 days of declaring a
default, taking possession of the project,
foreclosing on the mortgage, or requiring a
transfer of physical assets to a HUD-
approved nonprofit corporation, and (2)
require Hall Commons, Inc., to support and/
or repay the more than $199,000 in project
funds that were disbursed in violation of the
governing project agreements. If Hall
Commons is allowed to remain the owner,
HUD should require it to establish a
financial accounting system and maintain
current and accurate books and accounts
and a functioning board of directors to
provide adequate oversight of project
operations. (Audit Report: 2006-BO-1008)
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




HUD’s Multifamily Housing Programs                79
        Investi
        Inv    gations
           estig                                                                      Some investigations discussed in this re-
                                                                                  port were conducted by OIG or jointly with
            During this reporting period, OIG                                     federal,    state,    and     local     law
        opened 54 investigation cases and closed 60                               enforcement agencies. The results of
        cases in the multifamily housing program                                  various significant investigations are
        area. Judicial action taken on these cases                                described below.
        during the period included $6,472,308 in
        investigative recoveries, $3,211,285 in funds                            Theft/Embezzlement
                                                                                  heft/Embezzlement
        put to better use, 59 indictments/
        informations, 43 convictions/pleas/pretrial                                     Jill M. Trayner, the former executive
        diversions, 120 administrative actions, 1                                 director of United Methodist Retirement
        personnel action, and 97 arrests.                                         Center of Tampa, Inc. (UMRCT), also known
      Char
      Chartt 4.2: Multifamil
                  Multifamilyy Housing Reco
                               Housing     veries
                                       Recov                                      as Methodist Place, a HUD-funded
                                                                                  multifamily elderly housing complex, was
               Public                        Section 8                            sentenced in U.S. District Court, Tampa, FL,
             Corruption     Section 8
             0% ($2,000) Landlord Fraud
                                           Tenant Fraud
                                           2% ($175,034)
                                                                                  to 1 year and 1 day in prison, mandatory
                          6% ($460,300)
                                                           Embezzlement
                                                                                  attendance in a mental health program during
      Equity Skimming
      23% ($1,661,278)                                     10% ($737,456)         her incarceration, and 36 months supervised
                                                                                  released; fined $5,000; and ordered to pay
                                                                                  UMRCT $366,228 restitution for her previous
                                                                                  guilty plea to theft of federal program funds.
                                                                                  Trayner used her position to divert UMRCT
                                                  False Statements
          Total Recoveries $6,472,308             59% ($4,216,719)                program funds and used the funds for
                                                                                  personal expenses including gambling, loan
                                                                                  payments, credit card debt, and club
                                                                                  memberships.

                                         A Look Bac k ffor
                                                 Back   or the Year
                                                               Year
     Char
     Chartt 4.3: Per centa
                 Percenta ge of OIG Multifamil
                     centag         Multifamilyy Housin
                                                 Housingg Closed In vesti
                                                                  Inv    gation Cases
                                                                     estig      Cases,, Perfor
                                                                                        Perfor med FY 06
                                                                                             ormed
                                                                                                          Region 1
                                                                                                           Boston
                                                                            Region 5                        10%
                                                                            Chicago
                                          Region 7-8
                                                                              9%               Region 2
                                          Kansas City
                                             23%                                               New York
                                                                                                 6%




                                                                                                                   Region 3
                                                                                                                 Philadelphia
                                                                                                                     15%




             Region 9-10
             Los Angeles                                                                              Region 4
                 16%                                                                                  Atlanta
                                                                             Region 6                   10%
                                                                            Fort Worth
                                                                               12%




80                                                                                       HUD’s Multifamily Housing Programs
                                                 submitted inflated and false invoices for
                                                 security services. As a result, HUD paid
                                                 approximately $260,431 for services not
                                                 provided.
                                                          ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


                                                      Wanda Mercado, a former Peabody
                                                 Properties manager at Schoolhouse 77, a
                                                 HUD-subsidized multifamily complex, pled
                                                 guilty in U.S. District Court, Boston, MA,
                                                 to five counts of bribery. Mercado solicited
                                                 and received more than $34,000 in bribes
                                                 from 10 Section 8 applicants for HUD-
                                                 assisted housing units at Schoolhouse 77. As
                                                 a result, HUD realized losses exceeding
                                                 $151,478 when housing assistance payments
                                                 were paid on behalf of 10 unqualified
                                                 tenants.
                                                          ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


                                                     Charles Sitter, a property manager at
      Copyright, 2006. The Tampa Tribune,        East Main Street Apartments, a HUD-
      Tampa, FL. Reprinted with permission.      funded multifamily elderly housing
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
                                                 complex, was arrested and charged in
                                                 Seneca County District Court, Waterloo, NY,
     Larry Lippman, a managing agent for         with grand larceny. Sitter allegedly extorted
Republic Management at Eastwood Terrace          $60,000 from an elderly tenant by
Apartments (ETA), a HUD-funded                   threatening eviction if the payment was not
multifamily apartment complex in                 made.
                                                          ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
Nacogdoches, TX, was indicted in U.S.
District Court, Beaumont, TX, on three
counts of embezzlement. From August 2000              Jorge Hernandez Cruz, a former
to June 2003, Lippman allegedly paid             manager at Casa De Las Hermanitas
himself an unauthorized annual salary of         (CDLH), a HUD-subsidized multifamily
$60,000 and hid the salary payments by           complex, was arrested after a complaint was
manipulating ETA accounts under his              filed in Los Angeles County Superior Court,
control. As a result, HUD’s loss is estimated    Los Angeles, CA, charging him with
at $300,000.                                     commercial bribery and theft. Cruz
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○       allegedly solicited and received payments
                                                 from nine elderly families for placement into
     On Guard Security Services, Inc.            CDLH housing units, illegally bypassing
(OGSS), a security contractor for HUD            other applicants on the CDLH waiting list.
Multifamily Mortgagee-In-Possession              In addition, Cruz allegedly demanded
properties located in Kentucky and               additional monies from applicants reaching
Tennessee, pled guilty to an information         the top of the waiting list before assigning
filed in U.S. District Court, Spartanburg, SC,   CDLH housing units.
                                                          ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
charging it with making false, fictitious, or
fraudulent claims and general provision
crimes. For approximately 2 years, OGSS               Jerri Kirby, the former property manager
                                                 at College Hill Apartments, a HUD-subsidized


HUD’s Multifamily Housing Programs                                                               81
     multifamily housing complex, pled guilty in            Tamyra T. Nelson, a Maryland state
     Clermont County Municipal Court,                  correctional officer, was indicted in
     Columbus, OH, to one count of theft for           Wicomico County District Court, Salisbury,
     personally using tenant rents she collected.      MD, on theft and making false statements.
     Kirby was sentenced to 3 months incarceration     Deniece Davis, a Wicomico County
     and 2 years probation and ordered to pay          Detention Center correctional officer, pled
     College Hill Apartments $4,100 restitution.       guilty to making false statements. Nelson
                                                       and Davis, former Section 8 tenants at
     Rental Assistance Fraud                           Pemberton Manor Apartments, a HUD-
                                                       subsidized multifamily complex, allegedly
                                                       failed to report income on annual housing
          Olandria Williams, a former Shoreview        certifications and allegedly obtained
     Apartments Section 8 tenant, was sentenced        approximately $20,000 in housing assistance
     in U.S. District Court, San Francisco, CA,        they were not entitled to receive.
     to 1 year probation and ordered to pay HUD                 ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
     $45,072 restitution for her earlier guilty plea
     to making false statements to HUD.                     Pia Benjamin, a HUD multifamily
     Williams falsified reported income, failed to     Section 8 tenant and New York Police
     reside in her subsidized unit, and obtained       Department (NYPD) school safety officer,
     $45,072 in housing assistance she was not         was charged in a criminal complaint filed
     entitled to receive.                              in Brooklyn Criminal Court, Brooklyn, NY,
              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
                                                       with grand larceny, falsifying business
                                                       records, and offering a false instrument for
          Rosalyn Tillery, a former La Salle           filing. Benjamin allegedly failed to report
     Apartments Section 8 tenant, was sentenced        her NYPD employment or income on
     in U.S. District Court, San Francisco, CA,        housing certifications and obtained
     to 2 years probation and 25 hours of              approximately $19,282 in housing assistance
     community service and ordered to pay HUD          she was not entitled to receive.
     $35,759 restitution for her previous guilty                ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
     plea to making false statements to HUD.
     Tillery failed to report income or property            Elsa Ondina Herrera-Martinez, a former
     she jointly owned with her spouse on              Section 8 tenant at High Point Village, a
     Section 8 certifications.                         HUD-subsidized multifamily complex, was
              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
                                                       indicted in U.S. District Court, Boston, MA,
                                                       on theft of government funds, aggravated
          Donald Pierce, a former Maine State          identity theft, and illegally obtaining a Social
     Housing Authority (MSHA) Section 8 tenant         Security number (SSN). Herrera-Martinez
     at William Woods Apartments in Rockland,          allegedly used the identity of another person
     ME, pled guilty in U.S. District Court,           to obtain more than $15,000 in Section 8
     Portland, ME, to making false statements.         housing assistance payments.
     Pierce failed to disclose income and assets,               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
     including $165,000 in certificates of deposit,
     more than $80,000 in an investment account,            Paulita Brigham, an Internal Revenue
     and/or $145,000 in cash seized by the State       Service (IRS) employee and Section 8 tenant
     of Maine, on MSHA housing assistance              of Friendship Village, a HUD-funded
     certifications. As a result, Pierce obtained      multifamily housing complex, entered into
     $26,987 in MSHA housing assistance he was         a plea agreement in Jackson County Circuit
     not entitled to receive. Pierce remains in        Court, Kansas City, MO, and was sentenced
     state custody for his earlier conviction on       to 12 months probation and 40 hours of
     narcotics violations.                             community service for stealing government
              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○



82                                                           HUD’s Multifamily Housing Programs
funds. Brigham failed to disclose her IRS       or My Place, Inc., Antonio Giordano,
employment and/or income on annual HUD          Inc., Construction Software, Inc.,
certifications and obtained $4,766 in housing   Consultants, Inc., Simon and Windsor, Inc.,
assistance she was not entitled to receive.     Gregory Building Company, Management
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○      Realty Services, and/or Sterling Health Care
                                                Management Company, identity-of-interest
    Mikael Best, a previously convicted sex     companies authorizing payments for
offender and Section 8 tenant at Harlen         unwarranted services while the properties
Houses in New York City, NY, was arrested       were in a non-surplus-cash position,
on an outstanding warrant for parole            a violation of their HUD regulatory
violations. The New York/New Jersey             agreement. Giordano and Montecalvo were
Regional Fugitive Task Force arrested Best.     further indicted in Rhode Island Superior
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○      Court on 45 counts of conspiracy to
                                                embezzle, money laundering, conspiracy to
    Candace Allen, Brenda Serrato, and          commit money laundering, Medicaid fraud,
Lawrence Valdez, Weber County Section 8         and conspiracy to commit Medicaid fraud
tenants, were arrested in Salt Lake City, UT,   in connection with HHC operations.
on outstanding warrants for various charges     Montecalvo was charged with additional
including lewdness, theft, and drugs.           counts of patient neglect for his role at HHC.
                                                As a result of their actions, HUD realized a
                                                loss of $14 million when Giordano defaulted
Other Fraud/Crimes                              on both the CHC and EP HUD-insured
                                                mortgages. HUD continues litigation over
     Antonio Giordano, owner of Suburban        the now defunct HHC $13 million insurance
Mortgage and four HUD-insured nursing
homes located in Rhode Island
and known as Coventry Health
Center (CHC), Mount St. Francis
Health Center (MSFC), Edmunds
Place (EP), and Hillside Health
Center (HHC), and John
Montecalvo, administrator of the
above nursing homes, were
sentenced in U.S. District Court,
Providence, RI, for their earlier
guilty pleas to equity skimming.
Giordano was sentenced to 30
months incarceration and 24
months supervised release,
ordered to pay the U.S.
Treasury Department $780,539
restitution jointly and severally
with Montecalvo, and fined
$100,000. Montecalvo was
sentenced to 24 months
incarceration and 24 months
supervised release. Giordano,
Montecalvo, and others illegally
diverted income or funds from
the nursing homes to themselves                   Copyright, 2006. The Journal Medical, Providence,
                                                  RI. Reprinted with permission.


HUD’s Multifamily Housing Programs                                                                    83
     payment, and MSF, with a $9.7 million            laundering, and perjury for diverting more
     HUD-insured mortgage, continues                  than $110,000 in BHA project rents and other
     operations while listed for sale. In addition,   funds while BHA’S HUD-insured mortgage
     the Suburban Mortgage portfolio contains         was in default and during BHA’S Chapter
     approximately 57 HUD-insured loans               11 bankruptcy. As a result, HUD realized
     estimated at $314.3 million, all of which are    losses in exceeding $1.6 million.
     considered at risk. HUD’s Office of                       ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
     General Counsel announced the suspension
     of Giordano, Montecalvo, and 17 affiliates.           Longley-Jones Management Corp-
              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○       oration (LJMC), a manager of commercial
                                                      and residential properties, was sentenced in
          Kevin Rice and Jimmy Keel, contractors      U.S. District Court, Syracuse, NY, to a $4
     for Burchwood Harbor Apartments (BHA),           million fine for its earlier guilty plea to
     a HUD-insured multifamily project, signed        conspiracy to violate the Clean Air Act and
     pretrial diversion agreements of 6 months        mail fraud. The sentencing orders LJMC to
     deferred adjudication in U.S. District Court,    use $3 million for proper asbestos abatement
     Hot Springs, AR. Rice and Keel admitted          and implementation of an environmental
     to bankruptcy fraud and conspiracy when          compliance plan and remit the remaining $1
     they perjured themselves during a BHA            million to the U.S. Government. Between
     Bankruptcy Rule 2004 examination. Rice           1990 and November 2005, at HUD-insured
     and Keel admitted that Rodney Myers,             and other properties, LJMC, through
     owner of BHA, and others induced their           its supervisory employees, knowingly
     perjury in their Bankruptcy Rule 2004            stripped, bagged, removed, and disposed of
     examinations by convincing them to falsely       regulated asbestos material in a manner that
     state that they received BHA funds for work      did not comply with the Clean Air Act work
     they performed. Myers previously pled            practice standards.
     guilty to bankruptcy fraud, money




84                                                         HUD’s Multifamily Housing Programs
        Chapter 5
HUD’
HUD’ss Community Plannin
                  Planningg
and De
    Devvelopment Pr
                 Proog rams
          The Office of Community Planning and     auditee, the majority of the reviews were to
     Development (CPD) seeks to develop viable     determine whether the grant funds were
     communities by promoting integrated           administered for eligible activities and that
     approaches that provide decent housing,       they met overall agreements.             The
     suitable living environments, and expanded    following section illustrates the audits
     economic opportunities for low- and           conducted in the CPD area.
     moderate-income persons. The primary
     means toward this end is the development
     of partnerships among all levels of
                                                   Community DeDevvelopment
     government and the private sector.            Block Grant Pr
                                                   Block         ogram
                                                               Pro
     Audits                                             HUD OIG audited the Municipality of
                                                   Toa Baja’s, Toa Baja, PR, Section 108 Loan
         During this reporting period, OIG         Guarantee Assistance program. The
     issued 1 internal and 10 external audit       Municipality did not manage two program
     reports in the CPD program area. These        activities in an economical, efficient, and
     reports disclosed more than $11 million in    effective manner. It paid more than $4.8
     questioned costs and nearly $4 million in     million for two activities in which the
     recommendations that funds be put to          intended benefits and compliance with
     better use.                                   CDBG national objectives were not met and
                                                   paid more than $70,000 for unreasonable/
         OIG   audits     the    Community         unnecessary expenditures. In addition, the
     Development Block Grant (CDBG) program,       Municipality did not maintain adequate
     Supportive Housing Program Grant,             records to demonstrate that it complied with
     HOME, and Special Purpose Grants              environmental review procedures
     program. While OIG’s objectives varied by     associated with the construction of the Toa

                                     A Look Bac
                                             Backk ffor
                                                     or the Year
                                                            Year
       Char
       Chartt 5.1: Per centa
                   Percenta ge of OIG Community Plannin
                       centag                               g and De
                                                     Planning       velopment Closed Audit
                                                                  Dev
                                     Cases
                                     Cases,, Perfor
                                             Perfor med FY 06
                                                 ormed
                                                                           Region 1
                                                                            Boston
                                              Region 5                       11%
                                              Chicago
                         Region 7-8
                                                21%             Region 2
                         Kansas City
                            0%                                  New York
                                                                  16%




                                                                                   Region 3
                                                                                  Philadelphia
                                                                                       5%




       Region 9-10
       Los Angeles                                                     Region 4
           26%                                                         Atlanta
                                              Region 6                   16%
                                             Fort Worth
                                                 5%



86                                     HUD’s Community Planning and Development Programs
                                                assessed and supported. (Audit Report:
                                                2006-AT-1019)
                                                          ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


                                                       HUD OIG audited the Municipality of
                                                  Humacao’s, Humacao, PR, CDBG program.
                                                  The Municipality’s financial management
                                                  system did not properly identify the
                                                  application of more than $1.2 million in
                                                  program income, did not properly allocate
                                                  almost $316,000 in administrative salaries,
                                                  allowed the use of almost $67,000 for
                                                  ineligible expenditures, and could not
                                                  account for nearly $80,000 in CDBG receipts.
                                                  In addition, the Municipality awarded 12
                                                  contracts without following HUD
                                                  procurement requirements, did not support
                                                  the reasonableness of $1.9 million in CDBG
                                                  contracts, and paid almost $103,000 for
                                                  excessive or unnecessary expenditures.
  Picture of the front of the public library. The
  library is beneath a deteriorated water tower   Further, the Municipality did not maintain
  and has no parking facility.                    adequate records to demonstrate that
                                                  activities met at least one of the three CDBG
Baja public library. As a result, HUD has no national objectives. Therefore, the intended
assurance that requirements were met or benefits and compliance with the CDBG
whether potential findings or concerns were national objectives and related expenditures
properly addressed.                               totaling nearly $212,000 are unsupported.

     OIG recommended that HUD require                OIG recommended that HUD require
the Municipality to (1) develop and             the Municipality to repay almost $103,000
implement a corrective action plan to           in excessive costs and nearly $67,000 in
eliminate safety hazards and ensure that the    ineligible operating expenditures; provide
public library meets a national objective or    all supporting documentation showing the
repay $3.8 million used for its construction,   appropriateness and eligibility of $3.8
(2) provide all supporting documentation        million in CDBG disbursements; develop
showing that it obtained HUD approval to        and implement an internal control plan to
change the purpose and scope of the             ensure that the CDBG program has (1) a
Candelaria multipurpose center or repay $1      financial management system that complies
million used for its construction, (3) repay    with HUD requirements, (2) procurement
more than $70,000 in unreasonable/              procedures that ensure goods and services
unnecessary cost for repairs at the public      are obtained at the most advantageous terms
library, (4) develop and implement an           and in a manner providing full and open
internal control plan to ensure that the Loan   competition, and (3) procedures that ensure
Guarantee Assistance program has                funded activities meet at least one of the
procedures that ensure funded activities        CDBG national objectives; and ensure that
provide the intended benefits to the            CDBG expenditures are properly accounted
community and meet at least one of the          for, reconciled with HUD’s disbursement
CDBG       national       objectives      and   system, and in compliance with HUD
environmental review procedures that            requirements. (Audit Report: 2006-AT-
ensure funded activities are properly           1016)
                                                          ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


HUD’s Community Planning and Development Programs                                                 87
          HUD OIG is conducting ongoing audits         County also extended the payoff date for two
     of the Lower Manhattan Development                CDBG float-funded activities without
     Corporation’s administration of the CDBG          properly identifying the loan extensions as
     Disaster Recovery Assistance funds, which         a new activity as required.
     were provided to the State of New York as a
     result of the September 11, 2001, terrorist           OIG recommended that HUD require
     attacks on the World Trade Center in New          the County to (1) reimburse its CDBG and/
     York City. The Corporation disbursed $129.7       or repay HUD from nonfederal funds for
     million of these funds during the audit           more than $67,000 in expenses related to
     period of October 1, 2005, through March          ineligible administrative activities, (2)
     31, 2006.                                         establish and implement adequate
                                                       procedures for charging administrative costs
         The Corporation generally disbursed           that meet federal requirements, and (3)
     Disaster Recovery Assistance funds in             establish and implement adequate
     accordance with the HUD-approved action           procedures for its float loan program. (Audit
     plans. The Corporation also expended the          Report: 2006-SE-1003)
     funds for eligible planning and                            ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
     administrative expenses in accordance with
     applicable laws and regulations and                    HUD OIG audited the City of Modesto’s,
     maintained a financial management system          Modesto, CA, Park, Recreation, and
     that adequately safeguarded the funds.            Neighborhood Services Division. The City
     However, weaknesses in the Corporation’s          did not adequately administer its grant. OIG
     control procedures permitted nearly               recommended that HUD require the City to
     $187,000 to be misclassified in HUD’s Line        (1) reduce the loan balances for loan
     of Credit Control system, resulting in            recipients who were charged nearly $65,000
     charges to the wrong programs. In addition,       for unreasonable and unnecessary
     a consultant was reimbursed at incorrect          rehabilitation costs; (2) review all additional
     rates, resulting in a $3,000 overpayment.         loans related to rehabilitation work carried
                                                       out after June 2005 to determine the
          OIG recommended that HUD require             reasonableness of costs charged for the work
     the Corporation to (1) reclassify costs           and reduce the recipient loan balances for
     totaling nearly $187,000 to the appropriate       any identified overcharges; (3) implement a
     HUD Line of Credit Control System budget          procurement system that meets federal
     line item, (2) reimburse more than $3,000 to      requirements, (4) develop an adequate
     the World Trade Center Memorial and               quality control system to ensure proper
     Cultural program, and (3) strengthen              monitoring of contractor charges,
     controls to ensure that consultants are           rehabilitation work, and work progress; and
     reimbursed in accordance with the terms of        (5) provide evidence that it now complies
     agreements. (Audit Report: 2006-NY-1013)          with its own underwriting requirements
              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○        regarding verification of income and
                                                       assistance eligibility for loan applicants.
         HUD OIG audited the HOME and                  (Audit Report: 2006-LA-1019)
     CDBG programs of the Snohomish County                      ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
     Office of Housing and Community
     Development in Everett, WA. Snohomish                 HUD OIG audited the 2004 CDBG
     County generally administered its CDBG            Disaster Recovery Assistance funds
     and HOME Investment Partnerships                  provided to the State of Florida. The State
     Program grants in accordance with HUD             awarded and disbursed the 2004 CDBG
     requirements. However, the County                 Disaster Recovery Assistance funds in
     charged more than $67,000 in ineligible           accordance with HUD requirements.
     administrative expenses to its CDBG. The          However, program files lacked evidence that

88                                           HUD’s Community Planning and Development Programs
the State verified whether recipients used        ensure that (1) grantees receiving Grant
the funds for activities reimbursed by the        funds above a HUD-established minimum
Federal Emergency Management Agency               threshold record liens showing HUD’s
(FEMA), Small Business Administration             interest in assisted properties, (2) grantees
(SBA), or other sources. As a result, the         place covenants on properties’ titles assuring
opportunity existed for a recipient to receive    nondiscrimination, (3) grantees properly
funding for the same activity from several        complete required application forms and
sources.                                          documentation for Grant awards, (4) Grant
                                                  funds are appropriately used, and (5) Grant
    OIG recommended that HUD require              funds are properly disbursed. OIG also
the State to develop and implement                recommended that HUD strengthen
procedures to ensure that CDBG disaster           existing procedures and controls over the
recovery funds will not be used for activities    Grant agreement template review to ensure
reimbursed by FEMA, SBA, or any other             that citations to requirements are accurate.
program or source and maintain supporting         (Audit Report: 2006-CH-0003)
documentation in its files. (Audit Report:
2006-AT-1014)                                     Suppor ti
                                                         tivve Housin
                                                  Supporti           g
                                                               Housing
Special Purpose Grants
        Purpose                                   Pr
                                                  Proogram Grant
                                                      HUD OIG audited the Institute for
    HUD OIG audited HUD’s oversight of
Economic Development Initiative – Special         Urban Research and Development, located
Purpose Grants appropriated for fiscal years      in El Monte, CA, in response to a citizen’s
2002 through 2005 to determine the                complaint. The objective of the audit was to
adequacy of HUD’s application and award           determine whether the complainant’s
processing and monitoring of the Grants.          allegations had merit and whether the
                                                  Institute administered its Supportive
     HUD did not require grantees to place        Housing Program grants in accordance with
liens on assisted properties’ titles to protect   pertinent requirements.
HUD’s interests. It also did not ensure that
grantees placed covenants on assisted                 The Institute claimed to have spent
properties’ titles assuring nondiscrimination     almost $109,000 in grant funds for allocated
and that Grant funds were appropriately           supportive housing and corporate office
used according to its agreements with             expenses that were not documented. In
grantees. Of 105 Grants reviewed, HUD did         addition, it could not provide support for
not ensure that 71 grantees submitted             more than $181,000 in required matching
required forms and documentation for              funds for three of the grants.
appropriate monitoring and nine grantees
properly completed and submitted required              OIG recommended that HUD require
application and award forms and                   the grantees to (1) provide adequate
documentation. HUD could not support              supporting documentation for almost
that four grantees submitted required             $109,000 in unsupported expenses or repay
semiannual progress reports and three             it from nonfederal funds and (2) provide
grantees submitted certifications regarding       adequate supporting documentation that
lobbying and that it approved two grantees’       more than $181,000 in required matching
environmental release of funds before             funds was provided or repay the $1.1 million
disbursing Grant funds.                           balance of grant funds expended. (Audit
                                                  Report: 2006-LA-1015)
     OIG recommended that HUD improve
its existing procedures and controls to

HUD’s Community Planning and Development Programs                                                  89
     HOME
         HUD OIG audited the Commonwealth
     of Virginia’s HOME Investment
     Partnerships program to determine whether
     the Commonwealth’s Department of
     Housing and Community Development
     properly administered its HOME program.

          The Commonwealth did not always
     comply with federal regulations and/or its
     own requirements in its disbursements and
     administration of HOME funds for various
     purposes. As a result, HOME funds totaling
     almost $184,000 were used for ineligible
     expenses or activities, and more than
     $527,000 in expenses were unsupported.
     The Commonwealth also accumulated more
     than $3.2 million in administrative funds
     that should have been used to improve its
     administration of its HOME program and
     to fund additional eligible HOME projects.

          OIG recommended that HUD require
     the Commonwealth to (1) recover almost
     $184,000 it spent on ineligible expenses and
     provide support for more than $527,000 in
     expenses or repay that amount to the HOME
     program, (2) use the accumulated $3.2
     million in administrative funds to improve
     its monitoring program and recommit any
     excess funds to eligible HOME projects, and
     (3) create and implement procedures to
     ensure that HOME funds are disbursed and
     used in compliance with applicable
     regulations. (Audit Report: 2006-PH-1013)
              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




90                                           HUD’s Community Planning and Development Programs
Investi
Inv    gations
   estig                                                                Some investigations discussed in this re-
                                                                    port were conducted by the OIG or jointly
    During this reporting period, OIG                               with federal, state, and local law
opened 42 investigative cases and closed 31                         enforcement agencies. The results of our
cases in the CPD program area. Judicial                             more significant investigations are
action taken on these cases during the                              described below.
period included $4,617,997 in investigative
recoveries, $7,025,433 in funds put to better                      Theft/Embezzlement
                                                                    heft/Embezzlement
use, 23 indictments/informations, 25
convictions/pleas/pretrial diversions, 17                               Gary Jojuana Meeks, executive director
administrative actions, 1 civil action, 2                           for HUD-funded Gary Urban Enterprise
personnel actions, and 17 arrests.                                  Association (GUEA), and Charmaine
                                                                    Pratchett, fiscal director for GUEA, were
 Char
 Chartt 5.2: Community Plannin
                         Planning g and                             each charged in U.S. District Court, Gary,
        De
        Devv elopment Recov
                      Recov eries                                   IN, with embezzlement, conspiracy, and
                                                                    mail fraud. Meeks and Pratchett allegedly
                          Contract Fraud                            embezzled more than $750,000 in GUEA
                          9% ($530,925)
 False Statements                              Davis Bacon          funds by misusing the GUEA credit card,
 79% ($4,720,516)                             6% ($340,000)
                                                                    receiving excessive wages, and diverting
                                                                    GUEA funds to a personal bank account and
                                                                    used GUEA funds for real estate,
                                                                    automobiles, clothing, home furniture,
                                                                    restaurants, vacations, and personal
                                           Embezzlement
                                           6% ($384,615)
                                                                    expenses.
Total Recoveries $4,617,997                                                  ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




                                    A Look Back ffor
                                           Back    or the Year
                                                          Year
       Char
       Chartt 5.3: Per centa
                   Percenta ge of OIG Community Plannin
                       centag                                g and De
                                                      Planning       velopment Closed
                                                                   Dev
                             Investi
                             Inv    gation Cases
                                estig      Cases,, Perfor med FY 06
                                                       ormed
                                                   Perfor
                                                                                              Region 1
                                                                                               Boston
                                                              Region 5                          3%
                                                              Chicago
                               Region 7-8
                                                                14%               Region 2
                               Kansas City
                                  11%                                             New York
                                                                                    22%




                                                                                                       Region 3
                                                                                                     Philadelphia
                                                                                                         11%




    Region 9-10
    Los Angeles                                                                           Region 4
        3%                                                                                Atlanta
                                                               Region 6                     8%
                                                              Fort Worth
                                                                 28%



HUD’s Community Planning and Development Programs                                                                   91
           Carol Aranjo, the former executive               and cash obtained through fraudulent acts
      director of D. Edward Wells Federal Credit            alleged in the indictment. In addition to the
      Union (DEWFCU), along with her spouse                 above defendants, Mary Spruell, former
      and son, Alphonso and Douglas Smith, were             treasurer of DEWFCU and owner/manager
      indicted in U.S. District Court, Springfield,         of Walnut Street Apartments, pled guilty to
      MA, on conspiracy, embezzlement, bank                 an information charging her with
      fraud, federal program fraud, and various             embezzlement of monies and funds, aiding
      tax code violations. Aranjo and Alphonso              and abetting, and subscribing to false federal
      and Douglas Smith allegedly embezzled                 income tax returns. Spruell embezzled more
      more than $1.18 million from DEWFCU,                  than $109,000 from DEWFCU, including
      including more than $65,000 from Walnut               more than $65,000 from Walnut Street
      Street Apartments, a HUD-insured                      Apartments. Terms of her plea agreement
      multifamily project; allegedly submitted              include the forced sale of Walnut Street
      fraudulent bids to secure $522,340 from the           Apartments to repay HUD for unauthorized
      City of Springfield HUD HOME program;                 distributions, excessive management fees,
      allegedly embezzled more than $10,000 from            and court ordered restitution. As a result
      the City of Springfield HUD HOME                      of their actions, HUD’s losses are estimated
      program through D.A.T. Construction, a                at $360,000.
      company owned by Alphonso and Douglas                           ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
      Smith; and allegedly embezzled HUD-
      insured mortgage funds by failing to pay                  Leroy Brown, a former Salvation Army
      mortgage loans on properties securing new             financial manager, pled guilty in U.S.
      Federal Housing Administration (FHA)-                 District Court, Newark, NJ, to conspiracy
      insured mortgages. The indictment also                for theft from an organization receiving
      contains a forfeiture count for all property          federal benefits and federal income tax




     Copyright, 2006. The Republican, Springfield, MA. Reprinted with permission.


92                                            HUD’s Community Planning and Development Programs
evasion. Susan Bigelow, a City of Newark        Thrower, ADH HIV Services program
Department of Finance employee, was             administrator, established a nonprofit
sentenced to 10 months incarceration and 2      corporation called B’MON, Inc. Blackmon
years probation and ordered to pay the          and Thrower directed others to write checks
Salvation Army $385,760 for her previous        from numerous HUD-funded subgrantee
guilty plea to conspiracy to steal federal      accounts to B’MON, created phony invoices
program funds. Brown, while working at a        and receipts, and used pilfered federal funds
Newark branch of the Salvation Army,            for personal expenses, to include the
embezzled $385,760 from a Salvation Army        purchase of a $5,000 diamond ring.
bank account, funded in part with HUD                    ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
Housing Opportunities for Persons with
AIDS (HOPWA) program funds, by creating              Mark Marcucilli, Assistant Director of
fraudulent client files, check request forms,   Housing Management for New York State
and court documents to support the              Division of Housing and Community
issuance of bogus landlord payments to          Renewal; Fred Marcucilli, father of Mark
Bigelow. Bigelow received payments from         Marcucilli; and Carmine Carpinone each
Brown for cashing more than $300,000 in         pled guilty in U.S. District Court, New York,
federal program checks, including checks        NY, to numerous counts of conspiracy to
from FEMA and HUD’s HOPWA program.              commit mail fraud and theft of government
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○      funds. Mark Marcucilli, Fred Marcucilli,
                                                and Carpione conspired to obtain Lower
     Herbert Bagley, an insurance broker for    Manhattan Development Corporation funds
Howard and Stuart Associates, Inc., pled        by falsely claiming residences in the lower
guilty in U.S. District Court, Norristown,      Manhattan World Trade Center area. HUD
PA, to numerous counts of mail fraud,           provided $2.7 billion for the Corporation, an
bribery, conspiracy, bank fraud, filing a false organization created to coordinate the
federal income tax return, and honest service   rebuilding and revitalization of lower
mail fraud. From 2002 through 2005, Bagley      Manhattan after the September 11, 2001,
paid bribes to Theodore LeBlanc, the            terrorist attacks.
previously convicted former mayor of                     ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
Norristown, PA, to obtain Norristown
Borough’s insurance contracts and other             Terry Lynn Miller, the former executive
payments financed with HUD CDBG director of Suffolk Shelter for the Homeless
program funds. As a result, HUD realized (SSH), a HUD-funded organization, was
losses of $200,000.                             sentenced in U.S. District Court, Norfolk,
          ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○     VA, to 6 months home detention and 3 years
                                                probation and ordered to pay SSH $20,117
     Malik Blackmon, former minority AIDS restitution for her previous guilty plea to
initiative coordinator for Positive Voices, a federal program fraud. Miller used SSH
nonprofit corporation and subgrantee of funds and credit to personally obtain a
federal funds administered by Arkansas laptop computer, computer software, digital
Department of Health (ADH), entered into camera, medical lift chair, YMCA family
a pretrial diversion agreement in U. S. membership, and gasoline and to pay
District Court, Little Rock, AR. Blackmon $17,238 in wages to her daughter, although
admitted to theft of federal grant money and her daughter was not an SSH employee. As
in return for 12 months deferred a result, HUD realized a loss of $23,889;
adjudication, agreed to perform 60 hours of Miller paid the court $20,117 restitution as
community service and forfeit a diamond ordered.
ring seized by the government. Blackmon
and his wife, formerly indicted Lola


HUD’s Community Planning and Development Programs                                               93
     Other Fraud/Crimes                                funds totaling $692,500 and $300,000,
                                                       respectively, returned $422,425 in SFARG
                                                       funds to ESDC.
          Following a “Qui Tam” complaint, a $2                  ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
     million settlement agreement was reached
     between the United States Attorney’s Office,           Chang Sheng Yu, a Chinese national and
     Indianapolis, IN, and Phoenix Fabricators         president of American McKinley Venture
     and Erectors, Inc. Phoenix received HUD           Management, Inc., pled guilty during his
     CPD and U.S. Department of Agriculture            trial in U.S. District Court, New York, NY,
     (USDA) program funds to weld steel water          to theft of government funds, mail fraud, and
     storage tanks throughout the United States        submission of false Social Security numbers
     In 1996, Phoenix began generating false           (SSN) for his role in a scheme to defraud
     testing records to show that installed tanks      HUD and Empire State Development
     met contractual standards, causing the            Corporation (ESDC) of $118,876 in federal
     submission of false claims to HUD and             grant money. Yu falsely obtained a BRG and
     USDA for payments. According to the               attempted to obtain an SFARG through
     consent judgment, the U.S. Department of          ESDC. ESDC, a HUD-funded nonprofit
     Justice (DOJ) and the “Qui Tam Realtor” will      established to provide assistance to
     receive $1.75 million, with the remaining         businesses in lower Manhattan after the
     $250,000 designated for mandatory                 September 11, 2001, terrorist attacks,
     extended warranties on all tanks                  established BRG and SFARG programs after
     constructed during the relevant period.           receiving a $700 million appropriation from
              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
                                                       HUD.
                                                                 ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
          Anthony and Teresa Auyer each pled
     guilty in U.S. District Court, Chattanooga,            Roderick Caston, a former member of the
     TN, to conspiracy, bank fraud, and mail           City of Shreveport Zoning and Appeals Board,
     fraud charges. Anthony and Teresa Auyer           was sentenced in U.S. District Court,
     received a HUD CDBG loan through                  Shreveport, LA, to 12 months confinement
     Tennessee Department of Economic and              and 3 years supervised release and ordered to
     Community Development to purchase                 pay City of Shreveport Department of
     lumber mill equipment. The Auyers                 Community Development (SDCD) $107,000
     submitted phony invoices, showing lumber          restitution for his earlier guilty plea to theft of
     mill equipment purchases, but never               government funds. Caston applied for and
     purchased lumber mill equipment and               received HUD CDBG funds through the
     failed to repay the CDBG loan. As a result,       SDCD Small Business Loan Program to
     HUD realized a loss of $458,821.                  construct a carwash business in downtown
              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
                                                       Shreveport, then diverted loan proceeds at
                                                       closing through two vendors. The vendors
          HUD OIG received and probed                  funneled back to Caston most of the borrowed
     allegations of unfair grant distributions by      money, which he used for personal expenses.
     Empire State Development Corporation              As a result, HUD realized a loss of $107,144.
     (ESDC), New York, NY, a HUD-funded                          ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
     nonprofit created to administer and distribute
     Small Firm Attraction and Retention Grants             John J. Walsh, doing business as J. Walsh
     (SFARG) and Business Recovery Grants              and Sons Building and Remodeling, was
     (BRG) for redevelopment of lower                  sentenced in U.S. District Court,
     Manhattan after the September 11, 2001,           Springfield, MA, to 6 months confinement
     terrorist attacks. As a result, Dart Courier      at a community corrections center, 6 months
     Service, the recipient of SFARG and BRG           house arrest with electronic monitoring, 3


94                                           HUD’s Community Planning and Development Programs
years probation, and 200 hours of              fictitious children, and receiving additional
community service for his previous             benefits for children not in her custody. In
conviction on false statements to a federal    addition to the above charges, Thompson
agent and perjury charges. Walsh provided      pled guilty to previous charges of theft by
false statements to a federal grand jury and   deception and was sentenced to an
federal agents when questioned about his       additional 3 years incarceration (to be served
role in the laundering through his business    concurrently with her above imprisonment)
of HUD CDBG funds earmarked for the            for fraudulently receiving $105,121 in state
Façade program, a program providing            and/or federal funds and benefits. As a
funding for renovations at specific            result of her actions, HUD realized a loss of
restaurants in Springfield, MA.                $23,069.
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Harry Diaz pled no contest in Seventh           James Thomas Jr., owner of Thomas
Judicial Circuit Court, Deland, FL, to         Wrecking, was sentenced in U.S. District
charges of grand theft. Diaz was placed on     Court, St. Louis, MO, to 60 days home
36 months probation and ordered to pay         confinement and 3 years probation for his
$1,400 restitution to Health Planning          earlier guilty plea to tax evasion. Thomas
Council of Northeast Florida (HPCNEF), a       admitted using his company as a “front” for
nonprofit organization and subrecipient        Spiritas Wrecking to satisfy St. Louis
contracted to administer HUD HOPWA             Community Development (SLCD)
funding. Diaz used the identity of another     regulations regarding minority business
incarcerated but active participant in the     participation in the $8 million renovation of
HOPWA program, forged his signature on         the old St. Louis City Hospital. Thomas
a HPCNEF rental assistance contract            funneled Spiritas Wrecking payroll checks
agreement and checks issued by HPCNEF,         through Thomas Wrecking to create the
and deposited HPCNEF checks totaling           façade that a minority contractor
$1,400 into his personal account.              participated in the SLCD project as certified.
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Lori Thompson, also known as Lori               Michael Caridi, president and owner of
Hyman; Lori Gribbin; Christine Hyman;          SRC Industries, pled guilty in Rockland
Suzanne O’Leary; and/or April Atkinson, a      County Court, New City, NY, to falsifying
former Shelter Plus Care Section 8 tenant      business records and offering false
through Shalom House, a HUD CPD-               instruments for filing. Joseph Rotonde, vice
funded housing assistance program, pled        president of SRC, and Orry Osinga, a
guilty in Cumberland County Court,             subcontractor for SRC, each pled guilty to
Portland, ME, to theft by deception and        charges of offering false instruments for
aggravated forgery. Thompson was               filing. SRC, a general contractor for Jawanio,
sentenced to 10 years incarceration (5 years   a HUD-funded nonprofit created to build
suspended) and 3 years supervised              housing for developmentally disabled
probation for defrauding HUD and State of      adults, falsified payrolls submitted to HUD
Maine Health and Human Services by             and failed to pay employees Davis-Bacon
creating false identities, failing to report   wages as agreed.
tenants and income, creating identifies for




HUD’s Community Planning and Development Programs                                               95
         Chapter 6
Hur ricane Relief Ov
Hurricane         Over  si
                     ersi
                     er   ght
                        sight
          HUD Authorized CPD Funds to Gulf Coast Region
                                                 Region




                                        Florida
                                      $182 Million




       Alabama
     $95.6 Million                                                   Mississippi
                                                                    $5.481 Billion




                       Louisiana                        Texas
                     $10.41 Billion                  $503 Million




98                                                            Hurricane Relief Oversight
“We learned from our 9-11 efforts that to be effective, your teams on
the ground and at headquarters must be proactive rather than reactive.
Although a basic concept, it is one that is key to the ability to make a
real impact. This proactive posture extends to collaboration.
Rebuilding and redevelopment must happen cooperatively with state
agencies that know their communities and citizens’ needs.”
Remarks made by Inspector General Kenneth M. Donohue testifying before the
United States House of Representatives on May 10, 2006, in Washington, DC.


Intr oduction and
Introduction
Bac
Backkground
    During the Office of Inspector General’s   vouchers. During the current reporting
(OIG) last semiannual reporting period,        period ending September 30, 2006, Congress
Congress approved $11.5 billion to the U.S.    approved an additional $5.2 billion to the
Department of Housing and Urban                HUD Community Development Block Grant
Development (HUD) to assist five Gulf          (CDBG) program for the five Gulf Coast
Coast states with restoration and recovery     states for necessary expenses related to
from the 2005 hurricane season, and an         disaster relief, long-term recovery, and
additional $390 million for housing            restoration of infrastructure in the most

Hurricane Relief Oversight                                                                  99
      impacted and distressed areas related to the              119 housing choice vouchers
      consequences of Hurricanes Katrina, Rita,                 and 1,721 disaster vouchers
      and Wilma. As requested by President                      issued by HANO.
      Bush, HUD allocated the State of Louisiana
      the statutory maximum $4.2 billion, making                KDHAP transitioned by
      $973 million available to address the disaster            HUD to Disaster Voucher
      recovery needs of Alabama, Florida,                       Program (DVP).
      Mississippi, and Texas.                          HUD Single-Family Real Estate
                                                       Owned (REO) Properties
           HUD conducted panel meetings with
      the other Gulf Coast states to discuss                $29 million advanced to HUD-
      allocation requests and unmet needs.                  contracted management and
      Secretary Jackson announced emergency                 marketing firms.
      CDBG funding allocations for the remaining
                                                                6,500 houses taken off the
      four Gulf States as follows: Texas - $428
      million, Mississippi - $423 million, Alabama              market for rehabilitation and
      - $21 million, and Florida - $100 million. In             use by evacuees in 11 states.
      addition, HUD opened 20 new homes in the                  2,600 houses readied for
      old Fischer development in the New Orleans                evacuee housing.
      area and has worked to redevelop other
      public housing developments to                            REO properties offered for
      accommodate returning residents. HUD                      sale to evacuees at a
      also contributed $500,000 to the New                      discount.
      Orleans’ Neighborhoods Rebuilding Plan or        HUD Public and Indian Housing
      “charrette” process, which is a community-       Disaster Voucher Program
      driven effort to help guide the revitalization
      of the city’s neighborhoods that addresses            $390,299,500 funded directly to
      each community’s priorities and plans.                HUD.

          The following list provides updates on                Portable Section 8 vouchers.
      Federal Emergency Management Agency                       Program to expire
      (FEMA)      disaster     relief,  mission                 September 30, 2007.
      assignments, and CDBG funding to the five
      Gulf Coast states:                               Sypnosis of Approved Plans for Gulf
                                                       Coast States’ CDBG Disaster Recovery
          HUD Public and Indian Housing,               Assistance
          Katrina Disaster Housing Assistance
                                                            Louisiana
          Program (KDHAP)
                                                                $10.410 billion in total
                 $79 million funded to HUD                      Disaster Recovery
                 by FEMA to relocate almost                     Assistance funding.
                 102,000 families in Presidential
                 Declared Disaster Area (PDDA).                 Primary administering
                                                                agencies: Louisiana
                     Evacuees relocated by                      Recovery Authority (LRA)
                     public housing agencies in                 and State of Louisiana,
                     44 states.                                 Office of Community
                     14,000 families relocated by               Development (OCD).
                     the Housing Authority of                   The Road Home Housing
                     New Orleans (HANO).                        Program - $8.062 billion.;


100                                                               Hurricane Relief Oversight
             $6.347 billion earmarked for           Ratepayer and Wind
             the Homeowner Assistance               Pool Mitigation
             Program.                               Programs - $410 million.
             Additional HUD approved                Gulf Coast Regional
             action plans:                          Infrastructure Program -
                                                    $500 million.
                Restoration of homeless
                housing shelter capacity            Economic Development
                - $26 million.                      and Community
                                                    Revitalization Program -
                Workforce and
                                                    $300 million, under
                Affordable Rental
                                                    discussion with HUD.
                Housing Program -
                $1.536 billion.                Additional action plans are
                                               under development by the
                Other developer
                                               state.
                incentives - $21 million.
                                            Texas
                Local Government Code
                Enforcement Program -          $503,194,849 in Disaster
                $11 million.                   Recovery Assistance
                                               funding.
                Economic development
                programs - $332.5              Primary administering
                million.                       agencies: Texas Department
                                               of Housing and Community
                Administration - $189.9
                                               Affairs (TDHCA) and Office
                million.
                                               of Rural Community Affairs
             Additional action plans are       (ORCA).
             under development by the
                                               Housing, infrastructure,
             state.
                                               public service, and public
         Mississippi                           facility - $74.5 million.

             $5,481,036,059 in Disaster        Additional action plans are
             Recovery Assistance               under development by the
             funding.                          state.

             Primary administering          Florida
             agency: Mississippi
                                               $182,970,518 in Disaster
             Development Authority
                                               Recovery Assistance
             (MDA)
                                               funding.
             Additional HUD approved
                                               Primary administering
             action plans:
                                               agency: Florida Department
                Homeowner Assistance           of Community Affairs,
                Grant Program - $3.26          Division of Housing and
                billion.                       Community Development.
                Public Housing Program         Housing, infrastructure, and
                - $105 million.                durable construction - $82.9
                                               million.



Hurricane Relief Oversight                                                     101
        Additional action plans are
        under development by the
                                       Audits
        state.                             During this period, OIG issued two
      Alabama                          external reports and one internal report on
                                       the Gulf Coast disaster area. These reports
        $95,613,574 in Disaster        disclosed more than $97,000 in questioned
        Recovery Assistance            costs and made recommendations to ensure
        funding.                       that HUD maintains complete and
                                       compliant contract files.
        Primary administering
        agency: Alabama
                                            The HUD OIG Office of Audit
        Department of Economic
                                       responded quickly to establish an office for
        and Community Affairs
                                       Hurricane Katrina oversight to prepare for
        (ADECA).
                                       the long process of recovery. The Office of
        Housing, infrastructure, and   Audit and HUD are not generally first
        economic development -         responders; however, the Office of Audit
        $74.4 million.                 established an office, developed an audit
                                       plan, and begun some reviews in the disaster
        Additional action plans are    areas. Currently, the Hurricane Recovery
        under development by the       Audit Operations Division in New Orleans
        state.                         is staffed by five permanent employees and
                                       five additional auditors are detailed from
                                       other HUD OIG regional offices. In addition,
                                       the Office of Audit is in the process of hiring
                                       six more auditors to be located in Louisiana
                                       and Mississippi.

                                            The Office of Audit’s initial assignment
                                       was to evaluate HUD’s use of REO properties
                                       to house disaster evacuees. It also has
                                       performed an audit of the more than $17
                                       million in contracts issued for disaster-
                                       related procurement activities. The
                                       Hurricane Recovery Audit Operations
                                       Division is now starting reviews of
                                       Mississippi’s and Louisiana’s homeowners
                                       programs. These programs are funded from
                                       HUD’s       emergency         supplemental
                                       appropriations of approximately $17 billion.
                                       These reviews are timely and will assist in
                                       establishing a presence and acting as a real-
                                       time deterrent to waste and abuse in HUD’s
                                       activities. The results of OIG’s completed
                                       Gulf Coast disaster area audits are described
                                       below.




102                                                     Hurricane Relief Oversight
Final Audit Pr oducts
            Products                              Cityside Management Corporation,
                                                  Hammond, Louisiana, Did Not Enforce the
Southwest Alliance of Asset Managers,             Lease Terms over Payment of Property
LLC, Addison, Texas, Did Not Effectively          Utilities
Enforce the Lease Terms over Payment of
Property Utilities                                     HUD       OIG     audited       Cityside
                                                  Management Corporation, an M&M
     HUD OIG audited Southwest Alliance           contractor for HUD REO properties held off
of Asset Managers, LLC, a management and          market for disaster victims. The audit was
marketing contractor (M&M) for HUD REO            initiated in conjunction with PCIE, as part
properties held off market for disaster           of its examination of relief efforts provided
victims. The audit was initiated in               by the Federal Government in the aftermath
conjunction with the President’s Council on       of Hurricanes Katrina and Rita. OIG’s
Integrity and Efficiency (PCIE), as part of       objective was to determine whether Cityside
its examination of relief efforts provided by     complied with HUD’s regulations,
the Federal Government in the aftermath of        procedures, and instructions in the
Hurricanes Katrina and Rita. OIG’s                management of HUD’s REO properties held
objective was to determine whether                off market for disaster victims.
Southwest Alliance complied with HUD’s
regulations, procedures, and instructions in           Cityside complied with HUD’s
the management of HUD’s REO properties            regulations, procedures, and instructions in
held off market for disaster victims.             the management of HUD’s REO properties
                                                  held off market to house disaster victims,
     Southwest Alliance generally complied        with one exception. It did not ensure that
with the terms of its M&M contract, with          all disaster victims transferred the billing of
one exception. It did not effectively ensure      property utility services into their names
that the disaster victims transferred the         and paid charges for utility services in full,
billing of property utility services into their   as required by the lease agreements.
names within 7 days of occupancy, as              Instead, Cityside used almost $18,000 in
required by the lease agreements. As a            HUD funds to pay the monthly billings on
result, after occupancy by tenants, HUD           133 leased properties during the period
paid more than $79,000 in utility costs for       October 13, 2005, through March 31, 2006.
636 leased properties during the period
September 2, 2005, through April 25, 2006.            OIG recommended that HUD take
                                                  appropriate action against the tenants who
     OIG recommended that HUD instruct            do not comply with the instruction and
Southwest Alliance to take appropriate            requirements regarding utility payments
action against the tenants who do not             and require Cityside to initiate collection
comply with the lease requirements over           actions against tenants to recover almost
utility payments and require Southwest            $18,000 that HUD paid for utility costs and
Alliance to initiate collection actions against   any additional costs HUD incurred after
tenants to recover the more than $79,000          March 31, 2006. (Audit Report: 2006-AO-
HUD paid for utility costs. (Audit Report:        1002)
                                                           ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
2006-AO-1001)
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




Hurricane Relief Oversight                                                                          103
      The Departments Did Not Maintain                  KDHAP Vouchers
      Complete Contract Files; Washington, DC
                                                            HUD OIG has obtained access to FEMA
           HUD OIG audited HUD’s emergency              data relating KDHAP funds and is
      response contract award process as part of        conducting a review of the issuance of the
      the OIG annual audit plan, along with             funds.
      efforts to monitor Hurricanes Katrina and                  ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○

      Rita disaster relief efforts. The objective was
      to evaluate the economy, efficiency, and          Coordination with State Auditors
      effectiveness in the award of the contract
      funds for hurricane relief and recovery               HUD OIG initially held meetings with
      efforts.                                          the state auditors for the five states within
                                                        the Gulf Coast region to discuss plans on
           HUD did not maintain complete files for      how to coordinate the various audit efforts.
      contract actions that were awarded in             Currently HUD OIG auditors are working
      response to disaster-related relief efforts. In   with Louisiana and Mississippi auditors on
      11 of the 13 contract files reviewed,             coordination efforts.
      information was either missing or not                      ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
      prepared in accordance with applicable
      regulations, policies, and procedures. As a
      result, HUD cannot be assured that contract
      files related to emergency contract actions
      were complete and in compliance with
      applicable regulations, policies, and
      procedures.

          OIG recommended that HUD develop
      and implement internal controls to ensure
      that the contract files are complete and in
      accordance with applicable regulations,
      policies, and procedures for contracts
      awarded in response to disaster-related
      events. (Audit Report: 2006-AT-0001)

      Ongoin
      Ong   g Audits
         oing
      CDBG Disaster Funding

           Auditors are reviewing the system of
      controls over the homeowners program that
      is funding through the issuance of block
      grant funds for the States of Mississippi and
      Louisiana.
               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




104                                                                      Hurricane Relief Oversight
Investi
Inv    gations
   estig                                        their contractors, conferring with HUD
                                                program officials and industry groups, and
     The HUD OIG Office of Investigation        hosting and participating in law
established the Disaster Relief Oversight       enforcement meetings and conferences in
Division (DROD) to assist with oversight        the Gulf Coast Region.
responsibilities in the detection and
prevention of waste, fraud, and abuse of             During this reporting period, OIG
HUD CDBG disaster recovery assistance           opened 66 investigative cases in the Disaster
funding available to five affected Gulf Coast   Relief program areas. Judicial action taken
States. OIG also created the Hurricane          on these cases during the period included
Recovery Task Force, located in New             $4380 in investigative recoveries, 13
Orleans, LA, combining forces with the U.S.     indictments/informations, 5 convictions/
Department of Justice (DOJ), Federal Bureau     pleas/pretrial diversions, 3 administrative
of Investigation (FBI), Department of           actions, and 13 arrests.
Homeland Security (DHS) OIG, Social
Security Administration (SSA) OIG, U.S.              Some investigations discussed in this
Postal Inspection Service (USPIS), and other    report were conducted jointly with Federal,
federal agencies to jointly address             state, and local law enforcement agencies.
allegations of fraud and public corruption      The results of various significant
through active participation in the             investigations are described below.
Hurricane Katrina Fraud Task Forces
(HKFTF) located in Baton Rouge, LA;             Hur ricane-Related Benefit
                                                Hurricane-Related
Jackson, MS; and Houston, TX.
                                                Fraud
     DROD is primarily responsible for
                                                    Carolyn Richard and her husband
liaison;     research,      analysis,   and
                                                George Davis III, Lancaster City Housing
recommendations; monitoring, reporting,
                                                Authority (LCHA) Section 8 applicants,
and dissemination; and strategic planning
                                                were sentenced in U.S. District Court,
and implementation of HUD OIG OI
                                                Harrisburg, PA, for their earlier guilty pleas
directives and initiatives associated with
                                                to providing LCHA false information.
disaster assistance and recovery. DROD
                                                Richard was sentenced to 6 months home
developed and participates in a far-reaching
                                                confinement and 2 years supervised
fraud prevention program in the affected
                                                probation and fined $250; Davis III was
states of the Gulf Coast region. DROD
                                                sentenced to 2 years supervised probation
sponsored disaster recovery funding
                                                and fined $450. Richard and Davis III,
workshops for prosecutors and law
                                                Hurricane Katrina evacuees from New
enforcement, as well as state agencies’
                                                Orleans, LA, who relocated to Columbia, PA,
personnel in the States of Louisiana and
                                                submitted an application for emergency
Mississippi. These disaster recovery
                                                housing through LCHA but failed to report
funding training workshops were designed
                                                their criminal histories, including Richard’s
to educate their state agencies, as well as
                                                release from a New Orleans jail as a result
federal, state, and local law enforcement, in
                                                of hurricane flood waters.
identifying fraud in the HUD Community
                                                         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
Planning and Development (CPD) grant
programs. During this reporting period, OI
                                                     Sheila Davis pled guilty in U.S. District
senior investigative management, DROD,
                                                Court, Harrisburg, PA, to making false
and the Hurricane Recovery Task Force in
                                                statements to HUD. Davis submitted a false
New Orleans devoted significant efforts to
                                                application for emergency housing
prevention and deterrence activities. This
                                                assistance to the Housing Authority of the
included liaison with state agencies and


Hurricane Relief Oversight                                                                       105
      County of Dauphin when she claimed to be       not entitled to receive and agreed to pay
      a Hurricane Katrina evacuee forced to          restitution as a condition of her pretrial
      relocate to Harrisburg, PA, but actually       diversion.
      resided in Harrisburg, PA, and was facing               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
      eviction from her Harrisburg, PA apartment
      at the time.
               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
                                                          Rashieda Hollins, a Houston Housing
                                                     Authority Section 8 recipient, was indicted
                                                     in U.S. District Court, Houston, TX, on three
          Tequila Marleen Davis, a Housing
                                                     counts of making false claims. Hollins
      Authority of the County of Los Angeles
                                                     allegedly filed three false FEMA applications
      (HACoLA) Section 8 recipient, and Ruby
                                                     claiming she was a Hurricane Katrina
      Mae Jones, a Housing Authority of the City
                                                     evacuee from New Orleans, LA, and
      of Los Angeles (HACLA) Section 8 recipient,
                                                     received $4,550 in FEMA assistance to which
      were each charged in Los Angeles County
                                                     she was not entitled to receive. Hollins was
      Superior Court, Los Angeles, CA, with
                                                     terminated from HUD’s Rental Assistance
      grand theft and cheating and defrauding
                                                     Program for abandoning her subsidized
      FEMA. Davis and Jones, while receiving
                                                     unit.
      housing assistance from HACoLA and
                                                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
      HACLA, allegedly claimed to be victims of
      Hurricane Katrina and filed fraudulent
                                                          Quanetha Joseph, an Indianapolis
      claims with FEMA, and each received $2,000
                                                     Housing Authority (IHA) Section 8 tenant,
      U.S. Treasury checks based on their claims.
               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
                                                     and her mother Penny Joseph were charged
                                                     in Marion County Superior Court,
                                                     Indianapolis, IN, with multiple counts of
          Tina Marie Gilmore, a Saint Clair
                                                     welfare fraud and theft. Quanetha Joseph
      Housing Authority, Belleville, IL, Section 8
                                                     allegedly claimed she lived in a New
      applicant, was indicted in U.S. District
                                                     Orleans, LA, public housing unit during
      Court, East St. Louis, IL, on making false
                                                     Hurricane Katrina when she applied for IHA
      statements to HUD, FEMA, and SSA.
                                                     housing assistance. After receiving an IHA
      Gilmore allegedly filed false HUD, FEMA,
                                                     public housing unit, Quanetha Joseph
      and SSA applications stating she lost her
                                                     allegedly relocated to Houston, TX, failed to
      home and two children during Hurricane
                                                     notify IHA of her relocation, and allowed her
      Katrina flooding in New Orleans, LA, but
                                                     mother Penny Joseph to reside in her IHA
      Gilmore never had children and resided
                                                     public housing unit. Penny Joseph allegedly
      with her spouse in Belleville, IL during the
                                                     claimed she also was a victim of Hurricane
      hurricane.
               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
                                                     Katrina but actually had lived in the
                                                     Indianapolis area since January 2005.
                                                     Quanetha Joseph filed for and obtained
          Della Lee, also known as Darby Orange,
                                                     FEMA funding, Red Cross Assistance, and
      a Gainesville Housing Authority Section 8
                                                     approximately $5,800 in IHA housing
      tenant, was indicted in U.S. District Court,
                                                     assistance she was not entitled to receive;
      Plano, TX, on false statements and agreed
                                                     Penny Joseph filed multiple false damage
      to a pretrial diversion. Lee allegedly
                                                     claims, but all claims were denied. Quanetha
      misrepresented herself as a Hurricane
                                                     and Penny Joseph were terminated from
      Katrina victim and displaced Mississippi
                                                     HUD’s Rental Assistance Program.
      resident but lived in Gainesville, TX, when
                                                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
      Hurricane Katrina struck and was
      incorrectly listed by FEMA as a person
                                                         Bridgette N. Toney, a Section 8 tenant at
      eligible for KDHAP. As a result, Lee
                                                     Scotland Square Apartments, a HUD-funded
      received $4,380 in KDHAP benefits she was
                                                     multifamily housing complex, was indicted in


106                                                                   Hurricane Relief Oversight
U.S. District Court, Baton Rouge, LA, on one       rehabilitate and repair REO properties
count of making false claims and two counts        for use by disaster victims.
of making false statements. Toney allegedly
filed a claim with FEMA requesting $2,000          Hooks Van Holm
in FEMA funds as a result of Hurricane
Katrina damages to her personal property           This M&M contractor’s contract with
and evacuation from her HUD-subsidized             HUD was increased more than $15
housing unit, but Scotland Square                  million to provide repairs to single-
Apartments suffered no structural damage,          family properties set aside for
and residents were not forced to evacuate          Hurricane Katrina victims. A review
during either Hurricanes Katrina or Rita.          was performed to determine whether
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○         the contractor properly accounted for
                                                   and made the necessary repairs as
     Amanda Rettig, a Section 8 tenant of          specified. Interviews, reviews of
Lyman Manor Apartments, a HUD-                     documentation, and property
subsidized multifamily housing complex, was        inspections showed that the repair
indicted in U.S. District Court, Gulfport, MS,     work was adequate and the contractor
on numerous counts of making a false claim,        maintained proper documentation for
false statements, theft of public money, and       the repairs.
mail fraud. Rettig allegedly filed a FEMA
application claiming damages to her primary        Public housing authorities – Ensure
residence and personal property in Saucier,        adequate procedures and controls are
MS, received $22,253 in FEMA assistance, but       in place to safeguard CDBG disaster
resided in a HUD-subsidized housing unit in        recovery funding used to repair and
Gulfport, MS, during Hurricane Katrina.            replace public housing units in New
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○         Orleans and elsewhere and to verify
                                                   that costs and expenses are proper and
     Roosevelt Ingram, a LaFouche Parish           documented.
Housing Authority Section 8 tenant, pled
guilty in St. Charles Parish District Court, Des   HANO
Allemands, LA, to battery and criminal
damage to property. Ingram was sentenced           This is an ongoing review of the
to 6 months confinement (suspended) and 2          Authority’s contract to include
years active probation. Ingram, a fugitive         all contracts awarded post-Hurricane
felon with an outstanding warrant was              Katrina.      Also reviewing the
arrested and removed from a barricaded             Authority’s homeownership program.
temporary housing trailer during HUD OIG
Operation Falcon II, and terminated from           Multifamily properties – Review HUD
HUD’s Rental Assistance Program.                   recertification and housing assistance
                                                   payments procedures for selected
Hur ricane-Related
Hurricane-Related                                  multifamily properties located in the
                                                   Gulf Coast states.
Inspections
    HUD OIG is using forensic auditors             Sunlight Manor Apartments
located in the Gulf Coast region to review
and evaluate the following:                        This is an ongoing review of the
                                                   property’s contracting to repair
                                                   damage sustained by Hurricane Rita
     M&M firms, which received
                                                   and the property’s housing assistance
     advance payments from HUD to


Hurricane Relief Oversight                                                                  107
          payment procedures to ensure that
          payments were accounted for properly.
                                                    Hur ricane-Related
                                                    Hurricane-Related
                                                    Outr eac
                                                    Outreac h
                                                         each
           MDA – Determine whether MDA and/
           or its contractor(s) used “suspicious    Louisiana Outr eac
                                                              Outreac h
                                                                   each
           activity reports” or similar reports
           designed to detect fraud during              HUD Inspector General Kenneth M.
           the homeowner assistance grant           Donohue chaired an hour-long panel
           application process.                     discussion on administrative and civil fraud
                                                    enforcement remedies in New Orleans, LA.
          This is an ongoing review of the          United States Attorney General Alberto
          homeowner application process from        Gonzales and the Department of Justice
          reports supplied by MDA’s contractor.     hosted this event to commemorate the
          These reports identify homeowners         one-year anniversary of Hurricane Katrina.
          that potentially made multiple                      ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○

          applications on the same property.
          These     reports    also    identify         Louisiana Attorney General Charles Foti
          homeowners        that    potentially     hosted a press conference for the “Louisiana
          submitted multiple applications on        Road Home Zero Tolerance Program” in
          more than one property.                   Baton Rouge, LA. Speakers at the press
                                                    conference included Roy A. Bernardi,
           HKFTF – Louisiana State University       Deputy Secretary of HUD, Kenneth M.
           (LSU)                                    Donohue, HUD Inspector General, David
                                                    Dugas, Donald Washington and James
          This is an ongoing review of complaints   Letten, U.S. Attorneys representing three
          received by the HKFTF to determine
          whether they warrant investigation or
          review by HUD OIG, including an
          analysis of HUD Section 8 tenants
          using the National Emergency
          Management Information System
          (NEMIS) to determine which tenants
          received funding through FEMA.

      Hur ricane-Related OIG
      Hurricane-Related
      Hotline
          During this reporting period, the         Speakers at the “Louisiana ‘Road Home’ Zero
      Hotline received and processed 45             Tolerance Program” from left to right: Robbie Tighe,
      complaints related to Hurricanes Katrina,     Compliance Officer, Road Home Program, ICF
      Rita, and Wilma.                              International; Mike Byrne, Chief Program Officer,
                                                    Road Home Program ICF International; Roy
                                                    Bernardi, HUD Deputy Secretary; Charles Foti,
                                                    Attorney General, State of Louisiana; David Dugas,
                                                    United States Attorney, Middle District of Louisiana;
                                                    Donald Washington, United States Attorney,
                                                    Western District of Louisiana; Jim Letten, United
                                                    States Attorney, Eastern District of Louisiana;
                                                    Kenneth M. Donohue, HUD Inspector General; and
                                                    Sharon B. Robinson, Inspector General, State of
                                                    Louisiana.


108                                                                    Hurricane Relief Oversight
Louisiana judicial districts, and Mike Byrne,   personnel on the nuances of HUD’s annual
CEO of ICF International, the “The Road         CDBG and Disaster Supplemental CDBG
Home” program contractor. The press             funding. Hosted by Louisiana Attorney
conference described a “Zero Tolerance”         General Charles Foti and the Louisiana
policy relating to the detection, prevention,   Recovery Authority (LRA), guest speakers
and Federal or state prosecution of all         included Mr. Leroy Frazer, Bureau Chief of
fraudulent activity as Louisiana begins the     the Special Prosecutions Bureau, Manhattan
distribution of nearly $6 billion to            District Attorney’s Office; SAC Ruth
homeowners affected by Hurricanes Katrina       Ritzema, HUD OIG New York field office;
and Rita.                                       SA Jenell Clark, Small Business
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○      Administration (SBA) OIG; David Dugas,
                                                U.S. Attorney, Middle District of Louisiana;
    Deputy Assistant Inspector General for      Richard McClintock, Director, KPMG LLP,
Inspections and Evaluations (DAIGI) John        and Mike Byrne, CEO, ICF International.
McCarty, Acting Special Agent in Charge         HUD OIG Management Analyst Desiree
(SAC) Thomas Luke, and Special Agent            Johnson facilitated the training workshop
(SA) Robert Anderson, provided a tour of        attended by approximately 50 Federal, state,
the devastation caused by Hurricane             and local law enforcement personnel.
Katrina in New Orleans, LA, and
Mississippi to Gale Burton, Maggie Owens,
and Bruce Friedland, three staff members
of the U.S. House of Representatives
Appropriations Committee, Sub-Committee
on Surveys and Investigations. The
Louisiana tour included Orleans Parish, St.
Bernard Parish, and St. Tammany Parish,
and focused on public housing and
multifamily locations. A tour of New
Orleans included three public housing
projects set for demolition as a result of
Hurricane Katrina, two HOPE VI
developments destroyed by Hurricane             SAC Larry Amaker presenting information at the
Katrina, and one completely reoccupied and      HUD Disaster Recovery Funding workshop in Baton
                                                Rouge, LA in September 2006.
two partially reoccupied housing
developments. The Mississippi tour
included Gulfport and Biloxi areas, and
concentrated on neighborhoods that held a
high percentage of Federal Housing
Administration (FHA)-insured single-
family residences, multifamily properties,
and public housing units destroyed by
Hurricane Katrina.
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


     SAC Larry Amaker presented training
on Disaster Recovery Funding to
prosecutors and law enforcement personnel
                                                SAC Ruth Ritzema briefing on “Lesson Learned New
at the State House in Baton Rouge, LA. The      York Disaster Recovery” at the HUD Disaster
Disaster Recovery Funding workshop was          Recovery Funding workshop held in Baton Rouge,
designed to educate law enforcement             LA.
                                                         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


Hurricane Relief Oversight                                                                         109
           Acting SAC Thomas Luke, Senior                  Acting SAC Thomas Luke provided a
      Forensic Auditor (SFA) Windell Durant, and      briefing on the current condition of the
      Assistant Regional Inspector General            Housing Authority of New Orleans
      for Audit (ARIGA) Rose Capalungan               (HANO), HANO refurbishment/ rebuilding
      participated in an initial meeting of the       contracts, the present stage of housing
      Louisiana Road Home Fraud Prevention and        developments off-line, the status of out-of-
      Investigations Task Force hosted by the State   state evacuees, and an overview of assistance
      of Louisiana Attorney General in Baton          available through the Hurricane Katrina
      Rouge, LA. Other task force members             Fraud Task Force (HKFTF) located in Baton
      include the Louisiana Attorney General’s        Rouge, LA, to members of the Project Safe
      Office, ICF International and KPMG, two         Neighborhood (PSN) Executive Council in
      contractors hired by the State of Louisiana     New Orleans, LA. The PSN Executive
      to administer the Road Home Program,            Counsel consists of personnel from the U.S.
      Louisiana State Office of Legislative Audit,    Attorney Office for the Eastern District of
      and three United States Attorneys’ Offices      Louisiana; Assistant U.S. Attorneys
      in Louisiana. HUD OIG presented the             prosecuting violent, gun, drug, and fraud
      current and future efforts in the State of      crimes; Federal agents from FBI, Drug
      Mississippi, and discussed numerous issues      Enforcement Agency (DEA), U.S. Marshals
      surfacing in administering the Mississippi      Service (USMS) and Alcohol, Tobacco,
      Development Authority (MDA) plan of             Firearms, and Explosives (ATFE); staff from
      action. A lengthy review of future fraud        New Orleans District Attorney Office; and
      prevention measures in Louisiana                law enforcement personnel from New
      undertaken by HUD OIG and the United            Orleans and Jefferson, Orleans and St.
      States Attorneys’ Offices followed.             Bernard Parishes. HUD OIG agreed to
               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○      coordinate efforts between PSN members
                                                      and HANO.
          Acting SAC Thomas Luke, SFA Windell                  ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
      Durant, and HUD OIG Hotline Director
      Robert Ashworth attended a Louisiana State          Acting SAC Thomas Luke provided a
      Attorney General’s Hurricane Katrina Fraud      briefing on the Louisiana Recovery
      Task Force (HKFTF) working group meeting        Authority (LRA), the Mississippi
      in Baton Rouge, LA. The HKFTF working           Development Authority (MDA), and the
      group met to discuss methods necessary to       relationship between these state agencies
      insure valid fraud complaints or                and HUD OIG Office of Investigations to
      mismanagement of CDBG funds are entered         staff members from the House
      into a Department of Justice database.          Appropriations Committee, Surveys and
      Hotline Director Ashworth provided              Investigations office in New Orleans, LA.
      suggestions and guidance to two contractors     In addition, Acting SAC Luke provided an
      administering Hurricane Katrina CDBG            overview of the relationship between HUD
      funds, ICF International and KPMG, when         OIG and the Hurricane Katrina Fraud Task
      establishing the Louisiana “Road Home”          Force, how LRA and MDA interact on issues
      hotline. In addition, discussions were held     of suspected fraud, and current efforts for
      relating to “Road Home” hotline public          proactive fraud prevention. Deputy
      service announcements. Officials from           Assistant Inspector General for Audit
      Department of Justice, Louisiana State          (DAIGA) Robert Gwin and members of the
      Attorney General’s Office, Louisiana Office     New Orleans Audit staff provided an
      of    Economic       Development,      ICF      overview of audit functions involving both
      International, KPMG LLP, and Governor           LRA and MDA. At the completion of the
      Blanco’s office attended.                       briefings, SA Robert Anderson provided the
               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○      House staff members with a tour of New


110                                                                    Hurricane Relief Oversight
Orleans’ low-income and public housing
neighborhoods.
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SA Robert Anderson provided a fraud
awareness briefing at the Louisiana Housing
Council conference held in Baton Rouge,
LA. SA Anderson provided information on
HUD OIG roles and responsibilities to
approximately 75 Louisiana Public Housing
Authorities executives in attendance.

Mississippi Outr eac
            Outreac h
                 each                          State Auditor Phil Bryant addressing law enforcement
                                               personnel attending the HUD OIG sponsored Disaster
                                               Recovery Funding Workshop in Hattiesburg, MS in
     DAIGI John McCarty, Acting SAC            July 2006.
Thomas Luke, ARIGA Rose Capalungan,
and SFA Windell Durant conducted a
briefing and overview of the Mississippi       District of Mississippi; John Dowdy,
Development Authority (MDA) action plan        Assistant U.S. Attorney, Southern District of
to Dunn Lampton, U.S. Attorney, Southern       Mississippi; numerous District Attorneys
District of Mississippi, members of the FBI,   and their representatives, as well as audit
auditors from Mississippi State Auditor        personnel from the Mississippi Office of the
Office, and District Attorneys representing    State Auditor. Representing HUD OIG was
four affected counties in Southern             ARIGA Rose Capalungan, SSA Sandra
Mississippi at a meeting held in Jackson,      Hackworth, and SAs Robert Anderson,
MS. The briefing provided a synopsis of        William Bathke, and Michael Gibson.
funding, an explanation on how MDA will        Approximately 50 law enforcement agents
withdraw funds, and covered topics             and personnel attended the workshop. The
including Federal and state prosecutions,      Disaster Recovery Funding Workshop was
construction working groups, Memoranda         designed to train law enforcement personnel
of Understanding (MOU) between Federal         on the nuances found in the HUD Annual
and state agencies, and additional training    CDBG funding and Disaster Supplemental
for prosecutors and local law enforcement.     CDBG funding.
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SAC Larry Amaker and Acting SAC                 Acting SAC Thomas Luke and
Thomas Luke sponsored a Disaster               Supervisory Forensic Auditor (SFA) Windell
Recovery Funding Workshop on the campus        Durant provided multiple fraud awareness
of the University of Southern Mississippi      briefings to employees of the Reznick Group
located in Hattiesburg, MS. Mississippi        and Allied American Adjusting in Gulfport,
State Auditor Phil Bryant made a guest         Gautier, and Bay St. Louis, MS. The
appearance to kick off the start of the HUD    Mississippi Development Authority
OIG workshop, and other guest speakers         contracted with the Reznick Group to
included SAC Ruth Ritzema, SAC Peter           administer their homeowner assistance
Emerzian, and SA Jenell Clark, Small           grant program, and Allied American
Business Administration (SBA) OIG. Those       Adjusting to conduct appraisals of single-
in attendance included David Dugas, U.S.       family homes damaged or destroyed during
Attorney, Middle District of Louisiana;        Hurricane Katrina.
Dunn Lampton, U.S. Attorney, Southern                    ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




Hurricane Relief Oversight                                                                            111
            Acting SAC Thomas Luke provided                Attorney Dunn Lampton and Assistant U.S.
       remarks at a press conference held at the           Attorney John Dowdy, Chief of the Criminal
       Mississippi Gulf Coast Convention Center            Division, provided an update on current
       in Biloxi, MS. Hosted by Phil Bryant, State         investigations. Mississippi Attorney
       Auditor for Mississippi, the press                  General Jim Hood and local District
       conference was called to announce the               Attorneys provided an overview of issues
       formation of the Katrina Fraud Prevention           they faced, and described current contractor
       and Detection Unit. Speeches given by               fraud investigations and consumer
       Mississippi Governor Haley Barbour and              protection violations. Representatives from
       Dunn Lampton, U. S. Attorney, Southern              FBI, Department of Homeland Security
       District of Mississippi, highlighted the            Office of Inspector General, Mississippi State
       conference. Others in attendance included           Auditors Office, Mississippi Bureau of
       Congressman Gene Taylor’s representative,           Investigations, and numerous southern
       U.S. Marshal Nehemiah Flowers, Federal              Mississippi District Attorney offices and law
       Bureau of Investigation (FBI) SAC John              enforcement personnel attended.
       Rucci, HUD OIG Assistant Regional                            ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
       Inspector General for Audit (ARIGA) Rose
       Capalungan, and District Attorneys and                  Acting SAC Thomas Luke and SA’s
       Sheriffs from four Mississippi counties             Michael Gibson and Toni Zavala
       affected by the hurricanes.                         participated in a “Contractor Fraud Working
                                                           Group” (CFWG) hosted by Southern District
                                                           of Mississippi U.S. Attorney Dunn Lampton
                                                           and Assistant U.S. Attorney John Dowdy,
                                                           Chief of the Criminal Division in Gulfport,
                                                           MS. U.S. Attorney Lampton, in conjunction
                                                           with the State of Mississippi Attorney
                                                           General’s Office, formed the CFWG and
                                                           includes representatives from the FBI,
                                                           District Attorneys’ Offices, Sheriff’s Offices,
                                                           and Police Departments from seven localities
                                                           along the gulf coast affected by Hurricane
                                                           Katrina, MS State Auditors Office, and MS
                                                           State Police. The CFWG met to develop a
      Acting SAC Thomas Luke (right) conversing with       standard operating procedure for recording,
      United States Attorney, Dunn Lampton (left) and      investigating, and prosecuting homeowner
      State Auditor Phil Bryant (center) in Hattiesburg,   complaints involving contractors. U.S.
      MS at the HUD OIG sponsored Disaster Recovery        Attorney Lampton provided an overview of
      Funding Workshop.                                    the procedures for prosecuting complaints,
                  ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
                                                           a briefing on the Hurricane Katrina Fraud
                                                           Task Force (HKFTF) process of recording
           Acting SAC Thomas Luke, SFA Windell             complaints, and described assistance
       Durant, and HUD OIG Hotline Director                available to local law enforcement from
       Robert Ashworth attended a Mississippi              HKFTF task force members.
       fraud working group meeting held at the                      ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
       U.S. Attorney’s Office in Gulfport, MS.
       Deputy Attorney General Alice Fischer                   Acting SAC Luke accompanied
       provided an overview of Department of               Congressional staff members from the
       Justice efforts to assist local District            House Appropriations Committee to the
       Attorneys and law enforcement personnel,            MDA Service Center in Gulfport, MS. At
       and Southern District of Mississippi U.S.           the MDA Center, representatives from the


112                                                                         Hurricane Relief Oversight
Reznick Group provided a briefing on the        TDHCA, TXORC, and four Councils of
Mississippi Housing Assistance Program, a       Governments overseeing Hurricane Rita
walkthrough of the intake procedure, and        recovery efforts in their communities.
an observation of an actual applicant                    ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
progressing through the CDBG grant
application process. After the MDA Service           SAC Larry Amaker and Assistant
Center visit, staff members were provided       Director for Technical Planning & Oversight
with a tour of single-family neighborhoods      Christine Begola met with Florida
in both Gulfport and Biloxi before a fraud      Department of Community Affairs (FDCA)
referral briefing by Mississippi State          officials in Tallahassee, FL. SAC Amaker
Auditors in Hattiesburg.                        provided the role and responsibilities of
                                                HUD OIG in overseeing HUD CDBG
Other Outr eac
      Outreac h
           each                                 funding to the State of Florida. Anne Kittrell,
                                                Inspector General for the State of Florida,
    HUD OIG Deputy Inspector General            FDCA Chief of Staff Janice Browning, FDCA
(DIG) Michael Stephens,DAIGI John               Ted Court, and HUD OIG Region 4 SAC
McCarty, SAC Larry Amaker, Senior Special       William Creel and ASAC Timothy Mowery
Agent (SSA) Hackworth, and HUD OIG              also attended.
Auditors Christine Begola and Patrick                    ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○

Bannon attended the President’s Council on
Integrity and Efficiency/Executive Council           SSA Sandra Hackworth and SA Michael
on Integrity and Efficiency (PCIE/ECIE)         Gibson provided a presentation at the
Homeland Security roundtable meeting for        Alabama Department of Economic and
OIG Hurricane Katrina Oversight in              Community Affairs (ADECA) training
Washington, D.C. Topics of discussion           workshop held at the Mitchell Center on
included legislative updates, government        the University of Alabama campus in
reform initiatives, Gulf Coast small business   Mobile, AL. ADECA is the state agency
contracting issues, GAO updates on Gulf         administering funding provided to Alabama
Coast initiatives, and updates on the           for its recovery from the effects of Hurricane
operations of the Hurricane Katrina Fraud       Katrina. SSA Hackworth and SA Gibson’s
Task Force.                                     presentation, an integral part of ADECA’S
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○      workshop, focused on HUD’S Community
                                                Development Block Grant (CDBG) disaster
    DAIGI John McCarty, ARIGA Rose              recovery funding program and contract
Capalungan, and Region 6 ASAC Michael           fraud awareness. SSA Hackworth and SA
Wilson met with representatives of HUD          Gibson also hosted a question and answer
and Texas Department of Housing and             session following their presentation.
Community Affairs (TDHCA) in Austin,            Approximately 50 ADECA grantees and
Texas. DAIGI McCarty presented the role         sub-grantees attended.
and responsibilities of HUD OIG in the                   ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○

hurricane recovery process, and offered
HUD OIG assistance in program
development. Officials in attendance
included Katie Worsham, Director of HUD
Office of Community Planning and
Development (CPD), Fort Worth, Texas,
Jennifer Molinari, TDHCA, Oralia Cardenas,
Texas’ Office of Rural Community Affairs
(TXORC), and representatives and staff of



Hurricane Relief Oversight                                                                        113
      Pictures of HUD OIG’
      Pictures           OIG’ss Hurricane Relief and
                                Hurricane
      Reco
      Recovver
            eryy Effor
                 Efforts
                    orts




                                                      Frenchman’s Wharf, HUD multifamily location,
                                                      New Orleans East.




      HOPE VI project, Abundance Square, 9th Ward,
      New Orleans, LA.




                                                      DAIGI John McCarty and SA Robert Anderson
                                                      briefing congressional staffer Bruce Friedland at
                                                      Frenchman’s Wharf located in New Orleans East.




      Lake Pontchartrain as seen from Carr Drive in
      Slidell, LA.




                                                      Acting SAC Thomas Luke leading congressional
                                                      staffers on a tour of Abundance Square located in the
                                                      9th Ward, New Orleans, LA.



114                                                                      Hurricane Relief Oversight
                                                    DAIGI John McCarty and Acting SAC Thomas
Flood-damaged home in Lakeview neighborhood,        Luke conferring with congressional staffers at the
New Orleans, LA.                                    Industrial Canal breach, Lower 9th Ward, New
                                                    Orleans, LA.




                                                    Hurricane-damaged structure along the Mississippi
                                                    Gulf Coast.

Hurricane-damaged structure along the Mississippi
Gulf Coast.




 Hurricane Relief Oversight                                                                              115
           Chapter 7
 Other Significant HUD Audits
       Significant
and Investi
    Inv    gations/OIG Hotline
       estig
      Audit                                            incorporated into HUD’s contingency and
                                                       disaster recovery plans and that the
                                                       documents reflect current conditions and
          During this reporting period, the Office     incorporate corrective actions identified, (2)
      of Inspector General (OIG) issued one            ensure that the Lockheed Martin Network
      external and three internal reports              Operating Center develops a memorandum
      involving areas of U.S. Department of            of understanding with its alternate recovery
      Housing and Urban Development (HUD)              sites to ensure that the facilities have the
      operations that do not fall under major HUD      capability to restore HUD applications
      programs reported in previous chapters.          within the required timeframes, and (3)
      These reports disclosed more than $930,000       evaluate the Electronic Data Systems and
      in questioned costs and over $470,000 in         SunGard “no priority of service” provisions
      funds put to better use.                         to determine whether conflicting priorities
                                                       impact the recovery time objectives. (Audit
          OIG’s more significant audits are            Report: 2006-DP-0005)
      discussed below.

      HUD Inf  or
            Information
               ormation                                HUD Inf   or
                                                              Information
                                                                 ormation
      Technolo gy Contin
         hnology
      Technolo    Continggenc
                          encyy                        Tec hnolo gy Compliance
                                                           hnology
                                                       Technolo
      Plannin
      Planningg and Prepar
                    Prepar edness
                       eparedness                      with OMB M-06-16
      Compliance with Federal                          “Pr otection of Sensiti
                                                       “Protection      Sensitivve
      Requir ements
      Requirements                                     Agenc
                                                         encyy Inf
                                                       Agenc        or
                                                                Infor  mation”
                                                                    ormation”
                                                            HUD OIG completed a limited scope
          HUD OIG audited HUD’s information            assessment of HUD’s compliance with
      technology contingency planning and              Office of Management and Budget (OMB)
      preparedness compliance with federal             Memorandum M-06-16, “Protection of
      requirements and its ability to recover in the   Sensitive Agency Information.” The
      event of interruption or disaster in a timely    memorandum stresses that federal agencies
      manner.                                          take all necessary and reasonable measures
                                                       to eliminate significant vulnerabilities to the
           The following areas of concern were         sensitive information entrusted to them.
      identified: (1) the information contingency      Agencies are required to (1) implement
      planning process does not fully use the          National Institute of Standards and
      planning process as recommended by the           Technology-recommended security controls
      National Institute of Standards and              and take specific actions by August 7, 2006,
      Technology, (2) there is no assurance that the   and (2) answer questions related to
      alternate data recovery facilities have the      personally identifiable information and the
      capability to restore HUD’s mission-critical     extent to which specific controls and actions
      and major applications within the required       required by the memorandum were
      timeframes, and (3) HUD’s information            designed and implemented. Additionally,
      technology contingency and disaster              the Inspectors General community is
      recovery plans are not documented and            required to assess compliance with the
      maintained to reflect current conditions.        memorandum. OIG has determined that the
                                                       contents of this memorandum would not be
          OIG recommended that HUD (1)                 appropriate for public disclosure. Therefore,
      request that program officials complete the      it has limited its distribution to selected
      business impact analysis and risk                HUD officials. (Audit Report: 2006-DP-
      assessments and ensure that they are             0802)

118                              Other Significant HUD Audits and Investigations/OIG Hotline
Federal Infor
        Infor mation
           ormation                            million grant; and not award the Council
                                               additional funding until it has implemented
Security Mana
         Manag gement Act                      adequate financial management and
of 2002                                        procurement systems and can provide
                                               evidence that it has developed the
                                               organizational capacity to carry out a HUD
     The Federal Information Security          grant. (Audit Report: 2006-LA-1013)
Management Act of 2002 (FISMA) directs                 ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
HUD OIG to perform an annual
independent evaluation of HUD’s
information security program and practices.
OIG has determined that the contents of this
memorandum would not be appropriate for
public disclosure and has, therefore,
limited its distribution to selected
officials. (Audit Report: 2006-DP-0803)

Health
Healthyy Homes Initiati
               Initiativve
Grant
    HUD OIG audited the Child Abuse
Prevention Council of Sacramento, located
in North Highlands, CA, in response to a
referral from HUD. The objectives were to
determine      whether     the   Council
administered its Supportive Housing
Program grant in accordance with HUD
requirements and its grant agreement.

    The Council did not adequately
administer its Healthy Homes Initiative
grant. As a result, nearly $937,000 of the
more than $1 million in payment
(reimbursement) requests submitted to
HUD was for ineligible and unsupported
costs.

    OIG recommended that HUD require
the Council to repay it from nonfederal
sources for ineligible and unsupported
expenses (for which reimbursement was
previously received from HUD); not pay the
Council for outstanding reimbursement
requests, consisting of ineligible and
unsupported expenses, unless it can provide
adequate supporting documentation;
deobligate all remaining grant funds
including ineligible costs, any unsupported
costs that cannot be documented, and the
almost $473,000 unused portion of the $1.5

Other Significant HUD Audits and Investigations/OIG Hotline                                  119
      Investi
      Inv    gation
         estig                                         OIG Hotline
          During this reporting period, OIG                 The HUD OIG Hotline is operational 5
      opened 14 investigation cases and closed 10      days a week, Monday through Friday, from
      cases involving areas of HUD operations          10:00 a.m. to 4:30 p.m. The Hotline is staffed
      that do not fall under specific programs         by seven full-time OIG employees, who take
      identified in other chapters of this report.     allegations of waste, fraud, abuse, or serious
      Judicial actions taken on these cases during     mismanagement in HUD or HUD-funded
      the period included 2 indictments/               programs from HUD employees,
      informations, 1 convictions/pleas/pretrial       contractors, and the public and coordinate
      diversions, 3 personnel actions, and 1 arrest.   reviews with internal audit and investigative
                                                       units or with HUD program offices.

                                                           During this reporting period, the
                                                       Hotline received and processed 10,588
                                                       complaints – 76 percent received by
                                                       telephone, 17 percent by mail, and 7 percent
                                                       by e-mail. Every allegation received by the
                                                       Hotline is logged into a database and
                                                       tracked.

                                                            Of the complaints received, 1,196 were
                                                       related to the mission of OIG and were
                                                       addressed as Hotline cases. Hotline cases
                                                       are referred to OIG’s Offices of Audit and
                                                       Investigation or to HUD program offices for
                                                       action and response. The following
                                                       illustration shows the distribution of Hotline
                                                       case referrals by percentage.

                                                            The Hotline closed 832 cases this report-
                                                       ing period. The closed Hotline cases in-
                                                       cluded 130 substantiated allegations. The
                                                       substantiated allegations resulted in six ad-
                                                       ministrative sanctions against HUD employ-
                                                       ees for personnel violations or investors for
                                                       improprieties involved in the purchase of a
                                                       home. The Department also took 124 cor-
                                                       rective actions that resulted in $69,798 in
                                                       recoveries of losses and $2,158,300 in HUD
                                                       funding that could be put to better use. The
                                                       recoveries included repayments of overpaid
                                                       rental subsidies. Some of the funds that
                                                       could be put to better use were the result of
                                                       cases in which tenants were terminated from
                                                       public housing or multifamily housing pro-
                                                       grams for improperly reporting their in-
                                                       comes or family composition to qualify for
                                                       rental assistance.



120                              Other Significant HUD Audits and Investigations/OIG Hotline
                     Char
                     Chartt 7.2: Hotline Cases Opened bbyy Pr
                                                           Proogram Ar ea
                                                                    Area


                 Single-Family               Multifamily
                    Housing                   Housing
                      6%                        13%
       Other HUD
         Offices
           3%

       OIG Audit                                                                               Public and
    and Investigation                                                                            Indian
          12%                                                                                   Housing
                                                                                                  66%




                Char
                Chartt 7.3
                         .3:: Hotline Dollar Impact fr
                       7.3                             om Pr
                                                    from  Proogram Offices
         2,000,000
                                                                                  $1,809,611
         1,800,000
         1,600,000
         1,400,000
         1,200,000
         1,000,000
           800,000
           600,000
           400,000                                   $264,689
           200,000            $84,000          $14,168                     $55,630
                0
                     Single-Family Housing   Multifamily Housing      Public and Indian Housing

                     Recoveries $69,798      Funds Put to Better Use $2,158,300




      Char
      Chartt 7.4
               .4:: Substantiated Cases bbyy T
             7.4                               ype of Complaint Recei
                                             Type                    ved bbyy Hotline
                                                                Receiv


             Owner/Occupant
                                               Mismanagement
                Violations
                                                    7%
                   5%
          Other
           3%




                                                                                      Rental Fraud and
                                                                                       Improprieties
                                                                                             85%




Other Significant HUD Audits and Investigations/OIG Hotline                                                 121
  Chapter 8
Outr eac
Outreac h Eff
     each     or
          Effor  ts
              orts
           To foster cooperative, informative, and           IG Kenneth Donohue, Assistant Special
      mutually beneficial relationships with            Agent in Charge (ASAC) Suzanne
      agencies and organizations whose intent is        Steigerwald, and RIGA Ron Hosking met
      to assist the accomplishment of the U.S.          with the U.S. Attorney for the District of
      Department of Housing and Urban                   Colorado and members of his staff in their
      Development’s (HUD) mission, the Office of        Denver, CO, office. They also met with staff
      Inspector General (OIG) participates in a         of the Colorado Bureau of Investigations in
      number of special outreach efforts. These         its Denver office. The topic of discussion at
      efforts, as described below, are in addition      both meetings was fraud in HUD’s single-
      to OIG’s regular coordination with federal,       family programs.
      state, and local law enforcement agencies;                 ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
      other OIGs; and various congressional
      committees and subcommittees. During                  IG Kenneth Donohue, SAC Barry
      these outreach efforts, OIG presents the          McLaughlin, and RIGA Heath Wolfe
      results of its audit and investigative work,      participated in the Minnesota NAHRO
      discusses its goals and objectives, and           conference, which was held in Breezy Point,
      provides information about its role and           MN. IG Donohue was the keynote speaker,
      function.                                         and he presented an overview of OIG, OIG’s
                                                        mission and role, and the general functions
           Inspector General (IG) Kenneth               of the Offices of Investigation and Audit.
      Donohue; Regional Inspector General for           There were more than 300 members in
      Audit (RIGA) Edgar Moore; Special Agent
                                                        attendance. SAC McLaughlin and RIGA
      in Charge (SAC) Ruth Ritzema; and
                                                        Wolfe participated in a round table
      Assistant Inspector General/Director of
                                                        discussion in which they explained common
      Investigations (AIG/DOI) Steve Pasichow,
                                                        audit findings, the “red flags” of fraud, and
      Port Authority of New York/New Jersey,
      were guest speakers at the Association of         fraud case studies and discussed good
      Government Accountants’ (AGA) 55th                public housing authority operating
      Annual Professional Development                   practices.
                                                                 ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
      Conference in San Diego, CA. The
      presentation was entitled “The Tragedy and
      Aftermath of September 11, 2001; Oversight            Deputy Inspector General (DIG)
      of Disaster Assistance Funding and Lessons        Michael Stephens, SAC William Creel, and
      Learned.” IG Donohue was the moderator,           ASAC Ruth Valdes participated in a HUD-
      while RIGA Moore and SAC Ritzema made             sponsored Single-Family Mortgage Fraud
      presentations on HUD OIG’s audits and             Symposium in Savannah, GA. The
      investigative efforts regarding Community         symposium, entitled “Stop Mortgage Fraud:
      Development Block Grant (CDBG) Disaster           A Call To Action,” was attended by more
      Recovery Assistance funds provided to the         than 650 members of the real estate
      State of New York in response to the              community representing Fannie Mae,
      September 11, 2001, terrorist attacks. AIG/       Freddie Mac, the North Carolina Real Estate
      DOI Pasichow provided a presentation on           Commission, the Florida Office of Financial
      the Port Authority’s efforts in using integrity   Regulation, the Georgia Department of
      monitors to help in overseeing Port               Banking and Finance, and mortgage and real
      Authority funding provided after the              estate professionals. DIG Stephens served
      September 11 tragedy.                             as the moderator for a panel of seven
               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○        presenters addressing “Enforcement After
                                                        the Crime.” Panel members included ASAC
                                                        Valdes, HUD OIG Miami field office; SAC
                                                        Brian Lamkin, Federal Bureau of



124                                                                                   Outreach Efforts
                                                  Federal Housing Administration (FHA)
                                                  mortgage environment, working with law
                                                  enforcement, and forfeiture laws, and
                                                  illustrated recent successful investigations.
                                                  Approximately 60 MBA members attended.
                                                           ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


                                                      New England Regional SAC Peter
                                                  Emerzian, ASAC Diane DeChellis, and
                                                  ARIGA Michael Motulski presented HUD
                                                  OIG’s mission, priorities, and successful
                                                  investigations/audits involving HUD’s
Deputy Inspector General Michael Stephens         public and Indian housing program at the
presenting at a HUD-sponsored Single-Family       annual Connecticut National Association of
Mortgage Fraud Symposium in Savannah, GA.         Housing and Redevelopment Officials
                                                  (NAHRO) conference held at the Mohegan
Investigation (FBI), Columbia, SC, division;      Sun in Uncasville, CT. More than 300
two assistant U.S. attorneys (AUSA);              officials representing approximately 25
and Verlon Shannon, Director of HUD’s             Connecticut public housing authorities
Quality Assurance Division, Atlanta               attended.
Homeownership Center. DIG Stephens
discussed HUD OIG’s commitment to
investigating and prosecuting those who
prey on the mortgage industry to illegally
enrich themselves, and ASAC Valdes spoke
on the importance of combining law
enforcement resources and industry
professionals to hold offenders accountable.
          ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


     SAC Barry McLaughlin, along with
representatives from the U.S. Attorney’s Office
(USAO), U.S. Trustee’s Office, and FBI,
provided a panel discussion and presentation      Region 1 ASAC Diane Dechellis, CT NAHRO
                                                  Executive Director Carol Barlow, & Region 1
to more than 50 individuals attending a           ARIGA Michael Motulski at the Connecticut
meeting of the Illinois Association of Mortgage   NAHRO conference held at the Mohegan Sun in
Brokers and Bankers in Chicago, IL. Panel         Uncasville, CT.
members presented their agencys’ mission,                  ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
and collectively the panel discussed law
enforcement methods used for investigating             Patrick Meehan, U. S. Attorney for the
real estate fraud.                                Eastern District of Pennsylvania, held a
          ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○       press conference at Lucien Blackwell
                                                  Homes, a Philadelphia Housing Authority
     SAC Barry McLaughlin, along with an          (PHA) public housing development located
FBI supervisory special agent (SA) and legal      in southwest Philadelphia, PA, to announce
counsel, conducted a panel presentation at        the kick-off of the Philadelphia Public
the Mortgage Bankers Association (MBA)            Housing Safety Initiative (PHSI). Lucien
first annual National Fraud Issues                Blackwell Homes, a newly built family
conference held in Chicago, IL. The panel         development with more than 120 homes, is
discussed numerous topics, including the          considered the “wave of the future” for


 Outreach Efforts                                                                                 125
      Philadelphia’s housing developments, and        audits to OIG and ways in which OIG can
      PHA plans to construct an additional 400        make referrals to the states.
      homes on 17 square blocks encompassing                   ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
      Lucien Blackwell Homes. The Philadelphia
      PHSI is one of 10 nationwide PHSIs                   RIGA Heath Wolfe and SAC Barry
      developed to protect the residents of newly     McLaughlin gave a presentation at the
      constructed housing developments from           Mortgage Association of Minnesota’s 36th
      fugitive felons, violent crimes, and gang       Annual Convention and Trade Show in
      activity. AUSA Richard Barrett requested        Minneapolis, MN. SAC McLaughlin
      HUD OIG assistance in providing strategic       presented an overview of the latest trends
      information during the development of the       in mortgage and real estate fraud. RIGA
      Philadelphia PHSI law enforcement               Wolfe’s presentation covered common OIG
      proposal, a proposal developed by the           findings during mortgagee audits and
      USAO, and continued assistance as a             certifications that violate the Program Fraud
      participating law enforcement partner. SAC      Civil Remedies Act (PFCRA).
      for HUD OIG Mid-Atlantic Region, Joseph                  ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
      Clarke, and SA Lou Mancini were invited
      to participate in the press conference by            RIGA Frank Baca, ARIGA Theresa
      Philadelphia’s USAO. Other Philadelphia         Carroll, and SA Lynelle Kunst presented a
      PHSI law enforcement partners                   training session to about 30 attendees of the
      participating in the press conference           Texas NAHRO conference in Corpus
      included representatives from the U.S.          Christi, TX. The presentation covered OIG’s
      Marshals Service (USMS); Bureau of              organization and mission and the recent
      Alcohol, Tobacco, Firearms, and Explosives      focus on rental assistance overpayments.
      (ATFE); Drug Enforcement Administration                  ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
      (DEA); Philadelphia Police Department;
      PHA Police Department; and other federal,            RIGA Edgar Moore gave a presentation
      state, and local officials including Guy        to President’s Council on Integrity and
      Ciarrochi, HUD Region 3 Director. HUD           Efficiency/Executive Council on Integrity
      OIG continues to actively support               and Efficiency (PCIE/ECIE) members who
      Philadelphia’s PHSI investigative efforts.      attended the 2006 PCIE/ECIE training
               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○      conference and retreat in Portsmouth, VA.
                                                      The presentation, entitled “The IG
           RIGA Heath Wolfe and SAC Barry             Community’s Changing Role in the Wake of
      McLaughlin met with three state auditor’s       911 and Katrina,” provided an overview of
      offices to explain the role of HUD OIG,         Region 2 New York/New Jersey’s work in
      develop lines of communication, and             auditing the CDBG Disaster Recovery
      possibly conduct joint audits in the future.    Assistance funds. RIGA Moore participated
      On April 3, they met with officials of the      in a panel of PCIE awardees from three
      Michigan Auditor General’s office in            agencies,     who      discussed    their
      Lansing, MI; on April 5, they met with          accomplishments.
      officials of the Minnesota State Auditor’s               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
      office in St. Paul, MN; and on April 17, they
      met with officials of the Wisconsin                 RIGA Heath Wolfe and SA Julien
      Legislative Auditor’s office in Madison, WI.    Kubesh made a presentation at the
      They provided a brief background of OIG         Supportive Housing Program Start-Up
      and presented information on OIG’s mission      Conference in Minnetonka, MN. The
      and the function of the Offices of              presentation provided an overview of HUD
      Investigation and Audit. They outlined          OIG, which consisted of a brief background
      ways in which the states can refer cases/       of OIG’s missions and goals. RIGA Wolfe


126                                                                                 Outreach Efforts
presented the Office of Audit’s function, and       ASACs Ray Espinosa and Brad Geary
SA Kubesh presented the Office of               provided a presentation to the Electronic
Investigation’s function. Information was       Crimes Commission sponsored by the U. S.
also provided on OIG’s role in fraud            Secret Service in Chicago, IL. ASACs Espinosa
investigations and the importance of            and Geary discussed the latest trends in real
documentation of program expenditures           estate and mortgage fraud, along with
and achievements.             There were        procedures used in investigating these crimes.
approximately 85 in attendance.                 More than 150 individuals representing law
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○      enforcement and security personnel from
                                                banks and private businesses attended.
    RIGA Francis Baca and ARIGA Will                     ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
Nixon gave a presentation at the fall meeting
of the Oklahoma Chapter of NAHRO in                 ASAC Diane DeChellis and SA
Norman, OK. The presentation, prepared          Fernando Ramos attended a Criminal Justice
by Senior Auditor Danita Wade and entitled      Advisory Board meeting at Bridgewater
“How to Survive a HUD Audit,” focused on        State College in Bridgewater, MA. ASAC
how OIG selects and performs audits, public     DeChellis presented and discussed HUD
housing findings, and resolution of audits.     OIG’s role, mission, and priorities, along
RIGA Baca and ARIGA Nixon fielded a             with the importance of HUD OIG’s
range of questions from the group of about      partnership with local, state and other
30 housing executives from across               federal law enforcement agencies in
Oklahoma who attended.                          combating crime. Those in attendance
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○      included Timothy Cruz, District Attorney
                                                for Plymouth County; Linda Balzotti,
     ASAC Tony Meeks and SA David               Brockton City Council; and numerous
Carranza coordinated and hosted a meeting       representatives from state and local law
between the Ventura County District             enforcement agencies.
Attorney’s Office Chief Deputy, Bureau of                ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
Investigations personnel, and Executive
Directors representing Newbury Park,                 ASAC Ray Espinosa, along with
Oxnard, Ventura, Port Hueneme, and Santa        representatives from the Northern District
Paula Housing Authorities in Ventura, CA.       of Illinois USAO and Chicago Police
The purpose of the meeting was to discuss       Department, participated in a panel
HUD rental assistance program fraud             presentation at Project Safe Neighborhoods
schemes and trends. ASAC Meeks and SA           National Conference held in Denver, CO.
Carranza provided an overview of HUD            The presentation, known as “Public
OIG’s Fugitive Felon and Sex Offender           Housing, Gang Suppression and Deterrent
initiatives, identified avenues for housing     Strategies,” described investigative
authorities to recognize program fraud, and     strategies to help reduce the proliferation of
shared ideas to develop a more efficient and    gang-related activities in public housing
coordinated effort between HUD OIG and          complexes, HUD OIG resources to support
the District Attorney’s office when             deterrence, and enforcement initiatives.
investigating and prosecuting housing           ASAC Espinosa also discussed HUD OIG’s
authority fraud referrals. The Ventura          role in assisting Project Safe Neighborhood
County District Attorney’s Chief Deputy         operations, initiatives, and task forces by
expressed a commitment to combating             initiating parallel white-collar investigations
housing fraud and providing an expeditious      involving tenants, landlords, single-family
process to prosecute individuals                fraud, and money laundering.
fraudulently receiving public funds.                     ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




Outreach Efforts                                                                                  127
           ASAC Ruth Valdes met with members        Section 8 housing application and its
      of the Domestic Security Task Force (DSTF)    evidentiary value during a criminal and/or
      in Palm Beach, FL. ASAC Valdes presented      administrative proceeding, and ARIGA
      HUD OIG’s authority, mission, and benefits    Shulze provided an overview of OIG’s
      of cooperation between HUD OIG and DSTF       organizational structure and function and
      members and provided information relating     the mission of OIG’s Office of Audit.
      to Section 8 fraud and HUD OIG initiatives,            ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
      including the Fugitive Felon initiative.
      ASAC Valdes also discussed a possible              ASAC Suzanne Steigerwald provided a
      coordination with HUD’s public housing        presentation to more than 50 individuals
      personnel for training employees of South     attending a NAHRO conference in Keystone,
      Florida public housing authorities to aid     CO. ASAC Steigerwald provided an overview
      DSTF response teams in Dade, Broward, and     of HUD OIG’s mission and authority and
      Palm Beach Counties. Approximately 40         described fraud detection and enforcement
      DSTF representatives from various federal,    methods used to successfully prosecute
      state, and local law enforcement entities     investigations.
      attended the meeting.                                  ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
                                                        ASAC Nadine Gurley presented HUD
           ASAC Nadine Gurley and SA Michelle       OIG’s mission and role in preserving the
      Ahmad presented HUD OIG’s mission and         integrity of HUD-funded programs at the
      role in preserving the integrity of HUD-      Georgia Association of Housing and
      funded programs at the Southeast              Redevelopment Authorities (GAHRA) 2006
      Affordable Housing Management                 spring workshop held in Macon, GA. Topics
      Association (SAHMA) 2006 spring               discussed included HUD OIG’s efforts to
      workshop held in Birmingham, AL. Topics       identify and eliminate fraudulent schemes
      discussed included HUD OIG’s efforts to       in HUD rental assistance, hurricane relief,
      identify and eliminate fraudulent schemes     and FHA programs and HUD OIG’s Fugitive
      in HUD rental assistance, hurricane relief,   Felon and Missing Children initiatives.
      and FHA programs, along with HUD OIG’s        Approximately 75 GAHRA members
      Fugitive Felon and Missing Children           attended.
      initiatives. Approximately 75 SAHMA                    ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
      members attended.
              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○          ASAC Suzanne Steigerwald provided a
                                                    presentation to approximately 20 individuals
          The HUD OIG Los Angeles field office      attending a Colorado Housing and Finance
      conducted a presentation at the Southern      Authority conference in Denver, CO. ASAC
      California Housing Authority Managers         Steigerwald provided an overview of HUD
      Association (HAMA) quarterly meeting in       OIG’s mission and authority and described
      Oceanside, CA. ASACs Herschell Harvell        fraud detection and enforcement methods
      and Tony Meeks provided an overview of        used     to     successfully     prosecute
      scheduled presentations and introduced        investigations.
      OIG SAs Neil McMullen, Herminia Neblina,               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
      and John Rodriguez, along with ARIGA
      Tanya Shulze. Seminar topics included             ASAC Maureen Nelting, along with SAs
      OIG’s Fugitive Felon, Sexual Offender, and    from the U.S. Department of Education
      rental assistance fraud initiatives, in       (DOE) OIG and Internal Revenue Service
      addition to HUD’s Enterprise Income           (IRS), Criminal Investigations Division
      Verification. Additionally, SA McMullen       (CID), participated in a Federal Law
      discussed the benefits of a well-worded       Enforcement Officers Association-sponsored


128                                                                               Outreach Efforts
event in support of National Missing           unreported income.           As a result,
Children’s Day in Boston, MA. ASAC             representatives from LBHA, the Long Beach
Nelting and others fingerprinted and           Police Department, the Long Beach City
photographed 60 children who attend the        Prosecutors Office, and Northpointe
Government Center Child Care at the JFK        property management personnel developed
and O’Neill Federal Buildings in Boston.       and agreed to participate in a joint
Since 1983, the United States has observed     investigative effort to assist in identifying
May 25 as National Missing Children’s Day,     tenants violating HUD’s Section 8 programs.
as a reminder to the nation to renew efforts            ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
to reunite missing children with their
families and to make child protection a            ASACs Brad Geary and Ray Espinosa
national priority. The National Center for     conducted a comprehensive training session
Missing and Exploited Children                 for 75 Wisconsin Association of Housing
spearheaded this event.                        Authorities employees in Wausau, WI.
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○     ASACs Geary and Espinosa provided a
                                               presentation entitled “Combating Fraud in
     ASAC Brad Geary provided a                Assisted Housing” and described HUD’s
presentation at a meeting of the Illinois      Rental Housing Integrity Improvement
Coalition of Appraisal Professionals in        Program (RHIIP) initiative, HUD OIG’s
Springfield, IL. ASAC Geary discussed          Fugitive Felon initiative, tenant and landlord
types of fraud in the real estate and          fraud schemes, “red flag” fraud indicators,
mortgage industry, presented “red flag”        and current prosecutorial initiatives within
indicators, described detection methods,       Region 5.
explained documenting and reporting                     ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
allegations, and supplied examples of fraud
investigations to approximately 65                  ASAC Herschell Harvell and SAs David
appraisers in attendance.                      Carter and Ira Long presented HUD Section
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○     8 fraud investigative efforts at a meeting
                                               held in San Bernardino, CA, and attended
    ASAC George Dobrovic and SA Dave           by the San Bernardino County Sheriff and
Frederick conducted a real estate and          approximately 30 police chiefs from cities
mortgage fraud seminar for U.S. Secret         located throughout San Bernardino County.
Service agents in Cleveland, OH. ASAC          SA Carter offered a brief overview of HUD
Dobrovic and SA Frederick discussed how        OIG’s organizational structure, jurisdiction,
to identify fraudulent mortgage files and      and mission and described HUD OIG’s role
“red flag” indicators and illustrated how      as “lead investigative agency” in an ongoing
fake identities and U.S. Treasury checks are   joint Section 8 fraud investigative initiative
used to further mortgage fraud schemes.        with the San Bernardino County Sheriff’s
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○     Department.
                                                        ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
     At the request of the Long Beach
Housing Authority (LBHA), ASAC                     ASAC Herschell Harvell and ARIGA
Herschell Harvell participated as a panelist   Tanya Schulze presented an overview of
for a resident community meeting at LBHA’s     HUD OIG’s roles to personnel from LBHA
Northpointe housing complex in Long            in Long Beach, CA. ARIGA Schulze offered
Beach, CA. ASAC Harvell described HUD          a summary of the HUD OIG Office of
OIG’s mission and role in preventing fraud,    Audit’s organizational structure and
waste, and abuse in HUD’s Section 8            discussed the audit process. ASAC Harvell
programs and discussed tenant fraud issues     described the organizational structure and
involving unauthorized tenancy and             Section 8/Sex Offender initiatives of OIG’s


Outreach Efforts                                                                                129
      Office of Investigation. Approximately 35         lending institutions across the country. In
      housing authority employees, including the        addition, SSA Ellis presented an overview
      Executive Director and LBHA managers,             of a Baltimore housing fraud initiative
      attended.                                         investigation resulting in 16 borrowers,
               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○        speculators, real estate agents, loan officers,
                                                        appraisers, and/or settlement agents being
           ASAC Brad Geary provided a                   convicted of a property-flipping scheme and
      presentation for the Metro Fraud Committee        costing FHA millions in claims.
      of Chicago Title Companies in Chicago, IL.                 ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
      ASAC Geary discussed current fraud trends
      in the real estate and mortgage industry and           ASAC Brad Geary provided a
      provided examples of investigations, “red         presentation to a meeting of the Illinois
      flags,” detection, and methods for                Coalition of Appraisal Professionals in
      documenting and reporting allegations of          Naperville, IL. ASAC Geary discussed
      fraud to law enforcement. Approximately           current fraud trends in the real estate and
      25 title industry personnel attended.             mortgage industry, and provided examples
               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○        of investigations, “red flags,” detection, and
                                                        methods for documenting and reporting
           ASAC Suzanne Steigerwald provided an         allegations of fraud to law enforcement.
      overview of HUD OIG’s mission and authority       Approximately 350 appraisers attended.
      to more than 400 individuals attending a                   ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
      NAHRO conference in Denver, CO. ASAC
      Steigerwald also explained fraud detection            ASAC Herschell Harvell and SA Vicky
      and enforcement methods used to                   Lawson were invited to LBHA, Long Beach,
      successfully prosecute criminal investigations.   CA, to speak with property owners and
               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○        managers of the Andy Street Association, an
                                                        association containing several housing units
           ASACs Ray Espinosa and Brad Geary            occupied by Section 8 tenants. ASAC
      participated in a panel discussion entitled       Harvell presented HUD Section 8 policies
      “The Homeownership Preservation                   and the role of HUD OIG and described the
      Initiative,” sponsored by Neighborhood            collaborative law enforcement efforts
      Housing Services of Chicago and the Federal       between HUD OIG, the Long Beach Police
      Deposit Insurance Corporation in Chicago,         Department, LBHA, and the City of Long
      IL. The panel discussed current real estate       Beach Prosecutor’s Office. Representatives
      fraud, including rescue fraud, flipping,          from LBHA, the Long Beach Police
      condo conversions, and straw buyers.              Department, and approximately 21 property
      Approximately 15 individuals representing         owners and/or managers attended.
      community groups, banks, and law                           ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
      enforcement agencies attended.
               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○            ASACs Kevin Chan and Frank
                                                        Castrogiovanni and SFA Mark Klein met
           ASAC Robert Gale and SSA Daniel Ellis        with New York State Division of Housing
      spoke at the Mortgage Bankers Association         and Community Renewal (HCR) Assistant
      training seminar entitled “Detecting and          Commissioner Alan Smith, Director Clifford
      Avoiding Mortgage Fraud,” held in                 Scott, and Senior Program Representative
      Washington, DC. SSA Ellis, a keynote              Vincent Fagon in New York City, NY, to
      speaker, provided information on HUD              establish a working relationship with HCR
      OIG’s mission and described mortgage              and its staff for assistance in the
      fraud investigations and prosecutions to          development of HUD’s Housing Choice
      approximately 30 representatives from             Voucher program investigations. HCR


130                                                                                   Outreach Efforts
oversees numerous HUD-subsidized                 be audited and audit findings over the past
housing complexes within the New York            12 months.
City area. During the meeting, ASACs Chan                 ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
and Castrogiovanni and SFA Klein
discussed HUD OIG’s mission and objective            The Offices of Audit and Investigation
toward combating fraud, waste, and abuse         participated in the 2006 Youth Summit. The
and removing housing assistance recipients       event was held at the Savannah Center
from HUD’s subsidized housing programs.          located on the campus of Indiana University
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○       Northwest, in Gary, IN. ARIGA Kelly
                                                 Anderson and SFA Katherine Bercaw
    ASAC Brad Geary provided a                   represented Region 5 at the event. They met
presentation through a video telephone           with high school students and shared
conference in Indianapolis, IN, to more than     information about HUD OIG and the career
150 individuals representing bankruptcy          opportunities available.
court personnel and AUSAs from nine                       ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
judicial districts in Indiana, Illinois,
Missouri, Arkansas, and Nebraska. ASAC                ARIGA Tom Towers and Auditor
Geary presented an overview of HUD OIG’s         Alexandra Burgess participated in Walsh
mission and described real estate fraud and      College’s career fair in Troy, MI. They spoke
the roles of bankruptcy court personnel          with students about OIG’s mission and the
during bankruptcy fraud prosecutions.            benefits of pursuing a student volunteer
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○       position with HUD OIG. They accepted 25
                                                 resumes, eight from students who expressed
    ASAC George Dobrovic and SAs James           an interest in the student volunteer program
Waldron and Matt Nutt provided a                 at OIG’s Detroit Office of Audit.
presentation outlining aspects and                        ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
techniques used in Housing Choice Voucher
program fraud investigations to Michigan              ARIGA Ron Farrell and ASAC George
State Housing Development Authority              Dobrovic spoke to more than 60 members
(MSHDA) employees in Detroit, MI.                of the Ohio Conference of Community
Approximately 45 managers; housing               Development, Inc., Columbus, OH. They
specialists; department technicians;             delivered a presentation on HUD’s mission
administrative personnel; and MSHDA              statement and strategic goals and discussed
finance, homeownership, and family self-         how OIG interacts with HUD to accomplish
sufficiency staff members attended the           its mission and goals. They discussed ways
presentation.                                    in which OIG promotes the integrity,
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○       efficiency, and effectiveness of HUD
                                                 programs and operations to assist the
    ASAC Mike Wilson and ARIGA Theresa           Department in accomplishing its mission.
Carroll gave a presentation to more than 35      The discussion focused on how OIG
public housing authority officials attending     detects and prevents waste, fraud, and abuse
the Office of Public Housing’s New               in CPD programs through its audits and
Executive Director’s Training in the Fort        investigations and seeks redress through
Worth, TX, regional office. The presentation     criminal prosecution, civil recoveries, and
explained 1) roles and responsibilities of the   administrative sanctions for those
Offices of Investigation and Audit, 2) areas     responsible for fraud.
of fraud which could occur in public                      ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
housing and the prosecution process, 3) how
and why a public housing entity might be
reviewed by OIG, and 4) areas that might


Outreach Efforts                                                                                 131
          SA Timothy Lishner provided an                  SA James Carrieres provided an
      overview of Section 8 Housing Choice            overview of HUD OIG and described
      Voucher program fraud schemes at a              successful single-family fraud investigations
      “landlord fair” sponsored by the Aurora         to 41 appraisers attending the Arizona
      Housing Authority in Aurora, CO. The fair       Chapter of the National Association of
      provided new and existing landlords an          Independent Fee Appraisers meeting held
      opportunity to network and obtain               in Phoenix, AZ. SA Carrieres hosted a
      information on managing properties under        question and answer forum after his
      the Section 8 Housing Choice Voucher            presentation.
      program.      SA Lishner encouraged                      ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
      participants to notify HUD OIG when
      encountering any suspected fraud.                    SA Scott Savedow presented a course
      Approximately 50 current and prospective        entitled “HUD OIG Hurricane Response and
      landlords attended the fair.                    Fraud Awareness” at the SAHMA training
               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○      conference held in Jacksonville, FL. SA
                                                      Savedow discussed the impact and
          SA Neil McMullen provided an                consequences of recent hurricanes on HUD
      overview of HUD OIG’s mission and               operations and provided examples of
      authority to approximately 50 members of        common fraudulent activity in subsidized
      Inglewood Rental Property Owners                housing programs. Approximately 300
      Association in Inglewood, CA. In addition,      SAHMA representatives attended the
      SA McMullen offered information on              conference.
      Inglewood Section 8 fraud investigations                 ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
      and prosecutions and explained HUD OIG’s
      successful partnership with the Inglewood           SA Nancy Valencic presented HUD
      Police Department in curtailing gang and        OIG’s mission in preserving the integrity of
      drug activity.                                  HUD-funded programs at the Tennessee
               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○      Association of Housing and Redevelopment
                                                      Agencies (TAHRA) 2006 workshop held in
            SA Heather Yannello, Auditor Patrick      Franklin, TN. SA Valencic discussed
      Anthony, and AUSA Robert Trusiak                criminal cases involving tenant, landlord,
      provided a presentation entitled “Fraud,        and housing authority employee fraud and
      Flipping, and You, Learn to Detect and          provided information relating to HUD OIG’s
      Protect” at the Buffalo Mayor ’s Anti-          Fugitive Felon/Missing Children initiatives
      Flipping Task Force seminar held in Buffalo,    and hurricane relief efforts. Approximately
      NY. The Mayor’s Anti-Flipping Task Force        50 TAHRA members attended.
      is committed to curbing real estate flipping             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
      and fraudulent activity. In Buffalo, this
      activity typically involves the reselling of        SA Joshua Stockman provided an
      vacant homes taken over by HUD or the City      overview of HUD OIG’s rental assistance
      of Buffalo and slated for demolition with       program fraud investigations and successful
      little or no rehabilitation and without an      prosecutions in California and Arizona at the
      attorney or title company involved. More        Pacific Southwest Regional Council of
      than 200 participants from the Western New      NAHRO Annual Spring Conference held in
      York Bar Association, Buffalo Niagara Board     Los Angeles, CA. In addition, SA Stockman
      of Realtors, and Appraisal Institute attended   discussed prosecutorial merit and the
      the seminar.                                    investigative process from referrals to
               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○      sentencing, and participants were provided
                                                      information on how to prevent program



132                                                                                 Outreach Efforts
abuse and assist with fraud investigations.    relationship between HUD OIG and RHA
Housing and redevelopment officials from       as it relates to fraud.
California, Arizona, and Nevada attended                ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
this conference.
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○         SA Nelson Sanchez provided an
                                               overview of HUD OIG’s mission and authority
     SA Julien Kubesh conducted a              to more than 50 individuals attending a
presentation at the North Central NAHRO        NAHRO conference in Spearfish, SD. In
convention held in Minneapolis, MN. SA         addition, SA Sanchez explained fraud
Kubesh outlined HUD OIG’s role in fraud        detection and enforcement methods used to
investigations originating from Enterprise     successfully prosecute criminal investigations.
Income Verification data, the importance of             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
documentation when residents apply for or
recertify their housing eligibility, and the       SA Cari Williams provided an overview
critical need for open communication           of HUD OIG, housing assistance fraud
between housing authorities and HUD OIG.       investigations, and joint initiatives to
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○     approximately 30 police officers at the
                                               Indianapolis Police Academy in
    SA Jewel Kelley conducted a                Indianapolis, IN. The officers in attendance
presentation at Indiana’s annual NAHRO         represented the Indianapolis Police
conference held in Indianapolis, IN. The       Department, Marion County Probation
theme of the conference was “Extreme           Office, and other local agencies.
Makeover,” and presentations focused on                 ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
Enterprise Income Verification and Public
and Indian Housing Information Center              SA Scott Savedow conducted a training
training, grant writing, and preventive        course entitled “Subsidized Housing
measures to reduce tenant, landlord,           Violations for Law Enforcement” for
contractor, and housing authority personnel    Homestead Police Department personnel in
fraud. SA Kelley provided an overview of       Miami, FL. The training provided methods
HUD OIG’s mission, recent prosecutions,        for identifying, investigating, and
and the responsibilities of housing            prosecuting subsidized housing fraud,
authorities to assist HUD in securing the      along with the requirements necessary for
integrity of the Housing Choice Voucher and    subsidy terminations under HUD’s “One-
project-based housing assistance programs.     Strike and You’re Out” regulations.
Approximately 30 representatives from          Approximately 20 officers, detectives, and
various Indiana housing authorities            senior law enforcement managers attended
attended.                                      the course.
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    At the request of the Richmond                 SA Joshua Stockman presented an
Housing Authority (RHA) housing manager        overview of HUD OIG’s mission and role in
in Richmond, CA, SA Teresa Carson              rental assistance and grant fraud
conducted fraud training for approximately     investigations at the Arizona Chapter of
15 RHA public housing, Section 8, and          NAHRO annual training conference in
maintenance supervisors. The training          Scottsdale, AZ. SA Stockman also described
consisted of a brief overview of HUD OIG,      the investigative process from referral to
HUD OIG’s perspective on priority              sentencing and provided examples of
investigations and prosecution of housing      successful prosecutions in both Arizona and
fraud, “red-flag” fraud indicators, possible   California. Housing and redevelopment
solutions to combating fraud, and the


Outreach Efforts                                                                                 133
      officials representing 20 Arizona cities       findings, fraud and internal controls, and
      attended.                                      audit resolution.
               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


          SA James Carrieres provided an                 SA Christopher Conn presented HUD
      overview of HUD OIG and described              OIG’s mission and role in rental assistance
      successful        single-family      fraud     fraud investigations at the annual Mid-
      investigations at a Las Vegas Chapter of the   America Crime Free Conference entitled
      Appraisal Institute meeting in Las Vegas,      “Combating Welfare Fraud,” held in Blue
      NV. Approximately 45 individuals from          Springs, MO. In addition, SA Conn
      Arizona and Nevada attended.                   described fraud identification and
               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○     prosecution issues and common fraud
                                                     prevention methods and provided case
          SA Eric Huhtala presented a general        studies of successful fraud prosecutions.
      overview of HUD OIG’s mission and role in      Approximately 88 individuals representing
      investigating and prosecuting fraud to         a spectrum of professions attended.
      Vallejo Housing Authority (VHA) housing                 ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
      specialists, inspectors, and management in
      Vallejo, CA. SA Huhtala described how               SA Charles Grace presented HUD OIG’s
      fraud cases are identified and prosecuted      role in maintaining the integrity of various
      and provided proactive prevention ideas for    HUD-funded rental assistance programs at
      VHA personnel to implement in their day-       a meeting of the Southeast Precinct
      to-day operations and contacts with            Interagency Coordination held at the Seattle
      program participants.                          Police Department, Seattle, WA. Topics
               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○     discussed included crime in Seattle Housing
                                                     Authority’s public housing developments,
          SA Kathleen Hatcher presented HUD          and concepts to address this issue were
      OIG’s mission; FHA fraud and predatory         shared. A spokesperson from the Seattle’s
      lending schemes; and criminal, civil, and      Mayor’s office, law enforcement personnel,
      administrative remedies at a Mortgage          and representatives from various
      Banker’s Association conference entitled       community agencies attended.
      “Next Steps in Combating Mortgage Fraud”                ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
      in Long Beach, CA. In addition, SA Hatcher
      discussed specific fraud investigations and        RIGA Ron Hosking, ARIGA Kim
      encouraged mortgage industry personnel to      Randall, and Computer Audit Specialist
      contact HUD OIG when encountering fraud        (CAS) Glenn Brock met with auditors at the
      schemes. Approximately 50 individuals          Legislative Division of Post Audit for the
      attended the conference.                       State of Kansas in Topeka, KS. ARIGA
               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○     Randall gave a presentation that explained
                                                     OIG’s mission and authority, organizational
          SA Lynelle Kunst, assisted by SA Danita    structure, audit planning process, types of
      Wade and ARIGA Will Nixon, gave a              audits conducted, and the reporting process.
      presentation at a meeting of North Texas       CAS Brock presented the role of the
      Association of Housing Authorities in Fort     Information Systems Audits Division in the
      Worth, TX. The group consisted of about        OIG audit framework and the function of
      40 administrators and managers of public       the CAS position in the audit environment.
      housing authorities in North Texas. The        He discussed OIG’s use of general software
      presentation covered background on HUD         applications and the Department’s systems
      OIG, how it selects audits, common             inventory. RIGA Hosking, ARIGA Randall,
                                                     and CAS Brock, along with Legislative


134                                                                                Outreach Efforts
Division of Post Audit staff, then discussed        RIGA Heath Wolfe and SAC Barry
joint audits each agency had conducted in      McLaughlin gave presentations to the
the past and how the agencies might work       Michigan State Chapter of NAHRO Fall
together in the future.                        Conference on September 28, 2006, in
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○     Lansing, MI. RIGA Wolfe and SAC
                                               McLaughlin presented background
    CAS Glenn Brock participated in the        information on HUD OIG, OIG’s mission,
Missouri Society of Certified Public           public housing authorities, common audit
Accountants’ Kansas City Chapter Career        findings, and the “red flags” of fraud.
Night in Kansas City, KS. CAS Brock            Approximately 45 NAHRO members were
imparted OIG’s mission and career
                                               in attendance.
opportunities to the 50 students and                    ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
accounting professionals in attendance. He
provided information related to current
                                                    RIGA Heath Wolfe and SAC Barry
auditor and investigator positions within
                                               McLaughlin met with the State of Indiana’s
OIG and a synopsis of OIG’s function as an
                                               State Board of Accounts in Indianapolis, IN.
audit organization.
                                               The State Board of Accounts has oversight
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
                                               of the State of Indiana’s departments/
                                               agencies, public housing authorities, local
     CAS Glenn Brock participated in the
                                               municipalities, and nonprofit agencies. SAC
Missouri Society of Certified Public
                                               McLaughlin and RIGA Wolfe met with the
Accountants’ LEAP (Lead and Enhance the
                                               organization to explain the role of HUD OIG,
Accounting Profession) Fall Mixer in Lee’s
                                               develop lines of communication, and discuss
Summit, MO. CAS Brock discussed OIG’s
                                               the possibly of conducting joint audits in the
mission and career opportunities with the
                                               future. They provided the office a brief
35 students and an accounting instructor in
                                               background on HUD OIG and presented
attendance. He provided information
                                               information on OIG’s mission and the
related to current auditor and investigator
                                               functions of the Offices of Investigation and
positions available within OIG and a
                                               Audit. They outlined ways in which the
synopsis of OIG’s function as an audit
                                               state can refer cases/audits to OIG and ways
organization. He also discussed computer
                                               in which OIG can make referrals to the state.
systems audits performed by the
                                                        ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
Information Systems Audits Division and
the CAS role in the OIG audit environment.
                                                    ARIGA Kelly Anderson gave a
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
                                               presentation at the Peer-to-Peer Homeless
                                               Conference held in Collinsville, IL. The
    ASAC Maureen Nelting, RIGA John
                                               audience was comprised of administrators
Dvorak, and ARIGA Kevin Smullen
                                               of supportive housing grants. Kelly gave
presented HUD OIG’s mission and priorities
                                               the attendees an overview of HUD OIG and
and described successful investigations/
                                               OIG’s activities as they relate to CPD
audits and “red flag” indicators for
                                               programs. There were approximately 50
detecting tenant, landlord, and housing
                                               people in attendance.
authority       employee     fraud      to
                                                        ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
representatives of the New England
Elderly Housing Association at Monsignor
                                                    RIGA Heath Wolfe and SAC Barry
Neagle Apartments in Malden, MA.
                                               McLaughlin met with officials of the State
Approximately 30 individuals from private
                                               of Illinois’ Office of the Auditor General in
management companies and public housing
                                               Springfield, MA, to explain the role of HUD
authorities attended.
                                               OIG, develop lines of communication, and
         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




Outreach Efforts                                                                                135
      discuss the possibly of conducting joint             The Region 5 Office of Audit
      audits in the future. SAC McLaughlin and        participated in the 2006 Business and Liberal
      RIGA Wolfe provided the office a brief          Arts Job Fair. The event was held in the
      background on HUD OIG and presented             Student Union building on the Northeastern
      information on OIG’s mission and the            Illinois University campus in Chicago, IL,
      functions of the Offices of Investigation and   and was sponsored by the Northeastern
      Audit. They outlined ways in which the          Illinois University Placement Office.
      state can refer cases/audits to OIG and ways    Auditors Anthony Smith and Eric
      in which OIG can make referrals to the state.   Linderman represented Region 5 at this
               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○      event. They met with students to promote
                                                      HUD OIG and recruit for current available
                                                      positions as student volunteers and future
                                                      entry-level auditor positions.




136                                                                              Outreach Efforts
        Chapter 9
Legislation, Re
Legislation,    gulations,,
               gulations
             Regulations
 and Other Dir   ecti
             Directi ves
                 ectiv
          Reviewing            and         making       HUD pr  oposed the cr
                                                              proposed        eation
                                                                            creation
      recommendations on legislation, regula-
      tions, and policy issues is a critical part of
                                                        of an Independent Public
      the Office of Inspector General’s (OIG)           Accountant Re gister
                                                                    Register
      responsibilities under the Inspector
      General Act. During this 6-month                      HUD proposed a rule to create a registry
      reporting period, OIG reviewed 136                of Independent Public Accountants
      issuances. This chapter highlights some           performing audits of HUD programs. OIG
      of OIG’s prior comments on notices,               did not concur with HUD’s proposal and
      comments for this reporting period, and           HUD is considering OIG’s comments.
      other policy directives.
                                                        Notices
      Proposed Rules
      Proposed
                                                        Wai
                                                          aivver
                                                              erss ffor
                                                                     or the State of
      HUD pr   oposed an interim rrule
             proposed                 ule               Louisiana Community
      for pr oject-based vvouc
          project-based     ouc her rrents
                            oucher    ents              De
                                                        Devvelopment Bloc     k Grant
                                                                          Block
      for units rrecei
                  eceivin
                  eceivin g lo
                       ving    w-income
                             low-income                 (CDBG) Disaster Reco Recovver
                                                                                   eryy Grant
      housin
      housing g tax cr edits to allo
                    credits         w ffor
                                allow   or
      a higher rrent
        higher    ent than allo wed in
                            allow                           OIG commented on HUD’s proposed
                                                        notice because the notice failed to include a
      the Lo w Income Housin
           Low            Housingg TTax
                                     ax                 provision in the public law. Specifically, the
      Cr edit (LIHTC) pr
      Credit               ogram
                         pro                            law limits on the amount of CDBG funds
                                                        that can be used as a matching share for
           OIG reported on this issue in the prior      emergency situations. OIG requested that
      semiannual report. OIG did not concur with        HUD include a provision in this waiver for
      a proposed interim rule since it did not          the State of Louisiana CDBG Disaster
      allow for a comment period before                 Recovery grant that states no more than
      implementation and because HUD did not            $250,000 may be used for the nonfederal
      provide support for the proposed action. In       costshare of any project funded through the
      response to OIG’s comments, HUD agreed            U.S. Army Corps of Engineers.
      to issue the rule as a proposed rule, thereby
      permitting public comment prior to
      implementation. Essentially, the rule would
                                                        Mortg
                                                            tgaagee Letter
                                                        Mortg       Letterss
      allow PHAs the option to pay project-
      based voucher rents that exceed the               Nonpr  ofit Do
                                                        Nonprofit     wnpa
                                                                    Downpa yment Gift
                                                                       wnpayment
      maximum allowable tax credit rent for             Pr
                                                        Proovider
                                                            viderss
      units receiving assistance under the
      LIHTC program. As part of the comment
      process, HUD should consider that each                HUD drafted a mortgagee letter
      Section 8 dollar in excess of the LIHTC rent      regarding nonprofit “downpayment
      limit reduces the amount of Section 8 funds       assistance providers.” OIG reported a
      available to assist other low-income              nonoccurrence on the letter in last
      families in meeting their housing needs.          reporting period. The Department was
                                                        reviewing OIG’s nonconcurring comments
                                                        at the end of the previous semiannual
                                                        reporting period. HUD continues to work
                                                        on a notice for using nonprofits to provide




138                                                    Legislation, Regulations, and Other Directives
downpayment assistance. A recent                 to reducing insurance risk.              OIG
Internal Revenue Service (IRS) ruling is also    nonconcurred because the certification is a
impacting HUD’s development of the notice.       critical document in supporting and
OIG and HUD continue to communicate              enforcing departmental remedies for
about the use of nonprofit downpayment           noncompliance, and, therefore, OIG
assistance and the number of Federal             disagrees with its proposed elimination.
Housing Administration (FHA) foreclosures        OIG has done significant testing of “late
related to this assistance. OIG continues to     endorsement” compliance by major direct
have many concerns related to nonprofit          endorsement lenders as part of its audit
downpayment assistance.                          focus on FHA single-family lending
                                                 practices beginning in 2004. OIG found that
Late Request ffor
                or Endor  sement
                   Endorsement                   lenders certified full compliance and
                                                 eligibility for FHA insurance when some
Pr ocedur
Procedur   es/Cer
   ocedures/Cer   tification
           es/Certification                      loans were not eligible because the
Eliminated, Pr  oposed
              Proposed                           borrowers were in arrears on their mortgage
Mor
Mortgtg
     tgaagee Letter                              payments. OIG also issued a report this
                                                 reporting period that questioned HUD’s
    In the prior period, HUD drafted a           analysis on allowing late endorsements.
mortgagee letter to remove the certification     OIG continues to have concerns regarding
requirement from FHA’s late endorsement          HUD’s taking little action against lenders for
procedures. HUD believes the certification       late endorsement, and recommended that
requirement does not materially contribute       the mortgage letter be rescinded.




Legislation, Regulations, and Other Directives                                                    139
  Chapter 10
Audit Resolution
           In the audit resolution process, Office    nonprofit organization’s bid by less than 10
      of Inspector General (OIG) and U.S.             percent, HUD awarded the nonprofit
      Department of Housing and Urban                 organization the property, not the owner-
      Development (HUD) management agree              occupant applicant. In OIG’s opinion, the
      upon the needed actions and timeframes for      awards violated the intent of the discount
      resolving audit recommendations. Through        sales program, which was to provide low-
      this process, OIG hopes to achieve              cost housing opportunities to homebuyers.
      measurable improvements in HUD                  OIG     recommended          that     HUD’s
      programs and operations. The overall            requirements be changed so that, if an owner
      responsibility for assuring that the            occupant homebuyer submitted a bid which
      agreed-upon changes are implemented rests       was higher than the net bid of a nonprofit
      with HUD managers. This chapter                 organization after taking into consideration
      describes significant pending issues for        the nonprofit organization’s allowed
      which resolution action has been delayed.       discount, the owner-occupant homebuyer
      It also contains a status report on HUD’s       would be awarded the property. This would
      implementation of the Federal Financial         meet the intent of providing low-cost
      Management Improvement Act of 1996              housing opportunities to low- and moderate-
      (FFMIA). In addition to this chapter on         income homebuyers without having to go
      audit resolution, see appendix 2, table A,      through a middleman; i.e., the nonprofit
      “Audit Reports Issued before Start of Period    organization, which simply increased the
      with No Management Decision as of               price of the property to the ultimate
      September 30, 2006,” and table B,               homebuyer.
      “Significant Audit Reports Described in
      Previous Semiannual Reports in Which                 On January 22, 2002, HUD concurred
      Final Action Had Not Been Completed as of       with OIG’s recommendation. HUD and OIG
      September 30, 2006.”                            agreed to a December 31, 2002, target date
                                                      for implementation of the changes necessary
      Dela
      Delayyed Actions                                to address OIG’s recommendation,
                                                      including revising existing regulations.
                                                      Before revising the regulations, however,
      Nonpr  ofit Par
      Nonprofit       ticipation in Sin
                  Participation        gle
                                    Sing              HUD decided that, due to changes in its
      Famil
       amilyy Pr
              Proograms
                   rams,, Nation  wide
                           Nationwide                 management and marketing service
                                                      contracts, many additional changes to the
      Audit                                           current regulations affecting HUD’s sale of
                                                      its REO property inventory were necessary.
           Issued November 5, 2001 - HUD’s existing   HUD stated that the previously agreed to
      regulations relating to the sale of HUD real    changes addressing OIG’s recommendation
      estate-owned (REO) properties gave priority     were to be included in these revised
      to nonprofit organizations over owner-          regulations. Accordingly, HUD requested
      occupant homebuyers for properties              that the target date for implementation of
      involving a 10 percent nonprofit discount.      the regulations and clearing OIG’s
      If a nonprofit organization and an owner-       recommendation be extended until June of
      occupant homebuyer submitted bids to            2003. HUD did not meet this target date and,
      purchase an REO property, HUD did not           in June 2004, informed OIG that the changes
      take into consideration the nonprofit           to the regulations were still in process. HUD
      organization’s 10 percent discount when         requested another extension of the target
      determining the highest bidder.                 date for implementation of corrective actions
      Accordingly, if an owner-occupant               to June 30, 2005. Reluctantly, OIG agreed to
      purchaser submitted a bid to purchase an        this extension. In August 2005, HUD again
      REO property and the bid exceeded a             informed OIG that the regulations were still


142                                                                              Audit Resolution
under development and requested another
extension to September 30, 2006. OIG
                                              Federal FFinancial
                                                        inancial
agreed to the request.                        Mana
                                              Manag gement
     As of September 30, 2006, HUD has not    Impr
                                              Improovement Act of
finalized and implemented the regulations
or addressed the problems OIG brought to      1996
HUD’s attention in November 2001. HUD
has indicated that it will request another        FFMIA requires that HUD implement
extension to October 31, 2007, as the         a remediation plan that will bring financial
proposed regulations remain at the            systems into compliance with federal
preclearance draft stage. OIG will not        financial management system requirements
concur with any further extension requests    within 3 years or obtain Office of
as it has now been almost 5 years since       Management and Budget (OMB)
report issuance and HUD has still not         concurrence if more time is needed.
implemented the promised actions. (Report
No 2002-SF-0001)                                   FFMIA requires OIG to report in its
                                              semiannual reports to the Congress
Significant Mana
Significant     gement
            Manag                             instances and reasons when an agency has
Decision with W hic
              Whic h OIG
                hich                          not met the intermediate target dates
                                              established in its mediation plan required
Disagrees
Disag                                         by FFMIA. In April 1998, HUD determined
                                              that 38 of its systems were not in substantial
    There are no reports issued before the
                                              compliance with FFMIA. At the end of 2005,
beginning of the reporting period for which
                                              the Department reported that 2 of its 44
a management decision had not been made
                                              financial management systems were not in
by the end of the period.
                                              substantial compliance with FFMIA. These
                                              two systems are Loan Accounting System
                                              (LAS) and Facilities Integrated Resources
                                              Management System (FIRMS). HUD
                                              reported FIRMS as noncompliant in its 2005
                                              self-assessment. HUD replaced LAS with a
                                              commercial off-the-shelf software package
                                              at the end of July 2006. As of September 30,
                                              2006, the Department reports that the above
                                              two systems are in substantial compliance
                                              with FFMIA pending independent
                                              verification.




Audit Resolution                                                                               143
    Appendix 1
Audit Repor ts Issued
      Reports
      Internal Repor
      Internal      ts
               Reports
      13 Audit Repor ts
               Reports
      Chief Information Officer (3 Reports)
      2006-DP-0005      Review of HUD’s Information Technology Contingency Planning and
                        Preparedness, 08/31/2006.
      2006-DP-0802      Assessment of HUD’s Compliance with OMB Memorandum M-06-16,
                        “Protection of Sensitive Agency Information”, 09/21/2006.
      2006-DP-0803      OIG Response to Questions from the OMB under Federal Information
                        System Management Act of 2002, 09/29/2006.
      Chief Procurement Officer (1 Report)
      2006-AT-0001     The Procurement Office Did Not Maintain Complete Contract Files,
                       08/29/2006.
      Community Planning and Development (1 Report)
      2006-CH-0003   The Congressional Grants Division’s Oversight of Economic
                     Development Initiative-Special Purpose Grants Needs to be Improved,
                     Washington, DC, 07/21/2006.
      Housing (4 Reports)
      2006-KC-0002     HUD’s Systems Usually Prevent Credit Watch-Terminated Lenders
                       from Originating HUD-Insured Loans, but Brief Searches Could Find
                       Additional Loans That Weren’t Prevented, 06/14/2006. Questioned:
                       $164,523.
      2006-NY-0001     HUD’s Controls Over the Reporting, Oversight, and Monitoring of the
                       Housing Counseling Assistance Program Were Not Adequate, 06/08/2006.
      2006-SE-0001     Significant Weaknesses in HUD’s Oversight of Single-Family Mortgage
                       Insurance Claims are Costly, 07/11/2006. Questioned: $1,301,230;
                       Unsupported: $1,301,230; Better Use: $214,000,000.
      2006-SE-0002     The Office of Single-Family Housing Expanded Late Endorsement
                       Eligibility Without Studying Associated Risks, 08/16/2006.
      Public and Indian Housing (4 Reports)
      2006-BO-0001      HUD Incorrectly Approved $42 Million in Operating Subsidies for
                        Phase-Down for Demolition Add-On Funding, 07/11/2006. Questioned:
                        $35,755,661; Unsupported: $15,153,923; Better Use: $6,361,640.
      2006-CH-0002      PIH is Taking Action to Oversee the Section 202 Mandatory Conversion
                        Program, Washington, DC, 07/13/2006.
      2006-KC-0003      HUD Did Not Ensure That the Omaha Housing Authority Repaid its
                        Public Housing Programs $2.7 Million, Omaha, NE, 06/19/2006. Better
                        Use: $2,751,317.
      2006-PH-0002      HUD Improperly Admitted the Housing Authority of Baltimore City into
                        the MTW Demonstration Program, Baltimore, MD, 05/31/2006.


      Audit-Related Memoranda
      Housing (1 Report)
      2006-FW-0801      Review of Partial Claim Option to Foreclosure under HUD’s Loss
                        Mitigation Program, 04/10/2006.

146                                                                      Audit Reports Issued
Public and Indian Housing (1 Report)
2006-KC-0801      HUD’s Oversight of PHA Processes for Prohibiting Criminal Activity,
                  04/13/2006.



External Repor
External      ts
         Reports
74 Audit Reports
         Reports
Community Planning and Development (10 Reports)
2006-AT-1014   The State of Florida Lacked Adequate Procedures to Prevent Possible
                Duplicate Disaster Recovery Benefits to Recipients, Tallahassee, FL,
                07/26/2006.
2006-AT-1016    The Municipality of Humacao Did Not Administer its CDBG in
                Accordance with HUD Requirements, Humacao, PR, 07/28/2006.
                Questioned: $3,970,071; Unsupported: $3,800,945; Better Use: $318,853.
2006-AT-1019    The Municipality of Toa Baja Did Not Administer its Section 108 Loan
                Guarantee Assistance Program in Accordance with HUD Requirements,
                Toa Baja, PR, 09/06/2006. Questioned: $4,950,106; Unsupported:
                $4,879,737.
2006-FW-1014    The City of Fort Worth Has Made Significant Improvements in
                Procedures for Drawing Down CDBG Funds, Fort Worth, TX, 08/16/2006.
2006-LA-1015    Institute for Urban Research and Development Did Not Properly
                Administer its Supportive Housing Program Grants, El Monte, CA,
                07/19/2006. Questioned: $1,268,433; Unsupported: $1,268,433.
2006-LA-1016    Los Angeles Family Housing Corporation Generally Administered its
                Supportive Housing Program Grants in Accordance with HUD
                Requirements, North Hollywood, CA, 07/20/2006.
2006-LA-1019    The City of Modesto Did Not Always Administer its CDBG in
                Compliance with Government Regulations, Modesto, CA, 09/07/2006.
                Questioned: $68,379.
2006-NY-1013    Lower Manhattan Development Corporation, CDBG Disaster Recovery
                Assistance Funds, New York, NY, 09/27/2006. Questioned: $3,053; Better
                Use: $186,749.
2006-PH-1013    The Commonwealth of Virginia Did Not Ensure HOME Funds Were
                Disbursed and Used in Accordance with Federal Regulations, Richmond,
                VA, 09/18/2006. Questioned: $710,766; Unsupported: $527,060; Better Use:
                $3,273,545.
2006-SE-1003    Snohomish County’s Office of Housing and Community Development
                Charged Ineligible Administrative Expenses to its CDBG, Everett, WA,
                05/31/2006. Questioned: $67,339; Better Use: $67,339.
Housing (22 Reports)
2006-AO-1001     Southwest Alliance of Asset Managers, LLC, Did Not Effectively
                 Enforce the Lease Terms Over Payment of Property Utilities, Addison,
                 TX, 06/23/2006. Questioned: $79,306.
2006-AO-1002     Cityside Management Corporation Did Not Enforce the Lease Terms
                 Over Payment of Property Utilities, Hammond, LA, 08/31/2006.
                 Questioned: $17,744.


Audit Reports Issued                                                                       147
      2006-AT-1018   Taylor, Bean and Whitaker, Inc., Met Temporary Interest Rate
                     Buydown Requirements, Ocala, FL, 08/28/2006.
      2006-BO-1007   Capital Mortgage Associates LLC Did Not Always Comply with HUD
                     Requirements Regarding its Single-Family Loan Originations and
                     Quality Control Plan, North Haven, CT, 06/02/2006. Questioned:
                     $3,875.
      2006-BO-1008   Hall Commons Inc. Did Not Administer its $4.1 Million Section 202
                     Capital Advance Construction Grant in Accordance With Federal
                     Requirements, Bridgeport, CT, 06/30/2006. Questioned: $206,891;
                     Unsupported: $154,073; Better Use: $4,079,100.
      2006-BO-1009   The Rhode Island Housing and Mortgage Finance Corporation
                     Incorrectly Made More Than $1.8 Million in Section 8 Subsidy
                     Payments and Released More Than $900,000 from Restricted Residual
                     Receipts Accounts, Providence, RI, 07/06/2006. Questioned: $2,800,258.
      2006-CH-1014   National City Mortgage Company, Nonsupervised Lender, Did Not
                     Comply with HUD’s Requirements Regarding Underwriting of Loans
                     and Quality Control Reviews, Miamisburg, OH, 07/31/2006.
                     Questioned: $145,101; Unsupported: $94,372; Better Use: $677,713.
      2006-CH-1015   Birmingham Bancorp Mortgage Corporation, Nonsupervised Lender,
                     Substantially Complied with HUD’s Requirements Regarding
                     Underwriting of Loans but Not its Quality Control Reviews, West
                     Bloomfield, MI, 09/25/2006. Questioned: $47,103; Unsupported:
                     $47,103.
      2006-CH-1017   Community Central Bank, Supervised Lender, Generally Complied
                     with HUD’s Requirements Regarding Underwriting of Loans but Not
                     its Quality Control Reviews, Mount Clemens, MI, 09/26/2006.
                     Questioned: $22,752; Unsupported: $22,752; Better Use: $41,280.
      2006-DE-1004   Juniper Communities Did Not Comply with Its Regulatory Agreement
                     or HUD Regulations in Managing its FHA-Insured Projects,
                     Bloomfield, NJ, 07/18/2006. Questioned: $293,387; Better Use:
                     $1,042,515.
      2006-DE-1005   Utah Non Profit Housing Corporation Did Not Ensure Properties
                     Generated Sufficient Income and Did Not Comply With Cost
                     Allocation and HUD Requirements, Salt Lake City, UT, 07/28/2006.
                     Questioned: $70,755; Better Use: $30,900.
      2006-DE-1006   Nexgen Lending, Inc.’s Lakewood Branch Did Not Follow HUD
                     Requirements in Underwriting Two Insured Loans, Lakewood, CO,
                     08/31/2006. Questioned: $1,171; Better Use: $60,051.
      2006-FW-1010   Deer Creek Apartments’ Previous Management Agent Paid Itself
                     Unsupported Fees, Houston, TX, 05/11/2006. Questioned: $24,312;
                     Unsupported: $24,312.
      2006-FW-1011   Premier Mortgage Funding, Inc. and Its Sponsor, JPMorgan Chase,
                     Did Not Comply With HUD Underwriting Requirements and Did Not
                     Meet All Quality Control Requirements, Austin, TX, 06/16/2006.
                     Questioned: $394,273; Better Use: $187,648.
      2006-KC-1011   The Owner of Wellston Townhouses in St. Louis County Violated its
                     Regulatory Agreement, Wellston, MO, 06/29/2006. Questioned:
                     $200,288; Unsupported: $88,794; Better Use: $104,372.




148                                                                   Audit Reports Issued
2006-KC-1012       The Owner of HDC Retirement Village In St. Louis Violated its
                   Regulatory Agreement, St. Louis, MO, 06/29/2006. Questioned:
                   $193,421; Unsupported: $166,812; Better Use: $28,395.
2006-LA-1011       Sundial Care Center Used $659,746 in Project Funds for Ineligible and
                   Undocumented Costs and Was Unable to Account for Revenue
                   Totaling $407,454, Modesto, CA, 05/18/2006. Questioned: $1,067,200;
                   Unsupported: $701,405.
2006-LA-1014       KB Home Mortgage Failed to Ensure Underwriting Certifications for
                   FHA Loans Were Accurate, Los Angeles, CA, 07/17/2006.
2006-LA-1018       First Magnus Financial Corporation Did Not Comply with HUD
                   Guidelines When Underwriting Six FHA-Insured Loans, Tucson, AZ,
                   07/26/2006. Better Use: $95,151.
2006-NY-1007       First Suffolk Mortgage Corporation Did Not Always Comply with
                   HUD Underwriting Requirements, North Babylon, NY, 06/19/2006.
                   Questioned: $153,044; Unsupported: $152,814; Better Use: $76,958.
2006-NY-1009       First Residential Mortgage Services Corporation Did Not Always
                   Comply With HUD/FHA Loan Origination Requirements, Englewood
                   Cliffs, NJ, 08/14/2006. Questioned: $64,714; Unsupported: $64,219;
                   Better Use: $424,384.
2006-PH-1012       Trident Mortgage Company Issued and Submitted for Endorsement
                   Loans with an Increased Risk of Defaults and Claims, Devon, PA,
                   07/19/2006. Questioned: $79,671; Unsupported: $79,525; Better Use:
                   $487,075.
Lead Hazard Control (1 Report)
2006-LA-1013     The Child Abuse Prevention Council of Sacramento Did Not
                 Adequately Administer Its Healthy Homes Initiative Grant, North
                 Highlands, CA, 07/17/2006. Questioned: $936,879; Unsupported:
                 $586,039; Better Use: $472,523.
Public and Indian Housing (41 Reports)
2006-AT-1008      The Housing Authority of the City of Macon’s Controls for Expending
                  Low-Income Housing and HOPE VI Program Funds and Safeguarding
                  Low-Income Housing Assets Were Inadequate, Macon, GA, 04/25/2006.
                  Questioned: $395,211; Better Use: $125,000.
2006-AT-1009      The Metropolitan Development and Housing Agency Did Not Ensure
                  Section 8-Assisted Units Were Decent, Safe and Sanitary, Nashville,
                  TN, 05/18/2006. Better Use: $8,791,956.
2006-AT-1010      The Orlando Housing Authority Did Not Ensure That All Section 8
                  Units Met Housing Quality Standards and Paid Excessive Subsidies for
                  Some Units, Orlando, FL, 05/31/2006. Questioned: $41,867; Better Use:
                  $1,146,708.
2006-AT-1011      The Housing Authority of the City of Raleigh Generally Administered
                  its Housing Choice Voucher Program in Accordance with
                  Requirements, Raleigh, NC, 06/19/2006. Questioned: $7,012.
2006-AT-1012      The Miami Dade Housing Agency Paid Housing Choice Voucher
                  Program Funds for Some Overhoused Tenants, Miami, FL, 06/28/2006.
                  Questioned: $61,862; Better Use: $81,828.




Audit Reports Issued                                                                       149
      2006-AT-1013   The Housing Authority of the City of North Charleston
                     Inappropriately Pledged Assets to Secure a Loan and Caused Delays in
                     its Oakleaf Homeownership Program, North Charleston, SC,
                     07/12/2006. Better Use: $400,000.
      2006-AT-1015   The Municipality of Bayamon Housing Authority Did Not Ensure
                     Section 8-Assisted Units Were Decent, Safe, and Sanitary, Bayamon,
                     PR, 07/27/2006. Better Use: $1,434,456.
      2006-AT-1017   The Housing Authority of Lawrence County Spent More Than $71,000
                     for Questionable Purchases, Lawrence County, KY, 08/17/2006.
                     Questioned: $71,741; Unsupported: $71,741.
      2006-AT-1020   The Jacksonville Housing Authority’s Section 8 Units Met HUD
                     Housing Quality Standards, Jacksonville, FL, 09/15/2006.
      2006-BO-1010   Boston Housing Authority Used Voucher Program Funds to Pay State
                     Housing Assistance Program Expenses and Needs to Improve Its Rent
                     Reasonableness Process, Boston, MA, 07/26/2006.
      2006-BO-1011   The Portland Housing Authority Did Not Use Reserve Funds or
                     Properly Allocate Employee Costs, Resulting in Questioned Costs of
                     More Than $850,000, Portland, ME, 08/28/2006. Questioned: $805,848;
                     Better Use: $44,336.
      2006-CH-1009   The Youngstown Metropolitan Housing Authority Did Not Use Public
                     Housing Operating Funds Effectively and Efficiently, Youngstown,
                     OH, 04/18/2006. Questioned: $99,673; Unsupported: $99,673.
      2006-CH-1010   The Benton Harbor Housing Commission Lacked Supporting
                     Documentation and Did Not Follow Procurement Requirements
                     Regarding its Public Housing Capital Fund Program, Benton Harbor,
                     MI, 05/18/2006. Questioned: $206,724; Unsupported: $206,224.
      2006-CH-1011   The Columbus Metropolitan Housing Authority Did Not Effectively
                     Operate its Section 8 Housing Program, Columbus, OH, 07/06/2006.
                     Questioned: $415,385; Unsupported: $332,070; Better Use: $7,546,384.
      2006-CH-1012   The Housing Authority of the County of Cook Needs to Improve its
                     Section 8 Housing Program Administration, Chicago, IL, 07/11/2006.
                     Questioned: $123,118; Better Use: $10,095,840.
      2006-CH-1013   The Ann Arbor Housing Commission’s Administration of its Section 8
                     Housing Choice Voucher Program Needs to Be Improved, Ann Arbor,
                     MI, 07/21/2006. Questioned: $58,540; Better Use: $1,997,134.
      2006-CH-1016   Pickaway Metropolitan Housing Authority Improperly Used
                     Homeownership Sales Proceeds to Fund its Nonprofit Development
                     Activities, Circleville, OH, 09/26/2006. Questioned: $238,507;
                     Unsupported: $2,350.
      2006-CH-1018   Saginaw Housing Commission Improperly Used Public Housing
                     Funds to Purchase Property, Saginaw, MI, 09/28/2006. Questioned:
                     $573,324.
      2006-CH-1019   Lucas Metropolitan Housing Authority Did Not Effectively Operate its
                     Section 8 Housing Choice Voucher Program, Toledo, OH, 09/29/2006.
                     Questioned: $211,037; Unsupported: $108,913; Better Use: $1,956,438.
      2006-CH-1020   Rockford Housing Authority Needs to Improve its Controls over
                     Program Housing Assistance and Utility Allowance Payments,
                     Rockford, IL, 09/29/2006. Questioned: $663,702; Unsupported: $582,926;
                     Better Use: $341,027.


150                                                                   Audit Reports Issued
2006-CH-1021      Housing Authority of the County of Cook Had Weak Controls over its
                  Section 8 Housing Choice Voucher Program, Chicago, IL, 09/30/2006.
                  Questioned: $178,149; Unsupported: $88,055; Better Use: $3,416,210.
2006-FW-1008      Brazos Valley Council of Governments Issued Vouchers Larger Than
                  its Policy Allowed, Bryan, TX, 05/08/2006. Questioned: $552; Better
                  Use: $7,008.
2006-FW-1009      Dallas County Housing Agency Overhoused Tenants, Dallas, TX,
                  05/09/2006. Questioned: $63,311; Better Use: $298,013.
2006-FW-1012      Oklahoma Housing Finance Agency Made Minor Mistakes in
                  Computing Housing Assistance Payments and Housing Tenants,
                  Oklahoma City, OK, 06/29/2006. Questioned: $815; Better Use: $1,214.
2006-FW-1013      The Housing Authority of the City of Denton Made Subsidy
                  Calculation Errors and Overhoused Tenants, Denton, TX, 07/26/2006.
                  Questioned: $50,917; Unsupported: $26,104; Better Use: $949,234.
2006-FW-1015      The Housing Authority of the City of Austin Overhoused Tenants and
                  Paid Excessive HAPs in the Section 8 Housing Choice Voucher
                  Program, Austin, TX, 09/01/2006. Questioned: $588,130; Better Use:
                  $957,276.
2006-KC-1009      The Omaha Housing Authority Did Not Encumber Resources Without
                  HUD Approval, Omaha, NE, 04/24/2006.
2006-KC-1010      The Omaha Housing Authority Did Not Follow Required Procurement
                  Procedures, Omaha, NE, 05/30/2006. Questioned: $5,419; Better Use:
                  $970,000.
2006-KC-1013      The Columbus Housing Authority Improperly Expended and
                  Encumbered Its Public Housing Funds, Columbus, NE, 08/30/2006.
                  Questioned: $292,225.
2006-KC-1014      The Columbus Housing Authority Improperly Spent and Encumbered
                  Public Housing Funds for Its Non-HUD Development Activities,
                  Columbus, NE, 09/27/2006. Questioned: $62,135; Better Use: $111,894.
2006-LA-1012      The Housing Authority of the City of Los Angeles Did Not Adequately
                  Determine and Support Section 8 Tenant Eligibility, Los Angeles, CA,
                  06/20/2006. Questioned: $1,021,222; Unsupported: $1,021,222.
2006-LA-1017      The Housing Authority of the City of Las Vegas Did Not Comply with
                  Contracting and Grant Use Requirements, Las Vegas, NV, 07/21/2006.
                  Questioned: $558,068; Unsupported: $394,845.
2006-NY-1008      The Freeport Housing Authority Has Financial and Management
                  Control Weaknesses, Freeport, NY, 06/30/2006. Questioned: $407,782;
                  Unsupported: $356,354; Better Use: $241,880.
2006-NY-1010      Orange City Housing Authority Has Weakness in its Housing Choice
                  Voucher Program, Orange, NJ, 09/20/2006. Questioned: $26,231;
                  Unsupported: $23,592; Better Use: $1,710,661.
2006-NY-1011      Orange City Housing Authority Incorrectly Paid the City’s Street
                  Lighting Costs and Improperly Wrote-off a Receivable, Orange, NJ,
                  09/20/2006. Questioned: $156,409; Better Use: $20,164.
2006-NY-1012      The Housing Authority of the City of Passaic Has Allegations of
                  Mismanagement That Need to be Addressed, Passaic, NJ, 09/22/2006.
                  Questioned: $3,395,901; Unsupported: $1,404,813; Better Use:
                  $6,547,788.



Audit Reports Issued                                                                     151
      2006-PH-1010      The Housing Authority of the County of Butler Needed to Improve
                        Administration of its Section 8 Housing Choice Voucher Program,
                        Butler, PA, 04/20/2006. Questioned: $229,961; Unsupported: $229,460;
                        Better Use: $77,587.
      2006-PH-1011      The Hampton Redevelopment and Housing Authority Did Not Always
                        Follow HUD Requirements, Hampton, VA, 07/12/2006. Questioned:
                        $211,664; Unsupported: $144,707; Better Use: $169,962.
      2006-PH-1014      The Housing Authority of the City of McKeesport Needed to Improve
                        its Low-Rent Housing Maintenance Program, McKeesport, PA,
                        09/25/2006. Questioned: $90,119; Better Use: $1,886,372.
      2006-SE-1004      The Housing Authority of the City of Bremerton Inaccurately Reported
                        its 2005 Section 8 Management Assessment Program Results,
                        Bremerton, WA, 06/21/2006.
      2006-SE-1005      King County Housing Authority Section 8 Program Meets HUD
                        Requirements, Tukwila, WA, 09/18/2006.


      Audit-Related Memoranda
      Housing (1 Report)
      2006-NY-1801      Section 8 Housing Choice Voucher Program, Rochester Housing
                        Authority, Rochester, NY, 05/19/2006.




152                                                                      Audit Reports Issued
Appendix 2
  T ables
                                          Table A
              Audit Repor ts Issued Prior to Star
                    Reports                  Startt of Period with No Management
                                                                      Manag
                                Decision at September 30, 2006
                * Significant Audit Reports Described in Previous Semiannual Reports
      Report Number              Reason for Lack of                          Issue Date/Target
      & Title                    Management Decision                          for Management
                                                                                     Decision




                                       Nothing to Repor
                                       Nothing    Reportt




154                                                                                    Tables
                                      Table B
  Significant Audit Repor
  Significant             ts Described in Pr
                    Reports               Preevious Semiannual Repor ts in W
                                                               Reports       hic
                                                                           Whic h FFinal
                                                                             hich   inal
               Action Had Not Been Completed as of September 30, 2006
Report                 Report Title               Issue        Decision         Final
Number                                            Date         Date             Action

1997-NY-1002    Montgomery County                03/14/1997     07/23/1997    12/31/2006
                Community Development
                Program, Fonda, NY
1997-CH-1010    Major Mortgage Corporation,      09/17/1997     01/06/1998    10/15/2006
                Section 203(K) Rehabilitation
                Home Mortgage Insurance
                Program, Livonia, MI
2000-KC-0002    Housing Subsidy Payments         09/29/2000     02/21/2001    12/31/2006
2001-FO-0002    FHA Audit of FY 2000             03/01/2001     07/24/2001    12/21/2006
                Financial Statements
2001-FO-0003    Audit of HUD FY 2000             03/01/2001     07/18/2001    12/31/2006
                Financial Statements
2001-CH-1007    Detroit Housing Commission,      05/16/2001     09/13/2001    06/30/2011
                Hope VI Program, Detroit, MI
2001-FW-1005    Supportive Housing Program,      08/27/2001     12/21/2001    08/03/2007
                Harmony House, Inc.,
                Harrison, AR
2002-SF-0001    Nonprofit Participation, HUD     11/05/2001     08/30/2002    10/15/2006
                Single-Family Program
2002-FO-0002    FHA, FY 2001 and 2000            02/22/2002     05/30/2002    12/31/2006
                Financial Statements
2002-FO-0003    HUD Financial Statements         02/27/2002     08/16/2002    11/15/2006
                FY 2001 and 2000
2002-BO-1003    Newport, Resident Council,       04/30/2002     09/16/2002    01/15/2008
                Inc., Newport, RI
2002-KC-0002    Nationwide Survey of HUD’s       07/31/2002     11/22/2002    03/31/2008
                Office of Housing Section 232
                Nursing Home Program
2002-FW-1003    New Mexico Public Interest       09/30/2002     03/31/2003    Note 1
                Education Fund, Outreach and
                Training Assistance Grant and
                Public Entity Grant,
                Albuquerque, NM
2002-PH-1005    Philadelphia Regional Alliance 09/30/2002       03/31/2003    03/29/2007
                of HUD Tenants, Outreach and
                Training Assistance Grant and
                Intermediary Technical Assistance
                Grant, Philadelphia, PA


Tables                                                                                     155
      Report                Report Title               Issue       Decision      Final
      Number                                           Date        Date          Action

      2002-PH-1007   Legal Aid Bureau, Inc.,          09/30/2002   03/31/2003   Note 1
                     Outreach and Training
                     Assistance Grant Number
                     FFOT98012MD, Baltimore, MD
      2002-SF-1006   Legal Aid Society of Honolulu,   09/30/2002   03/31/2003   03/29/2007
                     HI, Outreach and Training
                     Assistance Grant
      2003-SE-1002   Tenants Union, Outreach and      12/02/2002   03/31/2003   03/29/2007
                     Training Assistance Grant and
                     Intermediary Training Assistance
                     Grant, Seattle, WA
      2003-AT-1001   Northwestern Regional Housing 01/09/2003      06/02/2003   04/01/2007
                     Authority, Public Housing
                     Programs, Boone, NC
      2003-FO-0002   FHA, FY 2002 and 2001            01/21/2003   05/22/2003   12/31/2006
                     Financial Statements
      2003-FW-1001   Low-Rent Program, Housing        02/21/2003   06/20/2003   12/31/2006
                     Authority of the City of
                     Morgan City, LA
      2003-CH-1014   Coshocton Metropolitan           03/28/2003   07/28/2003   04/30/2047
                     Housing Authority, Public
                     Housing Program,
                     Coshocton, OH
      2003-DE-0001   HUD Office of Multifamily        03/31/2003   03/31/2003   Note 1
                     Housing Assistance
                     Restructuring’s Oversight of
                     the Sec 514 Program Activities
      2003-CH-1017   Housing Continuum, Inc.,         06/13/2003   10/10/2003   Note 1
                     Homebuyers Assistance
                     Program, Geneva, IL
      2003-NY-1005   Empire State Development       09/30/2003     01/28/2004   03/31/2007
                     Corporation, CDBG Disaster
                     Assistance Funds, New York, NY
      2004-BO-1002   Family Living Adult Care       11/04/2003     03/04/2004   04/01/2007
                     Center, Biddeford and Saco, ME
      2004-KC-1001   East Meyer Community             11/24/2003   03/29/2004   06/30/2007
                     Association, Kansas City, MO
      2004-CH-1001   Kankakee County Housing          11/26/2003   03/24/2004   10/31/2006
                     Authority, Section 8 Housing
                     Program, Kankakee, IL




156                                                                                  Tables
Report                Report Title             Issue        Decision      Final
Number                                         Date         Date          Action

2004-DP-0001   FY 2003 Review of Information 12/01/2003     05/28/2004   12/31/2006
               Systems Controls in Support
               of the Financial Statements Audit
2004-BO-1004   Danbury Housing Authority       12/05/2003   04/05/2004   12/01/2008
               Capital Fund Program,
               Boston, MA
2004-FO-0003   HUD Financial Statements        12/19/2003   07/20/2004   10/15/2007
               FY 2003 and 2002
2004-AT-0001   Public Housing Agency           01/13/2004   05/20/2004   04/01/2007
               Development Activities
2004-AT-1001   Housing Authority of the        01/15/2004   05/14/2004   12/31/2006
               City of Cuthbert, GA,
2004-AO-0001   Award and Administration of     02/06/2004   06/30/2004   08/01/2007
               Lead-Based Paint Hazard
               Reduction Grants
2004-DP-0002   Application Control Review of   02/25/2004   07/14/2004   01/30/2008
               the Tenant Rental Assistance
               Certification System
2004-FW-1003   City of New Orleans Section     03/15/2004   09/07/2004   Note 2
               108 Loan Program, Jazzland
               Theme Park, New Orleans, LA
2004-LA-1003   Homewide Lending                05/19/2004   09/01/2004   10/15/2006
               Corporation, Nonsupervised
               Mortgagee, Los Angeles, CA
2004-PH-1008   Safe Haven Outreach Ministry,   06/03/2004   08/31/2004   Note 2
               Inc., Washington, DC
2004-FW-1007   City of New Orleans Desire      06/22/2004   09/20/2004   Note 2
               Community Housing
               Corporation, New Orleans, LA
2004-AT-0002   Effectiveness of the            07/12/2004   12/13/2004   12/31/2006
               Departmental Enforcement
               Center
2004-AT-1012   Housing Authority of the City   08/02/2004   11/29/2004   12/31/2020
               of Durham, NC
2004-CH-1803   Somerset Point Nursing Home,    08/09/2004   08/09/2004   12/31/2007
               Multifamily Equity Skimming,
               Shaker Heights, OH
2004-CH-1008   Cornerstone Mortgage Group,     09/10/2004   01/05/2005   12/31/2006
               Limited Nonsupervised Loan
               Correspondent, Inverness, IL




Tables                                                                                157
      Report                Report Title                  Issue        Decision      Final
      Number                                              Date         Date          Action

      2004-PH-1012   Mortgage America Bankers, LLC, 09/10/2004         01/06/2005   03/31/2007
                     Nonsupervised Loan
                     Correspondent, Kensington, MD
      2004-FW-1009   Mays Property Management, Inc., 09/17/2004        02/23/2005   02/23/2007
                     Multifamily Management Agent,
                     Little Rock, AR
      2004-LA-1008   United States Veterans Initiative,   09/27/2004   03/31/2005   04/15/2013
                     Inc., Inglewood, CA
      2004-DE-1004   New Freedom Mortgage                 09/29/2004   01/28/2005   Note 2
                     Corporation, Single-Family
                     Direct Endorsement Mortgagee,
                     Salt Lake City, UT
      2005-DP-0001   FY 2004 Review of Information        10/19/2004   02/16/2005   01/15/2007
                     Systems Controls in Support of
                     the Financial Statements Audit
      2005-SE-1001   Tulalip Tribes Housing               10/21/2004   02/02/2005   10/31/2006
                     Authority Cannot Account for
                     Grant Funds, Marysville, WA
      2005-CH-1001   Prestige Mortgage Group, Inc.,       10/27/2004   10/29/2004   10/29/2006
                     Non-Supervised Loan
                     Correspondent, Springfield, OH
      2005-FW-1801   Highland Meadows Apartments, 11/02/2004           02/24/2005   02/28/2007
                     Dallas, TX
      2005-LA-1801   The Carmichael Rehabilitation        11/04/2004   01/27/2005   Note 2
                     Center, Carmichael, CA
      2005-FW-1001   City of New Orleans, Section 108 11/05/2004       03/02/2005   Note 2
                     Program, Louisiana ArtWorks,
                     New Orleans, LA
      2005-FO-0002   FHA’s Financial Statements for       11/15/2004   11/15/2004   12/31/2006
                     FY 2004 and 2003
      2005-AT-1004   Housing Authority of the City        11/19/2004   03/15/2005   03/15/2015
                     of Durham, NC
      2005-CH-1003   Royal Oak Township Housing           11/29/2004   03/29/2005   10/31/2006
                     Commission, Public Housing
                     Program, Ferndale, MI
      2005-PH-1004   Corrective Action Verification    12/21/2004      04/20/2005   04/30/2007
                     Review of the Housing Authority
                     of Baltimore, MD, Section 8
                     Certificate and Voucher Programs,
                     Audit Report No. 2001-PH-1003




158                                                                                      Tables
Report                Report Title                Issue         Decision      Final
Number                                            Date          Date          Action

2005-CH-1004   Lakewood Care Center,              12/22/2004    10/07/2005   12/31/2006
               Multifamily Equity Skimming,
               Milwaukee, WI
2005-CH-1801   RVA Properties Inc., Multifamily 12/22/2004      12/26/2004   06/29/2007
               Equity Skimming, Farmington, MI
2005-CH-1005   Wood Hills Assisted Living         01/12/2005    10/07/2005   12/31/2006
               Facility, Multifamily Equity
               Skimming, Kalamazoo, MI
2005-AT-1005   Pan American Financial             01/27/2005    05/17/2005   05/31/2007
               Corporation, Nonsupervised
               Direct Endorsement Lender,
               Guaynabo, PR
2005-FW-1004   American Property Financial,   01/28/2005        05/27/2005   05/31/2007
               Nonsupervised Loan
               Correspondent, San Antonio, TX
2005-SE-1003   Oregon Housing and                 02/09/2005    05/27/2005   05/01/2008
               Community Services, Salem, OR
2005-FW-1005   New Orleans African-American 02/25/2005          05/12/2005   Note 2
               Museum Mismanaged its CDBG
               and Did Not Comply with its
               Grant Agreements, New Orleans, LA
2005-PH-1007   Lehigh County Housing               03/09/2005   05/02/2005   01/30/2017
               Authority Could Not Support
               All Costs and Used HUD Funds
               to Support its Nonfederal Entities,
               Emmaus, PA
2005-LA-1002   Housing Authority of Maricopa      03/14/2005    07/11/2005   08/31/2007
               County, Mixed Finance
               Development Activities,
               Phoenix, AZ
2005-AT-1007   Interstate Financial Mortgage  03/15/2005        08/04/2005   01/31/2007
               Group Corporation, Nonsupervised
               Direct Endorsement Lender,
               Miami, FL
2005-PH-1008   The Housing Authority of the       03/24/2005    07/13/2005   12/31/2006
               City of Pittsburgh Did Not
               Effectively Implement its MTW
               Demonstration Program,
               Pittsburgh, PA
2005-PH-0001   Criteria Governing Local           03/29/2005    07/27/2005   01/02/2007
               Government Participation in
               HUD’s Single-Family Property
               Disposition Discount Sales
               Program


Tables                                                                                    159
      Report                Report Title                 Issue        Decision      Final
      Number                                             Date         Date          Action

      2005-FW-1008   City of New Orleans Did Not         04/08/2005   05/26/2005   Note 2
                     Contribute Approximately $3.6
                     Million in HOME Funds,
                     New Orleans, LA
      2005-PH-1009   Richmond Redevelopment and     04/08/2005        07/28/2005   10/31/2006
                     Housing Authority Did Not
                     Always Properly Use HUD Funds,
                     Richmond, VA
      2005-BO-1003   Milford Housing Authority,          04/25/2005   10/07/2005   11/19/2006
                     Selected Programs, Milford, CT
      2005-DE-1004   Aspen Home Loans, American          05/06/2005   08/31/2005   08/31/2007
                     Fork, UT
      2005-DE-0001   HUD’s Control Over FHA Claims 05/12/2005         09/09/2005   01/31/2007
                     Payments
      2005-LA-1003   First Source Financial USA,         05/12/2005   09/08/2005   05/31/2007
                     Henderson, WV
      2005-FW-1010   Broad Street Mortgage Company, 05/26/2005        07/13/2006   07/16/2007
                     Subsidiary of Fieldstone Mortgage
                     Company, San Antonio, TX
      2005-NY-1005   The Housing Authority of the     05/26/2005      09/23/2005   12/31/2006
                     City of Newark, Bond Financing
                     Activities and Section 8 Housing
                     Choice Voucher Administrative Fee
                     Reserves, Newark, NJ
      2005-PH-1012   The Lycoming County Housing         06/06/2005   07/12/2005   11/30/2006
                     Authority Risked HUD Assets
                     for the Benefit of Its Affiliated
                     Nonfederal Entity,
                     Williamsport, PA
      2005-LA-1006   Maricopa Home Consortium            07/28/2005   11/22/2005   08/31/2007
                     Home Program, Mesa, AZ
      2005-BO-1004   Housing Choice Voucher and       07/29/2005      11/25/2005   11/25/2006
                     Low-Income Public Housing
                     Program Deficiencies at the
                     Bridgeport Housing Authority
                     Resulted in $3.8 Million in
                     Questioned Costs, Bridgeport, CT
      2005-PH-1013   Review of the Commonwealth      07/29/2005       11/22/2005   11/21/2006
                     of Pennsylvania’s HOME
                     Investment Partnership Program,
                     Harrisburg, PA




160                                                                                     Tables
Report                Report Title              Issue        Decision      Final
Number                                          Date         Date          Action

2005-PH-1014   Review of the McKeesport        07/29/2005    11/21/2005   11/01/2006
               Housing Authority’s Section 8
               and Public Housing Programs,
               McKeesport, PA
2005-CH-1012   Savanna Trace Apartments,       08/04/2005    12/28/2005   12/28/2006
               Multifamily Equity Skimming,
               Kalamazoo, MI
2005-CH-1013   Ivan Woods Senior Apartments,   08/05/2005    12/28/2005   12/28/2006
               Multifamily Equity Skimming,
               Lansing, MI
2005-LA-1007   KB Home Mortgage Company,       08/12/2005    12/09/2005   12/31/2006
               Las Vegas, NV
2005-BO-1006   The Hartford Housing Authority 09/06/2005     01/03/2005   01/03/2007
               Improperly Used $3.7 Million
               in Public Housing Operating
               Subsidies for its State and Other
               Federal Programs, Hartford, CT
2005-LA-0001   Single-Family Preforeclosure    09/13/2005    01/10/2006   01/31/2007
               Sale Program
2005-AT-1013   Corporacion Para el Fomento      09/15/2005   01/11/2006   11/30/2006
               Economico de la Ciudad Capital
               Did Not Administer its Independent
               Capital Fund in Accordance with
               HUD Requirements, San Juan, PR
2005-AT-1014   National City Mortgage          09/15/2005    11/14/2005   10/31/2006
               Company Did Not Comply
               with FHA Requirements,
               Miamisburg, OH
2005-NY-1007   Security Atlantic Mortgage      09/16/2005    01/13/2006   01/31/2007
               Company, Inc. Did Not Always
               Comply with HUD/FHA Loan
               Origination Requirements,
               Edison, NJ
2005-SE-1007   City Bank, Puyallup, WA         09/16/2005    12/20/2005   12/20/2006
2005-SE-1008   Idaho Housing and Finance       09/16/2005    03/31/2006   11/01/2006
               Association, Boise, ID
2005-CH-1017   Flint Housing Commission,       09/23/2005    01/20/2006   01/20/2016
               Section 8 Housing Program,
               Flint, MI
2005-LA-1010   First Magnus Financial          09/23/2005    01/19/2006   01/19/2007
               Corporation, Las Vegas, NV




Tables                                                                                 161
      Report                Report Title               Issue        Decision      Final
      Number                                           Date         Date          Action

      2005-BO-1007   Fairfield Financial Mortgage  09/26/2005       01/20/2006   01/19/2007
                     Group, Inc., Did Not Always
                     Comply with FHA Requirements,
                     Danbury, CT
      2005-LA-1011   KB Home Mortgage Company      09/26/2005       01/23/2006   01/15/2007
                     Did Not Follow HUD
                     Requirements When Originating
                     Insured Loans, Phoenix, AZ
      2005-FW-1018   The Housing Authority of the     09/27/2005    01/24/2006   01/24/2007
                     City of Houston Violated HUD
                     Regulations Concerning Section 8
                     Housing Choice Voucher Tenants
                     and Units, Houston, TX
      2005-NY-1008   Lower Manhattan Development       09/27/2005   08/22/2006   12/31/2006
                     Corporation, CDBG Program
                     Disaster Assistance Fund,
                     New York, NY
      2005-NY-1009   Golden First Mortgage             09/28/2005   01/20/2006   01/20/2007
                     Corporation, Nonsupervised
                     Direct Endorsement Lender,
                     Great Neck, NY
      2005-AT-1015   The Municipality of San Juan      09/29/2005   01/12/2006   12/29/2006
                     Housing Authority Did Not
                     Properly Administer Its Section 8
                     Housing Choice Voucher Program,
                     San Juan, PR
      2005-CH-1020   Housing Authority of the City     09/29/2005   01/25/1006   12/31/2052
                     of Gary, Section 8 Housing
                     Program, Gary, IN
      2005-BO-0002   HUD Did Not Conduct a             09/30/2005   12/20/2005   04/01/2007
                     Front-End Risk Assessment
                     and, Therefore, Fully Implement
                     Controls for the Public Housing
                     Mortgages and Security Interest
                     Program
      2005-KC-1009   Washington Mutual Bank Did        09/30/2005   01/11/2006   01/11/2007
                     Not Follow HUD Regulations
                     When Underwriting Six Loans,
                     Seattle, WA
      2006-PH-1001   The Alexandria Redevelopment 10/04/2005        12/01/2005   10/04/2006
                     and Housing Authority Improperly
                     Used Section 8 Funds to Support
                     its Other Programs, Alexandria, VA




162                                                                                   Tables
Report                Report Title               Issue        Decision     Final
Number                                           Date         Date         Action

2006-BO-1001   The Division of Grants           10/27/2005    02/02/2006   02/02/2007
               Management, City of Hartford,
               Paid $1,039,296 for Ineligible
               CDBG Activities and Failed to
               Return Income to the Program,
               Hartford, CT
2006-PH-1002   The Suffolk Redevelopment     10/17/2005       02/08/2006   01/02/2007
               and Housing Authority Did Not
               Always Follow HUD Requirements
               in its Section 8 and Low-Rent
               Programs, Suffolk, VA
2006-DP-0002   Security Configuration of FHA    10/31/2005    03/30/2006   02/28/2007
               Unix Operating System
2006-LA-1001   Ryland Mortgage Company Did 10/31/2005         07/13/2006   07/16/2007
               Not Follow HUD Requirements
               in the Origination of Insured
               Loans, Tempe, AZ
2006-FO-0002   FHA Financial Statements for     11/07/2005    02/15/2006   10/16/2006
               FY 2005 and 2004
2006-FO-0003   Additional Details to Supplement 11/15/2005    02/02/2006   10/01/2006
               Our Reports on HUD’s FY 2005
               and 2004 Financial Statements
2006-BO-1002   Review of Worcester Housing       11/29/2005   02/10/2006   11/29/2006
               Authority Identified $1.9 million
               of Its Public Housing Operating
               Funds Used for Non-Program
               Purposes, Worcester, MA
2006-CH-0001   Real Estate Assessment Center’s 11/30/2005     01/10/2006   12/31/2006
               Physical Condition Assessment
               Was Compromised
2006-KC-1001   The Columbia Housing Authority 11/30/2005      03/27/2006   11/30/2016
               Is Unnecessarily Paying Housing
               Choice Voucher Program Funds
               for Overhoused Tenants, Columbia, MO
2006-PH-1003   The Franklin Redevelopment       11/30/2005    03/28/2006   03/31/2007
               and Housing Authority Did Not
               Adequately Administer Its Section
               8 Program, Franklin, VA
2006-PH-1004   Homestead Funding Corp. Issued 12/02/2005      03/30/2006   11/30/2006
               and Submitted for Endorsement
               Loans with an Increased Risk of
               Defaults and Claims, Allentown, PA




Tables                                                                                  163
      Report                Report Title              Issue        Decision      Final
      Number                                          Date         Date          Action

      2006-LA-1003   The Owners of The Avenue         12/07/2005   02/08/2006   02/07/2007
                     Misused More Than $32,000 in
                     Project Funds, San Francisco, CA
      2006-PH-0001   HUD Did Not Properly Award      12/07/2005    08/25/2006   10/30/2006
                     FY 2004 Healthy Homes and
                     Lead Hazard Control Grants
      2006-KC-1002   First Magnus Financial          12/12/2005    04/06/2006   03/31/2007
                     Corporation Did Not Follow
                     HUD Regulations When
                     Underwriting 23 FHA Loans,
                     Overland Park, KS
      2006-FW-1002   Baytown Housing Authority       12/13/2005    04/07/2006   10/31/2006
                     Improperly Advanced,
                     Transferred, and Encumbered
                     Its Public Housing Funds,
                     Baytown, TX
      2006-DE-1001   First Magnus Financial          12/20/2005    04/06/2006   03/31/2007
                     Corporation Did Not Follow
                     HUD Requirements in
                     Underwriting 31 Insured
                     Loans, Denver, CO
      2006-FW-1003   Palacios Housing Authority Did 12/22/2005     04/03/2006   11/30/2006
                     Not Fully Comply with HUD’s
                     Standards, Palacios, TX
      2006-CH-1005   Fairfield Metropolitan Housing 12/30/2005     04/28/2006   12/31/2006
                     Authority Used Annual
                     Contributions Contract Funds
                     for Development Activities Outside
                     Its Annual Contributions Contract,
                     Lancaster, OH
      2006-CH-1006   Northstar Community              12/30/2005   05/25/2006   10/30/2006
                     Development Corporation
                     Inappropriately Used More Than
                     $120,000 in Economic Development
                     Initiative-Special Purpose Grant
                     Funds and HUD’s Interest in More
                     Than $180,000 in Grant Funds Was
                     Not Secured, Detroit, MI
      2006-PH-1005   The Housing Authority of the     01/10/2006   04/28/2006   05/01/2007
                     County of Butler Used HUD
                     Assets Improperly to Develop and
                     Support Its Nonfederal Entities,
                     Butler, PA




164                                                                                  Tables
Report                Report Title               Issue        Decision      Final
Number                                           Date         Date          Action

2006-AT-1002   The Housing Authority of the      01/11/2006   05/11/2006   03/31/2007
               City of Prichard’s Controls over
               the Sale of Affordable Housing
               Units, Use of Sales Proceeds, and
               Expenditure of Low-Income Funds
               Were Inadequate, Prichard, AL
2006-AT-1003   Certified Home Loans of Florida 01/12/2006     04/03/2006   03/31/2007
               Did Not Always Comply with
               FHA Requirements, Miami, FL
2006-AT-1004   The Housing Authority of the     01/13/2006    04/25/2006   12/31/2008
               City of Prichard Did Not Ensure
               Section 8 Subsidy Payments Were
               for Eligible Units, Tenants, and
               Landlords, Prichard, AL
2006-KC-1004   Major Mortgage Improperly        01/20/2006    05/08/2006   03/31/2007
               Submitted Late Requests for
               Endorsement of FHA Loans,
               Cheyenne, WY
2006-FW-1004   K Hovnanian American            01/26/2006     05/25/2006   01/26/2007
               Mortgage, LLC, Violated
               Underwriting Requirements
               and Did Not Meet All Quality
               Control or Branch Requirements,
               Plano, TX
2006-SE-1001   Idaho Housing and Finance       01/26/2006     05/23/2006   12/31/2008
               Association Did Not Monitor
               Subsidized Multifamily Projects
               in Accordance with Regulations or
               its Annual Contributions Contract
               with HUD, Boise, ID
2006-DP-0003   Vulnerability Assessment of      01/31/2006    04/19/2006   06/30/2008
               HUD’s Computer Network
2006-KC-1005   Matrix Financial Services        01/31/2006    05/11/2006   05/31/2007
               Corporation’s St. Louis Branch
               Did Not Properly Underwrite
               and/or Close 40 FHA Loans,
               St. Louis, MO
2006-NY-1002   WomenRising, Inc., Did Not       01/31/2006    05/11/2006   04/30/2007
               Always Comply with HUD’s
               Supportive Housing Program,
               Jersey City, NJ




Tables                                                                                  165
      Report                Report Title              Issue        Decision      Final
      Number                                          Date         Date          Action

      2006-NY-1003   The Housing Authority of the     02/14/2006   08/17/2006   12/31/2008
                     City of Newark’s Controls Over
                     Bond Financing Activities, Obtaining
                     Supporting Documentation, and
                     Legal Settlements Require Improvement,
                     Newark, NJ
      2006-PH-1007   The Loan Origination Process    02/15/2006    06/15/2006   02/15/2007
                     and Quality Control Plan of
                     American Mortgage, Inc., Did
                     Not Comply with HUD Regulations
                     and Requirements, Cherry Hill, NJ
      2006-NY-1004   Mount Vernon Urban Renewal 02/16/2006         06/23/2006   06/20/2007
                     Agency, Section 8 Housing Choice
                     Voucher Program Has Administrative
                     and Financial Management
                     Weaknesses, Mount Vernon, NY
      2006-NY-1005   Utica Municipal Housing          02/21/2006   06/22/2006   01/02/2007
                     Authority, Operational and
                     Administrative Weaknesses Have
                     Resulted in Unsupported and
                     Ineligible Expenditures, Utica, NY
      2006-AT-1006   The Municipality of San Juan     02/23/2006   05/15/2006   01/30/2007
                     Housing Authority Did Not
                     Ensure Section 8 Assisted Units
                     Were Decent, Safe, and Sanitary,
                     San Juan, PR
      2006-SE-1002   Northeast Washington Housing 02/27/2006       06/16/2006   10/31/2006
                     Solutions Improperly Administered
                     Housing Choice Vouchers,
                     Spokane, WA
      2006-LA-1008   Housing Authority of the City    03/01/2006   03/24/2006   10/30/2006
                     of Los Angeles Did Not
                     Adequately Administer and
                     Maintain Its Section 8 Waiting
                     List, Los Angeles, CA
      2006-BO-1004   Mount Saint Francis Health       03/03/2006   05/19/2006   08/08/2007
                     Center, Providence, RI
      2006-LA-1009   Fontana Native American          03/03/2006   03/17/2006   03/17/2007
                     Indian Center Did Not
                     Adequately Administer Its
                     Supportive Housing Program
                     Grant, Fontana, CA




166                                                                                  Tables
Report               Report Title               Issue        Decision      Final
Number                                          Date         Date          Action

2006-LA-1010   The Owner and Agent of           03/03/2006   06/23/2006   12/31/2006
               Holiday Apartments, LA PRO 30,
               and Two Worlds II Mismanaged
               Project Finances and Operations,
               Los Angeles, CA
2006-BO-1005   Hartford Housing Authority       03/10/2006   07/07/2006   10/31/2006
               Had Housing Choice Voucher
               Program Deficiencies Resulting in
               More Than $2.6 Million in Costs
               Exceptions, Hartford, CT
2006-CH-1007   Huntington National Bank,     03/15/2006      09/18/2006   08/10/2008
               Supervised Lender, Generally
               Complied with Requirements
               Regarding Submission of Late
               Requests for Endorsement and
               Underwriting of Loans, Columbus, OH
2006-KC-1007   American Lending Group Did       03/15/2006   06/08/2006   05/31/2007
               Not Properly Originate 9 Loans
               and Did Not Have Adequate Quality
               Control Procedures, St. Peters, MO
2006-PH-1008   1st Preference Mortgage         03/23/2006    05/11/2006   04/30/2007
               Corporation, York, PA, and
               Greenbelt, MD, Did Not
               Originate All FHA Loans in
               Accordance with HUD
               Requirements, York, PA
2006-PH-1009   The Housing Authority of the    03/23/2006    05/24/2006   03/23/2007
               City of Annapolis Did Not
               Adequately Administer Its Section
               8 Waiting List, Annapolis, MD
2006-BO-1006   Coventry Health Center,         03/28/2006    05/19/2006   08/31/2008
               Providence, RI
2006-FW-1006   America’s Mortgage Resource, 03/28/2006       07/14/2006   10/31/2007
               Inc., Branch Manager Formed
               an Identity-of-Interest Entity
               That Provided Gift Funds; and
               Did Not Always Meet HUD Loan
               Origination and Quality Control Plan
               Requirements, Metairie, LA
2006-AT-1007   The Housing Authority of the    03/30/2006    07/20/2006   07/31/2011
               City of Winston-Salem Used
               More Than $4.9 Million in
               Operating Subsidies for Other
               Programs, Winston-Salem, NC




Tables                                                                                 167
      Report                 Report Title              Issue       Decision         Final
      Number                                           Date        Date             Action

      2006-CH-1008    US Bank NA, Supervised        03/31/2006      09/18/2006     08/14/2008
                      Lender, Did Not Always
                      Comply with HUD’s
                      Requirements Regarding Late
                      Requests for Endorsements and
                      Underwriting of Loans,
                      Minneapolis, MN
      2006-FW-1007    BSM Financial LP Originated    03/31/2006     08/18/2006     10/01/2007
                      Loans on Overvalued Properties
                      to Less Than Creditworthy
                      Borrowers, Putting Borrowers
                      and HUD at Risk, Allen, TX




        REPORTS EXCLUDED FROM TABLE:               NOTES:
        35 audits under repayment plans            1   Management did not meet the
                                                       target date. Target date is over
        32 audits under formal judicial review,
        investigation, or legislative solution         1 year old.
                                                   2   Management did not meet the
                                                       target date. Target date is
                                                       under 1 year old.
                                                   3   No Management decision.




168                                                                                       Tables
                                             Table C
              Inspector General Issued Repor
                                       Reportt with Questioned and Unsuppor ted
                                                                   Unsupported
                                 Costs at September 30, 2006
                                             (Thousands)
Report s                                  Number of             Questioned               Unsupported
                                          Audit Reports         Costs                    Costs

A1     For which no management                 39                46,020                    16,682
       decision had been made by the
       commencement of the reporting
       period
A2     For which litigation, legislation,      10                19,113                    9,667
       or investigation was pending at
       the commencement of the
       reporting period
A3     For which additional costs were          -                1,665                     9
       added to reports in beginning
       inventory
A4     For which costs were added to           0                 0                         0
       noncost reports
B1     Which were issued during the            63                66,374                    34,207
       reporting period
B2     Which were reopened during the          0                 0                         0
       reporting period

               Subtotals (A + B)               112               133,172                   60,565

C      For which a management                  531               39,450                    9,520
       decision was made during the
       reporting period
       (1) Dollar value of disallowed costs
             Due HUD                           252               11,752                    3,366
             Due program participants          37                22,528                    5,180
       (2) Dollar value of costs not           153               5,170                     974
           disallowed
D      For which management decision           12                30,312                    18,652
       had been made not to determine
       costs until completion of litigation,
       legislation, or investigation
E      For which no management                 47                63,410                    32,393
       decision had been made by               <111>4            <61,724>4                 <32,392>4
       the end of the reporting period

1
    39 audit reports also contain recommendations with funds to be put to better use.
2
    9 audit reports also contain recommendations with funds due program participants.
3
    15 audit reports also contain recommendations with funds agreed to by management.
4
    The figures in brackets represent data at the recommendation level as compared to the report level.
    See Explanations of Tables C and D.




Tables                                                                                                    169
                                                Table D
                 Inspector General Issued Repor
                                          Reportt with Recommendations T hat Funds Be
                                                                       That
                               Put to Better Use at September 30, 2006
                                                  (Thousands)
      Report s                                                     Number of              Dollar Value
                                                                   Audit Reports

      A1     For which no management decision had been                  36                    170,441
             made by the commencement of the reporting
             period
      A2     For which litigation, legislation, or investigation        7                     105,692
             was pending at the commencement of the
             reporting period
      A3     For which additional costs were added to reports           -                        1,243
             in beginning inventory
      A4     For which costs were added to noncost reports              2                       35,550
      B1     Which were issued during the reporting period              48                     286,094
      B2     Which were reopened during the reporting period            0                            0

                                     Subtotals (A + B)                  93                    599,020

      C      For which a management decision was made                   49 1                  210,642
             during the reporting period
             (1) Dollar value of recommendations that were
                  agreed to by management
                    Due HUD                                             222                   127,139
                    Due program participants                            28                     45,089
             (2) Dollar value of recommendations that were              163                    38,414
                  not agreed to by management
      D      For which management decision had been made                10                     117,298
             not to determine costs until completion of
             litigation, legislation, or investigation
      E      For which no management decision had been                  34                     271,080
             made by the end of the reporting period

      1
          39 audit reports also contain recommendations with questioned costs.
      2
          3 audit reports also contain recommendations with funds due program participants.
      3
          14 audit reports also contain recommendations with funds agreed to by management.




170                                                                                            Tables
Explanations of Tables C and D
     The Inspector General Act Amendments of 1988 require Inspectors General and agency
heads to report cost data on management decisions and final actions on audit reports. The
current method of reporting at the “report” level rather than at the individual audit
“recommendation” level results in misleading reporting of cost data. Under the Act, an
audit “report” does not have a management decision or final action until all questioned
cost items or other recommendations have a management decision or final action. Under
these circumstances, the use of the “report” based rather than the “recommendation”
based method of reporting distorts the actual agency efforts to resolve and complete action
on audit recommendations. For example, certain cost items or recommendations could
have a management decision and repayment (final action) in a short period of time. Other
cost items or nonmonetary recommendation issues in the same audit report may be more
complex, requiring a longer period of time for management’s decision or final action.
Although management may have taken timely action on all but one of many
recommendations in an audit report, the current “all or nothing” reporting format does
not take recognition of their efforts.

    The closing inventory for items with no management decision on Tables C and D
(Line E) reflects figures at the report level as well as the recommendation level.




Tables                                                                                        171
Appendix 3
  Inde
  Indexx
                                       Index
                                       Index
      State                  Page Numbers

      Alabama                68, 113, 128
      Arizona                14, 18, 69, 70, 132, 133
      Arkansas               84, 93
      California             14, 17, 20, 21, 26, 29, 30, 54, 57, 58, 59, 60, 61, 62, 63, 64,
                             66, 68, 70, 77, 81, 82, 88, 89, 106, 119, 124, 127, 128, 129,
                             130, 131, 132, 133
      Colorado               14, 17, 19, 24, 124, 127, 128, 130, 131
      Connecticut            52, 54, 71, 72, 78, 125
      District of Columbia   11, 26, 71, 104, 130
      Florida                36, 40, 54, 55, 61, 62, 63, 65, 66, 68, 69, 80, 95, 113, 128,
                             132, 133
      Georgia                22, 26, 42, 53, 67, 124, 128
      Illinois               17, 18, 26, 27, 28, 33, 34, 37, 51, 53, 54, 57, 65, 67, 70, 106,
                             125, 127, 129, 130, 135
      Indiana                56, 91, 94, 106, 131, 132, 133, 135
      Kansas                 21, 24, 26, 29, 67, 134
      Kentucky               45
      Louisiana              94, 105, 107, 108, 109, 110, 111
      Maryland               19, 46, 59, 64, 82
      Massachusetts          20, 49, 51, 54, 59, 60, 61, 68, 71, 72, 73, 81, 82, 92, 94, 127,
                             128, 135
      Michigan               14, 27, 29, 35, 40, 41, 50, 58, 59, 126, 131, 135
      Minnesota              53, 62, 68, 70, 124, 126, 132
      Mississippi            107, 111, 112
      Missouri               24, 25, 29, 61, 66, 67, 69, 70, 77, 78, 82, 95, 134
      Montana                14, 53, 66
      Nebraska               41, 43, 44, 66
      Nevada                 22, 42, 59, 63, 70, 133
      New Hampshire          63, 65
      New Jersey             13, 19, 21, 22, 23, 33, 36, 44, 51, 66, 71, 92
      New Mexico             52, 54
      New York               13, 23, 24, 25, 29, 39, 50, 57, 59, 72, 81, 82, 83, 84, 93, 94,
                             95, 130, 132,
      North Carolina         16, 28, 52, 53, 62, 72
      Ohio                   12, 34, 35, 44, 45, 55, 64, 67, 82, 129
      Oklahoma               70, 127
      Oregon                 64, 67
      Pennsylvania           13, 18, 25, 26, 40, 46, 51, 57, 58, 72, 93, 105, 125
      Puerto Rico            36, 51, 86, 87
      Rhode Island           76, 83

174                                                                                      Index
State            Page Numbers

South Carolina   43, 81, 124
South Dakota     133
Tennessee        25, 33, 62, 65, 94, 132
Texas            12, 36, 38, 39, 53, 70, 78, 81, 105, 106, 126, 131, 134
Utah             27, 78, 83,
Vermont          65
Virgin Islands   53
Virginia         23, 24, 27, 43, 60, 63, 93, 126,
Washington       88, 134
Wisconsin        126, 129




Index                                                                      175
HUD OIG Operations
 Telephone Listing
           Listing
      Office of Audit
      Headquarters Office of Audit, Washington, DC                       202-708-0364
      Region 1           Boston, MA                                      617-994-8380
                         Hartford, CT                                    860-240-4800
      Region2            New York, NY                                    212-264-4174
                         Albany, NY                                      518-464-4200
                         Buffalo, NY                                     716-551-5755
                         Newark, NJ                                      973-622-7900
      Region 3           Philadelphia, PA                                215-656-3401
                         Baltimore, MD                                   410-962-2520
                         Pittsburgh, PA                                  412-644-6372
                         Richmond, VA                                    804-771-2100
      Region 4           Atlanta, GA                                     404-331-3369
                         Miami, FL                                       305-536-5387
                         Greensboro, NC                                  336-547-4001
                         Jacksonville, FL                                904-232-1226
                         Knoxville, TN                                   865-545-4369
                         San Juan, PR                                    787-766-5202
      Region 5           Chicago, IL                                     312-353-7832
                         Columbus, OH                                    614-469-5745
                         Detroit, MI                                     313-226-6190
      Region 6           Fort Worth, TX                                  817-978-9309
                         Houston, TX                                     713-718-3199
                         Oklahoma City, OK                               405-609-8606
                         San Antonio, TX                                 210-475-6895
      Regions 7/8        Kansas City, KS                                 913-551-5870
                         St. Louis, MO                                   314-539-6339
                         Denver, CO                                      303-672-5452
      Regions 9/10       Los Angeles, CA                                 213-894-8016
                         Phoenix, AZ                                     602-379-7250
                         San Francisco, CA                               415-489-6400
                         Seattle, WA                                     206-220-5360
      Hurricane Recovery Oversight                                       504-589-7267




178                                                  HUD OIG Operations Telephone Listing
Office of Investi
          Inv    gation
             estig
Headquarters Office of Investigation, Washington, DC   202-708-0390
Region 1            Boston, MA                         617-994-8450
                    Hartford, CT                       860-240-4800
                    Manchester, NH                     603-666-7988
Region 2            New York, NY                       212-264-8062
                    Buffalo, NY                        716-551-5755
                    Newark, NJ                         973-776-7347
Region 3            Philadelphia, PA                   215-656-3410
                    Baltimore, MD                      410-962-4502
                    Pittsburgh, PA                     412-644-6598
                    Richmond, VA                       804-771-2100
Region 4            Atlanta, GA                        404-331-3359
                    Miami, FL                          305-536-3087
                    Greensboro, NC                     336-547-4000
                    Nashville, TN                      615-736-7000
                    San Juan, PR                       787-766-5868
                    Tampa, FL                          813-228-2026
Region 5            Chicago, IL                        312-353-4196
                    Cleveland, OH                      216-522-4421
                    Columbus, OH                       614-469-6677
                    Detroit, MI                        313-226-6280
                    Indianapolis, IN                   317-226-5427
                    Minneapolis-St. Paul, MN           612-370-3130
Region 6            Arlington, TX                      817-652-6980
                    Houston, TX                        713-718-3197
                    Little Rock, AR                    501-324-5409
                    Oklahoma City, OK                  405-609-8601
                    San Antonio, TX                    210-475-6822
Region 7/8          Kansas City, KS                    913-551-5866
                    St. Louis, MO                      314-539-6559
                    Denver, CO                         303-672-5350
                    Billings, MT                       406-247-4080
                    Salt Lake City, UT                 801-524-6090
Region 9/10         Los Angeles, CA                    213-894-0219
                    San Francisco, CA                  415-489-6683
                    Phoenix, AZ                        602-379-7251
                    Sacramento, CA                     916-930-5693
                    Las Vegas, NV                      702-366-2144
                    Seattle, WA                        206-220-5380
Hurricane Recovery Oversight                           202-708-0390




HUD OIG Operations Telephone Listing                                  179
Report fraud, waste, and mismanagement
  in HUD programs and operations by:


    Calling the OIG Hotline: 1-800-347-3735

      Faxing the OIG Hotline: 202-708-4829

       Sending written information to:
   Department of Housing and Urban Development
          Inspector General Hotline (GFI)
                 451 7th Street, SW
              Washington, DC 20410

 Emailing the OIG Hotline: hotline@hudoig.gov

                   Internet:
 http://www.hud.gov/complaints/fraud_waste.cfm



     All information is confidential,
    and you may remain anonymous.
Semiannual Repor
            Reportt to Congress
                       Cong
April 1, 2006, thr ough September 30, 2006
               through

www.hud.g
www.hud.gov/offices/oi
   .hud.go            g
          v/offices/oig




No. 56    HUD-2006-10-OIG
